<html>
<title> - TEA-21 REATHORIZATION: REGIONAL TRANSPORTATION ISSUES</title>
<body><pre>[Senate Hearing 108-309]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 108-309
 
                        TEA-21 REATHORIZATION: 
                     REGIONAL TRANSPORTATION ISSUES
=======================================================================

                             FIELD HEARINGS

                               BEFORE THE

                              COMMITTEE ON
                      ENVIRONMENT AND PUBLIC WORKS
                          UNITED STATES SENATE

                      ONE HUNDRED EIGHTH CONGRESS

                             FIRST SESSION

                                   on

                               __________

                    APRIL 7, 2003--CHICAGO, ILLINOIS
                  AUGUST 11, 2003--BROWNSVILLE, TEXAS
                    AUGUST 14, 2003--MEDFORD, OREGON

                               __________

 Printed for the use of the Senate Committee on Environment and Public 
                                 Works








                   U.S. GOVERNMENT PRINTING OFFICE
91-747                       WASHINGTON : 2004
_______________________________________________________________________
For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800, 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: stop SSOP, Washington, 
DC 20402-0001








               COMMITTEE ON ENVIRONMENT AND PUBLIC WORKS

                      one hundred eighth congress
                             first session

                  JAMES M. INHOFE, Oklahoma, Chairman
JOHN W. WARNER, Virginia             JAMES M. JEFFORDS, Vermont
CHRISTOPHER S. BOND, Missouri        MAX BAUCUS, Montana
GEORGE V. VOINOVICH, Ohio            HARRY REID, Nevada
MICHAEL D. CRAPO, Idaho              BOB GRAHAM, Florida
LINCOLN CHAFEE, Rhode Island         JOSEPH I. LIEBERMAN, Connecticut
JOHN CORNYN, Texaa                   BARBARA BOXER, California
LISA MURKOWSKI, Alaska               RON WYDEN, Oregon
CRAIG THOMAS, Wyoming                THOMAS R. CARPER, Delaware
WAYNE ALLARD, Colorado               HILLARY RODHAM CLINTON, New York

                Andrew Wheeler, Majority Staff Director
                 Ken Connolly, Minority Staff Director

                                  (ii)

















                            C O N T E N T S

                              ----------                              
                                                                   Page

                       APRIL 7, 2003--CHICAGO, IL
           ILLINOIS TRANSPORTATION: CROSSROADS OF THE NATION
                           OPENING STATEMENT

Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...     1

               STATEMENTS OF SENATORS FROM THE HOST STATE

Fitzgerald, Hon. Peter J., U.S. Senator from the State of 
  Illinois.......................................................     3
Durbin, Hon. Richard J., U.S. Senator from the State of Illinois.     3

                               WITNESSES

Blackshere, Margaret, president, Illinois AFL-CIO................    19
    Prepared statement...........................................    42
Bulat, Denise, executive director, Bi-State Regional Commission..    15
    Prepared statement...........................................    34
Castle, Rita L., Issues Analyst, Management Corporation Affairs, 
  Caterpillar, Inc...............................................    23
    Prepared statement...........................................    40
D'Escoto, Miguel, Director, Chicago Department of Transportation.     7
    Prepared statement...........................................    28
Feltes, Richard, chairman, National Stone, Sand and Gravel 
  Association....................................................    22
    Prepared statement...........................................    42
Jones, Hon. Linzey, Mayor, Olympia Fields, President of South 
  Suburban Mayors and Managers Association.......................    19
Lorig, David, president, Lorig Construction Company..............    24
    Prepared statement...........................................    39
Marcucci, Hon. Thomas, Mayor, City of Elmhurst, Representative of 
  CATS (Chicago Area Transportation Study).......................    16
    Prepared statement...........................................    35
Martin, Timothy, Secretary, Illinois Department of Transportation     4
    Prepared statement...........................................    25
Pennekamp, James, executive director, Leadership Council of 
  Southwestern Illinois..........................................    14
    Article, St. Louis Post Dispatch.............................    32
    Prepared statement...........................................    30
Petty, Ryan, president, Rockford Area Chamber of Commerce........    11
    Prepared statement...........................................    32
Schillerstrom, Hon. Robert, chairman, DuPage County Board........    10
    Prepared statement...........................................    36
Thakuriah, Piyushimita, Associate Director of Research Programs, 
  Urban Transportation Center, Department of Urban Planning and 
  Policy, University of Illinois.................................    12
    Prepared statement...........................................    37
Warfield, Ronald, president, Illinois Farm Bureau................    20
    Prepared statement...........................................    47
Whitley, Douglas, president, Illinois Chamber of Commerce........     9
    Prepared statement...........................................    29

                          ADDITIONAL MATERIAL

Article, Threat Prompts Police to Watch Two Bridges..............    55
Letters:
    336 Coalition................................................    65
    Carbondale Chamber of Commerce...............................    73
    Carbondale, IL, Mayor Neil Dillard...........................    58
    Collinsville, IL, City Manager Henry Sinda...................    57
    Cornbelt Fire Protection District............................    85
    Danville, Il, Mayor Robert E. Jones..........................    50
    Highway 34 Coalition.........................................    61
    Illinois 30 Coalition........................................    75
    Illinois Department of Transportation........................    68
    Jackson County Business Development Corporation..............73, 74
    Litchfield, IL, Mayor John L. Dunkirk........................    69
    Madison County Highway Department............................    59
    Mahomet, IL, President Jeffrey Coulsen....................... 81-85
    Mahomet-Seymour Schools......................................    85
    Memorial Hospital, Carbondale, IL............................    72
    Project 29...................................................    67
    Rose, Hon. Chapin, Illinois House of Representatives.........    73
    Southern Illinois University.................................    75
    Villa Grove, IL, Mayor Ronald Hurst..........................    60
    Will County, IL, Executive Joseph Mikan...................... 86-88
    51 Coalition.................................................    76
Statements:
    Brookfield Zoo...............................................    69
    Business Leaders for Transportation..........................    49
    Coles County Development Council.............................    56
    Interstate-74 Mississippi River Crossing Corridor............    78
    Mikan, Joseph, Will County, Illinois.........................    55
    Pagano, Paul, Metra..........................................    51
    Prairie Stone Transportation Association.....................    50
    St. Louis Regional Chamber and Growth Association............    53
                                 ------                                

                  AUGUST 11, 2003--BROWNSVILLE, TEXAS
       TRANSPORTATION INVESTMENT ALONG THE SOUTHERN TEXAS BORDER
                           OPENING STATEMENTS

Cornyn, Hon. John, U.S. Senator From the State of Texas..........    91
Inhofe, Hon. James M., U.S. Senator from the State of Oklahoma...    89

                               WITNESSES

de la Garza, Hon. Connie, Mayor, Harlingen, Texas................   105
    Prepared statement...........................................   133
Frankel, Hon. Emil, Assistant Secretary for Transportation 
  Policy, Department of Transportation...........................    92
    Prepared statement...........................................   119
Franz, Hon. John D., Mayor, City of Hidalgo, Texas...............   107
    Prepared statement...........................................   134
Hinojosa, Hon. Gilberto, Judge, Cameron County, Texas............   109
    Prepared statement...........................................   136
Johnson, Johnny, Commissioner, Texas Department of Transportation    95
    Prepared statement...........................................   125
Stockton, William R., Assistant Agency Director, Texas 
  Transportation Institute.......................................    97
    Prepared statement...........................................   130
Summers, William, president, Rio Grande Valley Partnership/
  Chamber of Commerce............................................   116
    Prepared statement...........................................   141
Townsend, Pat, president/CEO, Mission Economic Development 
  Authority......................................................   114
    Prepared statement...........................................   140
Trevino, Hon. Eddie, Jr., Mayor, Brownsville, Texas..............   104
    Prepared statement...........................................   132
Vale, Sam, president, Starr-Camargo Bridge Company on Behalf of 
  the Border Trade Alliance......................................   112
    Prepared statement...........................................   138

                          ADDITIONAL MATERIAL

Statements:
    Ortiz, Hon. Solomon, U.S. Representative from the State of 
      Texas......................................................   144
    Neugebauer, Hon. Randy, Texas State Representative...........   144
                                 ------                                

                            AUGUST 14, 2003
             IMPACT ON THE ECONOMY OF THE PACIFIC NORTHWEST
                           OPENING STATEMENT

Wyden, Hon. Ron, U.S. Senator from the State of Oregon...........   149

                               WITNESSES

Burrill, Michael, Sr., CEO, Burrill Family Companies.............   177
    Prepared statement...........................................   200
Foster, Stuart, chair, Oregon Transportation Commission..........   155
    Prepared statement...........................................   193
Frankel, Hon. Emil H., Assistant Secretary for Transportation 
  Policy, U.S. Department of Transportation......................   151
    Prepared statement...........................................   189
Hicks, Brad, president and CEO, the Chamber of Medford/Jackson 
  County, Oregon.................................................   179
    Prepared statement...........................................   201
Kratz, Pete, senior vice president and general manager of product 
  supply, Bear Creek Corporation.................................   181
    Prepared statement...........................................   202
Kupillas, Hon. Sue, Commissioner, Jackson County, Oregon.........   160
    Prepared statement...........................................   197
Montero, Mike, chair, Chambers Transportation Committee..........   185
Shiprack, Bob, executive secretary, Oregon Building Trades 
  Council........................................................   183
Warner, Bruce, director, Oregon Department of Transportation.....   157
    Prepared statement...........................................   195















         TEA-21 REAUTHORIZATION: REGIONAL TRANSPORTATION ISSUES

                              ----------                              


                         MONDAY, APRIL 7, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                 Chicago, Illinois.
    The committee met, pursuant to notice, at 11:30 a.m. in 
room 2325, Dirksen Federal Building, Chicago, Illinois, Hon. 
James Inhofe [chairman of the committee] presiding.

           ILLINOIS TRANSPORTATION: CROSSROADS OF THE NATION

    Present: Senator Inhofe.
    Also present: Senators Fitzgerald and Durbin.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. The hearing will come to order. We will 
start with a couple of apologies for my voice. It is not quite 
normal today, due to I am not sure what.
    The other is that regretfully, even though I have a history 
here, and I have never mentioned this to my fellow Senators 
before, but I actually lived in Chicago years ago. I have a 
great affection for it.
    I can remember watching the ticker tape parade from the top 
of the Lincoln Park Arms at the end of World War II. I am a 
little bit ashamed of Chicago right now. I feel very bad about 
what happened on the Miegs Field thing. I even gave some 
consideration to not coming today, as a result of that.
    I feel that if you willfully go out and destroy 
infrastructure the way that the Mayor did, that it is a little 
inconsistent to come back and have a hearing to see what kind 
of infrastructure needs we have in Illinois.
    The only reason I decided to come after all was after 
talking to my friend, Senator Fitzgerald, and so I am here. I 
really feel that it was an act of arrogant recklessness, 
reminiscent of the 1920's and not the 21st Century; so enough 
of that.
    I would like to welcome everyone here to the first field 
hearing of the Committee on Environment and Public Works this 
year. This is a very significant hearing, because it is the 
first. We are going to be reauthorizing for the next 6 years, 
or it might be the next 5 years.
    We might change it, in an effort to get more money for 
infrastructure for the entire United States of America. This is 
every bridge, every highway, and all the Federal buildings, so 
it is a very significant thing.
    I am sure everyone here is aware that the law currently 
governing surface transportation, TEA-21, must be reauthorized. 
I am the chairman of the committee that will be doing that.
    My goals for reauthorization are very congruent with the 
needs of Illinois and, I believe, the goals of Senator 
Fitzgerald and Senator Durbin. I plan to put a great deal of 
focus on improving safety, congestion, and freight movement. A 
good highway program can save lives and improve the economy, 
and improve people's quality of life.
    I have to say this. There is no single thing you can do 
more for the economy, in terms of a job's bill, than an 
aggressive highway program.
    I would also like to see healthy and sustainable growth in 
funding levels in the new bill. The Nation's highway and bridge 
needs are staggering. This Administration recently estimated 
that to simply maintain the existing highway system and bridge 
system would require an annual investment to be increased by 
about 20 percent over current funding levels.
    Simply increasing funding is not enough. States like 
Oklahoma and Illinois pay significantly more into the Highway 
Trust Fund than they receive in highway funding, where donor 
States want to significantly increase the rate of return for 
donor States. So we have that in common between the State of 
Illinois and the State of Oklahoma.
    So with that, we have today, what do we have, three panels? 
We have three panels today, and I would like to, at this point, 
introduce the first panel.
    From the first panel, we will hear from Mr. Timothy Martin, 
Secretary of the Illinois Department of Transportation, 
welcome; Miguel D'Escoto, Director, Chicago Department of 
Transportation, and we had a chance to ride in together and 
visit on the way from the airport; Mr. Douglas Whitley, 
President, Illinois Chamber of Commerce.
    [The prepared statement Senator Inhofe follows:]
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    I would like to welcome everybody to this, the first field hearing 
of the Committee on Environment and Public Works of 2003. I am honored 
to hold this hearing for my good friend Peter Fitzgerald to learn more 
about the transportation needs of the great State of Illinois.
    As I'm sure everybody here is aware, the law currently governing 
surface transportation, TEA-21, must be reauthorized this year. I plan 
to mark up the new legislation in May, have it considered by the Senate 
in June, and have it on the President's desk in September, before TEA-
21 expires.
    My goals for reauthorization are very congruent with the needs of 
Illinois and, I believe, the goals of Senator Fitzgerald.
    I plan to put a great deal of focus on improving safety, 
congestion, and freight movement. A good highway program can save 
lives, improve the economy, and improve peoples' quality of life.
    I also would like to see healthy and sustainable growth in funding 
levels under the new bill. The nation's highway and bridge needs are 
staggering. This Administration recently estimated that to simply 
maintain the existing highway and bridge system would require annual 
investment to increase by about 20 percent above current funding 
levels.
    But simply increasing funding is not enough. States like Oklahoma 
and Illinois currently pay significantly more into the Highway Trust 
Fund than they receive in highway funding. We are donor States. I want 
to significantly increase the rate of return of donor States. This is 
an important equity issue.
    Senator Inhofe. Do you have an opening statement, Senator 
Fitzgerald?

  OPENING STATEMENT OF HON. PETER G. FITZGERALD, U.S. SENATOR 
                   FROM THE STATE OF ILLINOIS

    Senator Fitzgerald. Well, I would just like to thank 
Senator Inhofe for coming here. I appreciate his being here, 
notwithstanding the bad weather and notwithstanding his 
misgivings about Miegs Field. He is a great friend and a great 
Senator.
    We are the State that ranks about third in interstate 
networks through our State. The importance of a vital 
transportation network to Illinois and really to the country, 
cannot be overstated because so much of the traffic that 
travels on our highways goes through Illinois.
    So I am delighted that we are in a position to have this 
hearing today so that we can present to the committee the needs 
of our State. We are one of those donor States that you 
referred to. We are only getting about 92 cents on the dollar 
back for every dollar we sent to Washington in our motor fuel 
taxes. We hope to do a little bit better the next time.
    In the last 10 years, our traffic has increased something 
like 31 to 33 percent in the Chicago area. So our needs go up. 
We are one of the most congested cities; about the third most 
congested city in the country right here in Chicago. We have 
needs in all parts of the State, and we are glad that we will 
have testimony from a good cross section of the State of 
Illinois. So Senator Inhofe, thank you very much.
    Senator Inhofe. Thank you, Senator Fitzgerald.
    Senator Durbin?

OPENING STATEMENT OF HON. RICHARD J. DURBIN, U.S. SENATOR FROM 
                     THE STATE OF ILLINOIS

    Senator Durbin. Senator Inhofe, thank you for coming to 
Chicago, today. I am sorry the weather is not a little better. 
But if you think we are disappointed, imagine the Chicago Cubs, 
who thought they were going to have an opening this afternoon 
with the Expos. I went out to Wrigley Field this morning and 
threw out the first snowball.
    [Laughter.]
    Senator Durbin. I do not know if that is going to become an 
annual affair. I hope it certainly does not. But thank you for 
coming. I want to personally thank you for being one of the 
early co-sponsors of the legislation which would have solved 
the airport problem. It would have kept Miegs open. It would 
have built Piatone, and modernized O'Hare.
    I know of your commitment to general aviation, and I know 
of your co-sponsorship of that legislation, which could have 
resolved this, and I wish it would have.
    Today though, we look forward instead of back, and we look 
at the Transportation Equity Act of the 21st Century. I do not 
know if it has a formal name yet; TEA-3, TEA-21. Since you are 
the chairman, you get to name it. But when it is all said and 
done, the name is secondary to the content of the bill.
    We need to fix the formula. You are going to find 
representation in testimony here from all over the State. We 
not only have the city of Chicago and Page County, and all of 
the surrounding area in this metropolitan area, but we have a 
lot of down-staters. We have a lot of new projects that are 
piling up: U.S. 51, 67, 20, 30, North South Wacker Drive, just 
to name a few.
    We need to fully fund the transit program. I know that we 
have already started talking about that with other Senators, 
about what to do with transit. But transit is an important part 
of transportation, not only for the city, but for this State, 
and I am sure, Oklahoma.
    We need to fully fund the Congestion Mitigation and Air 
Quality Program, and provide State and local governments with 
more flexibility. We need to continue effective efforts, such 
as the discretionary interstate maintenance and discretionary 
bridge programs. If you would like to make the names of any of 
these programs shorter, I will second that amendment.
    Finally, let me tell you that we need to advance the best 
interests of our Nation, not just of the individual States. I 
am certain you will do that, and thank you for being here.
    Senator Inhofe. Thank you, Senator.
    I might also add, before we hear from our first witness, 
that I am a Republican, but I did not agree with that item in 
the budget that came down. I thought we really needed more 
money than what came in with the President's budget.
    Although I know the pressures that he is facing, and it 
very, very difficult, we are trying our best to be as creative 
as we can to increase the amount of money that we can have for 
our infrastructure throughout America.
    Mr. Martin, you may begin. I would like to ask each of the 
witnesses on this and the other panels to make their comments 
as brief as they can, and your entire statement will be entered 
into the record. Mr. Martin?

STATEMENT OF TIMOTHY MARTIN, SECRETARY, ILLINOIS DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Martin. Thank you very much, Senator. Mr. Chairman, 
thank you for coming to Chicago today, to discuss Illinois 
transportation needs. I appreciate the opportunity to be able 
to testify, and I would like to thank Senator Fitzgerald and 
Senator Durbin for their consistent backing of the 
transportation program throughout Illinois.
    Having had the opportunity to meet with them in my short 
tenure here, they can both articulate the need for the projects 
throughout the State.
    As no doubt you found in your travels here to Illinois, you 
could have gotten here by any one of a number of means. 
Illinois truly is the center point. If you look at any of the 
maps from Ashdale and any of the Federal maps, Illinois is 
truly the circulation system of this Nation.
    It all comes right into Illinois; either into Chicago or 
through southern Illinois, all the expressways, the railroads, 
all come through here.
    We rank third in the number of lane miles, third in the 
number of center lane miles. We also rank seventh in the number 
of vehicle miles traveled.
    We have the second largest public transportation system in 
the Nation, and one of the oldest in the Nation. The Illinois 
transportation system moves an extraordinarily large amount of 
people, freight, and other goods throughout.
    We are also the third largest container point in the world, 
second to Hong Kong and Singapore. All of that comes through 
Chicago and through Illinois.
    In addition, one of every five jobs here in the State of 
Illinois is related to transportation. That is a staggering 
number. They are not all just transportation construction jobs. 
They are jobs related to transportation, related to goods 
distribution.
    In 2002, Illinois created 87,000 jobs related to highway 
transportation construction. In addition, 27,000 jobs were 
developed, as it relates to public transportation. Those are 
phenomenal numbers.
    We are not even talking about the number of jobs that were 
created as a result of transportation infrastructure, building 
throughout the State. I am sure that on the other panels that 
you will hear from this morning, that other groups will be able 
to articulate the jobs throughout Illinois that are going to be 
developed, not as a result of the construction projects, but as 
a result of the infrastructure that you will hear.
    As Senator Durbin said, Corridor 67 runs throughout the 
State. That is an extremely important project for the State of 
Illinois, going through a number of small towns.
    More importantly, our interstate highway system is nearing 
the end of its useful life. The majority of our expressways are 
approximately 50 years old, which means they need to be 
rebuilt. We can no longer simply resurface them.
    Years ago, a resurfacing project would take 10 to 15 years 
for its useful life. Now it is 5 years. Years ago, it was $1.6 
million to simply resurface a part of the expressway system in 
Chicago. Now it is $66 million to reconstruct it.
    One may argue that you can resurface much cheaper and 
continually resurface. That does not take into account the 
delay for all of the motorists, all of the truck drivers, that 
go throughout our highway system; not only in Chicago, but in 
Peoria, in St. Louis, and throughout the State.
    Illinois has identified serious interstate reconstruction 
and additional capacity needs, through the year 2017. From 2000 
to 2008, we were able to reconstruct or refund capacity 
improvements for 125 miles of interstate, valued at $2.9 
billion.
    From 2008 to 2012, we anticipate the need for 460 miles, 
valued at $8 billion. For 2012 to 2017, it is 370 miles, valued 
at $6.6 billion. These are the needs and these are only on the 
interstate expressway system.
    The Illinois Department of Transportation is also 
responsible for 26,000 bridges, very similar to the number of 
bridges in the entire State of Oklahoma. Approximately one-
fifth of these bridges are considered deficient; not dangerous, 
but deficient, and in need of significant improvements.
    We also have the need to improve crossings over the 
Mississippi River. Right now, in St. Louis, interstate highways 
all get choked down over one bridge through St. Louis. We need 
to work together, as we are with the State of Missouri, and 
increase the number of crossings in that area.
    Reserving the condition and performance of bridges is 
absolutely key to the life blood of the United States. We need 
to work together to increase the discretionary bridge funds and 
the discretionary interstate reconstruction funds. Both are 
absolutely key.
    We also urge the committee to provide Illinois a fair share 
of funding. I think, as has been articulated this morning by 
the members of the committee, yes, Illinois and Oklahoma are 
donor States. We need to change that.
    Right now, as you heard earlier, we are third in the number 
of lane miles, but eighth in the total number of dollars coming 
to the State of Illinois for Federal aid highway projects. That 
is eight, instead of three, based on needs. We need to develop 
a needs-based system.
    Five years ago, when TEA-21 became law, highway funding for 
the Nation was increased by 44 percent. Unfortunately, it was 
only increased in the State of Illinois by 29 percent. It was 
at that point that Illinois went from a donee State to a donor 
State. We need to correct that.
    Despite the size and importance of Illinois transportation 
system, our overall Federal share decreased in 1997. At that 
time, the Governor and the Legislature were able to make out 
with the Illinois First Program. That program provided about $8 
billion of infrastructure needs, to make up for the shortfall 
that was not provided by the Federal Government.
    Over the 5 year life of Illinois First, they were able to 
repair and rehabilitate 1,500 bridges, 4,400 miles of roads, 
and 795 miles of interstate highways.
    Unfortunately, Illinois First is coming to an end this 
fiscal year. The State of Illinois, like any other State, is 
unable to increase funding to make up for any future shortfalls 
of Federal funds. That is why we urge you and your committee 
and the Congress to increase the overall funding available for 
roads and transit in the United States.
    We need our fair share of Federal transportation funding to 
meet the great infrastructure needs in our State. The Illinois 
Transportation System is vital to the economic growth here and 
throughout the Nation.
    I would like to thank you for this opportunity.
    Senator Inhofe. Thank you, Mr. Martin; let me just comment 
that in our Senate bill, we do have a larger number than they 
do on the House side. We are going to be trying to think of 
ways to make that a reality.
    I would like to say to the rest of the witnesses, we do 
want to hear from all of you. I would like to have you 
abbreviate your statements. We have 15 witnesses, and I would 
like to be able to hear from each one. So if you would, keep 
your remarks at a lower level.
    Senator Fitzgerald. And maybe do not read; just talk off 
the top of your head, and we will file your full statements
    Senator Inhofe. Like we did on the way back in from the 
airport. How is that?
    [Laughter.]
    Senator Inhofe. Yes, you are recognized.

 STATEMENT OF MIGUEL D'ESCOTO, DIRECTOR, CHICAGO DEPARTMENT OF 
                         TRANSPORTATION

    Mr. D'Escoto. Good morning, Mr. Chairman, Senator Durbin, 
and Senator Fitzgerald; my name is Miguel D'Escoto. I am a 
Commissioner for the Chicago Department of Transportation.
    Chairman Inhofe, on behalf of Mayor Daley, I would like to 
welcome you to Chicago, and thank you for taking the time to 
travel here to discuss our infrastructure and transportation 
issues. I would also like to thank Senator Durbin and Senator 
Fitzgerald for their hard work and efforts on our 
transportation system.
    The reauthorization of TEA-21 provides a unique opportunity 
to invest in transportation; projects that will assure the 
Nation's competitiveness in the global marketplace. Because of 
Chicago's role in the North American private passenger and 
freight movement, an investment in Chicago's transportation 
system maximizes economic benefits to the Nation.
    An efficient transportation network here is absolutely 
essential to insure the timely distribution of goods and people 
throughout the city, region, and Nation.
    By funding Chicago projects, you can ensure that Federal 
transportation dollars are spent wisely. Using innovative 
design solutions and construction methods, CDOT delivers large, 
complex projects on time and on budget.
    A prime example of this is the recently completed first 
phase of the Wacker Drive project. This $250 million 
reconstruction project, maintaining access to 29 adjacent high 
rise buildings is along some of the most valuable real estate 
in the Nation.
    As the largest retail, commercial, and residential center 
in the Midwest in the Nation's third largest city, the city of 
Chicago is a key economic engine for the entire country, as Tim 
was saying.
    So supporting the continuing growth of the region, Chicago 
uses the transportation funds to leverage new housing, 
industry, and office and retail development throughout the 
city. Many such projects are designed and ready for 
construction.
    Recognizing the importance of transportation investment, 
Chicago and Illinois will continue to do their part to fund 
these crucial projects.
    We need the Federal Government to continue its productive 
partnership with us. Therefore, with the provision of adequate 
funding and the passage of appropriate policies, we look 
forward to this reauthorization bill as an avenue to strengthen 
and enhance existing programs, while identifying new ones.
    First and foremost, Chicago needs significant increases in 
national highway and transit funding levels. Chicago's 
transportation system, although among the finest in the world, 
is in need of constant renewal, safety, and capacity 
improvements.
    One Federal program of particular importance is the Highway 
Bridge Program. Under TEA-21, the discretionary Highway Bridge 
Program was funded at $100 million annually, nationwide, with 
$25 million of that set aside for seismic retrofit.
    One bridge project alone in Chicago, the reconstruction of 
Wacker, will cost $500 million when both phases are complete. 
We also have identified $573 million in unmet bridge needs in 
the city, alone.
    As I told you, Senator, Chicago has more movable bridges 
than any other city in the world. We are highly dependent on 
this network of bridges. We also recognize many other cities 
face similar daunting costs and challenges to renew their 
bridges.
    Because Chicago is the third most congested region in the 
Nation, the Congestion Mitigation and Air Quality Program is a 
vital program. It funds congestion relief in our quality 
projects, including traffic signal interconnects, transit, and 
bicycle improvements; as well as the regional vehicle 
inspection and maintenance programs.
    We are seeking funds to complete a traffic management 
center to improve traffic flow and emergency response. With 
more cities anticipated being eligible for CMAC funding, we 
urge the committee to increase the funding to a level that will 
keep current recipients at their current or increased levels to 
meet our air quality goals.
    We also strongly support maintaining the firewalls. By 
doing so, Congress will be guaranteeing that funds collected 
for transportation will go toward transportation improvements. 
The firewalls also allow Government agencies to confidently 
plan and execute large scale, multi-year projects, which are so 
important to national prosperity.
    Chicago is also aware of discussions to change the Federal 
allocation of transportation projects. Chicago strongly 
recommends staying at the 80 percent Federal share.
    Last, freight rail is an often overlooked component of our 
Nation's transportation network. Part of it is the critical 
component of that network, and one for which Chicago is not 
only the national hub, but is also the national bottleneck.
    A freight rail infrastructure program is needed to fund 
numerous projects. The city of Chicago is currently negotiating 
the Class One railroads. It will increase safety in our 
Nation's rail highway grade crossings and ease congestion on 
our railways and our roadways. A Federal program for rail 
infrastructure would make tremendous improvements to this 
currently unacceptable situation.
    Senators with the renewal of Federal transportation 
funding, you have the opportunity to create jobs and stimulate 
the economy in a manner that will product long-lasting national 
prosperity.
    During the reauthorization process, I ask that you keep in 
mind the importance of transportation to our Nation's economy, 
and the critical role that the State of Illinois and the city 
of Chicago play in the national transportation network.
    Thank you very much for your time.
    Senator Inhofe. Thank you, Mr. D'Escoto; let me assure you 
that I have talked with Senator Fitzgerald about your bridge 
situation, because Oklahoma has a very similar problem on a 
slightly smaller scale. It is reaching the crisis point, and he 
has made that abundantly clear to me. Thank you very much.
    Mr. Whitley?

 STATEMENT OF DOUGLAS WHITLEY, PRESIDENT, ILLINOIS CHAMBER OF 
                            COMMERCE

    Mr. Whitley. Thank you, Chairman Inhofe and Senator 
Fitzgerald; my name is Doug Whitley and I am President of the 
Illinois State Chamber of Commerce. However, I am speaking to 
you today on behalf of more than 30 statewide and regional 
business and labor organizations from throughout Illinois, who 
are members of the Transportation for Illinois Coalition.
    The Transportation Coalition is a broadly based group of 
interests that support the need for additional funding for all 
forms of transportation in Illinois, including transit and 
rail, as well as highway funding. However, my emphasis this 
morning will be on highways, as that is the focus of your 
committee.
    Senator Inhofe. I think it is good to bring that out. For 
any other witnesses, actually, the rail is not a part of the 
jurisdiction of this committee; thank you.
    Mr. Whitley. Transportation is a vital industry to 
Illinois, and plays a key role in determining the health of our 
economy. It contributes to the efficient manufacturing 
operations by allowing for just-in-time supply deliveries. It 
contributes one in six jobs to the State's workforce, and it 
contributes 5.3 percent of the State's gross product.
    In these tough economic times, transportation funding 
increases can go a long way toward boosting the State's 
economy. I think it is important to underscore that public 
works is a significant part of what Government does.
    Public works projects have a tremendous impact on the 
economy. First and foremost, they put people to work and they 
do it quickly. Second, public works results in well-maintained 
infrastructure that allows the efficient movement of goods and 
produce throughout the Nation. Maintaining this infrastructure 
requires constant vigilance.
    We currently find ourselves with a heightened sense of 
awareness about the need for a strong transportation network 
for purposes of public safety. Illinois is uniquely positioned 
in the center of the Nation as a critical juncture for goods 
and produce traveling north and south, east and west.
    While increased funding helps our economy, Illinois is not 
the only beneficiary when the transportation network is well 
funded. We are a microcosm of the Nation with respect to our 
transportation system.
    Our transportation network is key to the Nation's ability 
to move people and goods, because of its geographic location 
and extensive road, rail, airport, and waterways network. I 
could give some examples, but I will depart from the remarks.
    If there was one thought that I could have you go away from 
Illinois with, it would be the length of our State with 
southern Illinois extending further south than Richmond, 
Virginia and Lake Michigan extending far north of us.
    What that means is, Interstate 90 from Montana, Interstate 
94, Interstate 80, Interstate 70, Interstate 64, Interstate 44, 
Interstate 55, Interstate 24 all converse through Illinois. 
Even Interstate 65, which we think of as being an Indiana 
Interstate actually is part of the Chicago metropolitan 
network.
    So the point, sir, is what happens in Illinois is critical 
to the economy of the whole country. If you could take that one 
thought home with you, I would be most grateful.
    Senator Inhofe. I will definitely do that, Mr. Whitley, 
thank you very much.
    We are not going to be doing questions, because we want to 
get your testimony. Incidently, we will have questions for the 
record that we will submit to you. So we would excuse this 
panel and ask that panel No. 2 come forward; thank you all very 
much.
    On panel two, we have Robert Schillerstrom, chairman of the 
DuPage County Board; James Pennekamp, Executive Director, 
Leadership Council for Southwestern Illinois; Ryan Petty, 
President Rockford Area Chamber of Commerce; Honorable Thomas 
Marcucci, Mayor, city of Elmhurst; Denise Bulat, Director of 
the Bi-State Regional Commission; and Dr. Piyushimita 
Thakuriah, Associate Director of Research Programs, Urban 
Transportation Center, Department of Urban Planning and Policy 
Board.
    We would like to have all of you here. If you could 
abbreviate your remarks, I would appreciate it very much. We 
will start in the order that I introduced you, with Robert 
Schillerstrom.

STATEMENT OF HON. ROBERT SCHILLERSTROM, CHAIRMAN, DUPAGE COUNTY 
                             BOARD

    Mr. Schillerstrom. Senator, my name is Robert 
Schillerstrom, and I appreciate your coming to Illinois to hear 
us. Senator Fitzgerald, I certainly appreciate your inviting 
me.
    Since you have indicated that it is alright to stray from 
our remarks, I will do that. I have filed my remarks with you, 
and I will just seek to summarize them, so that you can move 
along.
    DuPage County is a county of approximately one million 
people. We are larger than seven States. We are one of the most 
rapidly growing places in the country. Fifty years ago, we were 
150,000 people. Now we are close to a million people
    Senator Fitzgerald. They are very Republican, too.
    [Laughter.]
    Mr. Schillerstrom. Thank you, Senator, that is very true. 
We are also a job center. We have approximately 600,000 jobs 
now. Since 1970, 46 percent of the new jobs in the Chicago 
region have been developed in Dupage County. We ultimately will 
have 850,000 jobs. So we are a population center and a job 
center.
    Obviously, when you have growth like that, there are many 
benefits. There are also certain burdens. We have struggled to 
keep up with our infrastructure requirements. We have sought, 
wherever possible, to do this ourselves.
    Over the last 15 or 20 years, we have spent hundreds of 
millions of dollars of our own taxpayers money on improving our 
infrastructure. We have imposed a gas tax on ourselves that 
garners about $11 million a year, and we have done what we 
could to try and make sure that our infrastructure keeps up 
with the growth.
    We recognize that while we may be one million people, we 
are still part of a region. We are part of the Chicago region, 
which is one of the great regions of our country. It is also a 
growing region. It is approximately eight million people now. 
It will be nine million people sometime in the future.
    The thing that started our region to grow was 
transportation. What keeps our Chicago-land region growing is 
transportation. It is very important, not only to the Nation, 
but to the Chicago-land region and also to Dupage County that 
we continue to invest in our infrastructure. The State has been 
very responsible in doing that.
    As Secretary Martin said, the State has invested through 
the Illinois First Program billions of dollars in improving the 
local infrastructure. However, we still have a variety of 
regional projects that cannot be afforded by the State, by 
Dupage County, or by this region. We must have Federal 
assistance.
    First and perhaps foremost amongst those is western access 
to our airport. As you know, O'Hare Airport is the busiest 
airport in the world. There is only one major access to that. 
It does not make much sense.
    In Dupage County, which is on the west side of the airport, 
we have to drive all the way around to the east side to get in 
there. That creates problems for our businesses over there. 
They are not able to receive the full benefit of being close to 
an airport.
    It creates problems for our local communities because of 
increased local traffic, and it keeps development from taking 
place over there. Western access would provide an extension of 
the Elgin/O'Hare expressway, which does not go to Elgin and it 
does not go to O'Hare, into the airport; and then as for ring 
roads, up to the north, the tie-in with I-90, a major 
expressway running over the top of the airport, and then down 
south to 294.
    This is a gigantic project. It would be beneficial for the 
entire region, and probably for the Nation. It would cost a 
billion and a half dollars. It is the type of project that the 
only way it can be done is if we have Federal assistance.
    There are a variety of other major projects that we need 
Federal assistance on. We have projects locally, and there are 
other projects throughout the region.
    We would greatly appreciate any assistance that the Federal 
Government could give us. We think that would be beneficial to 
the region and beneficial to the Nation, and also beneficial to 
DuPage County. Once again, thank you, and any assistance you 
can give us, we would greatly appreciate it.
    Senator Inhofe. Thank you, Mr. Schillerstrom.
    Mr. Petty?

 STATEMENT OF RYAN PETTY, PRESIDENT, ROCKFORD AREA CHAMBER OF 
                            COMMERCE

    Mr. Petty. Chairman Inhofe, Senators, thank you for today's 
opportunity. I am Ryan Petty. I am the President of the 
Rockford Area Chamber of Commerce, 2000 business members, and 
the Rockford Area Council 100, our region's economic 
development organization. I represent an area that covers 
northern and northwestern Illinois from the outer outskirts of 
the Chicago suburbs to the Mississippi River.
    In this region, we have more than 1,000 manufacturing 
companies. The manufacturing employment in this region of more 
than 600,000 people is roughly twice the percentage you find 
nationally in urban centers. Although we are perceived as small 
town and rural, we are a major manufacturing center and an 
important part of the Illinois and Midwestern economy.
    We have an airport, the Greater Rockford Airport, that is 
the 23d largest cargo airport in the United States, based on 
land and cargo weight, and is a U.S. port of entry.
    We are at the convergence of three major highway corridors 
funded by the United States Government: Interstate 90, 
Interstate 35, and U.S. Highway 20. Of these three, U.S. 
Highway 20 is the least developed, and is a terrific 
opportunity for business and commerce and logistics to have its 
development completed, as has been proposed these last 50 
years.
    IDOT numbers show that more than two million people are 
using this present and decrepid U.S. Highway 20 system. More 
than 200 accidents occur every year on this stretch of highway. 
There have been dozens of fatalities over the past decades on 
the current U.S. 20.
    In one of those fatalities, which illustrates the way this 
can hit communities, Dr. Ruth Smith, the President of Highland 
Community College from Freeport, passed away this last year in 
a death fatality on U.S. Highway 20. Galena, Illinois, along 
U.S. Highway 20 is the largest single tourism attraction in the 
State of Illinois, outside of Chicago.
    In 1991, the U.S. Congress approved funding for and it has 
now completed an environmental impact statement on U.S. Highway 
20. In 2002, local agencies, with the help of a professional 
consultant, convened at a regional vision and economic 
development strategy conference that involved more than 3,000 
of our citizens in northern and northwestern Illinois, and they 
set 14 regional initiatives as priorities. One of those is the 
completion of U.S. Highway 20 at four lane status.
    Senator I just want to call to your attention the way this 
can play out for Chicago, for Illinois, and for the Nation. 
Union Pacific is about to complete construction on an 
intermodal facility at Rochelle, Illinois in the heart of this 
region, 1,200 acres of container port.
    I will close my testimony at this time to save the time, 
but I want to thank you for holding this hearing. I want to say 
that your supplemental Federal funding that will enable State 
funding and local funding to get these jobs done is very 
important to our economic future.
    Senator Inhofe. Thank you, Mr. Petty.
    Dr. Thakuriah?

   STATEMENT OF PIYUSHIMITA THAKURIAH, ASSOCIATE DIRECTOR OF 
 RESEARCH PROGRAMS, URBAN TRANSPORTATION CENTER, DEPARTMENT OF 
       URBAN PLANNING AND POLICY, UNIVERSITY OF ILLINOIS

    Mr. Thakuriah. I would like to thank the committee for this 
opportunity to testify on Illinois transportation, the 
crossroads of our Nation.
    I am here in my capacity as Associate Professor of Urban 
Planning and Policy in the University of Illinois, Chicago, and 
also as the Associate Director for Research Programs in the 
Urban Transportation Center at the University.
    The Urban Transportation Center conducts inter-disciplinary 
research relevant to local, State, and Federal transportation 
issues. Being located in the heart of so many of the country's 
transportation networks, we are fortunate to have a unique 
living laboratory for emerging research with practice.
    I am pleased to let you know that we have submitted a 
written testimony on four key transportation research areas 
that are very relevant to this region. These are the areas of 
congestion mitigation, freight planning, asset management, and 
job accessibility for low income people.
    I am here to speak in support of increasing transportation 
research funding for all of these issues, but I will speak 
today about one, which is the area of job accessibility for low 
income people. The Urban Transportation Center is very much 
involved in the research and analysis of this issue.
    Low income people living in large cities such as Chicago, 
as well as small rural areas, continue to witness significant 
burdens in accessing jobs. In 1996, when the Welfare Law was 
passed, as many as 94 percent of Welfare clients did not own an 
automobile. Transit connections between jobs and where the bulk 
of the Welfare recipients live, inner city neighborhoods, and 
isolated pockets in the suburbs were limited and, in some 
cases, non-existent.
    Since many entry-level jobs, which are appropriate for the 
educational and skill levels of these individuals, also start 
during off-peak time periods, job locations that are accessible 
during normal business hours are, in fact, very inaccessible 
during off-peak periods, as most transits serve peak period 
demand only.
    The Federal Government's Job Access and Reserve Commute 
Program, which is called JAR, addressed this type of spacial 
and temporal mismatch of jobs. Transportation-related support, 
also designed to alleviate this job/housing mismatch for low 
income people also came from the U.S. Department of Health and 
Human Services, Labor, and Housing and Urban Development.
     Continued funding at levels higher than TEA-21 are needed 
for reliable, safe, and affordable access to jobs by low income 
people. TEA-21 funded at $715 million over 6 years, out of 
which $350 million are general funds. In my view, given the 
needs, this amount is not enough.
    Census housing data shows that the bulk of low income 
people continue to live in inner city neighborhoods with very 
long commutes, and are dependent on low paying jobs close to 
where they live, which remain the only options.
    As our Nation confronts an economic downtown, the debate 
during reauthorization should be grounded in the recognition 
that while Welfare case loads in Illinois, like in many other 
States, are down, persistent poverty is still among us, 
especially in large metro areas and smaller isolated rural 
areas. Further, with the economic downturn, some of the 
encouraging gains in Welfare clients' employment outcomes may 
be reserved.
    In Illinois in February, the unemployment rate was 7.2 
percent, which was higher than the U.S. unemployment rate of 
6.4 percent. The unemployment rates in Chicago, Rockford, and 
other metro areas are higher than the Illinois average. In 
general, the economic downturn has hurt occupations where low 
income workers are employed, and also areas where low income 
families are most likely to reside.
    Senator Inhofe. Dr. Thakuriah, I would ask you to come to a 
conclusion here. We will be receiving your entire testimony, so 
that we can study the statistics.
    Mr. Thakuriah. I wish to thank the Senators for my 
testimony. If I could make any clarifications from my written 
testimony, I would be happy to do so.
    Senator Inhofe. Thank you very much, Dr. Thakuriah.
    Mr. Pennekamp?

 STATEMENT OF JAMES PENNEKAMP, EXECUTIVE DIRECTOR, LEADERSHIP 
                COUNCIL OF SOUTHWESTERN ILLINOIS

    Mr. Pennekamp. Thank you, my name is Jim Pennekamp. I am 
Executive Director for Leadership Council of Southwestern 
Illinois, as well as a member of the Transportation for 
Illinois Coalition.
    My organization is an economic development corporation. It 
is a membership group that includes individuals in government, 
business, labor, and education, organized to do one thing and 
one thing only, and that is to encourage business investment in 
downstate Illinois and specifically southwestern Illinois.
    I would also like to mention a quote from Abraham Lincoln. 
I think he nailed it when he said, ``Commerce follows 
transportation.'' That is the relationship, and we have to have 
adequate and ever-improving transportation in order to support 
economic development.
    The project I would like to talk about today, I think was 
mentioned today already by the Secretary. It was to do with the 
Mississippi over-bridge system in downstate Illinois, as part 
of the St. Louis metropolitan area.
    What we have is a situation where 35 years ago, we had 22 
lanes crossing the Mississippi area in the core area of the St. 
Louis metropolitan area. Today, we are down to 12 lanes. That 
is because bridges have been closed. The infrastructure is 
aging.
    The loss of those vehicle lanes across the Mississippi 
River is now threatening the free flow of national commerce and 
it is emerging as a national security threat.
    The bi-state St. Louis/Missouri metropolitan area is a 
cross roads for national commerce. It is the second largest 
freight hub in the midwestern United States.
    Four interstate highways: 70, 55, 40, and 44 converge in 
the core metropolitan area. However, three of those interstates 
are routed over one Mississippi River bridge. In fact, the bi-
state St. Louis metropolitan area is the only area in the 
United States that routes three interstate highways over one 
bridge.
    The vulnerability of that interstate system throughout St. 
Louis was brought to light in the recent Post Dispatch article 
citing Mississippi River Bridges as potential terrorist 
threats. The March 27, 2003 article stated that, ``Homeland 
Security officials have long recognized the Popular Street 
Bridge as a potential target.'' It carries three interstates: 
55, 64, and 70, and accommodates 35 percent of the car and 
truck traffic across the Mississippi River in the St. Louis 
region.
    The Popular Street Bridge is severely over-burdened. Its 
capacity is inadequate to meet the needs of through-motorists, 
including truckers, traveling on and between the many 
interstates in the region.
    It has got a 30-year-old design that is sub-standard. The 
Illinois Department of Transportation traffic projections show 
conditions on that bridge corridor will worsen and traffic will 
fail on all key interstate highways approaching that bridge by 
the year 2020 if nothing is done.
    The bridge is expensive, but it is not only a bridge 
project. We are talking about the need to relate I-70 to build 
a connector with Interstate 64, to do appropriate improvements 
on the Missouri side of the river. The bridge itself is about 
one-third of the total cost of this project, which is $1.6 
billion.
    We have already committed $300 million to this one project, 
and the kinds of improvements being made now will stand on 
their own.
    It is clear that this type of a project cannot be done 
without major assistance from the Federal Government. It enjoys 
support, both from Missouri and Illinois. Both Departments of 
Transportation have been working on this project. It is about 
10 years old. There was a positive record of decision on the 
project in 2001.
    Anything that you all could do in terms of the 
reauthorization legislation to fund megaprojects of this sort, 
which are absolutely necessary, would be appreciated.
    Senator Fitzgerald. If I could ask you a real quick 
question, is it true that on that bridge project, between St. 
Louis and Metro East St. Louis, that Illinois has committed 
some local funds, and Missouri really has not put up much in 
the way of local funds, at this point? Is that true?
    Mr. Pennekamp. Both Missouri and Illinois are committed to 
the project. In fact, appropriate letters signed by both 
Secretaries of Transportation from both States will be 
forthcoming.
    Senator Fitzgerald. Will Missouri have a local match, too?
    Mr. Pennekamp. Yes.
    Senator Fitzgerald. Good, but we want to count that against 
Missouri's transportation.
    [Laughter.]
    Senator Inhofe. Thank you very much.
    Ms. Bulat?

    STATEMENT OF DENISE BULAT, EXECUTIVE DIRECTOR, BI-STATE 
                      REGIONAL COMMISSION

    Ms. Bulat. Thank you very much, my name is Denise Bulat. I 
am the Executive Director of the Bi-State Regional Commission, 
and I appreciate the opportunity to speak before this 
distinguished committee.
    Mississippi River crossings in the quad-city area are our 
highest transportation priority. Over 150,000 vehicles cross 
the Mississippi River every day in the quad-cities. Half of 
them cross on the I-74 bridge.
    There is an urgent need to address the I-74 bridge 
corridor. Because it is carrying 74,000 vehicles a day, the 
bridge is functionally obsolete. The Iowa-bound span was built 
in 1935. The Illinois bound span was built in 1959, to the 1935 
design. Both spans were built for local traffic. There were not 
built as an interstate. Therefore, they never, ever met 
interstate standards.
    In fact, the I-74 corridor has accident rates in some 
locations that are three times the national average. The I-74 
bridge is extremely important to the commerce of the quad city 
area. Interstate 74 is a north/south corridor throughout the 
quad cities. We have a population of 350,000, so the bridge 
serves that population.
    The quad city area, within a 300 mile radius, has a 37 
million person market area, which serves 13 percent of the 
Nation's population and, therefore, the quad cities, from a 
commerce perspective, focus on our transportation logistics.
    Now the I-74 corridor is on the national highway system. 
It, too, is not just a bridge. It runs from 53d Street in 
Davenport, Iowa to 23d Avenue in Moline, Illinois, which is 
over five miles.
    It has completed its major investment study. The I-74 
corridor study is currently going on right now, with the draft 
final EIS expected this summer. The balance of the final EIS 
and the record of decision work will be done in 2004, with 
completion in 2005.
    We have already received appropriations in amounts over $14 
million toward these efforts. The estimated cost of this 
project in 2002 dollars is $600 million to $650 million.
    We would request the identification of this project as a 
high priority need in the 2003 Transportation Act, and that 
significant programs for discretionary bridge and interstate 
maintenance be created in the act, also.
    Again, I thank you for the honor to speak to this 
committee.
    Senator Inhofe. Thank you, Ms. Bulat.
    Last is Mayor Marcucci. I often tell my friends in the U.S. 
Senate, if you want to know what a hard job is, be a Mayor. I 
was a Mayor for four terms in the city of Tulsa.
    Mr. Marcucci. God bless you.
    Senator Inhofe. When you are a Mayor, there are no hiding 
places.
    [Laughter.]
    Mr. Marcucci. No, there are not.

  STATEMENT OF HON. THOMAS MARCUCCI, MAYOR, CITY OF ELMHURST, 
   REPRESENTATIVE OF CATS [CHICAGO AREA TRANSPORTATION STUDY]

    Mr. Marcucci. Thank you, Senator Inhofe, Senator 
Fitzgerald, I am Tom Marcucci. I am the Mayor of the city of 
Elmhurst. Just to put that in perspective on the map, it is 
located 16 miles due west of where we sit at this moment, in 
the heart of the Chicago metropolitan area.
    Soon after I was elected as Mayor, I realized that being a 
Mayor is about much more than the 10 square miles that make up 
my suburban community. I realized that Mayors, unlike any other 
local elected officials, have the opportunity and, in fact, the 
responsibility to address regional issues.
    Virtually ever regional body that we have created to deal 
with area-wide issues, from transportation to environment to 
planning, include Mayors, on advisory boards and on committees, 
et cetera. The Pay Suburban Bus Board, of which I am a member, 
is an example of that. To be on the Pace Suburban Bus Board, 
you must be a Mayor.
    I am here today representing one of those regional 
organizations, CATS. CATS is not, as you may be assuming, the 
Broadway play. CATS is the Chicago Area Transit Study, the 
Metropolitan Transportation Planning Organization for 
Northeastern Illinois. CATS is responsible for long-range 
planning for surface transportation, streets and highways, 
public transportation, bus and rail. CATS was formed in 1955 
and now includes the six urbanized counties of Northeastern 
Illinois.
    CATS is the only agency in this area that provides 
involvement of all transportation agencies and providers; 
integration of individual plans for all of these services; 
prioritization of specific projects for both funding and 
scheduling; funding for sub-regional transportation planning 
and for local transportation in congested mitigation projects; 
cataloging the future plans and projects; and coordination and 
collaboration with the Northeastern Illinois Planning 
Commission, our area-wide comprehensive land planning 
organization.
    CATS is now in the process of preparing the 2030 regional 
transportation plan for the RTP. The RTP will focus on the 
transportation strategies, improvements to existing systems, 
and new major capital projects that are recommended to meet the 
transportation needs of our region for the next 25 years.
    If you want to know what transportation projects and 
improvements are needed in Northeastern Illinois over the next 
25 years, you need look no further than the RTP. If you want to 
know the priorities of the agencies, local government, and the 
public, you need look no further than the RTP.
    If want to make sure that the economic and environmental 
impacts of the proposed projects have been evaluated, again, 
you need to look no further than the RTP.
    We here in Illinois have heard comments that when the 
Transportation Equity Act of the 21st Century was passed 6 
years ago, Illinois received less than its fair share of 
funding because of in-fighting between agencies, and because we 
did not have our act together here, or because none of the 
projects were on a coordinated list.
    I cannot promise you that you will not get a long list of 
projects from everyone in the Metro area, but I would ask you 
to not confuse a wish list with a needs list. There is an 
extraordinary backlog of transportation projects that are 
needed in our area. There are more projects needed in this area 
than this or any future Congress will be able to fund.
    So how do you sort out the virtually important from the 
really important? Again, you just look to the RTP. We do have 
our act together here in Illinois. We do have our priorities 
set, and we will have our needs lists fiscally constrained.
    As I mentioned earlier, CATS is in the process of preparing 
the 2030 RTP. Since June of 2001, the transportation agencies, 
the local governments, the State of Illinois, and working 
boards of committees of CATS have been creating the draft RTP 
document. That document includes projects representing all 
modes of transportation from every part of the region, 
including the innovative bus, ramp, and transit proposal from 
my very own DuPage County.
    But that draft is not yet fiscally constrained. There are 
more projects listed than we expect to have money to build. Now 
our draft, with all its options, all its projects, all the 
opportunity for future transportation improvements will be 
presented to the public of the region.
    They, the public, will select the final list of the 
projects that we will use for funding decisions for the next 25 
years; not the bureaucrats, not the Mayor of the city of 
Elmhurst, but the public will have input on these choices.
    Let me close my testimony with a few comments on the 
reauthorization of TEA-21. First, there are some technical 
changes that we are proposing to improve procedures and 
policies of the act. Those are included in the supplemental 
material that has been provided in advance of the meeting. I 
encourage you to review those and include them in your 
reauthorization, because they will make the process of 
implementing the plans easier.
    Last, I would ask that you please act on the 
reauthorization quickly. We need reauthorization this year. We 
need funding increased and we need to move forward on the new 
projects that will benefit the entire Chicago-land area. A 
continuing resolution will not accomplish that. We need the 
certainty of a reauthorization, which guarantees funding in 
order to prioritize and to schedule our projects efficiently.
    Mr. Chairman, I thank you for your attention.
    Senator Inhofe. I thank you very much, Mayor. We will 
dismiss this panel now and ask for the other panel to come 
forward. I have to tell you that as I listen to each one of you 
on the various projects, I can assure you, I have heard about 
these projects from Senator Fitzgerald many, many times. So I 
am becoming an expert in this area. So I appreciate that very 
much.
    If you would excuse yourselves, and let the next panel sit 
down. Let me make an announcement. I had hoped that I would be 
able to get out with a group to Miegs Field during this visit. 
I find out now that with the last flight that I can get out to 
get to my commitments, I will not be able to do it.
    So I am going to do it on my next trip through Chicago, and 
I hope that those individuals who had been nice enough to host 
me to go out there will keep that in mind, so we can do it in 
the next few days.
    Now we have our next panel. Most of this panel are people 
who are going to make all this stuff happen: people in the 
construction industry, the Caterpillar industry, the stone and 
gravel industry, the AFL-CIO. We have the Illinois Farm Bureau 
here, Mr. Warfield, and we have another Mayor from Olympia 
Fields.
    Senator Fitzgerald. I am wondering if we could allow the 
Mayor from Olympia Fields to testify first, because he has got 
a commitment.
    Also, I am wondering if all of you could and keep it to 
maybe a minute or so, because Senator Inhofe and I have to 
catch a flight out of O'Hare to be back for votes late this 
afternoon in Washington. We apologize for the abbreviated 
schedule, but thank you.
    The Mayor of Olympia Fields, Linzey Jones, maybe if he 
could speak first, because he has another commitment and he has 
been waiting patiently; thank you, Mayor.
    Senator Inhofe. I already told you what I think about 
Mayors, so there is no objection to that. But I think we can 
still make that plane if each one takes about 3 minutes, but 
not to exceed that. All right, Mayor, you are on.

   STATEMENT OF HON. LINZEY JONES, MAYOR OF OLYMPIA FIELDS, 
  PRESIDENT OF SOUTH SUBURBAN MAYORS AND MANAGERS ASSOCIATION

    Mayor Jones. Thank you, Chairman Inhofe and Senator 
Fitzgerald. It is our pleasure to have an opportunity to speak 
to you today. I am President of the Village of Olympia Fields 
and the South Suburban Mayors and Managers Association.
    I am also here in my capacity on behalf of the Chicago 
Southland Alliance, representing a 70 community area, 
comprising southern and southwestern Cooke, and representing 
approximately 1.5 million residents in that area.
    This is probably one of the most diverse, most ethnically 
and racially diverse areas in the country; yet, it is one of 
the most economically challenged areas in the country, Mr. 
Chairman. We are here today in support of the Transportation 
for Illinois Coalition's agenda, and we hope that favorable 
consideration will be given to that.
    The Chicago Southland has a special interest in road 
transportation issues because a fact of the matter is, Mr. 
Chairman, that while the State of Illinois boasts five of the 
Nation's transcontinental interstates in its highway network, 
three of those five traverse through the Chicago Southland.
    So such improvements that are needed in the Region are 
especially important to the Chicago Southland, and especially 
important to the Nation's interstate transportation system.
    Therefore, I just want to thank you. I will limit my 
remarks to that, and simply ask you to look favorably on the 
transportation issues, and especially the road surface 
transportation issues that affect the Chicago Southland. Thank 
you, Mr. Chairman.
    Senator Inhofe. Well, we will certainly do that. But I was 
kind of wondering, I am familiar with how racially diverse it 
is. How did they ever elect a guy named Jones?
    [Laughter.]
    Mayor Jones. Well, I bring a lot of racial diversity to the 
table myself, Mr. Chairman.
    Senator Inhofe. All right, Ms. Blackshere?

 STATEMENT OF MARGARET BLACKSHERE, PRESIDENT, ILLINOIS AFL-CIO

    Ms. Blackshere. Thank you very much, my name is Margaret 
Blackshere. I am the President of the Illinois AFL-CIO. I am 
also a part of the Transportation for Illinois Coalition.
    The AFL-CIO, central labor bodies such as the Chicago 
Federation of Labor, and many of our affiliates are a part of 
this organized effort in Illinois, designed to convince you and 
Senator Fitzgerald and our other colleagues in Congress, needs 
no convincing that Illinois deserves more funding to support 
its transportation infrastructure.
    The private sector and labor must depend on Government for 
its transportation system. The Government provides the overall 
planning and resources to develop and maintain our 
transportation system. Our Nation's economy is totally 
dependent on our inter-connected, fully functioning, multi-
modal transportation system.
    It is obvious that a greater investment is needed in our 
infrastructure nationwide, where many of our aging interstates 
and bridges are in poor repair.
    Illinois deserves a bigger share of the Nation's 
transportation funding to more closely reflect the key role we 
play in hosting a critical junction in the Nation's 
infrastructure.
    I cannot over-emphasize how much transportation funding 
matters. Of course, it means jobs, which is one of the reasons 
why I am here today. Of course, it affects our quality of life 
and the cost of goods and services.
    For the thousands of Illinois residents whose jobs will be 
affected by your decisions in Washington, I ask for your help 
in winning increased funding to support Illinois' 
transportation network.
    We here testifying today, and each of us have our own 
constituencies and interests to represent. Mine is organized 
labor, which represents one million members in Illinois. We 
strive to represent the interests of all working people. Yet, 
we are united in our appeal to you for more resources for 
transportation in this country, and for the pressing 
transportation needs in Illinois.
    You, as Senators, must take a global view of the needs of 
our entire Nation, and you will undoubtedly see that Illinois 
merits greater attention and resources to keep our national 
transportation system strong; thank you.
    Senator Inhofe. Thank you, Ms. Blackshere, and certainly, 
there is nothing that can be done as more of a jobs program 
than what we are talking about today.
    Mr. Warfield?

 STATEMENT OF RONALD WARFIELD, PRESIDENT, ILLINOIS FARM BUREAU

    Mr. Warfield. Thank you, Chairman Inhofe and Senator 
Fitzgerald for having this hearing and the opportunity to 
present testimony to you this morning.
    I am a farmer from central Illinois, and the President of 
the Illinois Farm Bureau, which represents three out of four 
farmers in the State of Illinois.
    You have already been told many times about Illinois being 
the crossroads of transportation, so I will not repeat those 
comments that have already been made. But to remain a global 
leader in trade, we obviously need an investment in our 
infrastructure to maintain our competitive advantage.
    With that in mind, I would like to mention several 
mechanisms of transportation that we need investment in, in 
order to maintain that competitive advantage.
    First of all, we believe strongly that the Highway Trust 
Fund should be protected. Funds that were collected from 
highway users for highway purposes should be spent on highway 
projects.
    For example, highway users should not bear the brunt of 
funding recreational trails. Similarly, consistent with that 
philosophy, we support Senator Grassley and Senator Baucus' 
proposal that retains dollars within the Highway Trust Fund, 
while maintaining the incentive for ethanol.
    We feel retention of the tax incentive is needed to foster 
an emerging ethanol industry, and it can help our country 
become energy independent.
    It can create jobs, rural economic development, improve air 
quality, and help farmers receive their income from the market 
place and not from Government programs. But in order to do 
that, we need to ensure that the Highway Trust Fund is 
maintained.
    Similar to that philosophy, we believe that if we are going 
to maintain our exports and a competitive advantage in 
Illinois, 40 to 45 percent of what we produce goes into the 
export market. But to maintain that competitive advantage, we 
have to have investment in our infrastructure.
    Chicago and St. Louis are among the Nation's top 30 ports 
of cargo volume. Unloading, loading, access to ports by road 
rail should be a focus of improvement projects.
    Rail competition and capacity is critical to an efficient 
transportation infrastructure. Short rail lines need assistance 
in their efforts to move grain efficiently. As part of the 
infrastructure and, although it is not a focus of TEA-3, and I 
think I can show that it is relevant, is our river system.
    The locks on the Illinois and Upper Mississippi River are 
nearly 70 years old. It takes far too long to move through 
these antiquated structures. Those delays are estimated to cost 
farmers six cents per bushel.
    Of course, the more it costs to transport grain, the less 
competitive we are to meet the lower costs of South America. 
Argentina and Brazil are obviously making those kinds of 
investments in their infrastructure, and to be competitive, we 
must invest in our infrastructure, as well.
    Barges are the most efficient means of transporting that 
cargo. Just let me give you this as an example. One barge has 
the same capacity of 870 semi loads. That means more barges. 
That means fewer trucks on the road, less congestion, less wear 
and tear on our highways, and cleaner air.
    The Farm Bureau supports the building of 1,200 lochs on the 
Illinois River at Peoria and LaGrange, and at five lower sites 
on the Mississippi. If we succeed, it will create those jobs 
and create jobs in terms of the construction, as well as what 
we do in terms of the transportation afterwards.
    Let me give you an example.
    Senator Inhofe. Well, make it a short example, we are 
running out of time.
    Mr. Warfield. The example I have is, we had a group return 
from China a few years ago that said they cannot even ship corn 
from the northern production area down to southern China, in 
order to meet that demand. We can ship it in there from the 
outside cheaper.
    Today, I can give the same example for Illinois corn and 
soybean meal going to the Carolinas to feed hogs and poultry in 
North and South Carolina. We can bring it in from the outside 
cheaper because we do not have the infrastructure in order to 
get it down the river or by rail to North and South Carolina. 
We need an investment of our infrastructure to maintain our 
competitive advantage in global markets.
    Senator Inhofe. Let me assure you, Mr. Warfield, that I 
doubt if anyone in this room is aware that my hometown of 
Tulsa, Oklahoma is navigable. We are on a navigation way.
    So we are very deeply interested. We understand how it 
affects you and the people you represent, and we are going to 
try to assist you in that respect.
    Mr. Feltes?

STATEMENT OF RICHARD FELTES, CHAIRMAN, NATIONAL STONE, SAND AND 
                       GRAVEL ASSOCIATION

    Mr. Feltes. Good morning, my name is Richard Feltes. I am 
Vice President and co-owner, along with Timothy Feltes, in the 
Feltes Sand and Gravel Company in Albert, Illinois. We 
represent the third generation in a family business that was 
started in 1920 by my grandfather and great uncle.
    Our company currently employs 35 full-time employees. We 
are located west of Chicago in King County, Illinois. A major 
part of our business is supplying sand and gravel products to 
concrete and asphalt producers for use on major highway 
projects within our market.
    I would like to thank you, Mr. Chairman, for your 
leadership through the completion of the fiscal year 2003 
highway funding and the current fiscal year 2004 budget 
process. Given the country's fiscal condition, these are not 
easy battles. However, you have demonstrated the tough 
leadership necessary to win those battles.
    I would also like to thank Senator Fitzgerald for inviting 
me here to showcase the importance of TEA-21 reauthorization to 
all of us here in the great State of Illinois.
    Currently, I serve as Vice Chairman of the National Stone, 
Sand, and Gravel Association; and chairman of the Association 
of Government Affairs Division. As SSGA represents the Nation's 
aggregates industries, producers of crushed stone, sand, and 
gravel, as well as suppliers of equipment and services to 
aggregate producers.
    Our 850 member companies turn out 90 percent of the crushed 
stone and 70 percent of the sand and gravel consumed annually 
in the United States.
    During 2002, a total of 2.73 million metric tons of crushed 
stone, sand, and gravel valued at approximately $14.6 billion 
were produced and sold here in the United States. Our industry 
workforce is made up of 120,000 men and women throughout the 
United States. Virtually every congressional District is home 
to crushed stone sand and gravel operation.
    Proximity to market is high, due to construction costs. So 
70 percent of our Nation's counties include aggregates 
operations. While I appear this morning representing the 
aggregates industry, I also appear as a member of the Board of 
Directors of the Illinois Association of Aggregate Producers. 
IAAP is also a member of the Transportation of Illinois 
Coalition for Highways.
    The Federal Aid Highway Program is one of the United States 
Government's most successful programs. Since 1956, in 
partnership with the States, it has financed construction and 
upkeep of the largest and safest national network of highways 
and bridges in the world.
    No program is more critical to the economy of Illinois than 
the Federal funding for transportation needs. The Illinois 
transportation system plays a pivotal role in the Nation's 
ability to move goods and people because of its geographic 
location and extensive road, rail, airport, and waterway 
networks.
    Consider this, the U.S. highway, bridge, and infrastructure 
has an asset value of $1.4 trillion, and publicly financed 
highway construction, directly or indirectly, is responsible 
for 2.2 million American jobs. The aggregates industry alone 
contributed nearly $43 billion to the gross domestic product in 
2001.
    Senator Inhofe. Mr. Feltes, I will have to ask you to end 
with that, because we are almost out of time.
    Mr. Feltes. Thank you, Mr. Chairman, and I appreciate the 
opportunity to speak.
    Senator Inhofe. I am sorry that we must end the hearing so 
soon.
    Ms. Castle?

    STATEMENT OF RITA L. CASTLE, ISSUES ANALYSIS MANAGEMENT 
                CORPORATION AFFAIRS, CATERPILLAR

    Ms. Castle. Good afternoon, Mr. Chairman, and thank you for 
coming to coming to Chicago on sort of a dreary day to talk to 
us about the importance of highway funding.
    I do not think it would be a surprise to anybody in this 
room that yellow machines, like the one that is sitting here in 
front of the table, have really been a major contributor to 
developing our infrastructure, particularly our highways and, 
to some extent, our bridges, throughout the United States.
    So a strong and viable surface transportation program is 
critically important to our bottom line, about $1 billion a 
year in sales of these products into the industry, to the 
movement of goods and services into and out of our facilities, 
and to the safe transport of our employees.
    I have included in our written testimony some of the 
central Illinois projects that are important to Caterpillar. If 
I could just jump to a few recommendations for you, on the not 
enviable task of reauthorizing TEA-21 this year. We do hope it 
will be done this year, but we realize it is going to be a 
struggle.
    First of all, let me indicate that we hope that we will 
preserve the gains that were made in TEA-21, dedicating all 
revenues into the Highway Trust Fund and the mass transit 
programs, while maintaining the Federal firewalls and the 
budget guarantees that protect the user fees from being 
diverted to non-capital expenditures.
    Second, I believe we must invest the growing balance in the 
Highway Trust Fund, now estimated at about $18 billion, and 
capture revenue loss to the ethanol tax breaks that are 
currently on the books.
    But these measures alone are really not going to meet our 
infrastructure needs and funding needs. So we must consider 
some kind of additional user fee, whether it be indexing the 
motor fuel tax or a straight increase in the motor fuel tax.
    We think that is critically important, and we would simply 
want to echo again what has been said earlier, that we really 
need to have this reauthorization done as quickly as possible, 
hopefully in this fiscal year.
    Senator Inhofe. Let me assure you, we are really trying to 
squeeze as much out of this as we can. We talked about the 
ethanol subsidy, and we have not really closed the door to 
indexing. Nonetheless, we recognize the need for additional 
funds.
    Ms. Castle. Good, and we would be happy to work with you, 
Mr. Chairman, as it moves forward, and with Senator Fitzgerald. 
With that, I will conclude my remarks.
    Senator Inhofe. Thank you, Ms. Castle.
    Mr. Lorig?

STATEMENT OF DAVID LORIG, PRESIDENT, LORIG CONSTRUCTION COMPANY

    Mr. Lorig. Thank you, last but not least.
    Senator Inhofe. That is your place in the line; sorry about 
that.
    Mr. Lorig. That is all right. My name is David Lorig. I am 
President of Lorig Construction, a highway contractor located 
in Des Plaines, Illinois, just outside of Chicago.
    I am also the President-elect of the Illinois Road and 
Transportation Builders Association, the largest association of 
transportation designers, contractors, subcontractors, and 
suppliers in Illinois. Our members employ tens of thousands of 
people in the transportation industry throughout Illinois.
    Currently, our system in Illinois is aging and 
deteriorating. Despite the best design and maintenance 
practices imaginable, the pavement is crumbling and the bridges 
have become perilously deficient.
    Additionally, millions of hours are wasted daily in stress-
creating traffic jams in literally every urban area. Probably 
no where else in the Nation provides a better or worse picture 
of this situation than the Chicago area and the entire State of 
Illinois.
    Additionally, road building means jobs, literally thousands 
of them. Illinois enjoys the dubious distinction of currently 
having one of the highest unemployment rates in the Nation. 
Road and bridge building provides not only constructions jobs 
while the projects are underway, but thousands of additional 
jobs afterwards.
    Illinois is quite unique, and we simply cannot exist 
without a viable and adequately funded national network of 
roads and bridges. Yet, much of that system is congested for 
the better part of the day.
    We are coming dangerously close and, in many cases, have 
already reached the point of businesses not making certain 
investments and individuals not making certain trips merely 
because of congestion. We can and need to do better in 
Illinois.
    Finally, we need to maintain the highest commitment to 
improving traffic operations, both daily and in work zones. 
Last year, 31 people perished in Illinois work zone related 
accidents. We can and need to do better in Illinois.
    As we kick off Work Zone Awareness Week this week, let us 
all resolve to support increased safety in work zones by 
slowing down.
    Please let me summarize. Road building means jobs held by 
thousands of technical and skilled individuals, performing 
often back-breaking dangerous jobs. These people pay taxes and 
make the economic engine called Illinois work.
    However, the system that was created nearly 50 years ago is 
terribly congested, deteriorating, and in dire need of 
technical and financial assistance, designed to maximize the 
public expenditure of funds. In addition, we have to use 
technology innovation, research, and just plain common sense to 
make the system work better.
    The needs of the various States need to be equitably 
addressed so that each State gets what it needs to keep our 
country moving. The Chicago area and the entire State of 
Illinois are at the crossroads of the Nation. Transportation 
problems in the Chicago area and the entire State of Illinois 
have a snowball effect throughout the rest of the Nation.
    Therefore, the needs of Chicago and Illinois must be 
addressed with the highest commitment, both financial and 
otherwise from the Federal Government; thank you.
    Senator Inhofe. Thank you, Mr. Lorig, and I want to thank 
you and all the previous panelists for the time that you have 
given. I am sorry that the votes require us to leave 
immediately. But I also want to thank Senator Peter Fitzgerald, 
who invited me to be here and to attend the first of our 
hearings, right here in Chicago, thank you.
    Senator Fitzgerald. Thank you all very much.
    [Whereupon, the committee was adjourned, to reconvene at 
the call of the chair.]
    [Additional statements submitted for the record follow:]
   Statement of Timothy W. Martin, Secretary, Illinois Department of 
                    Transportation, Springfield, IL
    Mr. Chairman, I appreciate the opportunity to speak before you 
today concerning Illinois transportation needs. I want to thank you for 
taking the time to travel to Chicago to see firsthand Illinois' 
extensive and impressive transportation system. I also want to thank 
Senator Richard Durbin and Senator Peter Fitzgerald for their strong 
support of Illinois transportation. The people of Illinois greatly 
appreciate their efforts to maintain and improve Illinois' world-class 
transportation system.
    Illinois is the transportation hub of the Nation. Given its central 
geographic location in the United States and historical prominence in 
agriculture, manufacturing and commerce, Illinois has developed an 
extensive and intensively used system of transportation and 
transportation services.
    There are over 288,000 lane miles of public highway in Illinois 
that carries over 102 million vehicles miles of travel annually. 
Overall, Illinois ranks third in total highway centerline-miles, third 
in total lane-miles, seventh in vehicles miles of travel, and fifth in 
total population but only eighth in highway funding.
    In addition, Illinois has the second largest public transit system 
in the Nation. The Illinois Department of Transportation (IDOT) 
provides technical assistance and administers State and Federal funding 
to 50 public transit systems with 5,700 transit vehicles serving 
approximately 600 million passengers a year. The largest system, which 
carries more than 95 percent of the transit riders in Illinois, 
operates in northeastern Illinois under the Regional Transportation 
Authority (RTA).
    With its 7,300 route-mile network, Illinois has the second largest 
rail freight transportation system in the Nation, which is the 
principle mode of transport for commodities such as coal and grain. In 
addition, Amtrak provides passenger rail service across the State, 
including 18 State-supported trains that serve more than 15 colleges 
and universities in Illinois. There are 50 Amtrak trains per weekday 
serving 3.6 million passengers a year. Chicago is a major national hub 
for Amtrak and is the transfer point for ten regional and 
transcontinental routes.
    Finally, Illinois' air transportation system, the second largest in 
the Nation, is comprised of 120 public use airports, including 
Chicago's O'Hare International Airport, one of the world's busiest 
airports.
    The extensive system reflects the dominant presence of 
transportation in Illinois where one of every five jobs is related to 
transportation, including construction jobs that are directly created 
by public investment in transportation. In fiscal year 2002 alone, 
86,000 private sector jobs in highway construction, 27,000 jobs in 
public transportation and 3,800 jobs in aviation were created. On a 
national level, for every one billion dollars invested in Federal 
highway and transit infrastructure, 47,500 jobs are created and $6.2 
billion in economic activity is generated.
    IDOT is responsible for the planning, design, construction, 
operation and maintenance of the 17,000-mile State highway system, 
which carries 230 million vehicle-miles of travel daily. IDOT also is 
also responsible for the administration of the local roads and streets 
program.
    One of IDOT's critical responsibilities is keeping the State's 
2,165-mile interstate highway network in good condition. This is an 
extensive highway system, the third largest in the Nation, which serves 
the diverse needs for passenger and freight travel within and through 
the State. More than 50 percent of all goods that are shipped on 
highways move on the interstate system. In addition to their heavy use, 
Illinois' interstates are among the oldest in the Nation. That 
combination increases and accelerates rehabilitation needs.
    The Interstate system is aging and, for a rapidly increasing number 
of segments, in Illinois and throughout the Nation, it is no longer 
economical or efficient to simply patch and resurface pavements. For 
many miles of the Interstate highway system, complete reconstruction is 
now necessary and is very costly.
    For example, 2 years ago, it cost $1.6 million for some partial 
resurfacing on the Dan Ryan Expressway (I-94) in Chicago. The scheduled 
and necessary reconstruction over the same stretch of road will cost 
$66 million per mile. Even the upcoming reconstruction of a basic four-
lane urban Interstate through Peoria, Illinois is estimated to cost $50 
million per mile.
    Illinois has identified serious Interstate reconstruction and 
capacity needs through the year 2017. From 2000 to 2008, we have or we 
will reconstruct and add capacity for 125 miles of the Interstate 
highway system at a cost of $2.9 billion. From 2008 to 2012, we will 
need to reconstruct and add capacity for 460 miles at an estimated cost 
of over $8 billion. Finally, from 2012 to 2017, we plan to reconstruct 
and add capacity to another 370 miles at an additional cost of $6.6 
billion.
    IDOT is also responsible for the planning, design, construction, 
operation and maintenance of nearly 26,000 bridges, of which 
approximately 5,000 are deficient. This number does not reflect the 
need for new bridges, such as the new Mississippi River Bridge (MRB).
    Southwestern Illinois and St. Louis, Missouri need another high 
capacity, urban-core river crossing. The eight-lane Poplar Street 
Bridge, the only core-area interstate Mississippi River crossing is 
severely overburdened, and its 40-year-old design is now substandard. 
The bridge carries traffic for three interstate highways: I-55, I-64, 
and I-70. These roads also share the same two-mile approach to the 
bridge on the Illinois side, which results in extreme congestion during 
peak travel periods.
    If no improvements are made, projections indicate severe traffic 
congestion on all key interstate highway segments by the year 2020. 
Without the new bridge, rush hour congestion will double, lasting for 3 
hours; the average delay will increase from 10 minutes per vehicle 
today to 55 minutes in 2020. This gridlock could force commerce to the 
edges of the region, jeopardizing growth and development in the urban 
core. The MRB is necessary to sustain the kinds of growth envisioned by 
St. Louis 2004, Downtown Now!, the National Stockyards redevelopment 
and related core-area plans and proposals.
    MRB land acquisition and Phase II engineering for contract plans 
are under way at a cost of $38 million. Continuation of this work, as 
well as other pre-construction work, is included in Illinois' fiscal 
year 2003-FY2007 Proposed Highway Improvement Program at a cost of 
$18.3 million. Missouri and Illinois are sharing the engineering costs 
for contract plans.
    Construction of the MRB, including Illinois and Missouri 
connectors, is estimated to cost more than $1 billion. Illinois and 
Missouri will require special Federal funding over and above regular 
program funds to pay for the construction of the MRB.
    Preserving the condition and performance of the Interstate highway 
system, as well as bridges, is a key priority in Illinois and 
throughout the Nation. The Discretionary Interstate Maintenance and 
Discretionary Bridge programs are essential to address the 
extraordinarily high cost Interstate and bridge projects that require 
exceptionally large levels of funding over short periods of time. Such 
projects cannot be practically accommodated within a State's regular 
formula apportionment.
    Unfortunately, the need for Discretionary Interstate Maintenance 
and Discretionary Bridge funds is far greater than the programs' 
current funding levels. Many qualifying and deserving projects go 
unfunded under today's program levels. The magnitude of requests for 
these two programs clearly demonstrates the need for increased funding. 
We urge the committee to provide increased funding levels in the 
reauthorization legislation to meet the funding needs of all qualifying 
interstate maintenance and bridge projects.
    Illinois also supports an increase for Intelligent Transportation 
System funding to assist us in providing homeland security to the 
citizens of Illinois and the traveling public. Only through new and 
expanded technology can we provide the level of security the public 
demands.
    One of the most significant achievements of the Transportation 
Equity Act for the 21st Century was the implementation of provisions 
that ensured that all Highway Trust Fund (HTF) revenues were promptly 
utilized for highway and transit purposes as intended. We believe that 
this precedent should absolutely be followed in the reauthorization 
legislation.
    Specifically, we recommend that the reauthorization legislation set 
total highway authorizations based on total projected HTF-Highway 
Account revenue. Second, it should utilize the existing ``firewall'' or 
other budget mechanisms to ensure that all funds authorized for each 
year can be spent. Third, it should refine the Revenue Aligned Budget 
Authority mechanism to curtail large swings in the annual adjustment.
    Similarly, we believe that the reauthorization legislation should 
set transit authorization levels based on projected Mass Transit 
Account receipts along with a continued and guaranteed level of general 
funds. The reauthorization legislation should also continue the logical 
mechanism in TEA-21 and previous authorizations of distributing transit 
formula funds based on needs factors, such as population, bus vehicle 
miles and fixed guideway route and vehicle miles.
    TEA-21 provided an historic increase in Federal surface 
transportation funding, increasing highway funding by 44 percent. 
Unfortunately, Illinois received only a 29 percent increase in funding, 
the third lowest increase in the Nation. Despite the size and 
importance of Illinois' transportation system, our overall share of 
funding actually decreased under TEA-21.
    In response, the Governor of Illinois, along with the Illinois 
General Assembly, created Illinois Funding for Infrastructure, Roads, 
Schools and Transit, commonly referred to as Illinois FIRST. Illinois 
FIRST is a 5-year, $12 billion infrastructure-funding program that 
increased State revenues for improvements to our roads, transit 
systems, airports and passenger and freight railroads.
    Under Illinois FIRST, the State has increased funding for its 5-
year highway program by over $3.7 billion and has added $2.1 billion in 
funding for its transit program. Overall, Illinois FIRST has added over 
$8 billion worth of transportation related infrastructure improvements 
in a 5-year period, which will end June 30, 2004. Specifically, over 
the 5-year life of Illinois FIRST, we were able to:
    <bullet>  Repair and rehabilitate 1,500 bridges,
    <bullet>  Resurface 4,415 miles of roadway,
    <bullet>  Rehabilitate 795 miles of Interstate,
    <bullet>  Reconstruct two rapid transit lines in the City of 
Chicago, and
    <bullet>  Extend and modernize three commuter rail lines in the 
suburban Chicago area.
    Most importantly, Illinois FIRST has allowed us to better leverage 
limited Federal funding and has helped fill in the gaps in Federal 
funding. However, Illinois FIRST is set to expire in 2004 and remaining 
revenue sources are unable to match the growth in inflation. At the 
same time, Illinois, like so many States across the Nation, is facing a 
significant budget deficit.
    As a result, we believe now is the time to substantially increase 
Federal highway and transit funding resources to adequately address 
transportation needs in Illinois and throughout the Nation. Regardless 
of how revenues are increased, there is no question that revenues must 
be increased. We urge the committee to carefully consider all options 
for increasing Federal funding for transportation infrastructure 
improvements.
    We in Illinois are prepared to support the committee's efforts to 
continue the successes of TEA-21 and increase funding for the Federal-
aid surface transportation programs in the reauthorization legislation. 
We appreciate your commitment to Illinois' and the nation's world-class 
surface transportation system.
                               __________
   Statement of Commissioner Miguel d'Escoto, Commissioner, Chicago 
                      Department of Transportation
    Good Morning, Mister Chairman, Senator Durbin and Senator 
Fitzgerald. My name is Miguel d'Escoto and I am Commissioner of the 
Chicago Department of Transportation. Chairman Inhofe, on behalf of 
Mayor Daley, I would like to welcome you to Chicago and thank you for 
taking time to travel to our City to discuss our many important 
transportation needs. I would also like to thank Senators Durbin and 
Fitzgerald for their hard work and efforts on our behalf.
    As the largest retail, commercial and residential center in the 
Midwest, and as a principal transportation hub for the Nation, the City 
of Chicago is a key economic engine for the entire country. A safe and 
viable transportation network is absolutely essential in maintaining 
and expanding the economic vitality of Chicago and assuring the timely 
distribution of goods and people throughout the city, region and 
nation.
    The reauthorization of TEA-21 provides a unique opportunity for 
Chicago. As our nation's third largest city, we take pride in our 
extensive transportation network and rely heavily on the Federal 
Government for assistance in achieving new goals as well as maintaining 
our network. Therefore, with the provision of adequate funding and the 
passage of appropriate policies, we look forward to this 
reauthorization bill as an avenue to strengthen and enhance existing 
programs while identifying new needs.
    The most important issue for the City of Chicago is sufficient 
Federal funding for transportation programs. Chicago's transportation 
system, though among the finest in the world, is in need of constant 
maintenance, major rehabilitations and beneficial improvements. In 
order to assure that our system continues to provide safe, efficient 
and environmentally sound transportation to our residents, businesses 
and visitors, we need to partner with our State and Federal departments 
of transportation in securing the necessary funding for our projects.
    First and foremost, Chicago, and other cities and States across the 
Nation need significant increases in national highway and transit 
funding levels in order to meet our needs for rehabilitation and new 
capacity.
    For the City of Chicago one Federal program of particular 
importance is the Highway Bridge Program. Under TEA-21 the 
Discretionary Highway Bridge program was funded at $100 million 
annually nationwide with $25 million of that set aside for seismic 
retrofit. One bridge project alone in Chicago, the reconstruction of 
Wacker Drive, is estimated to cost $500 million: $250 million for the 
East-West segment that we successfully re-opened last November on time 
and on budget, and another $250 million for the North-South segment 
which we plan on reconstructing starting in 2004. Even without 
accounting for Wacker Drive, we have identified $573 million in unmet 
bridge needs in the City of Chicago alone. With more movable bridges 
than any other city on the world, Chicago is highly dependant on its 
network of bridges.
    Another program of particular importance is the Congestion 
Mitigation and Air Quality Program. This vital program funds many of 
our pedestrian, bicycle and transit projects as well as the State of 
Illinois' highly effective vehicle inspection and maintenance program. 
With more cities anticipated being eligible for CMAQ funding, we urge 
the committee to increase the funding to a level that will keep 
existing recipients at their current or increased levels to meet our 
air quality needs.
    The CMAQ program is a highly effective program, but it can be made 
even better. We support broadening CMAQ eligibility to include 
bottleneck elimination and traffic flow improvements. These types of 
projects can have a profound impact on congestion and air quality.
    We also support CMAQ funding eligibility for the rehabilitation of 
transit stations in America's older transit cities. We have encountered 
some difficulty in securing Federal approval for regionally approved 
CMAQ projects for transit station reconstruction. By modernizing and 
improving these stations, we can make transit usage more attractive to 
many that currently do not utilize this energy-efficient and 
congestion-reducing mode.
    And last regarding CMAQ, we urge you to remove the 3-year 
limitation on funding for operations. The vehicle inspection and 
maintenance program has proven to be among the most effective programs 
for improving air quality. However, we are currently in the third year 
of CMAQ funding for this program and we have been unable to identify an 
alternate source of funding to date.
    We also strongly support maintaining the firewalls. By doing so 
Congress will be guaranteeing that funds collected for transportation 
will go toward transportation improvements. The firewalls also allow 
government agencies to confidently plan ahead with the realization that 
the funding that is expected to be available for transportation 
purposes, will be available.
    Lastly, freight rail is an often overlooked component of our 
nation's transportation network. However, it is a critical component of 
that network, and one for which Chicago is not only the national hub 
but also the national bottleneck. A freight rail infrastructure program 
is needed to address this issue and to accomplish the numerous projects 
the City of Chicago is currently negotiating with the Class I 
railroads. It will increase safety at our nation's rail-highway grade 
crossings and ease congestion on our railways and our roadways. A 
Federal program for rail infrastructure would make tremendous 
improvements to this currently unacceptable situation.
    During the reauthorization process I ask that you keep in mind the 
importance of transportation to our nation's economy and the crucial 
role that the State of Illinois and the City of Chicago play in the 
national transportation network.
    Thank you for your time.
                               __________
   Statement of Doug Whitley, President, Illinois Chamber of Commerce
    Good Morning. Thank you, Chairman Inhofe and Senator Fitzgerald 
(and Senator Durbin) for giving us the opportunity to address this 
important issue today. My name is Doug Whitley, and I am the president 
of the Illinois State Chamber of Commerce. However, I am speaking to 
you today on behalf of more than 30 statewide and regional business and 
labor organizations from throughout Illinois who are members of the 
Transportation for Illinois Coalition.
    TFIC is a broadly based group of interests that supports the need 
for additional funding for all forms of transportation in Illinois, 
including transit and rail as well as highway funding. However, my 
emphasis this morning will be on highways, as that is the focus of your 
committee's responsibility.
    Transportation is a vital industry in Illinois and plays a key role 
in determining the health of our economy. The transportation industry:

    <bullet>  contributes to efficient manufacturing operations by 
allowing for just-in-time supply deliveries
    <bullet>  contributes one in six jobs to the State's workforce, and
    <bullet>  contributes 5.3 percent of the State's gross product

    In these tough economic times, transportation funding increases can 
go a long way toward boosting the State's economy. And I think it's 
important to underscore that public works is a significant part of what 
government does.
    Public works projects have tremendous impact on the economy. First, 
and foremost, they put people to work, and they do it quickly.
    Second, public works result in a well-maintained infrastructure 
that allows the efficient movement of goods and produce throughout the 
Nation. Maintaining this infrastructure requires constant vigilance.
    We currently find ourselves with a heightened sense of awareness 
about the need for a strong transportation network for purposes of 
public safety.
    Illinois is uniquely positioned in the center of the Nation as a 
critical juncture, for goods and produce traveling north and south and 
east and west.
    While increased funding helps our economy, Illinois isn't the only 
beneficiary when our transportation network is well-funded. We are a 
microcosm of the Nation with respect to our transportation system.
    Our transportation network is key to the nation's ability to move 
people and goods because of its geographic location and extensive road, 
rail, airport and waterway network. Let me offer some examples.

    <bullet>  The State hosts the nation's third largest interstate 
highway network with five of the transcontinental interstates moving 
traffic through Illinois
    <bullet>  Two of the nation's top rail freight gateways and six of 
the nation's seven major railroads converge in Illinois, with the 
Chicago region serving as the nation's rail hub.
    <bullet>  Illinois is one of the nation's major multi-modal centers 
with significant trucks-on-flat-car facilities and other truck-railroad 
crossing points, a fact which Congressmen Lipinski understands and 
appreciates.

    In light of the importance transportation funding holds for 
Illinois as a State, and as a key transportation hub for the Nation, 
the Transportation for Illinois Coalition has united behind a statement 
asking that you and your colleagues increase funding to transportation 
generally AND increase Illinois' share of the national total. These 
increases we are requesting are justified in light of Illinois' 
dominant and critical position in the nation's transportation 
infrastructure.
    A year ago, recognizing that the State's, and the nation's, economy 
benefits greatly from increased spending on our transportation 
infrastructure, I joined with organized labor and with like-minded 
business and civic organizations to form the TFIC. We are united behind 
the need for more transportation funding in Illinois and will not miss 
the opportunity this reauthorization presents. The coalition has 
members from throughout the State and from diverse points of view and 
backgrounds. But we all understand the importance of what you are 
considering and how it will impact our State.
    In addition to our broad-based support for additional funding, the 
TFIC supports the following general principles.
    TFIC supports increasing Illinois' share of transportation funding 
significantly above the 3.38 percent guarantee in TEA-21.
    TFIC supports the ``firewalls'' contained in TEA-21 to ensure that 
funds that are generated by highway users and other transportation-
related revenues are spent only on transportation needs
    TFIC supports maintaining the current highway/transit funding ratio 
of 80-20.
    And TFIC supports crediting the Highway Trust Fund with the 
``earned interest'' on its unexpended balances.
    I appreciate this opportunity to address your committee and would 
be happy to try to answer any questions you may have.
                               __________
  Statement of Jim Pennekamp, Executive Director, Leadership Council 
                         Southwestern Illinois
Introduction
    The Leadership Council Southwestern Illinois respectfully submits 
this written testimony to Senator James Inhofe for the April 7, 2003 
U.S. Senate Field Hearing entitled ``Illinois Transportation: The 
Crossroads of our Nation.'' The Leadership Council Southwestern 
Illinois is a regional not-for-profit economic development corporation 
serving the southwestern Illinois counties of Madison and St. Clair. 
The Council's members include leaders from government, business, labor 
and education. The organization is best described as a public/private 
sector partnership organized to encourage business investment and 
expansion within Madison and St. Clair counties. The relationship 
between transportation improvements and private sector investment was 
described by Illinois' favorite son, Abraham Lincoln, when he said 
``Commerce follows transportation.'' Transportation is the foundation 
issue supporting the economic vitality and security of the United 
States. The ability to maintain and improve surface transportation, 
specifically roads and bridges, is essential if we are to remain 
economically vital and globally competitive. Today there are huge 
challenges in maintaining and improving our transportation system. TEA-
21 reauthorization is an opportunity to aggressively address these 
challenges.
Transportation for Illinois Coalition
    The Transportation for Illinois Coalition brings business and labor 
together to speak with one voice regarding Illinois transportation 
funding needs. The Leadership Council Southwestern Illinois is a member 
of the coalition and serves on the steering committee. The Coalition 
focuses on principles and program concepts that will enable 
transportation leaders to move forward with a common purpose to obtain 
maximum Federal funding to meet Illinois infrastructure needs.
Reauthorization Legislation
    TEA-21 reauthorization legislation should set total highway 
authorizations based on total projected highway trust fund-highway 
account revenue. It should utilize the existing ``firewall'' to ensure 
that all funds authorized for each year can be spent. In addition, it 
should retain the Revenue Aligned Budget Authority mechanism with 
refinements to curtail large swings in the annual adjustment. The 
reauthorization should address the growing need for reconstructing the 
interstate system. This growing national problem requires focused 
attention and additional Federal funding should be incorporated into 
the reauthorization legislation. Finally, there are important 
individual projects which, by nature of their size, scope and impact, 
take on national significance. These ``mega'' projects should be ``over 
and above'' regular funding for general highway improvement purposes. 
Reauthorization legislation should exclude such special funds from 
overall highway funding adjustments such as the TEA-21 minimum 
guarantee.
New Mississippi River Bridge: Connecting Missouri and Illinois at 
        Downtown St. Louis
    The most significant surface transportation challenge in 
southwestern Illinois is the Mississippi River bridge system. The 
solution to this challenge is the construction of a new Mississippi 
River bridge with the relocation of Interstate 70, the construction of 
an Interstate 64 connector and related improvements in St. Louis, 
Missouri (Attachment I). Given the size, scope and national 
significance of this project, it qualifies as a ``mega'' project and 
deserves special funding.
    Thirty-five years ago, four bridges with a total of 22 vehicle 
lanes crossed the Mississippi River in the core of the metropolitan 
area. In 2003, only two bridges remain open with a total of 12 vehicle 
lanes. The loss of vehicle lanes across the Mississippi River is now 
threatening the free flow of national commerce and emerging as a 
national security threat. The bi-state Missouri-Illinois St. Louis 
metropolitan area is a crossroads for national commerce. It is the 
second largest freight hub in the Midwestern United States (Attachment 
II). Four interstate highways, I-70, I-55, I-40 and I-44 converge in 
the core metropolitan area facilitating the flow of commerce throughout 
the Nation. However, three of those interstates are routed over one 
Mississippi River bridge. In fact, the bi-state St. Louis region is the 
only major metropolitan area in the country that routes three 
interstate highways over one bridge. The vulnerability of the 
interstate system through St. Louis was brought to light in a recent 
Post-Dispatch article (Attachment III) citing Mississippi River bridges 
as potential terrorist targets. The March 27, 2003 article stated that, 
``Homeland Security officials have long recognized the Poplar Street 
Bridge as a potential target. It carries three interstates--55, 64 and 
70--and accommodates about 35 percent of the car and truck traffic 
across the Mississippi River in the St. Louis region.''
    The only core area interstate crossing of the Mississippi River, 
the eight-lane Poplar Street Bridge, is severely overburdened. Its 
capacity is inadequate to meet the needs of the through and local 
motorists, including truckers, traveling on and between I-55, I-44, I-
64 and I-70. Its 30-year-old design is now substandard. Illinois 
Department of Transportation traffic projections show conditions in the 
Poplar Street Bridge corridor will continue to worsen, indicating 
traffic failure on all key interstate highway segments by the year 
2020.
    The new Mississippi River bridge project will yield some 6,000-
person years of construction jobs and will create another 15,000-person 
years of indirect and induced employment. Its income effect on the 
local economy will be in the range of $1.2 billion. The project will 
reduce driver travel time and distance, yielding $52 million in annual 
user cost savings. In addition, approximately $4.6 million per year 
will also be realized as a result of reduced traffic accidents.
Project Support
    The project enjoys strong support in both the Illinois and Missouri 
portions of the St. Louis metropolitan area. Both the Illinois 
Department of Transportation and the Missouri Department of 
Transportation have identified the project as a high priority for 
Federal funding. The total cost for the project, including the new 
Mississippi River bridge, the relocation of I-70, the I-64 connector 
and related improvements in St. Louis, Missouri is projected to be $1.6 
billion. Of that total, $300 million has already been committed with 
key elements of the project moving forward. The Leadership Council 
Southwestern Illinois has been a strong advocate for the project since 
1992 when initial studies began. In 1996 those studies concluded that a 
new bridge north of downtown St. Louis and associated roadway 
improvements were needed. Location and environmental studies were 
completed in 2000 with a positive record of decision issued in 2001. 
The goal now is to secure discretionary Federal funding, to complete 
this needed project, over and above regularly apportioned Federal 
dollars to the States of Missouri and Illinois.
    On behalf of the Leadership Council Southwestern Illinois, I would 
like to thank Senator Inhofe and members of the Senate field hearing on 
surface transportation for the opportunity to share our views and 
comments on transportation improvements important to southwestern 
Illinois. The Leadership Council looks forward to working with members 
of this committee and the U.S. Congress in crafting surface 
transportation legislation that meets the needs of Illinois, the St. 
Louis bi-state metropolitan area and the Nation.
                                 ______
                                 
                            [March 27, 2003]
                Threat prompts police to watch 2 bridges
                  (By Bill Bryan of the Post-Dispatch)
    St. Louis police have assigned officers to watch two Mississippi 
River bridges 24 hours a day after a captured al-Qaida leader told 
interrogators about what Chief Joe Mokwa described Wednesday as a 
``generic threat.''
    ``We have uniformed officers looking for anything unusual,'' Mokwa 
said. He declined to say which of the seven bridges are getting the 
attention or how the two were chosen.
    Homeland security officials have long recognized the Poplar Street 
Bridge as a potential target. It carries three interstates--55, 64 and 
70--and accommodates about 35 percent of the car and truck traffic 
across the Mississippi in the St. Louis region.
    St. Louis also has two rail-only bridges, the Merchants and 
MacArthur, which get little public notice but play a vital role in 
national commerce.
    Mokwa said the FBI alerted him about 2 weeks ago. The information 
came from Khalid Shaikh Mohammed, a high-ranking al-Qaida member who 
was captured March 1 in Pakistan.
    Mohammed reportedly told officials that al-Qaida was interested in 
hitting symbolic landmarks and named the White House, the Israeli 
embassy in Washington, the Sears Tower in Chicago and bridges in 
Manhattan, St. Louis and San Francisco.
    Thomas E. Bush III, special agent in charge of the FBI's office in 
St. Louis, confirmed the report Wednesday and emphasized, ``There are 
no specific threats to any bridge in the St. Louis area.''
    He added, ``There has been a lot of nonspecific information that 
has come out but never substantiated. In this case there's no timetable 
given, nothing specific.
    ``You have to be careful in situations like this not to overreact. 
You don't want to create panic. There have been a number of these kinds 
of reports, and you have to take them in context.''
    ut even vague threats are handled seriously, Bush said. ``You're 
damned if you do, and damned if you don't. It's better to err on the 
side of caution.''
    The FBI ``took necessary steps'' that included notifying local 
police, he said.
    Mokwa said that after the report, police photographed and studied 
the bridges. He would not discuss how officers are monitoring them.
    Illinois State Police Capt. Richard A. Woods, commander of District 
11 in Collinsville, said he was aware of the terrorist alert, but he 
declined to say how his agency might be involved.
    In June, security at the Edward Jones Dome downtown was tightened 
after reports that people with ties to unspecified terrorist groups had 
used an Internet site to gather information about it and the RCA Dome 
in Indianapolis.
    Bill Eubanks, then special agent in charge of the FBI here, called 
that information ``very vague.'' Nothing came of it.
    Besides the Poplar Street, Merchants and MacArthur, there are four 
other Mississippi River bridges in the city. Two, the New Chain of 
Rocks (I-270) and King bridges, carry cars and trucks. The Eads is used 
only by MetroLink trains, although it has a road deck under 
reconstruction. The McKinley is closed for repairs.
    There are two more bridges in the region not in the city: the Clark 
Bridge, linking St. Charles County to Alton, and the Jefferson Barracks 
Bridge, linking south St. Louis County to Monroe County.
                               __________
 Statement of Ryan Petty, President, Rockford Area Chamber of Commerce
    Mr. Chairman, Thank you for the opportunity to present before you 
today. My name is Ryan Petty, I am president of the Rockford Il, Area 
Chamber of Commerce and the Rockford Area Council of 100, an Economic 
Development agency in the Rockford, Illinois area. I would like to 
thank all of the elected officials, and volunteers, for helping me 
prepare this testimony today.
    I am here today to represent Northern, and Northwest Illinois in a 
collaborative effort to enhance the highway infrastructure in Boone, 
Ogle, Winnebago, Stephenson, Jo Daviess, and Carroll counties, bordered 
by the western Chicago suburbs and the Mississippi river.
    The State of Illinois is located at the crossroads of America and 
is at the very heart of the nation's transportation network.
    Despite our geographic importance to the national transportation 
system, our State is suffering from a failing and incomplete 
interstate, and State highway system. The needs of our system are 
representative of the need for our State to have the financial 
resources it needs to upgrade that system.
    Our Northern Illinois region is strategically located at a 
crossroads of the State of Illinois transportation system,.
    We are part of three important highway corridors, the Interstate 90 
corridor connecting Chicago with the Northwestern United States, the 
Interstate 39 corridor, a world class logistics center serving Chicago, 
Minneapolis, Indianapolis, Madison, and Milwaukee, and U.S. Highway 20, 
full of unrealized potential to connect Northwest Illinois and South 
Western Wisconsin to Iowa and the Interstate 35 NAFTA Corridor.
    Our top regional transportation priority, United States 20 from 
Freeport to Galena Illinois is the final piece of a stretch of highway 
running from Chicago through Iowa connecting with I-35, a major north 
south artery in our country. It forms the final piece of the puzzle to 
allow for people and products to move efficiently and safely east and 
west through our region.
    Some important Facts about U.S. 20:

    <bullet>  Our region has pursued a 4-lane U.S. 20 for the past 50 
years.
    <bullet>  IDOT numbers show there are more than 2 million people 
using the present decrepit highway annually.
    <bullet>  More than 200 accidents occur every year on this stretch 
of roadway.
    <bullet>  Tragically, there have been dozens of fatalities over the 
past decades on the current U.S. 20. One of those fatalities being the 
late Dr. Ruth Smith, President of Highland Community College.
    <bullet>  Galena, in northwest Illinois is one of the biggest 
tourist draws in Illinois after the City of Chicago and relies almost 
exclusively on U.S. 20
    <bullet>  In 1991 the U.S. Congress approved funding for an 
Environmental Impact Statement (EIS) which is now completed.
    <bullet>  In 2002, local agencies, with the help of a professional 
consultant identified 14 regional initiatives to contribute to the 
economic future of the region. U.S. Highway 20 is one of the 14. 
Officials from 5 counties, 4 in Illinois and 1 in Wisconsin have 
identified this project as a priority:

    A 4-lane U.S. 20 will be a badly needed economic development engine 
to drive growth in our State and region.
    The unemployment rates in our region as of January 2003 averaged 
8.6 percent. Unemployment in the City of Freeport was over 10 percent, 
well above the State and Federal average. Since 1998, our region has 
lost more than 8,000 well paying manufacturing jobs--almost 20 percent 
of our entire manufacturing base.
    Both Congressman Manzullo and Congressman Lipinski have expressed 
support for the U.S. 20 project. This is good news on the House side, 
We need your support in the Senate.
    Along with U.S. 20, congressman Manzullo has requested funding for 
three high priority projects which we support within Winnebago County.
    The North Main Street project (Illinois 2) will widen a 6 mile 
stretch of this congested major thoroughfare to 4 lanes. It will ease 
traffic congestion, and perhaps more importantly, improve safety at a 
high accident intersection. This project has been on the books at the 
Department of Transportation for more than 30 years. Engineering work 
is complete and construction on this project could begin as early as 
2004.
    The West State Street (Business U.S. 20) corridor reconstruction 
project will reconstruct and widen 4 mile stretch of State highway that 
is the western entry to the center of the Rockford Urban area. West 
State Street is one of four 30-year old entryways to the City of 
Rockford, this one serving our underdeveloped west side.
    Recently, Winnebago County has completed a beltway project around 
the city, this beltway, coupled with the award of a HOPE VI grant shows 
that the City of Rockford And Winnebago County are committed to 
revitalizing this section of our community.
    Congressman Manzullo has also requested engineering funds to remove 
a toll both on Interstate 90. The convergence of Interstate 90 and 
Interstate 39 creates significant congestion due to a poorly located 15 
cent toll plaza. The bottle neck has been the source of numerous truck 
rollovers and has caused tremendous delays costing companies millions 
of dollars in lost time. To create further congestion, Union Pacific 
will open its new Global III Inter-modal Facility in Rochelle, IL this 
year, adding over 1,000 additional truck trips per day onto the 
interstate system.
    Our State must have the funding it needs to solve these problems 
and we must make use of every Federal resource to improve this 
infrastructure. Our congressman Manzullo has asked for each of these 
projects as earmarks in the upcoming legislation. The award of any 
earmarks must not jeopardize existing programs and State funding. That 
will not solve the problem. If our State and our region is to continue 
to contribute to the national economy, increase our share, and funding 
for projects of regional and national implication must be over and 
above the regular guarantee for general highway improvements.
    Mr. Chairman, I appreciate the opportunity to present before you 
today. The projects in Northern and Northwest Illinois are prime 
examples of how an investment in infrastructure can preserve jobs, even 
entire regions.
    Thank You.
                               __________
   Statement of Denise Bulat, Director, Bi-State Regional Commission
            i-74 mississippi river crossing corridor project
    Thank you for the opportunity to speak before this committee. 
Mississippi River crossings continue to be the highest transportation 
priority in the Quad Cities with over 150,000 vehicles crossing the 
Mississippi River on an average day and half of these crossings on the 
I-74 Bridge alone. In your packet, Exhibit I is a map indicating the I-
74 Bridge location.
    There is an urgent need to address congestion in the I-74 Bridge 
corridor. This bridge is carrying almost 74,000 vehicles per day and is 
significantly over capacity. The bridge itself is functionally obsolete 
and was not constructed to acceptable standards for Interstate driving 
conditions. The Iowa bound span was built in 1935 and the Illinois 
bound span was built in 1959 utilizing the 1939 design. Both spans were 
built for local non-interstate traffic and never met interstate 
standards. Consequently, the bridge has no shoulders and the ramps 
nearest the bridge have inadequate weaving lanes. Approximately 125 
crashes have occurred on and near the I-74 Bridge in a 1 year period. 
In fact, the I-74 corridor accident rate is three times the national 
average in some locations. Improvements to address these capacity and 
safety concerns are necessary. Exhibit II, in your packet, illustrates 
the myriad of deficiencies and safety concerns in the I-74 Bridge 
corridor.
    The I-74 Bridge is extremely important to the commerce of the area. 
Interstate 74 is the major north/south corridor in the Quad City area 
and provides for the movement of people and goods to employment 
centers, entertainment venues and commercial and industrial sites. The 
economy of the Quad Cities depends on adequate crossing capacity as we 
seek to serve the metropolitan population of 350,000. Over 50 percent 
of employed Quad Citians work in a community outside of their 
residence. Over 20 percent of those employed work outside of their 
State of residence.
    The I-74 Bridge provides access to one of the few military arsenals 
in the United States, Rock Island Arsenal. It provides connectivity 
between regional commercial centers and is also important to the 
economy of the States of Illinois and Iowa as it provides for 
interstate commerce and connections to major U.S. markets. The Quad 
Cities has a 37 million person market area within a 300-mile radius 
that includes 13 percent of the nation's population. Exhibit III 
includes captioned photographs visually showing the impacts of problems 
along the I-75 Bridge corridor.
    The I-74 Corridor is part of the National Highway System and runs 
from 53d Street in Davenport, Iowa to 23d Avenue in Moline, Illinois, 
over five miles. The I-74 Corridor Study is the result of a Major 
Investment Study, conducted between 1996 and 1998, that examined 
crossing alternatives in the Quad Cities. The I-74 Corridor Study has 
analyzed solutions designed to improve traffic flow and address safety 
issues along the I-74 corridor. The draft Environmental Impact 
Statement (EIS) will be completed in the Summer of 2003. The balance of 
the work on the Final EIS and Record of Decision is expected in 2004, 
with completion in 2005. The project is being funded jointly by the 
Iowa and Illinois Departments of Transportation in close coordination 
with other Federal, State and local officials. The appropriation of 
$14,000,000 in Federal funds over the past few years has made these 
efforts possible.
    Although final project costs are still being developed it is 
estimated that they will total $600 to $650 million for the entire 
corridor. Authorization of this project in the 2003 Transportation Act 
is requested. In addition to the identification of this project as a 
high priority need in the 2003 Transportation Act, it is also requested 
that significant discretionary programs be established for bridges and 
interstate maintenance in the next transportation act to assist in 
funding the I-74 corridor improvements. Again, thank you again for the 
honor to speak to your today about this important transportation issue.
 iowa interstate railroad improvements, wyanet connection and midwest 
                       passenger rail initiative
    The Iowa Interstate Railroad is in need of repair for both freight 
and passenger purposes. Current service on the Iowa Interstate is 
approximately 40 miles per hour between Wyanet, Illinois, through the 
Quad Cities, to Omaha. In addition, a railroad connection between the 
Burlington Northern Santa Fe and the Iowa Interstate Railroad is needed 
in Wyanet, Illinois.
    The Illinois DOT commissioned a preliminary engineering study to 
determine the costs of the needed improvements. The Wyanet connection 
is estimated to cost $3.9 million dollars and is considered a key 
intersection to address both passenger and freight needs. The costs of 
improvement to the Iowa Interstate Railroad are estimated at $28.9 
million. This improvement would increase service along the corridor 
from approximately 40-mile per hour service to 79-mile per hour 
service.
    Further, the Quad Cities is not currently served by passenger rail. 
The Midwest Passenger Rail Initiative Study was conducted by nine 
Midwest State DOT's and the Federal Railroad Administration to consider 
the best opportunities for passenger rail service using Chicago as a 
hub. The consultant study proposed a system that would generate high 
levels of ridership and would recover the majority of its operating 
costs (refer to the map in the Addendum).
    Communities in the Quad City area have formed a coalition with 
neighboring jurisdictions in Iowa and Illinois to promote the 
development of passenger rail service along the Interstate 80 corridor. 
Implementation of service would help alleviate congestion on Interstate 
80 and the resulting railroad improvements could also serve freight 
transportation. According to the American Association of State Highway 
and Transportation Officials (AASHTO), 16 percent of the nation's 
freight is carried by railroads. Unless $53 billion or $2.65 billion 
annually is provided to augment private railroad investment, this 
percentage will not be maintained within the next 20 years. The result 
would be the transfer of 450 million tons of freight to the highway 
system costing $238 billion in highway improvements over the 20-year 
period.
    Leaders recognize the issues related to the provision of passenger 
rail service in the country and encourage timely resolve to these 
issues so that both existing and future passenger rail service needs 
can be addressed. Consideration should be given to the following: 
establish a dedicated, multi-year Federal capital-funding program for 
intercity passenger rail similar to the Federal highway and aviation 
programs; establish a Federal policy to preserve and improve a national 
passenger rail system addressing new efficiencies, innovation and 
responsiveness; and fund implementation of this national passenger rail 
system.
                               __________
  Statement of Hon. Thomas Marcucci, Mayor, City of Elmhurst, Illinois
    Honorable Chairman Inhofe, Senator Fitzgerald, Members of the 
committee, I am Tom Marcucci, Mayor of the City of Elmhurst, Illinois. 
I am honored to be with you today to talk about transportation in 
northeastern Illinois.
    Soon after I was elected in 1993, I realized that being Mayor 
involved much more than the 10 square miles that make up my suburban 
town in DuPage County. I realized that mayors, unlike any other local 
elected official, have the opportunity and responsibility to address 
regional issues. Virtually every regional body we have created to deal 
with area-wide issues, from transportation to environment to planning, 
includes mayors on boards, committees and advisory panels. In fact, 
mayors are often the only elected officials on these decisionmaking 
bodies.
    I am here today representing one of those regional organizations--
CATS. CATS is not, as you may be thinking, the Broadway show. CATS is 
the Chicago Area Transportation Study--the metropolitan transportation 
planning organization for northeastern Illinois. CATS is responsible 
for long-range planning for surface transportation--streets and 
highways; public transportation--bus and rail; and rail freight 
transportation. CATS was formed in 1955 and now includes the six 
urbanized counties of Cook, DuPage, Will, Lake, McHenry and Kane, and a 
portion of Kendall County. CATS is the only agency in this area that 
provides:

    <bullet>  Involvement of all transportation agencies and providers;
    <bullet>  Integration of individual plans for all of these 
services;
    <bullet>  Prioritization of specific projects for both funding and 
scheduling;
    <bullet>  Funding for sub-regional transportation planning and for 
local transportation and congestion mitigation projects;
    <bullet>  Cataloging of future plans and projects; and
    <bullet>  Coordination and collaboration with the Northeastern 
Illinois Planning Commission, our area-wide comprehensive land planning 
organization.

    CATS is now in the process of preparing the 2030 Regional 
Transportation Plan, or RTP. The RTP will focus on the transportation 
strategies, improvements to existing systems, and new major capital 
projects that are recommended to meet the transportation needs of the 
region for the next 25 years.
    If you want to know what transportation projects and improvements 
are needed in northeastern Illinois over the next twenty-five years--
you need look no further than the RTP. If you want to know the 
priorities of the agencies, the local governments and the public--you 
need look no further than the RTP. If you want to make sure the 
economic and environmental impacts of proposed projects have been 
evaluated--you need look no further than the RTP.
    We have heard comments that when the Transportation Equity Act for 
the 21st Century was passed 6 years ago, Illinois received less than 
its fair share of funding because of ``infighting'' between agencies, 
or because ``we didn't have our act together'', or because there was no 
coordination of the ``wish lists''. I can't promise you that you won't 
get a long list of projects from everyone in the metro area, but I 
would ask you not to confuse ``wish list'' with ``needs list''. There 
is an extraordinary backlog of transportation projects that are needed 
in our area. There are more projects needed in this area than this or 
any future Congress could ever fund. So how do you sort out the vitally 
important projects from the really important projects? Just look to the 
RTP.
    We do have our act together. We do have our priorities set. We will 
have our needs list fiscally constrained.
    As I said earlier, CATS is in the process of preparing the 2030 
RTP. Since June, 2001, the transportation agencies, the local 
governments, the State of Illinois, and the working boards and 
committees of CATS have been creating our draft RTP document. That 
document includes projects representing all modes of transit from every 
part of the region, including the innovative Bus Rapid Transit proposal 
from my own DuPage County. But the draft is not yet fiscally 
constrained--there are more projects listed than we expect to have 
money to build. Now, our draft, with all the options, all the projects, 
all the opportunities for future transportation improvements, will be 
presented to the public--the residents of the region. They will help 
select the final list of projects that we will use for funding 
decisions for the next 25 years. Not the bureaucrats. Not the Mayor of 
Elmhurst. The choices will be shaped by the people who drive on the 
highways and ride the buses and trains.
    In fact, if you happen to be in town on Thursday, you will see the 
RTP on television. A 30-minute program explaining the RTP and 
soliciting responses and participation will be aired on cable and 
broadcast TV several times over the next week. This is only part of the 
outreach effort by CATS to make sure that voices and opinions are not 
only heard, but are actually sought out and solicited.
    Let me close my testimony with a few comments about the 
reauthorization of TEA-21. First, there are some technical changes we 
are proposing to improve the procedures and policies of the Act. Those 
are included in the supplemental material presented in advance of this 
meeting. I encourage you to review those and include them in the 
reauthorization, because they will make the process of implementing our 
plans much easier.
    Lastly, I would ask that you please act on the reauthorization 
quickly. We need the reauthorization this year. We need funding 
increased and we need to move forward on new projects that will benefit 
the entire Chicagoland area. A continuing resolution won't do that. We 
need the certainty of a reauthorization which guarantees funding in 
order to prioritize and schedule our projects efficiently.
    Thank you for this opportunity to share my perspective on regional 
transportation issues with the committee. I would be happy to answer 
any questions.
                               __________
  Statement of Robert J. Schillerstrom, County Board Chairman, DuPage 
                               County, IL
    As you know, I am scheduled to present oral testimony at the 
committee's field hearing on April 7, 2003 at the Dirksen Federal 
Building in Chicago. I appreciate the opportunity to appear before the 
committee and would like to provide you in advance of my testimony 
details about DuPage County's top priorities but more importantly, why 
the TEA-21 Reauthorization Legislation is so critical to the State of 
Illinois.
    The Director of the Illinois Department of Transportation (IDOT), 
Tim Martin, will detail for committee members, as part of his 
testimony, the State's priorities as they relate to the TEA-21 
Reauthorization Bill. At the top of that list is increasing Illinois' 
overall share of Federal highway dollars through a formula adjustment. 
Six years ago, Illinois received 94 cents for each dollar it provided 
to the national transportation program. Additional items the State 
would like to incorporate into the reauthorization bill include:

    <bullet>  Full Utilization of Highway Trust Fund (HTF) revenue for 
highway and transit programs;
    <bullet>  The Exclusion of High Priority Project and Discretionary 
Funds from the Minimum Guarantee;
    <bullet>  Addressing the reconstruction needs of our Interstate 
System;
    <bullet>  Increasing funding levels for discretionary Interstate 
Maintenance and Bridge programs;
    <bullet>  A Continuation of the current policy to distribute all 
transit formula funds on needs-based distribution formulas;
    <bullet>  Streamlining the transportation planning, programming and 
project development processes; and
    <bullet>  Removal of the existing 3-year limit on the use of CMAQ 
funds to support operation costs of the Inspection and Maintenance 
vehicle emissions testing facilities, which have proven to be an 
effective tool toward reducing air pollution.

    DuPage County, with over 900,000 residents, a size greater than the 
population of seven States, is seeking Federal assistance for roadway 
and public transit projects to address many regional problems. One of 
the top priorities of our region is the 4.2 mile extension of the 
Elgin-O'Hare Expressway and the construction of a 6.6 mile (toll 
highway) Bypass Road in order to provide Western Access to O'Hare 
International Airport. This project would greatly improve the 
transportation network of eastern DuPage County, offer increased 
employment opportunities for over 40,000 people, provide tremendous 
economic benefits for the local economy (estimated at over $5 billion 
annually), and allow convenient access to O'Hare Airport for the 
traveling public. The State of Illinois needs an estimated $1.5 billion 
in Federal funding to make this project a reality and to provide a much 
needed western entrance to the world's busiest airport.
    Attached for your review is a document that summarizes DuPage 
County's transportation priorities by congressional district. The list 
details not only highway projects but also the DuPage Area Transit 
Plan. This plan proposes capital improvements to our public transit 
system that will reduce highway congestion. and link labor markets with 
employment opportunities.
    As chairman of the second largest county in the State, I would like 
to thank the committee for traveling to Illinois to receive our input 
and to consider our future transportation needs as part of the 
reauthorization bill. The TEA-21 reauthorization bill allows our region 
an unprecedented opportunity for regional cooperation and growth.
    Again, thank you for your consideration and for the invitation to 
appear before the committee.
                               __________
   Statement of Piyushimita Thakuria, Associate Director of Research 
 Programs, Urban Transportation Center, University of Illinois Chicago
    The Urban Transportation Center at University of Illinois Chicago 
is an interdisciplinary research unit focused on urban transportation 
issues. The center works with national, State and local agencies on 
transportation analysis, modeling, and policy issues related to all 
surface transportation modes. As UIC is located in the hub of major 
local, regional, national, and international transportation systems, it 
is only natural that the University has a major commitment to conduct 
research dedicated to improving these transportation systems. We also 
educate the next generation of transportation professionals and provide 
continuing education and outreach to a broad array of stakeholders 
ranging from elected officials, agencies, community and advocacy 
groups, and citizens.
    With impending reauthorization of the Transportation Equity Act for 
the 21st Century (TEA-21) and a new State government in Springfield, 
there seems to be considerable uncertainty regarding future investment 
in transportation and transportation research. At the same time, there 
is no shortage of interesting and relevant transportation problems: 
congestion, air quality, equity, environment, energy, security, safety, 
finance, institutional constraints, and aging infrastructure, to name a 
few. We would like to highlight four key areas of transportation that 
are of particular relevance to Chicago, the region, the State, and the 
Nation.
Congestion mitigation, management and air quality
    Each peak hour traveler spends over 1 week per year delayed in 
traffic in Chicago. Fuel costs, and degradation of air quality are the 
tangible impacts of congestion. Loss of quality of life is a less 
tangible impact. Management of congestion in this region is dependent 
on an elaborate public transportation network that must be supported 
and enhanced to complement the highway and street network. 
Opportunities for the improved management of congestion, and more 
efficient operation of the transit network are available through the 
innovative use of information and technology. Modeling, policy analysis 
and application of the technology are critical in the following areas:

    <bullet>  Understanding the relationship among transportation 
investments, land use and sprawl
    <bullet>  Enhancing both the operation and planning of our 
transportation systems through the application of intelligent 
transportation systems (ITS)
Freight movement
    The historical significance of Illinois as a transportation hub 
actually exacerbates the freight transportation problems of the region. 
In Illinois, Class I railroads, interstate highways, waterways and 
major airport hubs interact with each other in close proximity to major 
metropolitan areas. Freight trains block level crossings and delay 
motorists, passenger trains are delayed due to freight train 
derailments, shippers complain of the delays to freight passing through 
Chicago, drivers complain that trucks are too long, too heavy and just 
too dangerous. Congestion in railroad yards, congestion on the highways 
and congestion at our airports impact each of us. Everything we 
consume, dispose of or manufacture must move as freight. Chicago is the 
third busiest port in the world in terms of movement of containers. 
These containers must often move by both rail and road throughout the 
region. Rubber-tired trailers are used to expedite the movement of more 
time sensitive freight from one railroad to another, or from the 
railroad yard to a customer.
    The efficient movement of freight to, from and through Illinois is 
vital to the economic health of the region, State and nation. As 
freight movement is a complex public-private partnership, no agency or 
organization has as its mission to plan for the future. The allocation 
of transportation planning funds for freight movement is essential as 
freight movements are projected to increase significantly over the next 
decade.
    Significant planning issues that must be addressed are:

    <bullet>  Identification of bottlenecks including points of 
conflict between auto and rail, and congestion issues facing passenger 
and freight transportation sharing common infrastructure
    <bullet>  Development of projects that will enhance 
competitiveness, improve efficiency and promote environmental 
stewardship.
    <bullet>  Exploration of innovative technologies.
    <bullet>  Development of innovative financing options.
Jobs and housing imbalance, and job access
    Access and mobility issues of socially disadvantaged groups are 
often-neglected areas of transportation. Data and methodological 
developments can be used to define the impacts of governmental programs 
on the behavior of low-income households and also in the ways in which 
the planning process can be improved to reflect the needs of these 
groups. Understanding trends and needs related to worker accessibility 
in the low-income labor market sector provides a foundation for 
evaluating new transit markets.
    Important activities include:

    <bullet>  Evaluating the impact of transit services on low-income 
groups and the extent to which transit makes a difference in employment 
opportunities
    <bullet>  Monitoring national and local trends on low-income worker 
accessibility
    <bullet>  Exploring innovative partnership initiatives that offer a 
cross-sectoral, holistic approach to accessibility
    <bullet>  Providing assistance to Federal, State and local agencies 
on job access issues
    <bullet>  Exploring decisionmaking techniques and public 
participation methods to facilitate cross-sectoral planning.
    <bullet>  Renewal of aging infrastructure, and the efficient 
provision of transportation infrastructure

    Every year our roads degrade, our transit lines and structures age, 
our bridges deteriorate, more operating hours are added to our buses, 
our inland waterways silt and scour, and locks and dams are ravaged by 
nature and bumped into by barges.
    Asset management is a ``systematic process of maintaining, 
upgrading, and operating physical assets cost-effectively.'' Asset 
management is a strategy for addressing the renewal of our existing 
aging infrastructure and the efficient provision of transportation 
infrastructure. It is a strategy for recognizing the inherent value of 
past investments, while enhancing system condition and performance. 
Asset management is not a strategy for any one type of asset or any 
single mode. It is applicable to all modes and all assets.
    With constrained resources, personnel constraints, increased 
accountability and the ever advancing aging process, viewing physical 
infrastructure assets in a holistic manner ensures proper tradeoffs, 
recognition of the life-cycle costs of investments, and evaluation of 
the impact of investments on system performance.
    While each transit agency, local government unit, and State agency 
will implement asset management differently, there are fundamental 
principles to which all units of government must adhere. Opportunities 
to share data, information, technology, models, tools and concepts are 
fundamental to the preservation of our existing infrastructure. 
Providing resources to support this effort is a smart investment.
                               __________
      Statement of President-Elect David Lorig, Illinois Road and 
                  Transportation Builders Association
    Good morning. My name is David Lorig and I am president of Lorig 
Construction, a highway contractor located in Des Plaines, Illinois 
just outside of Chicago. I am also the president-elect of the Illinois 
Road and Transportation Builders Association, the largest association 
of transportation design and construction professionals in Illinois.
    IRTBA or Roadbuilders as we are commonly called, is proud of its 
leadership role in advancing the need for continued and expanded 
investment in our public transportation infrastructure. We are 
constantly aware that the public, through their contributions at the 
gas pump, have and continue to trust that their public moneys will be 
spent wisely. In a recessionary climate like the one that we are 
experiencing now, the need for thoughtful public policy decisions 
concerning our transportation system has perhaps never been greater.
    The Illinois Road and Transportation Builders Association also 
recognizes that public transportation investment is not limited to 
roads and bridges but includes air, transit, rail and waterways. These 
are the very systems that translate into economic activity that is so 
vital to our nation in the past, present and future. However, today I 
will limit my comments to highways and bridges since that is the focus 
of this committee.
    From the onset of the national role in funding highways and bridges 
there has been one overriding theme-all elements of this country need 
to be tied together. Roads and bridges in Illinois and throughout the 
Nation provide that tie. Probably nowhere else in the country provides 
a better picture of this necessity than the Chicago area and the entire 
State of Illinois. Throughout the 20th century, the national role in 
funding these needed arterials has grown, so it is now recognized that 
the national government possesses the best ability to garner the 
necessary revenue to fund these improvements. Our entire transportation 
system, especially roads and bridges, and its effect on the economy, 
simply cannot survive without the highest commitment from the Federal 
Government.
    From the vision of former President Dwight Eisenhower through the 
countless businesses and individuals that have worked on our interstate 
system, we have attempted to build and maintain the world's greatest 
transportation system. I believe it is our duty and vision to maintain 
and improve this system. However, in this regard, we can, and need, to 
do better.
    Currently, the system is aging and deteriorating. Despite the best 
design and maintenance practices imaginable, the pavement is crumbling 
and the bridges have become perilously deficient. The U.S. Department 
of Transportation estimates that it will take an annual expenditure of 
nearly $ 60 billion per year just to maintain the system. But 
maintenance alone will not cure the ever increasing chokehold that 
congestion brings to the system every work day.
    Millions of hours are wasted daily in stress-creating traffic jams 
in literally every urban area. Once again, probably nowhere else in the 
Nation provides a better (or worse) picture of this situation than the 
Chicago area and the entire State of Illinois. The environmental damage 
done by exhaust fumes only exacerbates the problem. Yet, our national 
commitment to date is only about half of what USDOT says is needed. We 
can, and need, to do better.
    Additionally, roadbuilding means jobs-literally thousands of them. 
Illinois enjoys the dubious distinction of currently having one of the 
highest unemployment rates in the Nation. Road and bridge building 
provides not only the construction jobs while the projects are underway 
but thousands of additional jobs afterwards with companies who desire 
to locate in a State located at the very heart of the Nation.
    As the site of the world's busiest airport, the only place where 
six class ``A'' rail lines come together and where the interstate 
system carries more trucks in a day than many other States experience 
in a week-we simply cannot exist without a viable and adequately funded 
national network of roads and bridges. Yet much of that air, rail and 
road system is congested for the better part of the day. We are coming 
dangerously close, and in many cases have already reached the point, of 
businesses not making certain investments and individuals not making 
certain trips merely because of congestion. We can, and need, to do 
better.
    At the Illinois Road and Transportation Builders Association, we 
are pushing the research envelope in being innovative in our work. The 
private sector continues to develop the methods and materials to 
duplicate the results of older technology at a fraction of the cost and 
is readily available to work with the public sector in maximizing the 
value of its expenditures.
    Yet, there are those who seem to frustrate that progress, whether 
intentional or not. New roads spend many years in study and litigation 
before they are built-if ever. As a graduate of Duke University Law 
School and a contractor, I believe I have a unique perspective and I am 
amazed at the myriad of rules and regulations with which we must comply 
in order to achieve even the simplest of improvement. I sometimes 
shudder at the number of rules that we must deal with. We can, and 
need, to do better.
    One concept and term that is often used is ``environmental 
streamlining''. While some may think that the environment is somehow 
threatened by such a concept, all it really means is that we call upon 
the myriad of agencies that evaluate a highway project, to do it 
simultaneously and coordinate their efforts. No sacrifice of ethics or 
principles is intended nor required other than placing the commitment 
to improve our transportation system and requiring various agencies to 
work together toward that goal.
    When it comes to the actual project-if they get built-there needs 
to be greater acknowledgement to the use of new technology and 
management practices. New technology and practices should be embraced 
so that the motoring public gets maximum value from its contribution at 
the gas pump. Web based management holds the promise of quicker project 
closeouts and greater accountability and efficiency. Continued 
investment in research challenges both the universities and private 
sector to do what they do best-innovate and bring better products to 
the marketplace.
    Finally, we need to maintain the highest commitment to improving 
traffic operations both daily and in work zones. Last year, 31 people 
perished in Illinois work zone related accidents. We can, and need, to 
do better. As we kick off Work Zone Awareness Week, let us all resolve 
to support increased safety in work zones by slowing down!
    Please allow me to summarize. Road building means jobs-held by 
thousands of technical and skilled individuals performing often back-
breaking dangerous jobs, who pay taxes and make this economic engine 
called ``Illinois'' work. However, the system that was created nearly 
50 years ago is terribly congested, deteriorating, and in dire need of 
technical and financial assistance designed to maximize the public 
expenditure of funds. In addition, we have to use technology, 
innovation, research and just plain common sense to make this system 
work better. The needs of the various States need to be equitably 
addressed so that each State gets what it needs to keep our country 
moving.
    The Chicago area and the entire State of Illinois are at the 
crossroads of the Nation. Transportation problems in the Chicago area 
and the entire State of Illinois have a snowball effect throughout the 
rest of the Nation. Therefore, the needs of the Chicago area and the 
entire State of Illinois must be immediately addressed with the highest 
commitment, both financial and otherwise, from the Federal Government.
    Thank you.
                               __________
  Statement of Rita Castle, Issues Analysis Manager, Caterpillar Inc.
    Mr. Chairman, I'm Rita Castle, Issues Analysis Manager in the 
Public Affairs Department of Caterpillar Inc. I'm pleased to be with 
you this morning to discuss the importance of transportation to 
Caterpillar, our facilities, employees and the communities where we 
live.
    As you know, Caterpillar . . . and our yellow machines . . . have 
been synonymous with highway and road construction for almost a 
century. In 1909, an early model of a motor grader, invented by a 
Caterpillar founder, was maintaining country roads in California. By 
the time Caterpillar Tractor Co. was formed in 1925, road building and 
maintenance machines were in big demand. In 1931, Caterpillar 
introduced to the market the first modern motor grader known as the 
``caterpillar auto patrol.'' And in 1932, we adopted a paint color that 
ultimately became a standard for the entire construction industry. We 
called it ``hi-way Yellow,'' in recognition of the importance of road 
construction to our company.
    Caterpillar machines have been a dominant force in the construction 
and maintenance of our Federal highway system since its inception in 
1956. Today, Caterpillar annual sales to the U.S. roadbuilding industry 
approach $1 billion, making it a major component of our machine sales 
business. And as the leading manufacturer of heavy-duty diesel engines 
used in the commercial trucking industry, we know how important our 
highway system is to the delivery of goods and services to keep our 
nation working.
    But it's not just product sales that are the measure of the 
importance of our highway system. In 2002, almost $120 million in raw 
materials and supplies were shipped by road to Caterpillar's U.S. 
facilities. In that same year, we delivered over $93 million in 
machines and parts to our dealers and customers in the U.S. and to 
ports for shipment abroad using our highway network. In Illinois, our 
facilities received over $64 million in freight shipped over our road 
system. And outbound, we delivered over $20 million in finished 
products over our Illinois road system to Illinois customers.
    Our system of Interstate and Federal roads is equally important to 
the safety of our employees and their families who rely on our nation's 
road system for personal transportation and the delivery of goods and 
services that sustain our economy.
    As a major employer in Illinois, with over 20,000 employees 
statewide, we know how important our highway infrastructure is to the 
economic well being of our communities. Just outside my window in 
downtown Peoria the huge Interstate 74 construction project is 
underway, modernizing some of the oldest interstate sections in the 
United States. This multi-year project, the largest road construction 
undertaking outside of the metropolitan Chicago area, is essential to 
the growth of the Central Illinois economy.
    Because of our long-standing involvement in the road building 
industry, and due to the importance to our economy of a modern highway 
system, we are concerned about the current problems that face our 
nation's highway system.
    Our roads are deteriorating faster than they can be improved . . . 
we all know the frustrating picture. Unfortunately, the choices that 
must be made to address our crumbling infrastructure are neither easy 
nor simple. This reminds me of an ad campaign that Caterpillar launched 
many years ago entitled `` No Simple Solutions.'' The campaign focused 
on some of the choices our nation had to make in providing a modern 
surface transportation system. Unfortunately, the campaign is as 
relevant today as it was almost three decades ago.
    It's obvious that we need significantly increased investment to 
repair, restore and rebuild our infrastructure. And that investment is 
substantial . . . estimated to be around $50-75 billion a year just to 
maintain our highway system. Yet current Federal road spending is about 
$32 billion, and the Administration's Fiscal 2004 budget calls for 
highway spending at about $22 billion, almost 30 percent less than what 
Congress approved for fiscal year 2003.
    At the same time that many of our highways are crumbling, they 
remain an essential component in meeting our homeland security 
challenges and relieving the gridlock of urban congestion. A modern, 
well-maintained highway system is essential to providing mobility to 
evacuate a city or improve traffic flow and reduce air emissions.
    Current and future growth demands that additional investments be 
made in our Federal surface transportation system. We must preserve the 
gains made by TEA-21 in dedicating all revenues coming into the Highway 
Trust Fund to highway and transit programs while maintaining the 
firewalls and budget guarantees that protect the highway user fees from 
being diverted to purposes other than capital improvements.
    We must invest the growing balance in the highway trust fund, now 
estimated at $18 billion and capture over $12 billion in revenue lost 
to ethanol tax breaks.
    But these measures alone will not generate sufficient revenue to 
meet the estimated funding shortfall needed to upgrade and modernize 
our highway system. Some hard funding choices will have to be made to 
restore the purchasing power of the motor fuel user tax. It seems 
unlikely in this reauthorization cycle that a new, radically different 
funding mechanism will be proposed. Despite considerable opposition, it 
seems that Congress cannot avoid a discussion of a motor fuel user fee 
increase.
    And finally, we would urge Congress to complete its work on 
reauthorization of TEA-21 by the end of this fiscal year to avoid the 
serious delays and disruptions associated with reauthorization delay.
    As we ask Congress to consider these revenue measures, Caterpillar 
remains committed to providing the technology to increase machine 
productivity and deliver customer value. We are delivering machines 
that dramatically improve efficiency and increase productivity, while 
providing 24-hour support to minimize or eliminate downtime. We are 
linking our dealers, customers, suppliers and operations within CAT to 
maximize our product support. All of this translates into more 
efficient machines, lower owning and operating costs for our customers, 
and more value for our construction dollars.
    A more efficient and safer transportation system is critical to our 
future economic growth, international competitiveness, quality of life 
and national security. In our view, there is no better way to stimulate 
this economy than through the creation of well-paying highway 
construction jobs.
    Mr. Chairman, let me thank you again for this opportunity to share 
Caterpillar's views on the important highway construction issues facing 
Congress this year. We look forward to working with you and our 
Illinois Senators in the months ahead as the reauthorization debate 
unfolds.
                               __________
          Statement of Margaret Blackshere, President, AFL-CIO
    My name is Margaret Blackshere, and I am the president of the 
Illinois AFLCIO. I am also a member of the Transportation for Illinois 
Coalition. The AFL-CIO, Central Labor Councils, including the Chicago 
Federation of Labor, and many of the affiliates are part of this 
organized effort in Illinois designed to convince you and your 
colleagues in Congress that Illinois deserves more funding to support 
its transportation infrastructure.
    First, I would like to thank Sen. Inhofe and Sen. Fitzgerald for 
traveling to Chicago and providing us with this opportunity to tell you 
firsthand why you should be championing the cause of more money to fund 
the transportation system of this nation and our State,
    The private sector and labor must depend on government for its 
transportation system. Government provides the overall planning and 
resources to develop and maintain our transportation system. And our 
nation's economy is totally dependent on our inter-connected, fully 
functioning, multi-modal transportation system. It's obvious that a 
greater investment is needed in our infrastructure nationwide, where 
many of our aging interstates and bridges are in poor repair.
    Illinois is located at the heart of our transportation system--our 
highway system, rail system, waterways and even air transport system. 
We are a gateway between the east and west coasts, and between the 
Great Lakes and the Gulf of Mexico. The nation's investment in Illinois 
is an investment well-made--and one that needs to be increased to 
ensure a healthy economy for the future of our State and of our Nation.
    Illinois deserves a bigger share of the nation's transportation 
funding to more closely reflect the key role we play in hosting a 
critical junction in the nation's transportation infrastructure.
    I can't overemphasize how much transportation funding matters, Of 
course it means jobs, which is one of the reasons why I'm here today. 
Of course it affects our quality of life--and the cost of our goods and 
services. For the thousands of Illinois residents whose jobs will be 
affected by your decisions in Washington, I ask for your help in 
winning increased funding to support Illinois' transportation network.
    We . . . . here testifying today . . . each have our own 
constituencies and interests to represent. Mine is organized labor, 
which represents 1 million
    workers in Illinois. We strive to represent the interests of all 
working people on issues that affect their everyday lives. And 
transportation is certainly one of those. Yet, we are united in our 
appeal to you for more resources for transportation for this country--
and for the pressing transportation needs in Illinois.
    You, as Senators, must take a global view of the needs of this 
entire nation. And you will undoubtedly see that Illinois merits 
greater attention and resources to keep our national transportation 
system strong and to help rebuild the nation's economy.
                               __________
     Statement of Richard J. Feltes, Feltes Sand & Gravel Co., Inc.
    Mr. Chairman, Senator Fitzgerald and members of the committee, 
thank you very much for allowing me to testify on behalf of the 
National Stone, Sand, and Gravel Association (NSSGA) at this hearing 
examining the State of Illinois' transportation needs in preparation 
for reauthorization of the Transportation Equity Act for the 21st 
Century (TEA 21).
     My name is Richard Feltes. I am co-owner with Timothy Feltes of 
the Feltes Sand & Gravel Co. in Elburn, Illinois. We represent the 
third generation in a family business that was started in 1920 by our 
Grandfather and Great Uncle. Our company currently employs 35 full time 
people. Our business operation is located 40 miles west of Chicago in 
Kane County, Illinois. A major part of our business is supplying sand & 
gravel products to concrete & asphalt producers for use on major 
highway projects in our market area.
     Currently, I serve as Second Vice Chairman of the National Stone, 
Sand & Gravel Association and Chairman of the Association's Government 
Affairs Division. NSSGA represents the nation's aggregate industries--
producers of crushed stone, sand and gravel, as well as suppliers of 
equipment and services to aggregate producers. NSSGA is, by volume of 
product, the largest mining association in the world, according to the 
U.S. Geological Survey (USGS). Our 850 member companies turn out 90 
percent of the crushed stone and 70 percent of the sand and gravel 
consumed annually in the United States. During 2002, a total of about 
2.73 billion metric tons of crushed stone, sand and gravel valued at 
approximately $14.6 billion were produced and sold in the U.S. The 
aggregate industry workforce is made up of about 120,000 men and women 
across America.
     Just to provide perspective, there are 10,000 construction 
aggregates operations nationwide. Virtually every congressional 
district is home to a crushed stone, sand or gravel operation. 
Proximity to market is critical due to high transportation costs, so 70 
percent of our nation's counties include an aggregates operation.
     Construction aggregates are used primarily in asphalt and 
concrete. Ninety-four percent of asphalt pavement is aggregate; 80 
percent of concrete is aggregate, whether used in pavement, buildings, 
dams, water and waste water treatment plants and the like. About 10 
tons of aggregate per person are consumed annually in America. Every 
mile of interstate consumes 38,000 tons of aggregate; about 400 tons of 
aggregate are used in construction of the average home.
     While I appear this morning representing the aggregates industry, 
I also appear as a member of the Board of Directors of the Illinois 
Association of Aggregate Producers (IAAP). IAAP is a member of the 
Transportation for Illinois Coalition (TFIC), a broad coalition of 
Illinois associations and labor organizations, which was organized to 
speak with one voice for all of Illinois regarding transportation 
funding needs. The TFIC focuses on principles and program concepts that 
will enable transportation leaders to move forward with a common 
purpose to obtain maximum funding to meet Illinois' infrastructure 
needs. (TFIC mission statement and guiding principles attached.)
     Also, I should note NSSGA is a member of the Transportation 
Construction Coalition (TCC) and Americans for Transportation Mobility 
(ATM)--the two premier national coalitions dedicated to reauthorization 
of our country's surface transportation system.
     We seek this committee's help to assure TEA-21is reauthorized 
before it expires on September 30, 2003. Otherwise, many of the 
benefits realized under TEA-21and its predecessor legislation, ISTEA 
(the Intermodal Surface Transportation Efficiency Act of 1991, which 
rewrote Federal transportation policy, are in danger of being lost.
     The Federal-aid highway program is one of the U.S. government's 
most successful programs. Since 1956, and in partnership with the 
States, it has financed construction and upkeep of the largest and 
safest national network of highways and bridges in the world. No 
program is more critical to the economy of Illinois than Federal 
funding for transportation needs. From its origins as the railroad 
capital of the Nation and its development as the hub of major east-west 
interstate highways, to hosting the world's busiest airport, Illinois 
has served as the central conduit for the nation's commerce. Thus, the 
economies of Illinois and the Nation are inextricably linked. Illinois' 
transportation system plays a pivotal role in the nation's ability to 
move goods and people because of its geographic location and extensive 
road, rail, airport and waterway network.
    Consider this:

    <bullet>  The U.S. transportation construction industry has built 
3.9 million miles of American roads and highways and more than 5,000 
airports.
    <bullet>  The U.S. highway and bridge infrastructure has an asset 
value of almost $1.4 trillion, and publicly financed highway 
construction directly or indirectly is responsible for 2.2 million 
American jobs.
    <bullet>  More than 11 percent of the U.S. Gross Domestic Product 
is spent on transportation.
    <bullet>  Aggregates directly contributed nearly $43 to the Gross 
Domestic Product in 2001.
    <bullet>  The aggregates industry contributes $37.6 billion to the 
Gross Domestic Product in 2001.
    <bullet>  For every $1 billion spent on highway construction, 
47,500 jobs are generated each year.
    <bullet>  In 2001, the aggregates industry supported 284,090 jobs 
in all sectors of the economy with personal earnings totaling $10.74 
billion.
    <bullet>  Every dollar invested in the nation's highway system 
yields $5.70 in economic benefits to the Nation because of reduced 
delays, improved safety and reduced vehicle operating costs.
    <bullet>  The Federal highway program provides more financial 
resources for environmental and community enhancements than any other 
public or private effort.

     However, Mr. Chairman, in order to preserve the benefits to the 
country from a robust and efficient highway system, we can't ignore 
that the needs of the system continue to increase. Consider the 
following:
    <bullet>  More than 40,000 people die and 3 million are injured 
each year on the nation's roads. About 14,000 of those deaths are 
attributable to substandard road conditions, and, thus, avoidable. 
Vehicle crashes are the leading cause of death for Americans 6 to 28 
years old.
    A total of 8,533 people died on Illinois' highways from 1996 
through 2001.
    <bullet>  The annual economic cost of motor vehicle crashes is $230 
billion per year, or $819 for each resident, for medical costs, lost 
productivity, travel delay, workplace costs, insurance costs and legal 
costs.
    Total cost of motor vehicle crashes to Illinois was $3.8 billion or 
$308 per capita.

    <bullet>  FHWA data shows that congestion is worsening on all major 
U.S. roads; 36 percent of America's urban roads are congested.
    <bullet>  42 percent of Illinois' major urban roads are congested. 
It is well documented that highway congestion in the northeastern 
portion of the State is the third worst in the Nation.
    <bullet>  Traffic congestion now costs Americans more than $67 
billion each year--the value of 3.6 billion hours of delay and 5.7 
billion gallons of excess motor fuel consumed.
    <bullet>  32 percent of America's major roads are in poor and 
mediocre condition.
    <bullet>  34 percent of Illinois' major roads are in poor and 
mediocre condition.
    <bullet>  28 percent of America's bridges are structurally 
deficient or functionally obsolete.
    <bullet>  19 percent of Illinois' bridges are structurally 
deficient or functionally obsolete.
    <bullet>  84 percent of the $358 billion worth of commodities 
delivered annually from sites in Illinois are transported on the 
State's highways.

     Maintenance of the nation's highways is continual and increasingly 
costly. Changes in the program, combined with inflation and ever-
growing highway traffic, have resulted in investment that is not 
sufficient to maintain the physical condition of the overall system, 
let alone improve it.
     The problem has been that under TEA 21, funds have not gone into 
highway and road maintenance. States have shifted funds into large cost 
capacity expansion projects as well as into peripheral construction 
activities, such as sidewalks, rest areas, and historic preservation. 
The net result is that highway and road maintenance has not improved as 
much as policymakers have wanted. Accordingly we strongly support the 
President's budget proposal to spend $1 billion a year from the Highway 
Trust Fund on highway maintenance and infrastructure performance that 
are ``Ready to Go.''
     Reauthorization of the Federal surface transportation law must 
focus on providing sufficient funding to maintain the nation's highway 
system and reduce the congestion that is clogging our highways, thus 
wasting time and energy, and diminishing air quality.
     NSSGA will not be involved in the formula controversy because of 
the diversity of its membership. One fact, however, cannot be denied. 
Unless Federal highway investment is increased, no State will succeed 
in improving its share of transportation funding.
     According to the latest Federal Government data, around $60 
billion is needed annually just to maintain the current highway system 
and over $100 million to improve it. In response to these quantified 
needs of the system, NSSGA developed its recommendations for TEA-
21reauthorization. (Copy attached)
     In summary, NSSGA made the following recommendations for TEA-
21reauthorization.
    Recommendation: The TEA-21reauthorization bill must provide Federal 
funding to preserve the national highway system in an amount that is 
sufficient and can be justified economically. We join with the TFIC in 
calling for increased funding levels for our national transportation 
system.
     NSSGA supports the recently issued proposal of House 
Transportation and Infrastructure Committee Chairman Don Young for a 
$60 billion a year highway program including an increase in the highway 
user fee; both prospective and retroactive indexing of the highway user 
fee to the Consumer Price Index; restoring Highway Trust Fund interest; 
repaying the Highway Trust Fund the $5.2 cent-per-gallon gasohol user 
fee differential; eliminating fuel tax evasion; and, drawing down the 
trust fund balance for a total of between $111 and $125 billion 
annually.
     The Federal highway program is a user-funded program. U.S. 
motorists generate about $31 billion a year in revenues that go into 
the Federal Highway Trust Fund. Illinois' motorists generate about $1.2 
billion a year in revenues that go into the Federal Highway Trust Fund. 
The Revenue Aligned Budget Authority (RABA) is a budgetary mechanism 
incorporated in TEA-21to more closely align gasoline user fee receipts 
with investments. Retaining the highway user fees is absolutely 
essential to the Federal highway program. NSSGA will oppose any efforts 
to reduce or suspend the Federal highway user fee.
     Also, NSSGA opposes any diversion or redirection of highway user 
fees or RABA funds. While NSSGA supports initiatives to prevent the 
dramatic swings in RABA moneys experienced over the past several years, 
NSSGA will oppose efforts to manipulate RABA funding from core highway 
programs. NSSGA will oppose attempts to divert or redirect highway user 
fees from programs other than highways and transit. NSSGA supports 
maintaining the current highway/transit funding ratio of 80/20.
     In addition to the aforementioned revenue raisers proposed by 
Chairman Young, NSSGA supports increased use of innovative financing 
mechanisms, including the possibility of establishing a Highway Funding 
Corporation along the lines proposed by the American Association of 
State Highway Transportation Officials (AASHTO). Enhancing innovative 
financing tools already available including State Infrastructure Banks 
(SIBs), and the Transportation Infrastructure Finance and Innovation 
Act (TIFIA), should also be thoroughly examined. We need to look at tax 
exempt financing for public-private partnerships, too.
    Recommendation: Continue and strengthen the firewalls established 
by TEA-21between incoming Federal highway user fee revenue and annual 
Federal surface transportation investment, including the Revenue 
Aligned Budget Authority (RABA) provision.
     TEA-21addressed the shortfall in Federal highway program funding 
by establishing for fiscal years 1999-2003 budgetary firewalls to 
protect highway funding and a firewall to protect transit spending. 
Spending for programs with firewalls may not be reduced in order to 
increase spending for other discretionary programs. It is imperative 
that reauthorization maintains the funding guarantee and budget 
firewalls contained in TEA 21.
    Recommendation: Increase State flexibility to use funding for 
highway construction.
     Constraints on States from using funds for highway construction 
should be eliminated to allow construction on non-national highway 
system roads that will reduce traffic congestion and increase safety.
     According to the FHWA, there were more than 3.95 million miles of 
public roads in this country in 2000. FHWA has stated that more than 
three-quarters of the lane-miles in the U.S. are rural. While this 
includes rural roads on the National Highway System, there are also 
hundreds of thousands of miles of rural two lane local roads that carry 
significant amounts of local automobile and truck traffic. Vehicle 
miles traveled on these rural roads constitute nearly 40 percent of the 
national total, meaning that much of America's commerce and individual 
movement occurs on these rural roads.
     Statistics highlight the fact that rural roads and highways are 
considerably more dangerous than urban roads. A Government Accounting 
Office (GAO) report noted that rural roads have a fatality rate that is 
six times greater than that of urban interstates. In the post-
interstate era, increased attention must be given to targeted road 
improvements that have a high likelihood of reducing crash potential.
     States should have the flexibility to enhance safety on rural and 
local two-land roadways. In addition, Federal investment in our rural 
road and highway infrastructure must be increased not only to enhance 
safety, but also to ensure continued rural economic development.
    Recommendation: Facilitate the construction process by removing 
barriers to innovative contracting techniques.
     Certain transportation infrastructure projects may be well suited 
for innovative project delivery methods that will serve to speed up 
project planning, design, and construction. States and local 
governments should be allowed flexibility in using innovative 
contracting and procurement methods that acknowledge one-size-fits-all 
procurement and contracting does not recognize the different and unique 
characteristics of each State's highway program.
    Recommendation: NSSGA supports studying the creation of dedicated 
truck lanes/heavy vehicle lanes as a method of improving public health 
and safety, extending the life of surface infrastructure resulting in 
lower maintenance costs, and increasing productivity and efficiency 
leading to continued growth in national and regional economics.
     TEA-21reauthorization should include provisions to foster the 
development of self-financed ``truck only/heavy vehicles lanes'' to 
encourage and allow the use of interstate highway medians, air and 
tunnel right-of-ways for construction of these lanes. Truck/HVL only 
lanes should be eligible for Federal funds including Congestion 
Mitigation and Air Quality Program (CMAQ) and the National Trade 
Corridor and Border Infrastructure Development Program.
    Recommendation: NSSGA supports developing a mechanism for 
recognizing/crediting air quality improvements and congestion 
reductions. The air is getting cleaner in major urban areas even though 
highway travel in the U.S. has increased substantially.
     In fact, vehicle travel on U.S. highways increased 28 percent from 
1991 to 2001. U.S. population grew by 11 percent between 1990 and 2001. 
Vehicle travel on Illinois; highways increased by 21 percent in the 
same time period. Illinois' population grew by 9 percent between 1990 
and 2001.
     In spite of increased travel, an October 1999 Environmental 
Protection Agency (EPA) Report found that since 1970, motor vehicle 
emissions declined dramatically. The report found today nearly 80 
percent of the hazardous air pollutants released nationwide come from 
non-transportation sources. By implementing new and innovative 
technologies, design, and construction methods, and undertaking major 
recycling programs, the transportation sector has played a key role in 
the air quality improvements realized over the past three decades. A 
mechanism should be developed to acknowledge/credit these pollution and 
congestion reductions.
    Recommendation: NSSGA supports streamlining of the entire 
construction process, from concept through environmental review and 
permitting, to acceptance by State agencies.
     TEA-21mandated that the U.S. DOT and other affected Federal and 
State agencies develop coordinated efforts and time periods for 
concurrent review of items required by the National Environmental 
Policy Act (NEPA) for projects, as well as other environmental 
analysis, reviews, opinions, permits, licenses and approvals that are 
required.
     NSSGA supports Administration streamlining initiatives and urges 
that TEA-21reauthorization mandate promulgation of new regulations that 
carry out the statutory intent of Congress to establish firm deadlines 
for streamlining and expediting the environmental review process that 
now can take as long as 14 years. A bench-marking program should be 
implemented in order to track progress.
    Recommendation: NSSGA supports reform of the transportation 
conformity requirements with the Federal Clean Air Act to eliminate the 
loopholes that have been used by anti-growth groups to slow or stop 
already approved and environmentally sound highway projects.
     Due to provisions in the Clean Air Act, the Federal-Aid Highway 
Act, ISTEA, and TEA 21, the overall conformity process involves various 
States, local and Federal agencies. If an area is out of conformity, 
Federal highway funds are cutoff. As a result, an areas' Transportation 
Improvement Program (TIP) cannot include transportation construction 
projects that will result in emissions that exceed the Motor Vehicle 
Emission Budget (MVEB). The reform objective should be that once a 
project is approved, it should not continuously be challenged on the 
basis of what was known or not known at the time of approval since a 
highway projects is a multi-year construction project and date will be 
routinely updated.
    Recommendation: NSSGA supports reconstitution of the national 
highway research program that works in partnership with all 
constituencies of the highway community.
     A reconstituted national highway research program should leverage 
the individual industry constituent efforts and work to develop a 
coordinated national program focused on delivery of a long-lasting 
national surface transportation system that is safe and environmentally 
sound.
     Since the major component of highways is aggregates, a specific 
allocation should be directed to aggregate research through the 
International Center for Aggregates Research at the University of Texas 
with an Adjunct at the Texas A&M University. A major aggregate research 
effort is needed in four principal areas: 1) to extend the use of 
locally available materials; 2) to define performance and determine key 
material properties; 3) to develop methods to measure these properties; 
and 4) to then develop methods and models to predict performance and 
evaluate impact of variations in design and products.
     The Federal-aid highway program has become more than just a 
highway and roads construction program. A safe and reliable 
transportation system is vital to the nation's future economic growth, 
international competitiveness, homeland and national security--it 
serves as the foundation for our American quality of life. The events 
flowing from September 11, 2001, the lagging economy and documented 
under funding of highways point to the need to boost investment in our 
national transportation system. Although ISTEA and TEA-21significantly 
increased highway investment, nothing stands still. America's highway 
and transportation infrastructure is badly in need of upgrading. We 
cannot ignore the fact that 14,000 fatalities are attributed each year 
to hazardous road and bridge conditions or the congestion clogging our 
cities, concerns that can be addressed only if we maintain and improve 
our national highway system.
     Again, thank you, Mr. Chairman, for this opportunity to testify. I 
will be pleased to respond to any questions.
                               __________
            Statement of Ron Warfield, Illinois Farm Bureau
    Mr. Chairman, members of the committee, and Senator Fitzgerald, I 
am Ron Warfield, President of Illinois Farm Bureau, the State's largest 
general farm organization, representing nearly three out of every four 
Illinois farmers. It is a pleasure to participate in this important 
field hearing in a State that is truly the ``Crossroads of our 
Nation.''
    Illinoisans take great pride in having access to a vast array of 
transportation systems that promote commerce. Our highways, railroads, 
rivers, and port facilities are essential to the efficient movement of 
agricultural and food products that account for billions of dollars in 
economic activity. However, as other nations invest in their 
transportation systems, we appear to be losing one of our major 
competitive advantages.
    To remain a global leader in trade, and for enhanced domestic 
market competitiveness, improvements in our transportation 
infrastructure are needed. Specifically, we would like the 
reauthorization of TEA-21to include the following:
    Highway trust funds should be protected. Funds collected from 
highway users for highway purposes should be spent on highway projects. 
Highway users should not bear the brunt of funding recreational trails 
or public transit systems.
    We are very aware of the discussions of highway tax revenues and 
the excise tax incentives for ethanol's impact on highway trust funds. 
Senators Grassley and Baucus are working with a broad group of 
interests to produce a compromise that retains dollars within the 
highway trust fund while maintaining the incentive for ethanol. We feel 
retention of the tax incentive is needed to foster an emerging ethanol 
industry that can help our country become more energy independent.
    Exports. Illinois farmers export more than 40 percent of the grain 
they produce. But, the grain export business isn't nearly as efficient 
as it could or should be.
    We need to reduce congestion around our nation's ports. The 
American Association of Port Authorities ranks Chicago and St. Louis 
among the nation's top 30 ports for total cargo volume. Unloading, 
loading and access to the ports by road and rail should be a focus of 
improvement projects.
    Rail competition and capacity is critical to an efficient 
transportation infrastructure network. Short rail lines need assistance 
in their efforts to move grain efficiently when interfacing with major 
rail lines. We see local elevators that set on a rail-side unable to 
meet minimum rail-car drops because the class I rail lines find it 
difficult to service short lines.
    A part of the infrastructure network that must play an equally 
important part of our system but is not the focus of TEA 3, is our 
river system. The locks on the Illinois and Upper Mississippi Rivers 
are nearly 70 years old. It takes far too long for barges to move 
through these antiquated structures, boosting transportation costs. 
Those delays are estimated to cost Illinois farmers six cents per 
bushel of corn. Of course the more it costs to transport grain, the 
less competitive we are against the likes of lower cost South American 
farmers. The governments of Brazil and Argentina understand this and 
have made transportation system improvements a national priority.
    Despite the delays, barges are the most efficient means of 
transportation in the Midwest. One barge tow can transport more than 
20-thousand tons of grain--about the same as the capacity of 870 semi-
trucks. More barges mean fewer trucks, less congestion, less wear and 
tear on our highways, and cleaner air.
    Farm Bureau supports 1200-foot locks on the Illinois River at 
Peoria and LaGrange and at five lower sites on the Mississippi. We are 
working with other farm organizations, the shipping industry and 
organized labor to build a broad grassroots base of support needed to 
accomplish our goal. If we succeed, it will create thousands of 
construction jobs for many years and benefit farmers and our nation for 
decades to come.
    Before I finish, I'd like to share a story that demonstrates the 
need for investment in our nation's transportation system. Three years 
ago, Illinois Farm Bureau sent a delegation to China. They reported 
back that the transportation infrastructure in China was so undeveloped 
that it was cheaper to import corn from the United States into southern 
China than to ship it from the northern part of China. And northern 
China was a major corn exporter! We believed a situation like this 
could never happen in the United States, until now.
    Loads of South American soybeans are now being imported into South 
Carolina, because they are cheaper than the beans we can ship by rail 
or ocean-going barges from the Midwest.
    That tells me our system needs a fix.
    Thank you for the opportunity to provide testimony today. We look 
forward to working with you, the committee and Senator Fitzgerald to 
address these issues.
    Statement of Hon. Linzey Jones, Mayor, Olympia Fields and 
President, South Suburban Mayors and Mangers Association
    As President of the Village of Olympia Fields and the South 
Suburban Mayors and Managers Association, and as a member of the 
Chicago Southland Alliance Board of Directors, I serve a 70-community 
area comprising southern and southwestern Cook, and eastern Will 
Counties of Illinois. As an Alliance member, I am an active and 
supportive player in the Transportation for Illinois Coalition's 
mission to establish an equitable, aggressive, and effective 
transportation agenda through the TEA-3 planning and development 
process.
    With a population exceeding 1.5 million, the area known as the 
Chicago Southland in which I live and serve reflects a diversity of 
people, professions, and opportunities.
    As in any urban area, the health and vitality of the economy is 
nurtured by monitoring, identifying, developing, and implementing the 
necessary steps to maintain stability and position its residents for 
sensible development and an ever improving way of life.
    The history of my region is indelibly linked with the movement of 
goods and services, not only locally, regionally, or within the State 
of Illinois, but to a much greater extent, nationally and worldwide. 
How critical is the Southlands to the national economy?
    FACT: While the State of Illinois boasts five of the nation's 
transcontinental interstates in its highway network, three of the five 
traverse the Chicago Southlands.
    FACT: While the Chicago region includes six of the seven major 
railroads in its hub, five of those railroads pass through, unload, 
distribute, and receive produce in the Chicago Southlands.
    Ladies and gentlemen, transportation is the infrastructure backbone 
of the world as we know it. Investment in the overall system--
interstate, arterial, collector, and local--remains the lynch pin for 
traffic capacity, safety, air quality, and economic development.
    For the first time in recent history, literally all regions of the 
State of Illinois are coming together for a common purpose. As outlined 
in the Transportation for Illinois Coalition's Mission Statement:
    Understanding that transportation needs must be addressed 
comprehensively rather than in a piecemeal fashion (is) the driving 
force that united major transportation design and construction industry 
groups with labor and business throughout the State . . .
    The Transportation for Illinois Coalition was organized to speak 
with one voice for all of Illinois regarding transportation funding 
needs.
    May I now formally offer the voice of local government in support 
of this critical initiative.
    The September 11th tragedy linked and galvanized in purpose and 
action the Nation under the age-old and truly American call to arms of 
``United We Stand.'' The same call must now rally the country's 
leadership and confront the transportation demands of a new century.
    For only can a coalition linked by a common understanding, by a 
common purpose, and by a common commitment meet the challenge to 
deliver--via our nation's roads, streets, and highways--the common good 
for 21St Century America.
    Thank you.
                               __________
            Statement of Business Leaders for Transportation
    Business Leaders for Transportation was formed in 1997 to act as a 
collective voice for Chicago-area employers on policy and funding 
issues concerning this region's surface transportation network. Led by 
the Metropolitan Planning Council, Chicago Metropolis 2020 and the 
Chicagoland Chamber of Commerce, it is a growing coalition of more than 
100 business organizations representing more than 12,000 regional 
employers.
    Business Leaders understands that the economic competitiveness of 
the Chicago metropolitan region depends on continuing to function 
efficiently as the crossroads for our nation's highway and rail system. 
The coalition has been a strong advocate for increased investment and 
innovation in Northeastern Illinois' transportation network.
    New challenges confront us, as discussions loom on the 
reauthorization of the current Federal transportation bill. This region 
is plagued by congestion, a lack of transportation alternatives in 
growing suburban areas, and aged and outdated infrastructure, all which 
constitute high priorities in the next Federal transportation 
legislation. By working closely with a strong network of government 
transportation professionals, business and civic groups, Business 
Leaders is building regional consensus on policies that should be 
addressed in the next transportation bill.
    Unlike its 1991 predecessor, TEA-21 replaced a needs-based formula 
with one that distributed money to the 50 States by a predetermined 
percentage; Illinois' increase was only 29 percent, in comparison to a 
40 percent increase nationwide. This shift amounted to a $600 million 
loss to Illinois over the course of the 6-year program, while 
congestion continues to be third worst in the Nation and our 
interstates, highways and local roads are overburdened by an 
exponential growth in traffic. Although TEA-21 chipped away at the list 
of projects necessary to alleviate congestion, under this new funding 
formula Illinois actually fared worse than other Midwest States despite 
the fact that freeway congestion is 12 percent higher here than the 
national average and 20 percent higher than neighboring States. In 
addition, 40 percent of daily traffic is congested and the 2000 Census 
shows that in five of the six counties, commute times increased by more 
than 10 percent over the past decade. The mismatch between the location 
of jobs and housing directly fuels increased congestion as more and 
more employees have to travel via automobile to get to work because 
transit is not a viable option. Simply put, longer commutes result in 
more traffic for everyone, which worsens air quality and greatly 
diminishes our quality of life.
    Through Illinois FIRST, our State infrastructure-funding program, 
the State has been able to repair portions of its outdated 
infrastructure and provide the match for Federal funds. This program, 
like the Federal transportation bill, will soon expire, leaving many 
highways and bridges still in need of repair and numerous unfunded 
capital needs for the region's transit system. Collectively, the 
region's three public transportation service providers are at least $3 
billion short of funding for needed improvements to preserve transit 
infrastructure; this does not include resources for system expansion.
    Current funding is not fixing the problem. A business as usual 
approach to traffic gridlock is hurting our economic competitiveness 
and livability. Business Leaders calls most urgently for a return to a 
needs-based funding formula, so that regions like northeastern 
Illinois--with its rapidly growing population of transit users, aging 
and clogged highway network, and position as the hub of the intermodal 
freight industry--get the help they need to give people transportation 
choices and make traffic flow more smoothly.
    The opportunity to address these issues is now! Business Leaders' 
consensus agenda is contained in a document entitled, Getting the 
Chicago Region Moving: A Coordinated Agenda for the Federal 
Transportation Debate (see http://www.metroplanning.org/resources/
images/blt tea report.pdf) and makes the following specific funding 
recommendations:
    <bullet>  Highways: At the crossroads of the Nation, northeastern 
Illinois' highway system is critical to its economic prosperity, but 80 
percent of that system is over 30 years old. The 2003 bill should re-
evaluate the Federal funding structure, which shortchanges densely 
populated areas, so that it places greater value on projects of 
national significance;
    <bullet>  Transit: The Chicago region boasts the second largest 
transit network in the Nation. As Chicago's Loop requires expanded 
transit options to support its growth and suburbs with dramatic 
population growth look for better solutions to traffic congestion, 
funding for transit projects must be increased for both rehabilitation 
and expansion;
    <bullet>  Freight: The Chicago region is the world's third largest 
intermodal port, but our outdated railyards and highways are not 
equipped for ever-expanding volumes of freight traffic. The 
inadequacies of Chicago's freight network have slowed the movement of 
freight traffic across the region to less than 15 m.p.h. Freight 
infrastructure improvements must be added to the next legislation, with 
funding expanded and directed toward increased track and yard capacity, 
grade crossing separations and joint-use corridors with broad, public 
benefits.
    <bullet>  Land Use: All transportation projects should be evaluated 
within the framework of a regional land-use plan, to maximize the 
impact of limited resources and improve air and water quality.
    Business Leaders for Transportation recognizes that the 
metropolitan Chicago region has complex infrastructure needs. With the 
Federal transportation package due to expire on Sept. 30, 2003, we must 
build on the foundation laid by prior transportation bills to meet the 
continuing needs of transit, freight and roadways in northeastern 
Illinois and to provide a truly multi-modal transportation system.
    The reauthorization of TEA-21 must take a closer look at the 
surface transportation issues that plague metropolitan Chicago. Our 
region must have meaningful input to ensure that the transportation 
infrastructure needs of this critical national crossroads area are met. 
The next bill must be based on policies that coordinate land-use and 
transportation planning; promote transportation alternatives and 
encourage people to live near employment centers; improve and enhance 
our overall quality of life; and support the growth of our economy.
                               __________
    Statement of Prairie Stone Transportation Management Association
    The Prairie Stone Transportation Management Association, servicing 
the Prairie Stone Business Park in Hoffman Estates, Illinois, includes 
Sears Corporate Headquarters and other regional businesses and a member 
of the Business Leaders for Transportation Coalition. We are writing to 
support the increase in transportation funding in the TEA 03 
reauthorization and that the formula be re-evaluated so that it places 
a greater value on projects of national significance. Because 
northeastern Illinois is the transportation hub of North America, it 
serves not only the rapidly growing Chicago metropolitan area, but 
every major north-south and east-west trade corridor. While increased 
funding helps our economy, Illinois isn't the only beneficiary when our 
transportation network is well funded.
    Our transportation network is key to the nation's ability to move 
people and goods because of its geographic location. Five of the 
nation's interstate highways traverse Illinois; the Chicago region 
serves as the nation's rail hub, and Illinois is one of the nation's 
major inter-modal centers.
    Additionally, the metropolitan Chicago area has been the third 
worst congested region in the Nation for 6 years running. According to 
the Texas Transportation Institute the amount of time Chicago area 
motorists experience congestion has increased from 4.5 hours per day in 
1982 to 7.8 hours per day in 2002. A recent survey by CATS (the Chicago 
Area Transportation Study) indicated that an average commuter spends 46 
percent of its commute time in congestion. Congestion is significantly 
hindering business's access to prospective employees and its movement 
of goods and services. This congestion also causes delay in the 
interstate movement of goods by rail and by freight.
    Reauthorization of the TEA-21legislation should include additional 
funding for transportation generally AND increase Illinois' share of 
the national total.
                               __________
                                    Robert E. Jones, Mayor,
                                 Danville, Illinois, April 2, 2003.

Senator James Inhofe, Chairman,
Senate Committee on Environment and Public Works

Dear Senator Inhofe: Winter Avenue and the Beltline are two projects 
that are important to the safety, traffic flow, and economic 
development of Danville, Illinois.
    Reconstruction of Winter Avenue will create improved safety through 
signalization of Bowman and Winter Avenue, removal and widening of the 
single lane bridge, removal and widening of the one lane underpass, and 
addition of a joint use path to accommodate pedestrian traffic. A large 
number of people use this road as an informal bypass to avoid higher 
traffic on Voorhees and Vermilion streets to access this area of 
Danville.
    The scope of the Winter Avenue project would include replacement of 
a single lane railroad underpass, replacement of a single-lane bridge 
over Stoney Creek, reconstruction of one mile of Winter Avenue, and 
signalization of Winter and Bowman Avenue. Traffic counts have 
continually grown and are currently 8,000 vehicles per day. Residential 
developments are west, north, and south of the area. Winter Avenue was 
constructed as a rural seal coat roadway with ditches. A seal coat 
roadway is not designed for the amount and type of traffic Winter 
Avenue experiences. On the western end of the project, a hill prevents 
appropriate sight distance as vehicles approach the one lane 
structures. The one-lane bridge and one-lane underpass are 
approximately 150 feet apart. Currently there are no accommodations for 
pedestrian traffic along the roadway, underpass, or bridge. East bound 
traffic must yield at the one lane structures.
    A major community park has recently been developed on land owned by 
the City and Danville School District #118 along the south side of the 
road. We have an eight field soccer complex (serving over 1,800 youth), 
six softball fields for youth and adults and most recently we 
constructed an ``AMBUC'S Playground for Everyone''. The total private 
donations (cash and in kind services) for these parks exceed $1.5 
million.
    The City has hired URS for Phase II Design for this project. They 
are working with CSX railroad for an acceptable design to meet the 
City's and CSX's interests.
    Until a final design is completed, a highly accurate cost estimate 
is not available. The anticipated range for construction is $7--$10 
million, highly dependent on what requirements and accommodations are 
necessary for CSX railroad. The City has lined up $1 million of FAU 
funds and $600,000 in Illinois First funds from the State. Currently 
the $600,000 has not been released, but the City has a signed agreement 
for the project.. This $1.6 million would pay for reconstruction of 1/3 
mile of Winter Avenue from the eastern city limits to the eastern 
soccer entrance. The remaining portion includes the hill and one-lane 
structures. The City has been pursuing ICC funding and has a verbal 
commitment for 60 percent of the cost of replacing the one lane 
underpass at the CSX railroad. The current estimate for the underpass 
is $3.1 million, thus hopefully $1.86 million of ICC funds. The 
remaining $3.54--$6.54 million is currently not funded.
    The County would also like to improve Winter Avenue from the city 
limits east to short of the State line. They experience a similar level 
of traffic, but without the local turns to destinations along the 
route. The improvements for that portion of Winter Avenue would be $2 
million.
    The Danville Beltline is being studied by Hanson Engineering. An 
Access Justification Report (AJR) is currently being reviewed by FHWA. 
After FHWA's consideration of the AJR, Hanson Engineering will complete 
its study and report its findings. Preliminary findings support a new 
interchange with 1-74, a new roadway that opens up additional area for 
economic development, and ties to other existing facilities such as 
U.S. 136, Illinois Route 1, Vermilion County Airport, and existing 
local arterial streets. Without the beltline, the existing available 
area for growth will be quickly taken up, and the increasing traffic at 
the existing Lynch Spur interchange would have to be rebuilt, also 
requiring reconstruction of a bridge on 1-74 at significant costs.
    The beltline would be built as warranted with the first phase 
expected to include a new access to 1-74 and tying to local roadways 
percent miles to the south and 2 miles or more to the north. The final 
report is expected from Hanson Engineering this year.
            Sincerely,
                                    Robert E. Jones, Mayor.
                               __________
          Statement of Phil Pagano, Executive Director, Metra
    Good morning, I'm Phil Pagano, Executive Director of Metra. I'm 
grateful for this opportunity. I'm always eager to talk about Metra's 
role in the mobility of northeastern Illinois. I'm especially eager to 
talk about what we need in order to play our role even better in the 
future.
    Before I go into details about the Federal transportation 
legislation, let me first review our current status. Metra is a true 
regional passenger railroad. We connect a dynamic, urban core with a 
fast-growing ring of communities. I am proud to say that we are 
recognized as the premier commuter rail system in the United States.
    In terms of ridership, Metra is the second largest commuter 
railroad in the United' States. Last year, more than 80 million 
commuters rode Metra.
    In terms of network, Metra is the largest commuter railroad. We 
operate 11 lines within a service territory of 546 route miles in a 
traditional hub and spoke pattern focusing on the Chicago Central 
business district. We own and directly operate four of those lines. We 
contract with two major freight railroads for service on four other 
lines. And through trackage agreements, we directly provide service on 
three more lines.
    We operate this network with an industry-leading on-time 
performance record, averaging 96 percent last year.
    Since 1970, the number of metropolitan areas served by commuter 
rail systems has increased from 11 to 18, with many more cities 
creating or considering commuter frail systems. This success in growth 
can be attributed to a number of factors, including the existence of 
rail rights-of-way, and the need for communities to alleviate traffic 
congestion, reduce air pollution, and provide reliable transportation 
alternatives for a growing number of commuters. All of this can be 
accomplished by commuter raill.
    One central issue currently facing the commuter and rail industry 
in general is the subject of grade separations. It's a topic that I'd 
like to expand on here.
    Metra has been a leading advocate in the region for an aggressive 
grade separation program. In fact, we've identified 225 grade crossings 
that would be key in enhancing the mutual flow of traffic and 
productivity of operations for commuter rail and freight operations. 
These targeted grade separation projects are critical for the 
communities we serve. So much of our territory is experiencing growth. 
That growth inherently delivers more traffic on the busy roads that 
cross our system.
    As we continue to plan for growing customer demand for our service, 
it is critical that we accomplish these grade separation projects. They 
would greatly improve the flow of traffic on roads and streets, and 
increase the safety and productivity of both commuter and freight 
services. This program is a true win-win concept.
    Wherever a road or highway intersects a Metra line at grade, motor 
vehicle traffic can be delayed as trains pass. When vehicles block the 
tracks, trains are also delayed. More important, all too frequently 
motorists and pedestrians ignore crossing gates and warning signals, 
and are killed as they attempt to cross in front of a train. While most 
motorists are cautious, this is an imperfect solution.
    All proposed grade separations would, of course, be discussed and 
coordinated with the relevant local community.
    Grade crossing replacements would naturally be executed over an 
extended period of time. The cost for a program of this dimension will 
be approximately $2.5 billion. The permanent, long-range benefit of 
this initiative will provide for enhanced personal mobility, and more 
livable communities, in addition to greater safety for both commuters 
and motorists.
    Metra would strongly support a Department of Transportation-wide 
program that can provide grants, loans, bonding authority, tax 
incentives and other components to address high-priority grade 
separations. We feel that would go a long way to improving the safety 
and efficiency of the nation's transportation system.
    The landmark TEA-21 legislation has been enormously helpful in 
providing a significant, dedicated funding stream for transit.
    Metra has benefited greatly from TEA-21. Three of our current 
project expansion projects--the SouthWest Service, Union Pacific West, 
and North Central were all', authorized under the New Start section of 
TEA-21.
    A big highlight came in November 2001 when Metra received Full 
Funding Grant Agreements for the three aforementioned projects. We were 
delighted that the U.S. Department of Transportation recognized the 
importance of our program to a region where there is serious gridlock.
    I'd like to reiterate our appreciation and thanks to the entire 
Illinois delegation, led by Speaker Hastert, for helping pave the way. 
Without such support, these projects would not exist.
    Under TEA-21, a great deal of significant progress will be made on 
growing the system, upgrading the infrastructure, and enhancing the 
system to attract new riders. While clearly much has been accomplished 
by Metra to date, it is equally certain that Metra faces a new set of 
challenges as we wage a continuing capital-intensive battle to reclaim, 
modernize, and expand the region's rail infrastructure.
    With the reauthorization of TEA-21, Metra intends to build on its 
past record of success, and its responsible and productive expenditure 
of available resources, by continuing on core capacity improvements and 
strategic system expansion.
    Population forecasts and leading economic forecasts point to 
continuing and growing demand for high quality commuter rail service. 
For Metra, the mission remains twofold: preserve and enhance its core 
network of service while at the same time expanding and upgrading the 
system in order to meet future ridership and service requirements.
    Accordingly, Metra has identified five TEA-3 projects which will 
enhance and significantly improve service reliability and operational 
performance, as well as offer new service opportunities for thousands.
    The proposed new lines, known as the STAR Line and the SouthEast 
Service Line, would provide service to northwest and southeast Cook 
County, Kane, DuPage and Will counties.
    In addition to the proposed routes, infrastructure initiatives on 
the Union Pacific Northwest and West lines, and the A-2 Interlocker 
will help improve service for more than 60 percent of our customer 
base.
    We look forward to the continued leadership of the Illinois 
delegation throughout the TEA-3 reauthorization process. Simply put, 
the impact of this legislation cannot be overstated.
    Metra supports two key principles being included in the next 
reauthorization bill: (1), increasing the amount of funds for ``New 
Start'' projects; and (2), ensuring that older systems continue to be 
eligible for ``New Start'' funding.
    In addition, we would also support efforts to ensure that funding 
levels recommended in full-funding grant agreements for a given year 
are honored, so that the projects can receive the funding necessary to 
remain on schedule.
    As with the New Starts program, commuter rail also has 
significantly benefited from the fixed guideway modernization program. 
This program has brought stability to commuter rail, allowing systems 
to make needed upgrades and improvements.
    We believe the current structure and formula allocations work and 
do not need changing. However, because of the increase in the number of 
commuter systems and the critical funding needs, we support an increase 
in funding for rail modernization.
    Rail infrastructure improvements will allow the overall system to 
run more effectively and safely. These improvements will attract new 
riders, provide better service to existing riders, and will reduce 
train congestion and interference between freight and commuter trains. 
All these factors will positively benefit the economy at large.
                               __________
     Statement of St. Louis Regional Chamber and Growth Association
I. Introduction
    The St. Louis Regional Chamber and Growth Association (RCGA) 
respectfully submits this statement to Senator James Inhofe, chairman 
of the Senate Committee on Environment and Public Works, on the 
occasion of the U.S. Senate. Field Hearing on Surface Transportation in 
Chicago, Illinois April 7th. RCGA requests that this statement be made 
an official part of the record of this hearing.
II. RCGA
    The RCGA is the chamber of commerce and economic development 
organization for the Greater St. Louis region that includes the 
Illinois counties of St. Clair, Jersey, Madison, Clinton and Monroe; 
and St. Louis City and the counties of St. Louis, St. Charles, Lincoln, 
Warren, Franklin, and Jefferson in Missouri. RCGA's 4,000 member 
companies constitute nearly 40 percent of the regional workforce. As 
the St. Louis region's economic development organization, RCGA is a 
voice for all of the area's over 60,000 businesses in its effort to 
improve the community as a place to do business and enhance its overall 
quality of life.
III. Surface Transportation Reauthorization Issues
    Our nation's surface transportation system is the backbone of 
America's commerce, economic viability, security, and vitality. Our 
nation's global competitiveness depends on a well maintained, 
functioning network of roads and bridges. And, preserving and improving 
this system of mobility and accessibility is indispensable to 
maintaining our quality of life. As the Committee on the Environment 
and Public Works moves forward structuring the reauthorization of 
surface transportation bill, you have the opportunity to support and 
improve upon the philosophy and overall direction of ISTEA and TEA-21 
that have served to strengthen the nation's infrastructure.
    Building infrastructure requires programmatic and funding 
stability. We would urge the full utilization of the Highway Trust Fund 
and maintenance of the existing ``firewalls'' to insure all funds 
authorized can be spent. To avoid large swings in annual adjustments in 
funding, we would urge maintaining and refining the Revenue Aligned 
Budget Authority mechanism. An equitable distribution of funds requires 
the new bill to address the fairness of the minimum guarantee formula 
to States, in particular to those States that are ``donors.''
    The Interstate roads and bridges are the nation's most important 
system for the movement of goods and people. Because that system is now 
fifty years old in many places and in need of major rehabilitation, 
support for preservation of this system is paramount. While this can--
and should--be addressed through an increase in programmatic funds, 
certain High Priority Projects and ``mega'' projects (due to their 
sheer size and scope) need to be accounted for ``over and above'' 
minimum guarantees to States. These projects are, for the most part, 
truly national in significance and should be identified as such and 
treated separately.
IV. The Need for a New Mississippi River Bridge at St. Louis
    In the St. Louis metropolitan region, the construction of a new 
Mississippi River Bridge located just north of downtown is one such 
``mega'' project deserving of special status and funding due to its 
significance to the region and the Nation. The construction of this 
river crossing is the No. 1 transportation priority in the St. Louis 
region. It is a vital link in our nation's surface transportation 
network and its construction stands to produce benefits on a local, 
regional and national scale. The new bridge means economic benefits and 
job creation, transportation efficiencies, improvements in safety, and 
congestion reduction to the region. Its position as an improved 
Mississippi River crossing for three vital interstates in America's 
heartland strengthens our nation's defense, communication and economic 
infrastructure. It is at the crossroads of national east-west traffic 
and north-south goods movements that support our nation's commerce.
    The national importance of the crossing cannot be stressed enough. 
Recent media reports (see Attachment 1: St. Louis Post Dispatch, March 
27, 2003) identifying St. Louis Mississippi River bridges as one of a 
few national ``targets'' for terrorism bring this point home. St. Louis 
is the second largest freight hub in the Midwest, and the 1-70 corridor 
is one of the primary east-west interstate routes for the US. (see 
attachment 2: St. Louis Total Combined Truck Flows, USDOT) The new 
bridge will serve the heart of America where one out of five industrial 
jobs are located and 40 percent of exports originate. The bridge 
location will facilitate east-west traffic and the north-south goods 
movement important to NAFTA trade relations which support 27 percent of 
U.S. agricultural exports. Currently, we rely on a single crossing 
where four vital interstates come together leaving us vulnerable.
    The construction of the new bridge will generate $2.6 billion in 
economic benefits to the region and create the equivalent of 47,000 
year-long national and regional jobs. An estimated $68 million in tax 
receipts to State and, local entities will result from investment in 
this important project. Rush hour congestion on the existing facility 
is expected to double to 3 hours in 20 years, leading to severe and 
unacceptable delays. Reduction in congestion with the new bridge will 
result in a net travel time savings of 16,000 vehicle-hours per day and 
a net savings of $52 million per year to those using the facility. 
Approximately $4.6 million per year will also be realized as a result 
of a safer crossing yielding fewer accidents.
    Local support for the bridge is strong and long-standing. The total 
cost for the project is $1.6 billion. Of that, $308 million has already 
been committed and engineering and construction are proceeding with 
those funded elements. The goal is to secure discretionary Federal 
funding to complete this needed project over and above regularly 
apportioned Federal dollars to the States of Missouri and Illinois.
    We strongly support this project. It is good for our businesses, 
good for the region and is a key element of our nation's transportation 
infrastructure. The new Mississippi River Bridge deserves to be 
included as an element of the new surface transportation bill this 
committee will consider. We urge your support for this project for the 
St. Louis region and the Nation.
V. Conclusion
    Mr. Chairman, members of the committee and distinguished members of 
the Senate in attendance at this field hearing, thank you for this 
opportunity to comment on the particular interests of the St. Louis 
region and the RCGA in maintaining a strong surface transportation 
network for America. RCGA appreciates the chance to share our concerns 
and recommendations as you work to prepare a new surface transportation 
bill. We hope we have provided insights into what we believe are 
important considerations for inclusion in the bill. We look forward to 
working with the members of this committee to craft surface 
transportation legislation that meets the needs of the St. Louis 
region, the States of Illinois and Missouri, and our Nation.
            Respectfully submitted,
                                       Richard C.D. Fleming
                              President and Chief Executive Officer
                  St. Louis Regional Chamber and Growth Association
                                 ______
                                 
                              Attachment 1
                            [March 27, 2003]
                Threat prompts police to watch 2 bridges
                  (By Bill Bryan of the Post-Dispatch)
    St. Louis police have assigned officers to watch two Mississippi 
River bridges 24 hours a day after a captured al-Qaida leader told 
interrogators about what Chief Joe Mokwa described Wednesday as a 
``generic threat.''
    ``We have uniformed officers looking for anything unusual,'' Mokwa 
said. He declined to say which of the seven bridges are getting the 
attention or how the two were chosen.
    Homeland security officials have long recognized the Poplar Street 
Bridge as a potential target. It carries three interstates--55, 64 and 
70--and accommodates about 35 percent of the car and truck traffic 
across the Mississippi in the St. Louis region.
    St. Louis also has two rail-only bridges, the Merchants and 
MacArthur, which get little public notice but play a vital role in 
national commerce.
    Mokwa said the FBI alerted him about 2 weeks ago. The information 
came from Khalid Shaikh Mohammed, a high-ranking al-Qaida member who 
was captured March 1 in Pakistan. Mohammed reportedly told officials 
that al-Qaida was interested in hitting symbolic landmarks and named 
the White House, the Israeli embassy in Washington, the Sears Tower in 
Chicago and bridges in Manhattan, St. Louis and San Francisco.
    Thomas E. Bush III, special agent in charge of the FBI's office in 
St. Louis, confirmed the report Wednesday and emphasized, ``There are 
no specific threats to any bridge in the St. Louis area.''
    He added, ``There has been a lot of nonspecific information that 
has come out but never substantiated. In this case there's no timetable 
given, nothing specific.
    ``You have to be careful in situations like this not to overreact. 
You don't want to create panic. There have been a number of these kinds 
of reports, and you have to take them in context.''
    But even vague threats are handled seriously, Bush said. ``You're 
damned if you do, and damned if you don't. It's better to err on the 
side of caution.''
    The FBI ``took necessary steps'' that included notifying local 
police, he said.
    Mokwa said that after the report, police photographed and studied 
the bridges. He would not discuss how officers are monitoring them.
    Illinois State Police Capt. Richard A. Woods, commander of District 
11 in Collinsville, said he was aware of the terrorist alert, but he 
declined to say how his agency might be involved.
    In June, security at the Edward Jones Dome downtown was tightened 
after reports that people with ties to unspecified terrorist groups had 
used an Internet site to gather information about it and the RCA Dome 
in Indianapolis.
    Bill Eubanks, then special agent in charge of the FBI here, called 
that information ``very vague.'' Nothing came of it.
    Besides the Poplar Street, Merchants and MacArthur, there are four 
other Mississippi River bridges in the city. Two, the New Chain of 
Rocks (1-270) and King bridges, carry cars and trucks. The Eads is used 
only by MetroLink trains, although it has a road deck under 
reconstruction. The McKinley is closed for repairs.
    There are two more bridges in the region not in the city: the Clark 
Bridge, linking St. Charles County to Alton, and the Jefferson Barracks 
Bridge, linking south St. Louis County to Monroe County.
                               __________
          Statement of Joseph L. Mikan, Will County Executive
    Will County, Illinois, is taking this opportunity to provide you 
with information on its desires and concerns regarding the upcoming 
reauthorization of the Federal transportation bill, TEA-21. This 
information is being submitted to you in correlation with the U.S. 
Senate Committee on Environment and Public Works' (EPW) field hearing 
on the transportation needs of Illinois.
    Will County, Illinois, is the second largest County in northeastern 
Illinois and the 13th largest in the State with a current population of 
536,000 and growth projections that have made it the fastest growing 
county in Illinois and placed it in the top ten fastest growing 
counties in the United States. The points listed below identify 
policies for the re-authorization of TEA-21 that are necessary to the 
improvement of mobility for all of Illinois and the County of Will.

    <bullet>  Increase Federal funding levels of the transportation 
bill overall in order to meet critical needs for rehabilitation and new 
capacity. Increase Illinois' share of formula-based funds, removing 
Illinois from donor status to recipient status due to infrastructure 
needs.
    <bullet>  Maintain the firewalls made part of the TEA-21 
legislation, protecting funding levels for highway and transit programs 
from being diverted throughout the cycle of the bill.
    <bullet>  Continue the inclusion of quality core programs such as 
Infrastructure Maintenance (IM), Bridge, Surface Transportation Program 
(STP), Congestion Mitigation and Air Quality (CMAQ), Enhancement, and 
National Highway System (NHS) and maintain or increase funding levels 
of these programs.
    <bullet>  Broaden the eligibility of CMAQ to allow eligibility of 
projects that prevent congestion levels from current levels used to 
determine eligibility based on the need to ``mitigate'' congestion.
    <bullet>  Maintain Federal/local match guidelines at 80/20 for 
highway and transit projects
    <bullet>  New Transportation Security programs should be funded 
with General Revenues
    <bullet>  Develop a new Federal funding program to address airport 
planning including land-use, transportation and tax issues.
    <bullet>  High Priority Project programs are an important mechanism 
for addressing critical infrastructure and planning needs and. should 
be in addition to formula-based funds.
    <bullet>  Eliminate the requirement for Major Impact Studies (MIS) 
as there purpose can be fulfilled through Federal EIS process 
requirements.
    <bullet>  Develop a Federal program to address rail freight issues.

    These policy concepts for the re-authorization of TEA-21 can 
provide the structure and vehicle for the planning and funding of 
projects and programs that are crucial to maintaining quality of life 
for the citizens of Will County and the State of Illinois. Thank you 
for this opportunity.
                               __________
       Statement of the Coles County Economic Development Council
    In 1998 a coalition of Public and Private entities in East Central 
Illinois were successful in receiving approval for a new interstate 
interchange designed to improve economic development, tourism and our 
quality of life. We have secured $8.15 million in Federal funds, $9.93 
million in State funds, $3.6 million in Illinois Commerce Commission 
(Safety) funds, $.6 million in Truck Access Route Program funds, $.5 
million in Surface Transportation Rural funds and $.3 million in 
Canadian National Railroad funds. The total cost of the project is 
estimated to be $28 million. Considering the funding secured above, we 
remain $4,920,000 short. We have recently been in contact with Senator 
Fitzgerald regarding the use of Economic Development Agency funding to 
insure all aspects of the project can be funded and completed.
    Interstate 1-57 is the major transportation artery for Coles County 
and the East Central region of Illinois. It runs north and south and is 
located between Mattoon and Charleston, populations 19,000 and 20,000 
respectively. The existing interchange serving both cities and other 
surrounding counties and communities provides access to IL Route 16 
which goes through the center of both Mattoon and Charleston. Both 
communities have their industrial parks on their north sides requiring 
heavy industrial traffic to travel through the communities to access IL 
16 and eventually 1-57. County and community leaders recognize that a 
new access point to 1-57 north of the existing IL 16 interchange would 
make their local industries more competitive and remaining industrial 
space more desirable while improving safety by eliminating the 
industrial truck traffic on IL 16. The existing interchange forces 
industrial traffic through 11 stop lights in Mattoon and 16 stop lights 
in Charleston while passing by and transiting a Regional Hospital, 
Eastern Illinois University, Coles County Airport, Cross County Mall as 
well as numerous commercial and residential areas. Just eliminating the 
need to endure stop lights will save our existing industries a 
conservative estimate of $274,000 per year in transportation operating 
costs.
    One popular tourist attraction in East Central Illinois is Lake 
Shelbyville. Currently there is no direct access to those recreational 
facilities from 1-57. Access today involves considerable travel on 
secondary roads along indirect and confusing routes.
    As mentioned earlier support for this new 1-57 interchange has been 
regional in nature. Private economic development groups, Lake 
Shelbyville Association, Coles County and the cities of Mattoon and 
Charleston are among those (Attachment 1) contributing funds for the 
feasibility and early design stages of this project.
    Attachment two is a diagram defining the proposed new interchange 
and the roads connecting to the industrial areas of Mattoon and 
Charleston. The $4,920,000 being requested would fund projects #1 and 
#2 shown in blue on the diagram. Project #1 would. provide direct 
access to the recreational facilities at Lake Shelbyville as well as a 
less congested and safer access to the Interstate system for citizens 
living in Douglas, Moultrie and Shelby counties.
    One of our primary industries in East Central Illinois is 
agriculture. Some of the most productive farm land in the Nation lies 
north of IL 16 in Coles County. The new interchange and associated 
connecting roads, will impact access to fields for planting and 
harvesting several thousand acres of prime agricultural land. Project 
#2 would improve an existing but severely undersized road to 
accommodate farm implements. Project #2 along with locally funded 
improvements will provide the access necessary to support our 
agribusiness and separate slow moving farm implements from heavy 
industrial traffic.
    The communities in East Central Illinois have been investing in 
improving our infrastructure to make us competitive with surrounding 
areas and States for economic development. We enjoy an outstanding 
quality of life and serve as a regional center for health care, 
education, shopping, tourism and industry. The new interchange and 
connecting roads will enhance our ability for growth while further 
improving our quality of life. Your support of this project will have a 
major impact on helping us to help East Central Illinois to grow and 
prosper in the years to come.
            Sincerely,
                                   Roscoe M. Cougill, Mayor
                                                 City of Charleston

                             David Schilling, Mayor Pro-tem
                                                    City of Mattoon

                          Carl Furry, County Board Chairman
                                                 Coles County Board
                               __________
                 Statement of the City of Collinsville
                                Office of the City Manager,
                                                    March 28, 2003.

Hon. James M. Inhofe, Chairman,
Senate Environment and Public Works Committee,
Senate Office Building,
Washington, DC 20510-3603.

Dear Senator Inhofe: This letter is written in support: of a proposed 
project to upgrade IL-159 through the City of Collinsville, Illinois, 
that I understand will be reviewed by the committee on April 7, in 
Chicago.
    This newly proposed project is actually the ``missing link'' of a 
State of Illinois project to upgrade IL-159 from Fairview Heights;, 
Illinois through Collinsville, and onto Edwardsville, Illinois. The 
overall widening of IL-159 is in the State's long-range plan, which did 
not include this project. It is my understanding that this segment will 
be included in the MPO's Transportation Improvement Program.
    The State of Illinois is currently in the process of upgrading IL-
159 to five (5) lanes from the north and from the south of 
Collinsville. This will leave a 2 1/2 mile strip with just an existing 
two (2) lane width through the City of Collinsville. Congestion on IL-
159 is a daily phenomenon in Collinsville and future relief cannot 
occur without an upgrade of the existing two (2) lanes. This narrowing, 
in my opinion, also reduces economic development opportunities 
(business), as vehicles will bypass Collinsville on other intrastate 
and interstate roadways. It also defeats the regional purpose to move 
traffic freely north and south between Fairview Heights and 
Edwardsville, which are vibrant centers of commerce, located in St. 
Clair County and Madison County, respectively.
    The project estimates range from $2 to $4 million for Phase I/Phase 
II engineering, and from $15 to $35 million for engineering, land 
acquisition and construction, depending on which option is finally 
approved.
    We ask for your help in providing any assistance that you can give 
with regard to this study and upgrade of IL-159 to current standards. 
Thank you in advance for your kind consideration.
            Sincerely,
                                 Henry Sinda, City Manager,
                                              City of Collinsville.
                               __________
                            Carbondale, Illinois 62902-2047
                                                     April 3, 2003.

Hon. James Inhofe,
United States Senator,
Senate Office Building,
Washington DC 20510.

Dear Senator Inhofe: Enclosed for your information and reference is a 
copy of Resolution 2002-R-64 which supports the expansion of Illinois 
Route 13/127 from two lanes to four lanes between Murphysboro and the 
north side of Pinckneyville (commonly referred to as the 4-127 
project). This resolution was unanimously passed by the City Council of 
the City of Carbondale on September 3, 2002.
    As noted in the resolution, this $80 million project would close a 
large portion of the gap in the system of four-lane highways between 
the major population centers in southern Illinois and the St. Louis 
metropolitan area. In addition, it would address existing roadway 
deficiencies and traffic safety concerns as well as the need for an 
adequate transportation system for regional growth and development in 
southern Illinois, including the improved ability to transport goods 
and services to the St. Louis metro area and beyond.
    The City of Carbondale appreciates your support of this very 
important project. Please contact me if you have any questions or need 
additional information. Thank you.
            Sincerely,
                                       Neil Dillard, Mayor.
                                 ______
                                 
                        resolution no. 2002-r-64
    A Resolution Supporting The Expansion of Illinois Route 13/127 (FAP 
Route 42) From Two Lanes to Four Lanes Between Murphysboro and 
Pinckneyville, Illinois
    Whereas, communities in the southwestern portion of Illinois and 
the Illinois Department of Transportation have been advocating the 
possibility of a freeway between Southern Illinois and the St. Louis 
Metro-East area for many years; and,
    Whereas, upgrading the portion of Illinois Route 13/127 (FAP Route 
42) from two lanes to four lanes between the north edge of Murphysboro 
and just north of Pinckneyville would close a large portion of the gap 
in the system of four-lane highways between the major population 
centers in southern Illinois and the St. Louis metropolitan area; and
    Whereas, this upgrade would also address existing roadway 
deficiencies and traffic safety concerns, as well as the need for an 
adequate transportation system for regional growth and development in 
southern Illinois, including the improved ability to transport goods 
and services to the St. Louis metro area and beyond; and
    Whereas, the Illinois Department of Transportation has acknowledged 
the regional significance of the expansion of Illinois Route 13/127 
between Murphysboro and Pinckneyville and has identified it as a high 
priority project; and
    Whereas, recognizing that the economic feasibility of this 
important road project is contingent upon Federal participation, United 
States Congressman Jerry Costello has also indicated support for the 
project,
    Now, Therefore, Be it Resolved by The City Council of The City of 
Carbondale, Illinois, as Follows:
    1. That the City Council of the City of Carbondale, Illinois, go on 
record in support of the expansion of Illinois Route 13/127 (FAP Route 
42) from two lanes to four lanes between the north edge of Murphysboro 
and just north of Pinckneyville, Illinois;
    2. That the City Council of the City of Carbondale also supports 
the continuation of the expansion of Illinois Route 13/127 to four 
lanes from Pinckneyville to Interstate 64 north of Nashville, Illinois; 
and
    3. That copies of this resolution be sent to IDOT District Engineer 
Karl Bartelsmeyer, State Senator David Luechtefeld, State 
Representative Mike Bost, U.S. Congressman Jerry Costello and U.S. 
Senators Peter Fitzgerald and Richard Durbin.
    This Resolution passed and adopted by the City Council of the City 
of Carbondale, Illinois, on the 3d day of September 2002.
            APPROVED:
                                       Neil Dillard, Mayor.
            ATTEST:
                               Janet M. Vaught, City Clerk.
                                 ______
                                 
                                                    March 31, 2003.

Office of the County Engineer,
Madison County Highway Department,
7037 Marine Road,
Edwardsville IL 62025.

    Project name and location: This project is called ``Crosstown 
Road'' and is located entirely within the Village limits of Godfrey.
    II. Description: The proposed project is the construction of a 
highway on new alignment to create a cross town route across Godfrey, 
Illinois from Illinois Route 3 on the south to U.S. 67/Illinois Route 
111 on the north. The southerly segment of the new highway from 
Illinois Route 3 to Pierce Lane will be a 2 lane (24 ft.) concrete 
pavement with 10-foot wide bituminous shoulders and open drainage 
ditches, and it will include the construction of a bridge across Rocky 
Fork Creek. The northerly segment of the new highway from Pierce Lane 
to U.S. 67/Illinois Route 111 will be a 3 lane (36 ft.) concrete 
pavement with a middle bi-directional turning lane, concrete curb and 
gutter, and storm sewers. The maximum grade on the new highway will be 
4 percent, which will accommodate future truck traffic. Traffic signals 
will be installed at each end of the proposed highway.
    III. Need: The Village of Godfrey has developed primarily along two 
State highways Illinois Route 3 in an east-west direction and U.S. 67/
Illinois Route 111 in a north-south direction. These two highways are 
already congested, and the connection of U.S. 67/Illinois Route 111 to 
Illinois Route 255 will add to the congestion. The proposed highway 
will provide an alternative cross town route across Godfrey in addition 
to the existing State highways, and it will relieve congestion on 
Illinois Route 3, U.S. 67, and Illinois Route 111. A new fire station 
is planned along the south side of Crosstown Road near U.S. 67/Illinois 
Route 111, and the existing Sheriff substation is already located along 
the north side of the Crosstown Road near U.S. 67/Illinois Route 111. 
Emergency response times in the Village of Godfrey will be reduced by 
the construction of the Crosstown Road. The proposed Crosstown Road has 
been included in Godfrey's economic development Town Center concept, 
which is a planned commercial and residential development north of 
Airport Road between Pierce Lane on the west and U.S. 67/Illinois Route 
111 on the east. The proposed Crosstown Road will bisect this planned 
development and provide improved vehicular access to the site. The 
proposed crosstown route has been designed with the environmental and 
open-space issues in mind that have been expressed by concerned Godfrey 
residents (see letter attached to hard copy).
    IV. Estimated cost: The total cost of this project is approximately 
$19,655,000 in 2002 dollars.
    V. Regional significance: This project has national and regional 
significance due to its connection to the area's existing and future 
transportation network. The southerly terminus of the project will be 
at the existing ``T'' intersection of Illinois Route 3 and Clifton 
Terrace Road (Madison County Highway 16). Clifton Terrace Road extends 
southerly from Illinois Route 3 to the Great River Road adjacent to the 
Mississippi River, which is a federally designated Scenic Byway. The 
future southerly extension of the Crosstown Road also will connect to 
the Great River Road. The northerly terminus of the project will be at 
the existing ``T'' intersection of U.S. 67 and Illinois Route 111. 
These two highways will be improved by IDOT to connect to the future 
extension of Illinois Route 255, which is the northerly extension of 
Federal Aid Interstate Route 255. The proposed project also has 
national and regional significance of a historical/sociological nature 
because it will cross the route of the Underground Railroad used by 
slaves in the 1800's to travel from the south to the north.
                                 ______
                                 
    Project name and location: This project is called Governors' 
Parkway and is an east-west cross-town road located mostly inside the 
City of Edwardsville.
    II. Description: This project is a 3 lane (middle bi-directional 
turning lane) concrete road with ten foot stabilized shoulders. This 
road will start at Illinois Route 143 (1/4 mile West of 1-55) and 
proceed Westerly thru Edwardsville to Illinois Route 159. It will start 
again at Relocated Illinois Route 159 and proceed Westerly to 
termination at Illinois Route 157 (at the entrance to Southern Illinois 
University--Edwardsville.)
    III. Need: Edwardsville and the immediate area has exploded with 
economic and residential development in the last decade and the future 
shows no let-up. Traffic congestion both in the North-South and 
especially in the East-West corridors is extremely bad. This project 
will provide needed access for development along the Illinois 159 
corridor as well as relieve congestion from Center Grove Road which is 
the only East-West road to connect Illinois 159 and 157 in the Southern 
part of the City. A forty-plus-acre shopping mall will be constructed 
in the 159 corridor. Edwardsville High School and Metro East Lutheran 
High School will be served by this road when constructed. And as stated 
earlier SIDE will also be served.
    IV. Estimated cost: The total cost of this project is approximately 
$15,415,000 in 2002 dollars.
    V. Regional significance: This project is a rejuvenated IDOT 
project. DOT started this project in the early sixties and it was to be 
the vehicle to get people from 1-55 and the Eastern part of Madison 
County to Southern Illinois University-Edwardsville. DOT put this 
project on the shelf but kept the previously purchased right-of-way in 
tact. Edwardsville and Glen Carbon are expanding so rapidly to the East 
that Madison County stepped in to become the lead agency due to the 
large cost factor to construct this road. Once again this road will be 
a most needed conduit for Eastern Madison County and 1-55 traffic to 
get to SIUE.
                               __________
                             City of Villa Grove, Illinois,
                                                     April 1, 2003.

Senator James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

RE: Proposed public works project for Villa Grove

Honorable Senator Inhofe: Per our prior request and direction from 
Illinois Senator Peter Fitzgerald's office, I am writing to ask for 
your support in a grant to our community for extensive repairs to the 
streets of our City.
    The City of Villa Grove is a small community in East Central 
Illinois, covering approximately five square miles and with a 
population of 2,553. A large number of our residents commute 
approximately 20 miles north to Champaign/Urbana, where the University 
of Illinois is located. We have the advantage of being a rural, 
friendly community with good schools, recreation and small businesses, 
while still having access to ``city life'' with a short drive.
    Our City has suffered the effects of the State of Illinois=s 
significant budget cuts, coming just after an approximate 6.6 percent 
loss of population in the 2000 census. Last year alone the City of 
Villa Grove lost nearly 15 percent of revenues compared to the 
preceding year. Adding the ``bedroom'' community effect to that 
equation means a continued loss of retail sales tax revenue as 
residents can make purchases from big name stores while in Champaign 
rather than from local businesses who cannot compete-we've recently 
lost several businesses including a hardware store and the City's only 
pharmacy. Many others, including our schools, have made cuts in both 
products and labor forces. Unfortunately, we feel certain that the 
immediate future holds more losses for us, at least until the economy 
begins an upward trend.
    We have a number of worthwhile projects that were and continue to 
be cost-prohibitive, such as drainage issues and the need to replace 
our Community Building that has sustained continuous damage from 
floods. Currently, the City has approximately 2.5 to 3 miles of paved 
streets in need of significant repair or replacement. These roadways 
date back to the 1920's, and are broken and being washed out below the 
concrete surface. Our current rough cost estimate to remove, fill and 
lay new asphalt and raise necessary manholes would be around $350,000-
400,000. This type of work would be normally be eligible for Motor Fuel 
Tax funds, but those revenues have declined as well due to the 
population loss. It is all we can do at this point to keep up 
financially with ``band-aids"-short-term repairs to keep the roads 
usable.
    With revenues down and belts being tightened, any help you can 
provide in your role as chairman of the Public Works Committee would be 
sincerely appreciated. I look forward to hearing from you, in the hopes 
that together we can turn this project from a ``someday'' proposal into 
a factual accomplishment.
            Cordially,
                                     Ronald H. Hunt, Mayor.
                               __________
                                       Highway 34 Corridor,
                                                     April 4, 2003.
Hon. Peter Fitzgerald,
U.S. Senate,
Senate Office Building,
Washington, DC. 20510.

Dear Senator Fitzgerald: The Highway 34 Coalition strongly supports 
actions that will ensure the completion of U.S. 34 as a four-lane 
highway in Illinois and Iowa. We believe that we are at an especially 
crucial crossroad. There is heavy competition throughout the Nation and 
the States for limited resources for new road construction. Therefore, 
the Coalition is requesting that legislation be undertaken that will 
ensure that the U.S. 34 four-lane improvement remains a top priority 
with the U.S. Department of Transportation and receives full funding.
    The Highway 34 Coalition was formed in 1990 as bi-state, bi-
partisan coalition of community organizations, local government 
representatives, businesses and individuals who were committed to 
revitalizing the economic climate of the region through the improvement 
of the transportation system-especially the U.S. 34 corridor. Our focus 
and commitment to this project has not diminished during the past 13 
years.
    We believe that U.S. 34 should be completed as a four-lane because 
. . .
    <bullet>  Between January 1990 and June 2002, 1,666 accidents 
including 14 fatalities (January 1994-June 2002) occurred on U.S. 34 in 
Henderson and Warren counties.
    <bullet>  Seven high accident locations have been identified within 
the U.S. 34 project corridor.
    <bullet>  The proposed improvements are expected to reduce traffic 
accident rates in these areas by providing a safer, more efficient 
route between Monmouth and Gulfport.
    <bullet>  Within the four-lane expressway around the west and north 
sides of Monmouth, the accident rate for 1998, 1999 and 2000 ranged up 
to 4.38 accidents per million vehicle miles traveled as compared to the 
statewide average accident rate for urban divided highway of 1.52 
accidents per million vehicle miles traveled.

    <bullet>  Much of U.S. 34 from U.S. 67 to Giilfport lacks adequate 
shoulders and clear zones. Portions of this section do not meet current 
standards for horizontal alignment and that passing sight distance is 
limited.
    <bullet>  US 34 is a key regional corridor for the east-west 
movement of people and goods in, and through, west central Illinois. 
U.S. 34 will be the major east-west corridor connecting Interstate 74 
and the Avenue of the Saints (Interstate 218).
    <bullet>  The Great River Bridge/US 34 over the Mississippi River 
is the only four-lane bridge for approximately 130 miles. (Nearest 
four-lane bridges are in the Quad Cities and at Hamilton. The nearest 
bridges are at Muscatine (46 miles north) and Niota (17 miles south)-
but they are only two lane. The existing large volume of truck traffic 
(13-31 percent) is expected to increase.
    <bullet>  US 34 is vital to the economic growth of west central 
Illinois. U.S. 34 is a regional highway priority as identified by the 
Tri-State Development Summit Transportation Task Force.
    <bullet>  The average daily traffic volume on U.S. 34 ranges from 
10,300 west off the Carman blacktop to a range of 3,950-7,500 along the 
corridor and at the U.S. 67 Interchange. (Projected traffic volumes 
along the existing route are expected to range from 6,200 to 17,500 in 
the 2025 design year.) (The Big River Resources ethanol plant estimates 
3,000 trucks per month will be added to the traffic count on U.S. 34 
when it begins operations in West Burlington the fall of 2003.)
    <bullet>  Each year the cost increases. The estimated total costs 
to complete the highway in December 2000 was $295 million. In February 
2003, the estimated total cost was up to $330 million-that's a $40 
million increase in just 26 months. That's almost a $1 million per mile 
per year cost increase.
    <bullet>  The time has come to complete the U.S. 34 Corridor. The 
project started 36 years ago. During 1963-69, the Illinois Highway 
Study Commission prepared a highway needs and study plan for the State. 
As part of that plan, several different corridor approvals were granted 
in the vicinity of U.S. 34. In 1967 a corridor from Gulfport to 
southwest of Gladstone was approved and in 1970 a corridor from 
Gladstone to Monmouth. However, it wasn't until 1997 that the U.S. 
Department of Transportation Federal Highway Administration allocated 
funding to prepare an Environmental Impact Statement.

    Your support in ensuring that U.S. 34 becomes a four-lane highway 
sooner than later is greatly appreciated. Please find enclosed 
testimonials concerning the need for the few miles remaining to be 
completed. Let's make it 0 miles to go!
            Respectfully,
                                   Kurt McChesney, Chairman
                                               Highway 34 Coalition
                                 ______
                                 
      Testimonials in Support of Completing U.S. 34 as a Four-Lane
    The following are excerpts from letters received by the Highway 34 
Coalition from businesses, community organizations and governmental 
entities in support of completing U.S. 34 as a four-lane for safety and 
economic reasons:
Big River Resources Cooperative, West Central Illinois & Southeast Iowa
    The Board of Directors of the Big River Resources Cooperative 
ethanol plant project strongly encourages the development and expansion 
of U.S. 34 in western Illinois and eastern Iowa. The Big River plant 
will begin operation in December or January of 2003/2004 and we 
anticipate 150 trucks or semis to be using U.S. 34 on a daily basis to 
deliver corn and manufactured goods as well as carry the products we 
are producing. We believe that expanding from the present two-lane to 
the proposed four-lane is essential for not only safety concerns but 
will be an economic benefit to the region surrounding Burlington, IA 
and Monmouth, IL.
    Big River Resources presently has an office in Illinois as the site 
in Iowa is under construction. We are a regional project whose goal is 
to add economic benefits to the agricultural sector of this region. We 
are aware of U.S. 34 on a daily basis and realize the important 
connection it is between Illinois and Iowa.
                  terry davis, legislative co-chairman
                            264 u.s. hwy 67
                          roseville, il 61473
             nelson trucking service, inc., mediapolis, ia
    Nelson Trucking Service would like to express its support of the 34 
Coalition and its effort to see that the highway in question is 
completed this resulting in a 4-lane highway. Nelson Trucking has been 
in business for over 70 years and this particular stretch of road is a 
familiar one for us.
    We operate 15-20 trucks on a daily basis through this stretch of 
road We are a flatbed operation that hauls numerous loads of building 
materials (ex. Steel, shingles, lumber, brick) to meet our customers' 
needs in the Southeast Iowa and Illinois area. For Nelson personally, 
that means millions of miles and in excess of 180,000,000 lbs. per 
year. An expanded road for our industry means a higher security for our 
divers and fellow highway users. Obviously, accidents are reduced and 
fears are eased. Nelson Trucking would like nothing better than to see 
that every opportunity has been taken to ensure the safety of all 
drivers on the road.
                        nelson trucking company
                monmouth grain & dryer co., monmouth, il
    Confirming our telephone conversation this morning, we at the 
Monmouth Grain & Dryer Co. Inc., are proud to sponsor one of the golf 
holes at the ``Highway 34 Coalition Golf Outing.'' We certainly 
understand the importance of this project moving forward.
    From Monmouth to the Burlington, Iowa area, our company transports 
approximately 60,000 tons of goods per year. Needless to say, we are 
very concerned about safety while traveling the current conditions. We 
are always aware of safe conditions and can attest to the difference 
from east-to west out of Monmouth.
      james m. lovdahl, president monmouth grain & dryer co., inc.
                wal-mart stores, inc., mt. pleasant, ia.
    My staff and I wholeheartedly support the efforts of the Highway 34 
Coalition!
    Our facility uses U.S. 34 daily to ship merchandise to our Wal-Mart 
Stores and Supercenters. We also use the corridor very heavily to bring 
freight back to our Distribution Center from vendors and consolidators 
in Illinois and points east. We certainly depend on this highway to run 
out business!
    At the same time, our Drivers have had some very close calls-near 
collisions-while navigating this road. The narrowness of the road 
itself, limited sight distance in certain areas, and slow-moving local 
traffic are the main problems here.
    It's obvious to us that based on usage and the importance of this 
road, it should be a four-lane highway. Please include us in any 
efforts to make that happen. And let any/all influencers and 
decisionmakers involved with this effort know that Wal-Mart supports a 
better, safer highway.
              chick yatsko, general transportation manager
            wal-mart distribution center, mt. pleasant, iowa
        atlas intermodal trucking service, inc., burlington, ia
    Every year Atlas Intermodal trucks travel across Highway 34 in 
Illinois with approximately 3,780 loads. The heavy traffic on the two-
lane section of this road is cause for great concern for the safety of 
our divers and others using this highway.
    We are certainly supportive of efforts to obtain State of Illinois 
commitment to fund building of a four-lane highway.
                      beverly a. ivey, comptroller
                      james l. vollbracht trucking
    We are a family owned trucking company that travels Highway 34 
routinely, currently operating ten to 15 tractor-trailer units on a 
daily basis. With us conducting a majority of our business out of a 
plant in Monmouth, we are constantly using Highway 34 as a means of 
transportation.
    There have been several occasions where it has been difficult in 
making turns onto the Kirkwood blacktop, traveling east or west, along 
with making turns onto Highway 34. The bypass around Kirkwood is a 
difficult one, in the sense that each exit into Kirkwood is on a curve 
making it impossible to have a clear view upon entering the highway.
    Our company conducts business in Burlington as well and a four lane 
improvement would allow better visualization and better traveling for 
all involved with highway 34 obviously being one of the highest 
transportation highways nearby. There have been numerous occasions of 
vehicles passing our tractor-trailer units, sometimes on hills and even 
in no passing zones, nearly resulting in accidents. Trying to stop or 
slow down a loaded unit is a little more complicated then slowing down 
a car or pickup truck and the results are usually fatal.
    A four lane highway would increase our production and decrease our 
cost, by the fact that with a two lane road there are constant 
obstacles with vehicles turning along with farm equipment utilizing the 
highway, slowing down our units costing us more to ``get going'' again. 
A blow out or other mechanical problem can be hazardous on a two-lane 
road as well. A wider shoulder on the four-lane would provide larger 
vehicles a place to merge onto, and remain until help arrives. This 
would once again be safer for all involved.
    The town of Kirkwood could sure benefit from this as well. Perhaps 
this would make our town more attractive for businesses and families 
for an easier commute. For example, a gas station in our town would be 
very beneficial for the residents as well as commuters on the new 
Highway 34 expansion.
    We are asking you to strongly consider the continuation of the 
four-lane highway on Highway 34. Hopefully you will find that this 
improvement will decrease the amount of accidents and fatalities, 
rebuild our smaller communities, and improve production for our 
businesses. After all isn't saving one life worth it?
                     james l. vollbracht, president
                   vollbracht trucking, kirkwood, il
          henderson county highway department, stronghurst, il
    I wish to comment on the importance of the Highway 34 Coalition 
efforts to the area and to the safety of those traveling the stretch of 
highway in question.
    I believe that we are seeing an increase in the traffic volume, 
especially trucks, since the bridge at Burlington has been replaced. I 
find myself waiting longer at intersections with 34 than was the case 
12 years ago when I first started work in Henderson County. I also 
think that there will continue to be an increase in the traffic as Iowa 
improves their system of roads leading to Burlington. In my travels 
this past year I found myself frequently on Interstate 80 through Iowa. 
1-80 seems to be carrying most of the east-west traffic through Iowa 
and appears to be reaching its design capacity. There is sufficient 
traffic on it to warrant drivers to seek alternate routes. One of these 
alternates will surely be Route 34 as it connects back to 1-74 at 
Galesburg. When this starts to happen the 22.5 miles of 34 through 
Henderson and Warren Counties will become the scene of major accidents.
    I realize funding for this improvement is not readily available but 
urge the State to keep the improvement in the current programming. That 
way should the funds become available work could start on it in a 
timely manner.
                  henderson county highway department
                  carl sandburg college, galesburg, il
    Please be assured that Carl Sandburg College strongly supports the 
efforts of the Highway 34 Coalition to gain DOT funding for the 
completion of four-lane highway to connect Burlington, Iowa to 
Monmouth, Illinois. Our College District #518 covers over 3,000 square 
miles in all or parts of ten counties in west central Illinois. Highway 
34 is an integral roadway for our students traveling from Warren and 
Henderson counties to our main campus in Galesburg. We also have a 
significant number of students who travel Highway 34 west to Burlington 
to attend Southeastern Community College through our cooperative 
agreement with them.
    In addition to the importance of this highway to our students, we 
have many employees who equally depend on that road. From an economic 
development perspective, we certainly recognize how critical Highway 34 
is to commercial and industrial traffic flow between west central 
Illinois and western Iowa. Please help to ensure that the completion of 
the Highway 34 four-lane is a priority for State and Federal 
transportation dollars in the near future. We certainly hope that our 
legislators recognize the tremendous benefit to this region if the 
remaining 22 miles of four-lane highway were completed. If our College 
may be of further assistance in this effort, please advise.
                          sherry l. berg, dean
                     community & extension services
                  henderson county board, oquawka, il.
    The economic interest in Henderson County depends largely on what 
happens in Burlington, IA area. Therefore, having a modern highway 
through West Central Illinois connecting us to this industrial hub is 
important.
    If you look at a map of Illinois it is easily seen that our area of 
the State has been put on the back burner for years. We are down to 
22.5 miles of highway improvements away from being connected to the 
interstate highway system with a four-lane road. As you are well aware, 
having a four-lane connection in this mobile society is a must. The 
four-lane connection will mean possible growth of our Mississippi River 
Transportation System.
    I hope that you consider our concerns and keep the future plans for 
Route 34 in the 5-year plan at IDOT.
    In closing, I would like to express our appreciation for the 
improvement made to 34. We certainly appreciate the improved connection 
we now have to Burlington. But we still need to be connected to the 
remainder of the country through the interstate systems.
                         marion brown, chairman
                  chandler trucking/csr, monmouth, il
    With the end of the year 2000 just around the corner, it is time to 
refocus our attention on the things that need to be accomplished to 
further our business endeavors. As a business that has recently taken 
on a major expansion project, we are very interested in the progress of 
the four-lane improvement project from Monmouth, Illinois to Burlington 
Iowa. It is vital to the future of our business that this project be 
completed as soon as possible.
    Once located on the south end of Monmouth, Chandler Trucking moved 
to the former Munson Transportation building on the north edge of 
Monmouth in January of 2000. Many conversations with city and county 
leaders, including Gene Blade of the Partnership for Economic 
Development, had convinced us that the location just off of Route 34 
would be ideal to further our expansion project.
    In the summer of 2000, Chandler Salvage and Repair (CSR) was opened 
as a complete semi truck & trailer repair center, which also offers 
auto body services. It is imperative that the four-lane expansion of 
Route 34 to Burlington be completed to route business in to the area 
where we can benefit from the traffic. This will give truckers the 
opportunity to have much needed service done between visits to the home 
terminals, resulting in safer trucks and trailers on the road. Truckers 
coming out of Iowa will choose to use 34 to gain access to many of the 
area interstates with a minimum of traffic congestion. It will not only 
further our business endeavor, but also many of the service stations, 
retail businesses, motels and restaurants as well.
    In relationship to our trucking operation, the completion of the 
four-lane expansion would be very beneficial, as we take loads out of 
Columbus Junction, Iowa on a regular basis. It would also improve 
safety as there are many areas currently that are non-passing zones. We 
often hear of collisions due to motorists trying to get around a semi 
in unsafe areas. The second lane could only improve those statistics.
    The four-lane expansion of 34 to Burlington is an eagerly awaited 
benefit for not only our companies, but also many others. We hope that 
the Department of Transportation will do everything within its power to 
hasten to completion of the project. It may be the road that leads us 
to new prosperity in the next millennium.
                   james and brenda chandler, owners
     western illinois economic development partnership monmouth, il
    The Western Illinois Economic Development Partnership strongly 
supports the efforts of the Highway 34 Coalition. The 22.5-mile 
corridor of two-lane road between Burlington, IA and Monmouth,
    IL is a critical link for commercial and industrial traffic that 
has exceeded its original capacity. The improvement to a fourlane 
transportation system would provide a tremendous benefit to economic 
development efforts and increased safety measures for residents of 
western Illinois.
                   jolene willis, executive director
           western illinois economic development partnership
             monmouth area chamber of commerce, monmouth il
    The Monmouth Area Chamber of Commerce strongly supports the efforts 
of the Highway 34 Coalition. Improving the stretch of highway between 
Burlington, IA and Monmouth, IL to a four-lane is vital to the Monmouth 
area. Specifically, the safety of the current two-lane is a concern, 
and having a new four lane would assist in the economic development 
efforts of the Monmouth Area.
                   angela mcelwee, executive director
                   monmouth area chamber of commerce
                   warren county board, monmouth, il
    This has been a long battle, but with help, one can see the light 
at the end of the tunnel. The investment of man-hours, planning and 
money has elevated this project to a ``call for the question.''
    The completion of U.S. Highway 34 from just east of the Mississippi 
River at Burlington, Iowa to Monmouth, Illinois and a junction with 
Highway 67 and then 1-74 crossing the Heart of Illinois, is critical to 
the ever increasing traffic flow and the economic health and 
development of West Central Illinois.
    Logic points to the last leg of U.S. Highway 34 between the 
``Avenue of the Saints'' in Iowa and 1-74 in Illinois! !
    The Warren County Board is, and will remain a solid backer of the 
program started 36 years ago. You may never know how much the 
persistence and effort of Highway 34 Coalition. is appreciated!
                               __________
                             336 Coalition
               Bill Reichow, Chairman, Warren County Board,
                              Canton, Illinois 61520, April 4, 2003

Chairman James Inhofe,
Senate Committee on Environment And Public Works.

Dear Mr. Chairman: We are excited to provide you and your committee 
information on the 336 Coalition and its mission to assist the Illinois 
Department of Transportation in the building of a four lane highway 
connecting Peoria, IL, to Macomb, IL, running through Fulton County.
    Enclosed you will find information pertaining to many of the issues 
we feel you will find of importance as you consider this vital 
project's place of importance in the upcoming TEA-3 Federal bill under 
consideration.
    Again, thank you for this opportunity. We stand ready to answer any 
questions or provide any additional information you may need.
            Sincerely,
                                  Mark W. Johann, President
                                 ______
                                 
                              our request
    The 336 Coalition is urging support for inclusion of demonstration 
funds in the upcoming TEA-3 Federal Transportation Bill. The Illinois 
Department of Transportation has estimated that their continued funding 
needs to enter Phase II of this project will be $14.4 million.
    These funds would allow progress on a four lane highway linking 
Peoria, IL, to Macomb, IL, to proceed to Phase II of the project. This 
highway will be a continuation of Rt. 336, which is currently fully 
funded and under construction from Quincy, IL, to Macomb, IL.
The Need for the Highway
    The overwhelming need in Fulton County is for modern 4-lane highway 
access to, amongst many other things, spur economic growth and stave 
off general economic decline. Currently, Fulton County's unemployment 
rate stands at 11.6 percent, second highest in the State. For the past 
20 years, Fulton County has been at the top of the State's unemployment 
charts. The area was hit hard when International Harvester closed its 
Canton production facility and when the coal mining business in 
Illinois went virtually out of business.
    Enclosed you will find an Analysis of the Presence of Four Lane 
Highways and Unemployment Rates for thirty (30) of the largest counties 
in Illinois. It reveals the following:

    <bullet>  By land area, Fulton County is the 10th largest county in 
the State of Illinois. Of the 17 (17) largest counties in the State, 
Fulton County is the only county without any 4-lane highways within its 
borders.
    <bullet>  Since 1980, Fulton County's unemployment rate has not 
recovered. It is nearly double the State and national average and 
currently continues to be the highest amongst the 30 Counties listed in 
the analysis. As of February 2003, the unemployment rate hovered at 
11.6 percent second highest for all counties in Illinois.
    <bullet>  Of the 30 largest counties in the State of Illinois (by 
land size), only three (3) do not have any 4-lane highways running 
within their borders. Fulton County has the largest population of the 
three.
    <bullet>  Of the twenty-seven (27) largest Counties (by land size) 
having a 4-lane highway running within their borders, seven (7) of 
those counties have a lesser population than does Fulton County.

    Please reference enclosed analysis (data as of April 2002).
Estimated Costs
    Phase I of the Peoria to Macomb portion of Illinois 336 is fully 
funded at a cost of $12.5 million. Those funds were made available by 
way of the Illinois First program.
    Officially, the Illinois Department of Transportation is projecting 
the ultimate cost to be in the range of $800 million. IDOT's projection 
contemplates the effects of inflation and the uncertainty of the time 
of completion.
    An excerpt from the 336 Coalition's website State that the cost for 
completion of Phase II and Phase III could ranged from $250 million to 
$400 million with that range anticipating completion within the next 
ten (10) to 15 (15) years.
Timetable
    It has been said that it can take as long as 20 (20) years or more 
to build a four-lane highway. Some argue that is has already taken 
nearly thirty (30) years for this highway dating back to an original 
plan that was a component of the Chicago to Kansas City Highway.
    Given the depressed economic conditions that exist in the Fulton 
County area of Illinois, it is essential to the future of this area 
that this project moves forward as quickly as possible.
    Going forward, the timetable will very much depend on having the 
remaining funding available as DOT proceeds through each of the three 
phases. If funding is available, it could--take as few as 10 years to 
see the highway completed. Portions of the highway could be opened to 
traffic as various segments are completed.
Current Status
    In late 2002, the Illinois Department of Transportation awarded 
contracts to URS Consultants to assist in the formation of Phase I 
planning. Those efforts are currently underway with focus groups and 
fieldwork in process. IDOT anticipates being able to define a preferred 
corridor for the segment running from Peoria to Macomb by the spring of 
2004. The alignment portion of Phase one will commence immediate 
thereafter and it too is also fully funded.
Proposed Route
    Enclosed you will find a map provided by the Transportation Task 
Force of the Tri-State Commission. The Tri-State Commission represents 
interests in portions of South-Eastern Iowa, North-Eastern Missouri, 
and West-Central Illinois.
    The map identifies the potential corridors for the highway from 
Peoria to Macomb as a ``Priority Corridor''. It is represented on the 
map with red hash marks.
    The importance of this highway is evident on its own merits. When 
viewed in conjunction with highway projects that could develop in the 
greater Peoria area (providing improved connections to the greater 
Chicago metropolitan area of Illinois) it becomes even more essential 
to all of Illinois.
The 336 Coalition-Background
    The 336 Coalition is a group of concerned citizens, businesses, 
government officials, and communities focused on the construction of a 
four-lane highway running from Peoria to Macomb.
    This highway project will be a continuation of a new four-lane 
highway currently under construction (with 20+ miles open for use) 
connecting Quincy, IL, to Macomb, IL. Ultimately, it will become part 
of as system that will provide economic development opportunities along 
its path as well as providing the means to open West-Central Illinois 
to Central and Eastern Illinois. This project will also provide 
additional commerce from Chicago to Kansas City. In fact, over thirty 
(30) years ago, this portion of highway was a component of the original 
Chicago to Kansas City highway.
    The 336 Coalition started its efforts in late 1998 and evolved out 
of a community mapping effort that identified the lack of adequate four 
lane surface transportation as the most critical need to bring growth 
to the West Central Illinois area. The lack of a modern four-lane 
highway was also viewed as the greatest cause of stagnant to declining 
populations and economies in many of the area's communities and for the 
highest unemployment rates in the State of Illinois. The Coalition 
later discovered strong support in the Peoria, Macomb, and Quincy for 
the benefits Highway 336 could bring to those areas of Illinois. The 
Greater Peoria Airport would also be a benefactor of our efforts.
    The 336 Coalition has grown to include members from most, if not 
all, of the communities between Peoria and Macomb. There are over 40 
resolutions of support from various city and county governments in 
addition to other important organizations such as the Fulton County 
Farm Bureau.
    The semi-annual 336 Update is a newsletter that currently has a 
mailing and e-mail list of over 4,000 subscribers. You can find current 
and past issues of the 336 Update via the link on this site.
    The name of the Coalition was christened from Illinois 336 that is 
under construction (and fully funded) connecting Quincy and Macomb. 
Portions are currently open to traffic with the remainder scheduled to 
be completed by 2006. Illinois 336 would be the logical extension 
running from Macomb to Peoria and is, in fact, referenced as such by 
the Illinois Department of Transportation.
                         additional information
    Additional information is available via the 336 Coalition's 
website: www.336coalition.com
    Or by contacting: Mark W. Johann President, 336 Coalition, P.O. Box 
761, Canton, IL 61520
                               __________
                               Project 29
                                Douglas Schnell, President,
                         Taylorville, IL 62568-2113, April 2, 2003.

Senator James Inhofe, Chairman,
Committee on Environment and Public Works
Dear Chairman Inhofe: Project 29 Inc. was founded in January 1993 after 
a fatal auto accident in December 1992 that took the life of 29-year-
old Melody Traughber of Taylorville, Illinois. Melody's name was added 
to the list of persons killed on this outdated two-lane roadway. Today 
the list now tops over 33 victims from Rochester to Pana. The lists of 
personal injury accidents are into the hundreds.
    Melody's friends and family decided that the goal of this 
grassroots organization would be to work to bring a four lane Illinois 
Route 29 to Sangamon and Christian County. Having four-lane highway 
from Rochester to Pana to improve safety and promote economic 
development not only to Sangamon and Christian Counties, but all of 
Central Illinois.
    In 1993 Project 29 Inc. Presented 12,000 names to Governor Jim 
Edgar who started feasibility study for four lanes from Rochester to 
Taylorville.
    During 1997 the State announced that no money was included in the 
budget for Illinois Route 29. With the assistance of Congressman John 
Shimkus in April of that year 1.7 million dollars, Federal funds was 
obtained, this was the first time Federal money had been obtained for 
the Illinois Route 29 Project. This 1.7 million dollars was used to 
complete the engineering study.
    During Governor's election in April 1998 copies of information was 
sent to The Governor Candidates. George Ryan's campaign responded, 
naming IL Route 29 as one of the top downstate road projects, if 
elected.
    George Ryan was elected and followed through with his promise, with 
Illinois First some 39 million dollars are set for construction between 
Rochester and Taylorville.
    As noted in a June 16, 2000 letter from Illinois Secretary of 
Transportation Kirk Brown 6.7 miles remain unfunded.
    This section is 6.7 miles long from 2.1 miles north of the 
Christian County Line to approximately 1.1 miles south of Edinburg. 
Estimated cost in 2000 was 25.2 million dollars.
    During April 2002 current Governor Rod Blagojevich was mailed 
petitions signed by over 10,000 people who support IL Route 29. 
Enclosed you will find a letter of support from Governor Blagojevich.
    In February of 2003 Congressman John Shimkus announced that 1.2 
million dollars in additional Federal money had been obtained to assist 
with engineering on the remaining 6.3 miles that remain unfunded.
    Today we ask that your committee consider the 25.2 million dollars 
needed to fund the remaining 6.3 miles of improvements.
    It is estimated that up to 17,000 motorists travel Illinois Route 
29 daily between Springfield and Taylorville. To leave a 6.3-mile 
section in the middle unfunded will take traffic from four-lane back to 
two and returning back to four.
    It is our contention that this will elevate the danger of 
additional personal injury and fatal auto accidents. We also believe 
that business and development look at the quality of the transportation 
system and having a completed four lane highway will not only improve 
economic development, it will also improve the quality of life for al 
in a multi county area of Central Illinois.
    The following pages you will find a listing of the names of the 
persons killed on what the media refers too as Central Illinois ``most 
dangerous highway'', letters of support from current and former 
officials, news reports, including resolutions from local Governments
    We ask that your committee review this request, and give 
consideration to make construction of Illinois Route 29 From Rochester 
to Taylorville 100 percent complete.
            Sincerely,
                                Douglas Schnell, President.
                               __________
                 Illinois Department of Transportation,
                                   Office of the Secretary,
                              Springfield, IL 62764, June 16, 2000.

Mr. Doug Schnell, President
Elect Project 29, Inc.,
P.O. Box 6103,
Taylorville, Illinois 62568-6103.

Dear Mr. Schnell: Thank you for your May 23, 2000 letter regarding 
funding for Illinois 29 from Governor George H. Ryan's Illinois FIRST 
program. We are pleased that Illinois FIRST gives the department the 
ability to begin construction of two important sections of Illinois 29 
between Rochester and Taylorville. Construction projects and associated 
work totaling $39 million are programmed to complete 9.6 miles of new 
four-lane pavement on the total distance of 16.3 miles.
    This work includes new four-lane construction for 5.1 miles from 
Rochester to 2.1 miles north of the Christian County line that is 
programmed during fiscal year 2001-2005 at a total cost of $20.1 
million. Of this total, engineering for contract plans is programmed in 
fiscal year 2001 at a cost of $1.4 million.
    In addition, new four-lane construction for 4.5 miles from 
approximately 1.1 miles south of Edinburg to 1.5 miles north of 
Illinois 104 at Taylorville is programmed during fiscal year 2001-2005 
at a cost of $18.9 million. ' Of this total, engineering for contract 
plans is programmed in fiscal year 2001 at a cost of $1.6 million.
    You specifically inquired about the remaining section that is 
currently unfunded. This section is 6.7 miles long from 2.1 miles north 
of the Christian County line to approximately 1.1 miles south of 
Edinburg. Construction, engineering for contract plans, land 
acquisition, utilities, and an archaeological survey for this section 
are unfunded at an estimated cost of $25.2 million.
    We appreciate your support and interest in this highway project.
            Sincerely,
                                     Kirk Brown, Secretary.
                               __________
                    Statement on the Brookfield Zoo
    Thank you, Senator Fitzgerald, for the opportunity to submit this 
testimony regarding surface transportation needs at Brookfield Zoo, 
located in Brookfield, Illinois. As you know, the Zoo is renowned for 
its conservation and education programs, with annual attendance 
consistently toping 2 million visitors, including nearly 225,0000 
school children. The Zoo continues to rank as the most popular paid 
cultural attraction in the State of Illinois. In order to maintain the 
prestige of being one of the world's great zoos, Brookfield Zoo must 
address its public safety concerns, traffic congestion and parking 
issues.
    Over the past several years, Zoo visitor polls--and feedback from 
neighboring communities--have indicated increasing dissatisfaction with 
traffic congestion and major delays on the public roads immediately 
adjacent to the Zoo, as well as insufficient or inadequate parking 
facilities on Zoo grounds. On an average day, 30,000 vehicles pass the 
Zoo's main entrance at First Avenue and 31St Street; more than 5,500 of 
these are trucks. On high attendance days, Zoo visitors' cars have 
backed up more than 2.5 miles on First Avenue, down to the Eisenhower 
Expressway, and through neighboring residential streets to get into the 
Zoo. Inside the Zoo, limited parking--particularly on weekends--further 
exacerbates the traffic congestion outside and contributes to noise and 
air pollution.
    It thus comes as no surprise that there is a high incidence of 
vehicular accidents at major intersections near the Zoo. Over the past 
5 years, the North Riverside and Riverside police departments reported 
210 accidents, at 31St Street and First Avenue, 103 accidents at First 
Avenue and Golfview Road, 44 accidents at 31St Street and Golfview 
Road, and 42 accidents at First Avenue and Ridgewood.
    To remedy these access and public safety problems, the Zoo has 
consulted with the Illinois Department of Transportation, the Village 
of Brookfield and other local stakeholders on mutually advantageous 
roadway and parking improvements and is seeking Federal and State 
funding to implement them. Specifically, the Zoo is seeking $11,072,000 
for improvements to its main entrance and parking lots. These would 
include widening pavement and construction of an enhanced main car 
entrance, pavement of Zoo property for new spaces for cars, and re-
pavement of the existing rutted ``chip and seal'' and gravel parking 
facilities. The Zoo is also proposing $3,502,000 in public safety 
improvements to 31St Street, First Avenue (a State road) and Forest 
Road. Chief among these are the installation of much-needed measures 
such as new traffic signals and a pedestrian bridge over First Avenue 
to be used by students at neighboring Riverside Brookfield High School 
and local residents.
    Brookfield Zoo respectfully requests $7 million in the upcoming 
transportation bill to address these transportation, public safety and 
access improvements, which total $14,574,000. The Zoo will seek the 
balance of the funds from the Illinois Department of Transportation.
    Thank you again Senator, for your support of Brookfield Zoo. We 
know that we are very fortunate to have you as our friend and advocate 
in Washington.
                               __________
                      City of Litchfield, Illinois
                               John L. Dunkirk, Jr., Mayor,
                                                    April 15, 2003.

Hon. James Inhofe, Chairman
Committee on Environment and Public Works
U.S. Senate

Dear Senator Inhofe: The City of Litchfield has presented a request 
through the office of Senator Peter Fitzgerald of Illinois for 
financial assistance for a roadway grade separation project. It is 
understood that the committee is accepting testimony about projects 
subsequent to the April 7, 2003 Transportation Hearing.
    Enclosed is a project summary titled ``Construction of a Grade 
Separation Structure'' for review by the committee.
    Please accept our sincere thank you for any consideration given to 
this project. City officials fully support this project and view the 
grade separation project as a critical need to sustain economic 
vitality.
            Sincerely,
                               John L. Dunkirk, Jr., Mayor.
                                 ______
                                 
 Construction of a New Grade Separation Structure, Litchfield, Illinois
History
    The community of Litchfield Illinois has a long history of 
commercial and industrial stability, even at a time when other small 
rural towns were experiencing a decline. The genesis of Litchfield's 
rich history can be attributed to being a crossroads for various 
railroads. At one time, the town could claim service from six different 
railroads. As highway systems developed as a favorite mode of 
transportation, Litchfield's location on Route 66 continued to add to 
the town's success. With the advent of the Interstate highway system, 
again Litchfield remained a survivor having a location along 1-55. 
Today it is a commercial and employment hub of a multi-county area and 
is the largest town between Springfield, Illinois and the St. Louis 
metropolitan area.
    Litchfield has been fortunate in having a progressive, forward-
thinking leadership that has viewed jobs as the greatest wealth in the 
community. Jobs contribute to an increased tax base within the 
community, which in turn provides the revenue for City supported 
services, contributes to continued development, and sets the standard 
for the quality of life of the residents.
Project Description
    The project is to construct a new grade separation structure 
(underpass or overpass) on Ferdon Street in Litchfield. The new 
structure will result in uninterrupted automobile traffic flow at the 
two railroad crossings for the Norfolk Southern Railroad and Burlington 
Northern, Santa Fe Railroad.
    Presently every railroad crossing in Litchfield is an at grade 
crossing and automobile traffic flow is interrupted by rail traffic. 
The City has long had a great need for a grade separation structure. 
This; is the preferred location for the proposed project as it would 
have the least disruptive impact to existing businesses and property 
owners upon completion of the project. Presently, Ferdon Street is the 
only east west major street on the north side of the town that is a 
through street to the west side highway system and commercial district. 
A bade separation structure will provide an uninterrupted traffic 
connection between the east and west sides of the City of Litchfield.
    Ferdon Street is an urban collector street, 36 feet in width, and 
has sidewalk, curb and gutter. The distance between the two parallel 
railroad lines is approximately 300 feet along Ferdon Street. To 
separate the grade of the street from the grade of the existing 
railroads will require that the roadway pass over or under the 
railroads. An overpass would be a single long bridge over the two rail 
lines. Alternatively, Ferdon Street can be lowered and two railroad 
bridges constructed over Ferdon Street to create an underpass. Under 
both alternatives retaining walls will be required to minimize the 
impacts to adjacent properties.
    The improvement would result in road modifications for a length of 
2000 feet or less. The preliminary project cost is approximately 
$6,000,000 with no significant cost difference between the two 
alternatives. The improvement would include two bridges, retaining 
walls, drainage structures, utility adjustments and approach road 
modifications.
Project Need
    Not unlike other small towns, Litchfield struggles to maintain the 
status quo while still planning for future growth. Much of the 
commercial and industrial growth has occurred on the west side of the 
City. Healthcare services, long-term care facilities and the largest 
employer in the City and County are located on the east side of town. 
Dissecting the town between east and west are the City's two remaining 
national rail carriers, Norfolk Southern Railway, and Burlington 
Northern Santa Fe Railroad The tracks run parallel in a north-south 
direction the entire distance across town, with less than 300 feet 
separating the rail right-of-ways. Dividing the town between north and 
south is Illinois State Route 16 which is a major east west highway 
that transports many workers, travelers, shoppers and residents through 
the community. The Illinois Department of Transportation places 
approximately 17,000 vehicles per day on Route 16 at the intersection 
with the railroad lines. More than 60 percent of--the City's population 
resides north of Route 16, with Ferdon Street being the only through 
street to the west side serving the north side of town. Presently there 
is no grad: separation structure across the two railroads in or near 
the City of Litchfield--On the north side of the City, all railroad 
crossings have been closed except for the crossings at Ferdon Street.
    While the number of rail carriers has diminished, the two remaining 
carriers are strong and have a substantial number of trains running 
through town on a daily basis, numbering in the dozens. In their 
efforts to provide a more cost effective service to their custoaners, 
they have increased the length of trains, and by today's standards most 
freight trains have in excess of 100 cars and are greater than one mile 
in length. Some trains reach 150 cars in length.
    While the City views the existence of these two rail lines as an 
asset and economic resource to the community, it presents an ongoing 
problem of disruption of traffic flow which causes emergency services 
concerns and a critical delay factor in the movement of people in 
either direction when crossings are frequently blocked due to trains. 
Contributing to the problem is the fact that the two lines cross at a 
point just south of the City limits. One train must yield to the other 
at the diamond. The waiting train has an increased delay time in 
clearing the crossings once they start from a stopped position and they 
travel at a slower spud. Additionally, as soon as one train passes, the 
waiting train begins to move, creating back-to-back crossing closings. 
At times the closings exceed the length of time allowed by the ICC to 
have traffic blocked. This is affected by slow orders, track 
maintenance, mechanical failures, switching and other unforeseen 
causes.
Economic Benefits
    The City's west side property along Route 66 was once a thriving 
business district There are still remnants of some of those businesses 
while other property has deteriorated after Route 66 was abandoned in 
favor of 1-55. New growth is now underway in Litchf eld with a major 
commercial development along 1-55 in the north side of town, including 
the construction of a primary roadway through the development (an 
extension of Ferdon Street), linking Route 66 with the 1-55 interchange 
and the newly constructed entrance to the Litchfield Industrial PIE. 
There has been additional new commercial development along Route 66 on 
the north side of town which appears to be closing the gap which 
occurred after Route 66 was abandoned as a national highway. Route 66 
does still provide entrance into the community from the north and south 
for local traffic from commuter residents, rural dwellers, residents of 
surrounding communities, and Route 66 tourists.
    Although there appears to be potential for growth, a major 
deterrent to revitalization of this area is poor access from within the 
community due to limited arterial streets, with Ferdon Street being the 
only direct east-west route. There are a number of underutilized vacant 
properties in the area that would be suitable for a variety of business 
operations both commercial and light industrial. Better access could be 
the catalyst to future growth in the area. A grade separation structure 
would allow for some of the traffic from Route 16 (which has 17,000 
vehicles per day) to be diverted to Ferdon Sheet. This increased 
traffic flow could generate interest in the underutilized sites for 
businesses that depend on high visibility as well as those that need 
easy access.
    The City of Litchfield had contributed significant investment over 
the years, with assistance from State and Federal programs, to 
providing jobs for residents of Litchfield, Montgomery County and 
adjacent counties. The delay factor involved with the length of time 
spent by people sitting in their vehicles waiting for trains to pass 
has a significant lost time value. This erodes the return on the 
investment. Employees who are late for work decrease productivity and 
impact the profitability of the employer, transporters of goods and 
services lose revenue while not moving, shoppers with limited time to 
make purchases, are forced to shop in less time which could result in 
less purchased goods and services, travelers that might plan to stop 
and eat and shop might in turn pass though a fast food restaurant and 
eat on the road which results in less sales tax revenue to the. City. 
The stress factor is detrimental to one's health as one tries to make 
up the lost time.. The value of the delay factor i s significant and 
unending. An underpass could provide a direct route to the commercial 
district and industrial park and connect with the 1-55 interchange 
thereby decreasing or eliminating the delay factor.
Additional Benefits
    Part of the City's planning effort has been directed toward 
improving and increasing the housing stock in the community in an 
attempt to increase the tax base. As many as 70 percent of the jobs 
available in Litchfield arc held by persons living outside the City's 
zip code. This is partly due to lack of new housing developments within 
the community until just recently. While much of the commercial growth 
has been on the west side, the northeast part of town has been 
identified as the most desirable location for new subdivisions. Two new 
subdivisions have been developed in the past 2 years offering more than 
90 new home sites, as well as a U unit condominium development, and a 
proposed 40 unit low income single family rental home project. The City 
has, recently installed a water main extension/loop with adequate water 
to supply additional housing development in the area. There are 
interested investors that are presently looking at sites for 
residential subdivisions. There have been a number of new housing 
starts outside the corporate limits in a northeasterly direction toward 
our well-known Lake Lou Yaeger. Many of these homeowners are commuters 
that require access to I-55. Litchfield's attractive; location within 
an hour drive to either Springfield or St. Louis has attracted many 
commuter families. A railroad underpass could provide easier access and 
foster the development of additional residential areas. This will 
increase the tax base and the population base, which will enhance the 
opportunity for additional economic development as the need for 
services rises.
    As the population base increases, so does the enrollment in the 
school system. The Litchfield Community School District is presently 
not at full capacity. Additional students can be accommodated without 
increasing the facility size. With the financial struggles and budget 
deficits facing school districts each and every student added will have 
a positive financial impact on the system. Litchfield takes pride in 
having the reputation of a school system that is ``Quality to the 
Core''. In order to maintain this reputation, the district needs to 
maximize their capacity.
    The quality of education provided by a school system is a major 
factor in the site selection process of business and industry that are 
looking to relocate. Litchfield strives to meet all of the expectations 
of the site consultants in an effort to attract new business and create 
additional jobs! Housing and education needs are critical issues that 
must be met. Litchfield must have, adequate transportation flow in 
order to continue to move forward in meeting those needs.
    The availability of emergency and medical services has always been 
a major concern knowing that parts of the community are cutoff during 
the closing of crossing by trains. Many of the accidents are on the 
west side of the tracks while the medical and emergency care facilities 
are on the cast side of the tracks. This poses an additional problem 
when many surrounding communities rely on access to our hospital for 
medical emergencies.
    The addition of a grade separation structure in Litchfield would 
provide increased safety to the railways and to the traveling public by 
eliminating two at-grade crossings where accidents can occur. This 
would also provide a safer crossing for school buses in the community.
    Although Litchfield is the economic hub of the region, much of the 
traffic on Rout,. 16 is from people not just coming to Litchfield to 
live, work, shop and play. They pass though Litchfield en route to 
other towns via Routel6. Hillsboro, the Montgomery County seat is 
located 9 miles east of Litchfield on Route 16 and from I-55, 
Litchfield is the gateway to many eastern Illinois communities. The 
proposed underpass project can provide a bridge to link not only east, 
west, north and south Litchfield, but it can link south central 
Illinois. Our future depends on this bridge.
                               __________
                    Memorial Hospital of Carbondale
                               Carbondale, Illinois, April 1, 2003.

Senator James Inhofe,
U.S. Senate,
Senate Office Building,
Washington, DC 20510.

Dear Senator Inhofe: Once upon a time waterways determined the 
economics of our country. They were replaced by railroads. Large 
airports have had a similar economic impact on communities and regions. 
But, the largest factors, today, are probably the highways and the 
interstate transportation systems.
    Southern Illinois and Carbondale are isolated and economically 
depressed. The highway project, involving highway 4 and 127, under the 
renewal of a land transportation act, would have the ability of jump-
starting this area economically. It used to be if you economically 
advantaged one portion of our country you negatively impacted another 
part of our country. Those days are long gone. World trade and the 
birth of economies around the world create growth opportunities without 
negative impacts on other parts of this country. Southern Illinois 
needs to be jump-started. Spending money on a project of this nature to 
create the economic opportunities for southern Illinois is similar to 
providing young people with scholarships for college. They return to 
the Federal Government is many times more in the taxes they pay because 
of that college education than if they did not possess a college 
degree. The same would be true here, the economic return to the Federal 
treasury will be many times the cost of this highway project because of 
the economic development that this type of project will bring to all of 
southern Illinois.
            Sincerely,
                             George Maroney, Administrator.
                               __________
                     Carbondale Chamber of Commerce
                         Carbondale, Illinois 62901, April 3, 2003.

Senator James Inhofe,
U.S. Senate,
Senate Office Building,
Washington, DC 20510.

Dear Senator Inhofe: As Executive Director of the Carbondale Chamber of 
Commerce, I am a member of the 4-127 Coalition. The 4-127 project is 
the expansion of the current 2-lane highway to 4-lane from west of 
Murphysboro, IL to eight miles north of Pinckneyville, IL. The 
projected cost of the project is $80 million.
    The expansion of Route 127 to a four-lane highway is important to 
the economic development of southern Illinois. It will offer Carbondale 
and regional communities a trade corridor to St. Louis and beyond. The 
4-127 project is necessary to efficiently move goods and services to 
and from southern Illinois. In addition, the project will provide 
easier access to tourist sites and events throughout southern Illinois.
    It is for these reasons that I respectfully ask for your support of 
this important legislation.
            Sincerely,
                       Sara Berkbigler, Executive Director.
                               __________
                   Illinois House of Representatives
                                          Hon. Chapin Rose,
                      State Representative, 11Oth District,
                                                     April 3, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington. DC 20510-3603.

RE: Village of Mahomet Capital Improvement Project

Dear Senator Inhofe: I would like to request your most favorable 
consideration for the Village of Mahomet who is seeking Federal 
transportation system funding for capital improvements projects.
    This Village in my district is at a very high level of growth and 
is in desperate need of assistance to help them with the challenges 
they are facing. These is en urgent need for repairs and improvements 
to their streets, bridges, sanitary sewers, water mains and the 
wastewater treatment plant.
    Thank you in advance; for any assistance you can help in attaining 
for the Village of Mahomet. If I can ever be of assistance to you, 
please do not hesitate to call.
            Sincerely,
                         Chapin Rose, State Representative.
                               __________
            Jackson County Business Development Corporation
                                                     April 2, 2003.

Senator James Inhofe,
U.S. Senate,
Senate Office Building,
Washington, DC. 20510.

Dear Senator Inhofe: I currently serve as the Executive Director of the 
Jackson County Business Development Corporation. Jackson County is 
located in the southern portion of Illinois, and consistently lags 
behind central and northern Illinois in terms of economic development 
and job opportunities. One of the major factors contributing to this 
problem is the lack of a modern highway system connecting our area to 
the greater St. Louis region. The proposed expansion of Illinois Route 
127 between Murphysboro and Pinckneyville, Illinois, and eventually to 
Interstate 64, will give us access to a major mid-west market place, 
which will immediately translate into economic development and 
increased job opportunities.
    Our organization is fully committed to the completion of this 
project. A study just completed by the Illinois Department of 
Transportation has estimated the cost of phase I of the project to be 
$80 million. Congressman Jerry Costello has requested funds be 
appropriated for this project in the renewal of the Land Transportation 
Act. We ask that the request be given serious consideration by the 
Environmental and Public Works Committee.
    If approved, we're confident the appropriation will be an excellent 
investment with the resultant increased tax revenues created by the 
increased development activities.
    Thank you for your consideration.
            Sincerely,
                       Lee Roy Brandon, Executive Director.
                               __________
            Jackson County Business Development Corporation
                                     Village of Catlin, IL,
                                                     April 1, 2003,

Senator James Inhofe, Chairman

Dear Senator Inhofe: Please consider this request for Federal funds for 
the Webster Street bridge project in Catlin, Illinois. The Webster 
Street Bridge is a narrow bridge with two narrow descending approaches 
across Butler Branch Creek. The Village of Catlin is growing along a 
corridor north of the Webster Street Bridge. Two new subdivisions are 
currently under construction along this corridor. The Village has spent 
a great deal of money extending water and sewer mains north along this 
corridor to foster such growth.
    Future growth is expected since the Village buried the mains deep 
enough to extend another 2000 feet north. This bridge is a vital link 
between the new subdivisions and the Village proper. The new homes will 
be built by families which will generate more bicycle, pedestrian and 
vehicular traffic which makes the safety issue all the more important. 
Webster Street is also an avenue to Danville, Illinois, where many 
residents work. As changes take place in Tilton, Illinois and the 
Danville WO works on a beltway around the Danville Urban Area, Webster 
Street and the bridge will be a vital link between Catlin, as well as 
other outlying communities, and Danville. The construction of a new 
bridge will not only improve traffic flow and safety but will also 
improve the channel flow of the creek, improve surface water drainage 
and prevent erosion.
    The engineer's estimate for the bridge is $468,000. State 
Representative Bill Black has sent me an application for a bond grant 
for $170,000 and County Engineer, Bob Andrews, upon approval of the 
County Board, will pay one half the cost of the actual bridge. 
Therefore, the County contribution will be $75,000 and the Village of 
Catlin will contribute $50,000. This totals $295,000 leaving $173,000 
needed to complete the project.
    If your committee could match the State contribution of $170,000, 
this project can be accomplished. Please consider this an official 
request from the Village of Catlin, Illinois for $170,000 to complete 
the Webster Street Bridge Project.
            Respectfully submitted,
                                      Fred Rinehart, Mayor,
                                             Village of Catlin, IL.
                               __________
                      Southern Illinois University
                                                     April 1, 2003.

Senator James Inhofe,
U.S. Senate,
Senate Office Building,
Washington, DC 20510.

Dear Senator Inhofe: This letter is written in support of the 4-127 
project that will upgrade Illinois Route 13/127 from two to four lanes 
between Murphysboro and Pinckneyville. This highway improvement project 
has my full support. The expansion to four lanes, which will permit 
easier access to St. Louis, will reap extraordinary benefits for the 
citizens of southern Illinois.
    The project will especially benefit Southern Illinois University. 
One of the University's campuses is located in Edwardsville. The 
expansion from two to four lanes will ease the burden of travel between 
Carbondale and Edwardsville. Additionally, major air travel for 
university staff and visitors is scheduled out of Lambert International 
Airport in St. Louis. The expansion of this highway will make travel 
more accessible.
    This highway project will also provide the means for other 
businesses located the region to transport goods in a more timely and 
efficient manner. Our geographic location impedes economic development 
due to the distance between southern Illinois and major airports. The 
highway improvement project will greatly benefit southern Illinois in 
this regard by providing easier access to Lambert in St. Louis and 
surrounding areas.
    The importance of this project is immeasurable to southern 
Illinois. I urge your positive consideration of this project.
            Sincerely,
                                James E. Walker, President.
                               __________
                   The Illinois Highway 30 Coalition
                                                     April 4, 2003.

TO: Senator James M. Inhofe, Chairman
U.S. Senate Environment and Public Works
FROM: The Illinois Highway 30 Coalition (Whiteside County, Illinois)
RE: U.S. Highway 30 Four-lane Expansion Project Ladies and Gentlemen,

    The Illinois Highway 30 Coalition, which represents communities in 
Whiteside County, and surrounding Northwest Illinois appreciates the 
opportunity to have our project position statement formally recognized 
and placed on file, as part of the committee field hearing held in 
Chicago, Illinois on April 7, 2003. We especially want to thank IL 
Senator Peter Fitzgerald for encouraging us to participate in the 
hearing.
    U.S. Highway 30 was America's first coast-to-coast highway and was 
a great improvement at the time for early 20th century transcontinental 
motorists. Our proposed project, to create a four-lane U.S. Highway 30 
route from Rock Falls to Fulton, Illinois adds an additional segment of 
improved transportation. Combined with scheduled or anticipated 
improvements in other States that are served by this route, four-lane 
expansion enhances the status of Highway 30 as a 21st century cross-
country highway.
    Regionally, this 19.5-mile corridor would serve communities in and 
along the route through Whiteside County. The new four-lane would also 
be a benefit to over 30 neighboring communities in counties to the 
east, west, north and south. Development of this route would expedite 
travel and distribution of goods and services within and connected to 
the corridor of Northwest Illinois and Eastern Iowa.
    Highway 30 has reached design limits set by the Illinois Department 
of Transportation in its present two-lane configuration. An initial 
Illinois Department of Transportation corridor study done in 1970 
showed at that time, the need for a four-lane Highway 30. 
Unfortunately, because of funding restraints, the project went no 
farther. Since that 1970 study, our region has been in a slow economic 
decline, with highway transportation constraints playing a major 
factor.
    Today, as community leaders, economic development professionals, 
along with the support of key business stakeholders work on regional 
economic revitalization issues, it is glaringly clear that our section 
of highway, in its congested and unsafe condition, cannot provide the 
necessary transportation route to support planned and anticipated 
growth in this region. The Whiteside County area is intended to be the 
final link in a four-lane configuration connecting Interstate 88 in 
Illinois with Interstate 35 in Central Iowa.
    Estimated cost of the project as recently calculated by the 
Illinois Department of Transportation covering Phase I--III 
Engineering, Land Acquisition and Construction is $130.5 million. In 
2002 Illinois Senator Dick Durbin secured $750,000 through the Federal 
Transportation Appropriations Act (P.L. 107-67) under the project name: 
U.S. 30 Morrison/Whiteside County Expansion. This money has been 
designated to a corridor study, in conjunction with the Illinois 
Department of Transportation. The corridor study will officially begin 
sometime the first half of this calendar year.
    Congressman Don Manzullo (IL-16th) and Congressman Lane Evans (IL-
17th) have also recently submitted transportation project evaluation 
criteria to the Subcommittee on Transportation and Infrastructure, 
seeking additional funding for the project through the reauthorization 
of TEA-21. Speaker of the House Dennis Hastert (IL-14t`) is also 
supporting the project.
Project Benefits
    Economic--Supports present, planned and proposed increases in local 
and regional economic development by creating an improved route that 
will assist Northwest Illinois in attracting new business and industry 
through the safe, efficient and effective transfer of goods and 
services.
    Provides infrastructure improvements to support retention of 
existing business and industry. Offers an important arterial link that 
improves efficiency of commuter travel. Creates a direct, cost 
effective link to and from geographic markets easterly toward the 
Chicago metro area, as well as to Des Moines, Iowa and Kansas City, 
Kansas to the west.
    Environment--Improves the negative impact on increasing levels of 
noise and air pollution created by high traffic counts and commercial 
truck traffic through residential areas. Promotes preservation of 
historic character and structures along the route, creating 
opportunities for related economic development and increased quality of 
life.
    Congestion and Safety--Provides congestion relief on the highway 
that is the main mover of goods, services and people to, from, within 
and through Whiteside County, east to Chicago and west to Des Moines, 
Iowa and Kansas City, Kansas. Upgrades Highway 30 to meet Illinois 
Department of Transportation guidelines for vehicle congestion, that 
show it has exceeded design limits for a two-lane arterial route. Makes 
the route safe for Northwest Illinois residents and travelers. 
Increases the ability of emergency services to respond, ``in-time'' and 
safely, as well as maintain a higher level of security throughout the 
county. Reduces the safety issues caused by the use of this congested 
Highway by school buses and farm machinery. The Highway 30 four-lane 
expansion could help reduce the car and heavy truck traffic congestion 
seen today on Interstate 80.
    Approved funding support through the reauthorization of TEA-21 at 
the levels requested and any other Federal funding support would enable 
the project schedule to be accelerated and completed within the next 
six to 8 years.
    Thank you for your time and consideration of this project.
                               __________
                              51 Coalition
                                                     April 3, 2003.
Senator James Inhofe, Chairman,
Committee on Environment and Public Works

Hon. Chairman Inhofe: We write on behalf of the Route 51 Coalition to 
urge you to include funding in the TEA-3 Program to complete the 
improvement of Route 51 from Decatur, Illinois south to Centralia, 
Illinois. For many years, concerned Illinois residents and community 
leaders from municipalities located along this corridor have worked to 
secure funding to improve this transportation facility to a four-lane 
system for economic development, connectivity, and safety of the 
motoring public. In order for you to further understand the reasons why 
we believe this improvement is needed, we present the following 
information.
Description and Costs of Project
    Route 51 is currently a two-lane highway from Moweaqua, a community 
14 miles north of Pana to Centralia, a distance of 75 miles. It would 
provide a major economic benefit to the citizens of Central Illinois to 
upgrade this section of highway to a four-lane expressway section, and 
the following tasks and total project costs have been identified:
    1. Phase 1 Engineering Study needs: An estimated $ 29.9 Million is 
needed to study 57 miles of this section from 1-70 to Centralia.
    2. Phase 2 Engineering Design needs: An estimated $ 54.6 Million is 
needed to design 64 miles of roadway from 3 miles north of Pana to 
Centralia.
    3. Phase 3 Construction needs: An estimated $ 477 Million is needed 
to construct this 75-mile section of roadway from 14 miles north of 
Pana to Centralia.
    4. Additional Costs for expressway:
    Land Acquisition $ 23 Million (75 miles)
    Utilities $ 12 Million (75 miles)
    Archeological Survey $ 0.1 Million 75 miles)
    $ 35.1 Million (75 miles)
    Total project costs $ 597 Million (75 miles)
Benefits
    Upgrading this section to a four-lane expressway will produce 
significant benefits for Central Illinois. These are:

    <bullet>  Safer travel for this 75-mile section. Approximately 600 
accidents have occurred on this section for a study period of 4 years, 
with injuries occurring in 200 cases and 4 fatalities as a result of 
these accidents. An expressway would significantly reduce the number of 
accidents.
    <bullet>  Economic opportunities for the communities in this area 
would significantly increase as a result of the construction of a four-
lane expressway. This is evident from the review of significant 
economic growth in communities between Bloomington and Decatur in 
Central Illinois where a four lane-expressway has already been 
constructed. The regional mall in Decatur-Forsyth has expanded along 
with the addition of five motels and six restaurants in recent years. 
This has contributed to more than 300 new jobs. The City of Maroa has 
anew school and commercial expansion. More than 20 new business have 
developed or expanded along the Route 51 Corridor west of the City of 
Clinton as well as an expansion of a regional sanitary landfill, a new 
church, and a new subdivision. These new or expanded facilities have 
added more than 200 jobs to the area. The Village of Heyworth has 
experienced growth in commercial facilities and development of 
residential subdivisions from the improved highway access north to 
Bloomington Normal.
    <bullet>  An improved transportation system would create similar 
economic opportunities for the counties in this area and for Central 
Illinois. The agricultural markets would benefit through safer and 
timelier transport of grain to markets. Industries such as Caterpillar, 
PPG Archer-DanielsMidland Company, and Staley/Tate & Lyle in Decatur 
would benefit from having the improved route to ship their products and 
receive materials for their manufacturing needs.
                         additional information
Regional Connectivity
    These 75 miles of new expressway would bring the additional benefit 
of providing connections between interstates in the Central Illinois 
regional corridor. Another expressway facility is also planned for 
Illinois 29 from Springfield to Pana that will contribute to increased 
mobility in Central Illinois. Improving the Route 51 expressway 
completes connections with 1-70 near Vandalia and 1-57 immediately east 
of Route 51 using 1-64 south of Centralia.
    The connection of these expressway and interstate systems would 
stimulate enormous economic potential to the entire Central Illinois 
area.
National Connectivity
    Upgrading the 75 miles of Route 51 between Moweaqua, Illinois and 
Centralia offers the potential for Route 51 to be the completing link 
in a system of interstates that would be the most direct four-lane 
route from Canada, Minnesota, and Wisconsin on the north to Tennessee, 
Arkansas, Mississippi, and Louisiana on the south. This would relieve 
congestion on both Routes 1-55 and 1-57 and allow a north/south 
corridor that does not contribute to congestion on the highways 
adjacent to Chicago.
Regional Project Area Impact
    The improvement of Route 51 will benefit the 11 Central Illinois 
Communities located in the eight counties between Decatur and 
Centralia. This provides a safer, more direct, and more efficient 
connection between the suppliers and markets in the regional area of 
the improvement. This allows items manufactured in communities in and 
north of Decatur, and in communities along the project corridor to be 
trucked south to the gulf ports. In addition, grain and commerce moving 
north would benefit from a more direct route than is currently 
available.
Current Status of Study, Design and Construction
    <bullet>  Phase I Study has been completed from Decatur to south of 
Pana to the Christian/Shelby County line.
    <bullet>  Phase II design is underway from south of Moweaqua to 
three miles north of Route 16 into Pana.
    <bullet>  Phase III Construction is currently underway on the by-
pass from north of Moweaqua to south of Moweaqua.
Priorities to Continue Route 51 Improvement
    Immediate consideration should be given to the following:

    <bullet>  Fund the Phase I Engineering Feasibility and 
Environmental Study for the 27-mile section from south of Pana to 
Vandalia for an estimated cost of $10.4 million. This study will take 
an estimated 5 years and should be started as soon as possible. No 
design engineering can be performed until this is complete.
    <bullet>  Fund the Phase II Design Engineering from three miles 
north of Route 16 into Pana for the 6.9 miles around Pana to the east 
and to the Christian/Shelby County line for an estimated cost of $2.6 
million.
    <bullet>  Fund the Phase III construction for the 11.3-mile section 
from south of Moweaqua to three miles north of Route 16 for $45.5 
million.
    <bullet>  Fund the Phase III construction for the 6.9-mile section 
from three miles north of Route 16 to the Shelby/Christian county line 
for $31.2 million.

    We appreciate the opportunity to point out the major benefits of 
completing Route 51 between Decatur and Centralia. The major 
considerations for improving this facility will:

    <bullet>  Provide a direct connection to East-west interstate 
Routes 1-64, 1-70, and I72.
    <bullet>  Provide, in conjunction with the upgrading of Illinois 
Route 29, a direct connection to Springfield, Jacksonville, Lincoln, 
and Peoria.
    <bullet>  Provide a direct connection between Mt. Vernon, 
Centralia, Decatur, and Bloomington-Normal.
    <bullet>  Provide safer and more efficient movement of traffic from 
the ``bedroom communities'' along the Route 51 corridor to the larger 
employment centers to the north and south.

    Thank you for the opportunity to provide this information for and 
we sincerely hope the committee will consider the information provided 
herein as the projects funded by TEA-3 are placed in line for approval.
            Sincerely,
                                 Julie Moore, Board Member.
                               __________
Statement of Interstate-74 Mississippi River Crossing Corridor Project 
                 and Midwest Passenger Rail Initiative
            i-74 mississippi river crossing corridor project
    Thank you for the opportunity to speak before this committee. 
Mississippi River crossings continue to be the highest transportation 
priority in the Quad Cities with over 150,000 vehicles crossing the 
Mississippi River on an average day' and half of these crossings on the 
I-74 Bridge alone. In your packet, Exhibit I is a map indicating the I-
74 Bridge location.
    There is an urgent need to address congestion in the I-74 Bridge 
corridor. This bridge is carrying almost 74,000 vehicles per day and is 
significantly over capacity. The bridge itself is functionally obsolete 
and was not constructed to acceptable standards for Interstate driving 
conditions. The Iowa bound span was built in 1935 and the Illinois 
bound span was built in 1959 utilizing the 1939 design. Both spans were 
built for local non-interstate traffic and never met interstate 
standards. Consequently, the bridge has no shoulders and the ramps 
nearest the bridge have inadequate weaving lanes. Approximately 125 
crashes have occurred on and near the I-74 Bridge in a 1 year period. 
In fact, the I-74 corridor accident rate is three times the national 
average in some locations. Improvements to address these capacity and 
safety concerns are necessary. Exhibit II, in your packet, illustrates 
the myriad of deficiencies and safety concerns in the I-74 Bridge 
corridor.
    The I-74 Bridge is extremely important to the commerce of the area. 
Interstate 74 is the major north/south corridor in the Quad City area 
and provides for the movement of people and goods to employment 
centers, entertainment venues and commercial and industrial sites. The 
economy of the Quad Cities depends on adequate crossing capacity as we 
seek to serve the. metropolitan population of 350,000. Over 50 percent 
of employed Quad Citians work in a community outside of their 
residence. Over 20 percent of those employed work outside of their 
State of residence.
    The I-74 Bridge provides access to one of the few military arsenals 
in the United States, Rock Island Arsenal. It provides connectivity 
between regional commercial centers and is also important to the 
economy of the States of Illinois and Iowa as it provides for 
interstate commerce and connections to major U.S. markets. The Quad 
Cities has a 37 million person market area within a 300-mile radius 
that includes 13 percent of the nation's population. Exhibit III 
includes captioned photographs visually showing the impacts of problems 
along the I-75 Bridge corridor.
    The I-74 Corridor is part of the National Highway System and runs 
from 53d Street in Davenport, Iowa to 23d Avenue in Moline, Illinois, 
over five miles. The I-74 Corridor Study is the result of a Major 
Investment Study, conducted between 1996 and 1998, that examined 
crossing alternatives in the Quad Cities. The I-74 Corridor Study has 
analyzed solutions designed to improve traffic flow and address safety 
issues along the I-74 corridor. The draft Environmental Impact 
Statement (EIS) will be completed in the Summer of 2003. The balance of 
the work on the Final EIS and Record of Decision is expected in 2004, 
with completion in 2005. The project is being funded jointly by the 
Iowa and Illinois Departments of Transportation in close coordination 
with other Federal, State and local officials. The appropriation of 
$14,000,000 in Federal funds over the past few years has made these 
efforts possible.
    Although final project costs are still being developed it is 
estimated that they will total $600 to $650 million for the entire 
corridor. Authorization of this project in the 2003 Transportation Act 
is requested. In addition to the identification of this project as a 
high priority need in the 2003 Transportation Act, it is also requested 
that significant discretionary programs be established for bridges and 
interstate maintenance in the next transportation act to assist in 
funding the I-74 corridor improvements. Again, thank you again for the 
honor to speak to your today about this important transportation issue.
midwest passenger rail initiative owa interstate railroad improvements 
                         and wyanet connection
    The Iowa Interstate Railroad is in need of repair for both freight 
and passenger purposes. Current service on the Iowa Interstate is 
approximately 40 miles per hour between Wyanet, Illinois, through the 
Quad Cities, to Omaha. In addition, a railroad connection between the 
Burlington Northern Santa Fe and the Iowa Interstate Railroad is needed 
in Wyanet, Illinois.
    The Illinois DOT commissioned a preliminary engineering study to 
determine the costs of the needed improvements. The Wyanet connection 
is estimated to cost $3.9 million dollars and is considered a key 
intersection to address both passenger and freight needs. The costs of 
improvement to the Iowa Interstate Railroad are estimated at $28.9 
million. This improvement would increase service along the corridor 
from approximately 40-mile per hour service to 79 mile per hour 
service.
    Further, the Quad Cities is not currently served by passenger rail. 
The Midwest Passenger Rail Initiative Study was conducted by nine 
Midwest State DOT's and the Federal Railroad Administration to consider 
the best opportunities for passenger rail service using Chicago as a 
hub. The consultant study proposed a system that would generate high 
levels of ridership and would recover the majority of its operating 
costs (refer to the map in the Addendum).
    Communities in. the Quad City area have formed a coalition with 
neighboring jurisdictions in Iowa and Illinois to promote the 
development of passenger rail service along the Interstate 80 corridor. 
Implementation of service would help alleviate congestion on Interstate 
80 and the resulting railroad improvements could also serve freight 
transportation. According to the American Association of State Highway 
and Transportation Officials (AASHTO), 16 percent of the nation's 
freight is carried by railroads. Unless $53 billion or $2.65 billion 
annually is provided to augment private railroad investment, this 
percentage will not be maintained within the next 20 years. The result 
would be the transfer of 450 million tons of freight to the highway 
system costing $238 billion in highway improvements over the 20-year 
period.
    Leaders recognize the issues related to the provision of passenger 
rail service in the country and encourage timely resolve to these 
issues so that both existing and future passenger rail service needs 
can be addressed. Consideration should be given to the following 
establish a dedicated, multi-year Federal capital-funding program for 
intercity passenger rail similar to the Federal highway and aviation 
programs; establish a Federal policy to preserve and improve a national 
passenger rail system addressing new efficiencies, innovation and 
responsiveness; and fund implementation of this national passenger rail 
system.
            i-74 mississippi river crossing corridor project
    Thank you for the opportunity to speak before this committee. 
Mississippi River crossings continue to be the highest transportation 
priority in the Quad Cities with over 150,000 vehicles crossing the 
Mississippi River on an average day and half of these crossings on the 
I-74 Bridge alone. In your packet, Exhibit I is a map indicating the I-
74 Bridge location.
    There is an urgent need to address congestion in the I-74 Bridge 
corridor. This bridge is carrying almost 74,000 vehicles per day and is 
significantly over capacity. The bridge itself is functionally obsolete 
and was not constructed to acceptable standards for Interstate driving 
conditions. The Iowa bound span was built in 1935 and the Illinois 
bound span was built in 1959 utilizing the 1939 design. Both spans were 
built for local non-interstate traffic and never met interstate 
standards. Consequently, the bridge has no shoulders and the ramps 
nearest the bridge have inadequate weaving lanes. ,Approximately 12 
crashes have occurred on and near the I-74 Bridge in a 1 year period. 
In fact, the I-74 corridor accident rate is three times the national 
average in some locations. Improvements to address these capacity and 
safety concerns are necessary. Exhibit II, in your packet, illustrates 
the myriad of deficiencies and safety concerns in the I-74 Bridge 
corridor.
    The I-74 Bridge is extremely important to the commerce of the area. 
Interstate 74 is the major north/south corridor in the Quad City area 
and provides for the movement of people and goods to employment 
centers, entertainment venues and commercial and industrial sites. The 
economy of the Quad Cities depends on adequate crossing capacity as we 
seek to serve the metropolitan population of 350,000. Over 50 percent 
of employed Quad Citians work in a community outside of their 
residence. Over 20 percent of those employed work outside of their 
State of residence.
    The I-74 Bridge provides access to one of the few military arsenals 
in the United States, Rock Island Arsenal. It provides connectivity 
between regional commercial centers and is also important to the 
economy of the States of Illinois and Iowa as it provides for 
interstate commerce and connections to major U.S. markets. The Quad 
Cities has a 37 million person market area within a 300-mile radius 
that includes 13 percent of the nation's, population. Exhibit III 
includes captioned photographs visually showing the impacts of problems 
along the I-75 Bridge corridor.
    The I-74 Corridor is part of the National Highway System and runs 
from 53d Street in Davenport, Iowa to 23d Avenue in Moline, Illinois, 
over five miles. The I-74 Corridor Study is the result of a Major 
Investment Study, conducted between 1996 and 1998, that examined 
crossing alternatives in the Quad Cities. The I-74 Corridor Study has 
analyzed solutions designed to improve traffic flow and address safety 
issues along the I-74 corridor. The draft Environmental Impact 
Statement (EIS) will be completed in the Summer of 2003. The balance of 
the work on the Final EIS and Record of Decision is expected in 2004, 
with completion in 2005. The project is being funded jointly by the 
Iowa and Illinois Departments of Transportation in close coordination 
with other Federal, State and local officials. The appropriation of 
$14,000,000 in Federal funds over the past few years has made these 
efforts possible.
    Although final project costs are still being developed it is 
estimated that they will total $600 to $650 million for the entire 
corridor. Authorization of this project in the 2003 Transportation Act 
is requested. In addition to the identification of this project as a 
high priority need in the 2003 Transportation Act, it is also requested 
that significant discretionary programs be established for bridges and 
interstate maintenance in the next transportation act to assist in 
funding the I-74 corridor improvements. Again, thank you again for the 
honor to speak to your today about this important transportation issue.
 iowa interstate railroad improvements, wyanet connection and midwest 
                       passenger rail initiative
    The Iowa Interstate Railroad is in need of repair for both freight 
and passenger purposes. Current service on the Iowa Interstate is 
approximately 40 miles per hour between Wyanet, Illinois, through the 
Quad Cities, to Omaha. In addition, a railroad connection between the 
Burlington Northern Santa Fe and the Iowa Interstate Railroad is needed 
in Wyanet, Illinois.
    The Illinois DOT commissioned a preliminary engineering study to 
determine the costs of the needed improvements. The Wyanet connection 
is estimated to cost $3.9 million dollars and is considered a key 
intersection to address both passenger and freight needs. The costs of 
improvement to the Iowa Interstate Railroad are estimated at $28.9 
million. This improvement would increase service along the corridor 
from approximately 40-mile per hour service to 79-mile per hour 
service.
    Further, the Quad Cities is not currently served by passenger rail. 
The Midwest Passenger Rail Initiative Study was conducted by nine 
Midwest State DOT's and the Federal Railroad Administration to consider 
the best opportunities for passenger rail service using Chicago as a 
hub. The consultant study proposed a system that would generate high 
levels of ridership and would recover the majority of its operating 
costs (refer to the map in the Addendum).
    Communities in the Quad City area have formed a coalition with 
neighboring jurisdictions in Iowa and Illinois to promote the 
development of passenger rail service along the Interstate 80 corridor. 
Implementation of service would help alleviate congestion on Interstate 
80 and the resulting railroad improvements could. also serve freight 
transportation. According to the American Association of State Highway 
and Transportation Officials (AASHTO), 16 percent of the nation's 
freight is carried by railroads. Unless $53 billion or $2.65 billion 
annually is provided to augment private. railroad investment, this 
percentage will riot be maintained within the next 20 years. The result 
would be the transfer of 450 million tons of freight to the highway 
system costing $238 billion in highway improvements over the 20-year 
period.
    Leaders recognize the issues related to the provision of passenger 
rail service in the country and encourage timely resolve to these 
issues so that both existing and future passenger rail service needs 
can be addressed. Consideration should be given to the following: 
establish a dedicated, multi-year Federal capital-funding program for 
intercity passenger rail similar to the Federal highway and aviation 
programs; establish a Federal policy to preserve and improve a national 
passenger rail system addressing new efficiencies, innovation and 
responsiveness; and fund implementation of this national passenger rail 
system.
                               __________
                                    Village of Mahomet, IL,
                                                     April 3, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

RE: State Street Improvement Project--Phase 2: Village of Mahomet, 
Champaign County, Illinois

Dear Senator Inhofe: We are pleased to submit information to you 
describing subject project. On behalf of the citizens of the Village of 
Mahomet, we thank you for considering Federal funding for this urgently 
needed capital improvement project.
    The Village of Mahomet is a rapidly growing community. The United 
States census showed 56 percent population growth between 1980 and 1990 
and showed 57 percent population growth between 1990 and 2000. The 2000 
census showed the Village population to be 4,877. Village officials 
believe that this growth trend continues today.
    The high level of growth has challenged the Village's efforts to 
maintain the existing public infrastructure of the community and to 
make improvements to those systems to meet the ever increasing needs of 
the community. This growth requires substantial infrastructure 
improvements, yet the Village is still too small to adequately fund 
those needs by itself. The Village 10 year Capital Improvements Plan 
identifies over $30 million of repairs and improvements to streets, 
bridges, sanitary sewers, water mains and the wastewater treatment 
plant that are urgently needed. This represents a staggering sum for a 
community our size.
    The Village believes it is doing its part to meet these needs. The 
Village's spending upon capital improvement projects has exceeded 
$750,000 annually for each of the past several years. The Village 
recently doubled its water rates to pay for improvements which will 
triple the size of our water treatment plant. The Village will soon 
implement a corresponding increase in its wastewater rates. The 
combined water / sewer costs to a typical residential customer will be 
among the highest of 55 surveyed communities in East Central Illinois.
    The Village has currently budgeted over $4 million in water system 
and wastewater system improvement construction in 2003 and 2004, along 
with over $750,000 in street system improvements. Those improvements 
have been funded through issuance of new debt. The Village has reached 
a point where it will not be able to fund all of the urgently needed 
improvements via issuance of additional debt.
    The State Street Improvement Project--Phase 2 is the continuation 
of an adjacent project currently scheduled for construction this 
summer. State Street serves as a collector street for the community, 
and provides the major transportation link for the Northwestern portion 
of the community. State Street provides primary access to four (4) 
schools, including the Junior High School and the Senior High School.
    Traffic on this street has increased by 50 percent during the past 
10 years, and is projected to increase by 50 percent during the next 20 
years. State Street currently does not have adequate capacity to serve 
the using public. Pick-up and drop-off times for the surrounding 
schools are particularly problematic.
    Phase One of this State Street Improvement Project will upgrade the 
intersection of State Street and Division Street to provide left turn 
lanes and permit unhindered bus-turning motions. Storm sewer systems 
and pedestrian safety will also be enhanced in the intersection area. 
The estimated total project costs for Phase One of this project are 
approximately $440,000. These costs will be borne solely by the Village 
of Mahomet utilizing general funds.
    A three-lane cross section for State Street was initially 
envisioned between Division Street and the Senior High School as a part 
of the Phase One improvements. This three-lane cross section will 
provide safety improvements for buses and vehicles making left turns 
into the Senior High School and Junior High School sites. This project 
element was eliminated from the Phase One Improvements due to 
inadequate funding. Phase 2 of this project includes the construction 
of this three-lane cross section, along with corresponding storm sewer 
improvements. It also includes pedestrian safety improvements, which 
are critical for the hundreds of school children who use these schools 
daily.
    Phase 2 of the State Street Improvement Project also includes 
stormwater drainage improvements. Larger diameter storm sewers and a 
stormwater detention basin will be constructed to relieve an inadequate 
drainage outlet for an approximate 18 acre watershed. The storm sewers 
are inadequate due to the doubling of the size of each of the adjacent 
public schools. As a result, homes and streets now commonly experience 
flooding after rainstorms. The stormwater drainage improvements are 
intended to eliminate the health and safety problems caused by that 
flooding.
    This project is currently estimated to cost $630,000. A current 
estimate of the costs for Phase 2 of the State Street Improvement 
Project, along with a Project Location Map is attached.
    This project will provide community-wide benefit. The benefit will 
extend beyond Village boundaries to all users of the Mahomet-Seymour 
School District. Traffic flow, pedestrian safety, and stormwater 
drainage will all be significantly improved. Phase 1 of this project 
has already been initiated and wholly funded by the Village of Mahomet. 
With Federal assistance, this second phase of the project will extend 
and enhance the benefits which will be realized by the construction of 
first part of the project this summer.
    The Village currently can reallocate approximately $100,000 toward 
Phase 2 of this State Street Improvement Project during the 2003--2004 
fiscal year. However, without additional funding from outside sources, 
it may be 2 to 5 years before the Village could fund this project on 
its own. The multi-billion dollar budget deficit currently being 
experienced by the State of Illinois makes funding from State sources 
unlikely, although the Village is also exploring that alternative. 
Funding via Federal dollars would allow the Village to leverage the 
funds it has available to complete the project.
    The Village of Mahomet sincerely thanks you for your consideration 
of funding for this State Street Improvement Project. Your assistance 
will help to assure that Village of Mahomet infrastructure keeps pace 
with our rapidly expanding population. We look forward to hearing from 
you. If we can provide additional clarity regarding this project, 
please do not hesitate to contact us at any time.
            Sincerely,
                             Jeffrey A. Courson, President,
                             Board of Trustees, Village of Mahomet.
                               __________
                                    Village of Mahomet, IL,
                                                     April 3, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.
RE: Division Street Reconstruction Project: Village of Mahomet, 
Champaign County, Illinois
Dear Senator Inhofe: We are pleased to submit information to you 
describing subject project. On behalf of the citizens of the Village of 
Mahomet, we thank you for considering Federal funding for this urgently 
needed capital improvement project.
    The Village of Mahomet is a rapidly growing community. The United 
States census showed 56 percent population growth between 1980 and 1990 
and showed 57 percent population growth between 1990 and 2000. The 2000 
census showed the Village population to be 4,877. Village officials 
believe that this growth trend continues today.
    The high level of growth has challenged the Village's efforts to 
maintain the existing public infrastructure of the community and to 
make improvements to those systems to meet the ever increasing needs of 
the community. This growth requires substantial infrastructure 
improvements, yet the Village is still too small to adequately fund 
those needs by itself. The Village 10 year Capital Improvements Plan 
identifies over $30 million of repairs and improvements to streets, 
bridges, sanitary sewers, water mains and the wastewater treatment 
plant that are urgently needed. This represents a staggering sum for a 
community our size.
    The Village believes it is doing its part to meet these needs. The 
Village's spending upon capital improvement projects has exceeded 
$750,000 annually for each of the past several years. The Village 
recently doubled its water rates to pay for improvements which will 
triple the size of our water treatment plant. The Village will soon 
implement a corresponding increase in its wastewater rates. The 
combined water / sewer costs to a typical residential customer will be 
among the highest of 55 surveyed communities in East Central Illinois.
    The Village has currently budgeted over $4 million in water system 
and wastewater system improvement construction in 2003 and 2004, along 
with over $750,000 in street system improvements. Those improvements 
have been funded through issuance of new debt. The Village has reached 
a point where it will not be able to fund all of the urgently needed 
improvements via issuance of additional debt.
    The Division Street Reconstruction Project is the continuation of 
an adjacent project currently scheduled for construction this summer. 
Division Street serves as a collector street for the community, and 
provides a major transportation link for the Northwestern, Central and 
Southern portions of the community. Division Street provides primary 
access to four (4) schools, including the Junior High School and Senior 
High School.
    Traffic on Division Street has increased by 50 percent during the 
past 10 years, and is projected to increase by 40 percent during the 
next 20 years. The Division Street pavement has substantially exceeded 
its design life. As a result, the pavement has begun to pothole and 
fail. In addition, the higher traffic volumes have created a need for 
left turn lanes at the Main Street intersection due to safety concerns.
    The adjacent project scheduled for this summer will improve the 
intersection of Division Street and State Street to provide left turn 
lanes and permit unhindered school bus turning motions. Storm sewer 
systems and pedestrian safety will also be enhanced in the intersection 
area. The estimated project costs for this adjacent project are 
approximately $440,000. These costs will be borne solely by the Village 
of Mahomet utilizing general funds.
    The Division Street Reconstruction Project will continue the 
Division Street improvements southwardly five blocks from State Street 
to U.S. Route 150. The project will include pavement widening and 
repair, construction of curb and gutter, sidewalk, and storm sewer 
improvements.
    Two heavily traveled intersections at Main Street and U.S. Route 
150 will be provided with left turn lanes to improve safety. Pedestrian 
improvements will also be made in the vicinity of the schools to 
eliminate safety problems for the hundreds of school children who use 
these facilities daily. This Division Street Reconstruction Project is 
currently estimated to cost $1,000,000. A current cost estimate, along 
with a project location map is attached.
    This project will provide community-wide benefit. The benefit will 
extend beyond Village boundaries to all users of the Mahomet-Seymour 
School District. Traffic flow, pedestrian safety, and stormwater 
drainage will all be significantly improved. With Federal assistance, 
this project will extend and enhance the benefits realized by the 
adjacent intersection improvement project being constructed this 
summer.
    The Village currently can reallocate approximately $100,000 toward 
this project during the 2003-2004 fiscal year. However, without 
additional funding from outside sources, it may be several years before 
the Village could fully fund this Division Street Reconstruction 
Project on its own. The multi-billion dollar budget deficit currently 
being experienced by the State of Illinois makes funding from State 
sources unlikely, although the Village is also exploring that 
alternative. Funding via Federal dollars would allow the Village to 
leverage the funds it has available to complete the project.
    The Village of Mahomet sincerely thanks you for your consideration 
of funding for this Division Street Reconstruction Project. Your 
assistance will help to assure that Village of Mahomet infrastructure 
keeps pace with our rapidly expanding population. We look forward to 
hearing from you in the near future. If we can provide additional 
clarity regarding this project, please do not hesitate to contact us at 
any time.
            Sincerely,
                              Jeffrey A. Courson President,
                             Board of Trustees, Village of Mahomet.
                               __________
                                    Village of Mahomet, IL,
                                                     April 3, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

RE: Eastwood Drive and Franklin Street: Pavement Reconstruction Project 
Village of Mahomet, Champaign County, Illinois

Dear Senator Inhofe: We are pleased to submit information to you 
describing subject project. On behalf of the citizens of the Village of 
Mahomet, we thank you for considering Federal funding for this urgently 
needed capital improvement project.
    The Village of Mahomet is a rapidly growing community. The United 
States census showed 56 percent population growth between 1980 and 1990 
and showed 57 percent population growth between 1990 and 2000. The 2000 
census showed the Village population to be 4,877. Village officials 
believe that this growth trend continues today.
    The high level of growth has challenged the Village's efforts to 
maintain the existing public infrastructure of the community and to 
make improvements to those systems to meet the ever increasing needs of 
the community. This growth requires substantial infrastructure 
improvements, yet the Village is still too small to adequately fund 
those needs by itself. The Village 10 year Capital Improvements Plan 
identifies over $30 million of repairs and improvements to streets, 
bridges, sanitary sewers, water mains and the wastewater treatment 
plant that are urgently needed. This represents a staggering sum for a 
community our size.
    The Village believes it is doing its part to meet these needs. The 
Village's spending upon capital improvement projects has exceeded 
$750,000 annually for each of the past several years. The Village 
recently doubled its water rates to pay for improvements which will 
triple the size of our water treatment plant. The Village will soon 
implement a corresponding increase in its wastewater rates. The 
combined water / sewer costs to a typical residential customer will be 
among the highest of 55 surveyed communities in East Central Illinois.
    The Village has currently budgeted over $4 million in water system 
and wastewater system improvement construction in 2003 and 2004, along 
with over $750,000 in street system improvements. Those improvements 
have been funded through issuance of new debt. The Village has reached 
a point where it will not be able to fund all of the urgently needed 
improvements via issuance of additional debt.
    The Eastwood Drive and Franklin Street Pavement Reconstruction 
Project involves the repair and rehabilitation of four (4) blocks of 
Eastwood Drive and Franklin Street. These two streets provide public 
access to a strip shopping center, grocery store, and retail commercial 
park within the Village. This neighborhood represents the primary 
retail commercial center for the community.
    These streets were built in the 1970's and have exceeded their 25-
year design life. The pavements are now experiencing substantial 
distress. The growth of the community has resulted in traffic volume 
well beyond the intended design for these streets.
    This Eastwood Drive and Franklin Street Pavement Reconstruction 
Project will include replacement of the current rural pavement cross 
section with new curb and gutter, storm sewer and sidewalk. The 
reconstruction of these two connecting streets will provide for 
increased traffic capacity and vastly enhanced safety for this 
commercial area. This project is currently estimated to cost 
approximately $600,000. A current cost estimate, along with a project 
location map are attached.
    This project will provide community-wide benefit to the Village of 
Mahomet and the surrounding residents who use this commercial area. It 
will also benefit travelers on adjacent Interstate 74 who stop to use 
this commercial area. This project will help to encourage continued 
development in this area. Full development of this commercial area will 
increase the Village's tax base and help to increase the desirability 
of the Village as a commercial destination.
    The Village of Mahomet currently can reallocate approximately 
$100,000 toward this Eastwood Drive and Franklin Street Pavement 
Reconstruction Project during the 2003-2004 fiscal year. However, 
without additional funding from outside sources, it may be several 
years before the Village could fully fund this project on its own. The 
multi-billion dollar budget deficit currently being experienced by the 
State of Illinois makes funding from State sources unlikely, although 
the Village is also exploring that alternative. Funding via Federal 
dollars would allow the Village of Mahomet to leverage the funds it has 
available to complete the project in a timely fashion.
    The Village of Mahomet sincerely thanks you for your consideration 
of funding for this project. Your assistance will help to assure that 
Village of Mahomet infrastructure keeps pace with our rapidly expanding 
population. We look forward to hearing from you. If we can provide 
additional clarity regarding this project, please do not hesitate to 
contact us at any time.
            Sincerely,,
                              Jeffrey A. Courson President,
                             Board of Trustees, Village of Mahomet.
                               __________
                                   Mahomet-Seymour Schools,
                                                     April 3, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

Dear Senator Inhofe: I am writing on behalf of the Mahomet-Seymour 
School District in support of the Village of Mahomet's requests for 
local transportation system funding. The Village annually appropriates 
an average of $175,000 for transportation system improvements. This 
level of funding allows the Village to minimally maintain and repair 
only the most deteriorated infrastructure.
    It is only through the receipt of outside sources of funding, or 
via debt financing, that the Village is generally able to take on any 
substantial capital project. This is the case for the upcoming fiscal 
year. The Village is fortunate to be able to undertake the first phase 
of a large improvement project that will ultimately widen and improve 
the single-most congested intersection in town, i.e. State Street/
Division Street. The total estimated cost of this part of the much 
larger comprehensive State Street improvement project exceeds $440,000. 
On the down side, because the majority of the cost of this project is 
debt financed via general obligation bonds, the Village will not be in 
a position financially to undertake the next phase of this improvement 
project, or any other significant project, for several years. This is 
of concern since there are more than $10 million in capital projects 
identified within the Village's current transportation system capital 
improvements plan, including the three projects identified by the 
Village for your consideration. These particular three are high 
visibility, high priority projects that will positively impact local 
residents and visitors to our community.
    At a time when our economic future is uncertain and demand for 
minimum levels of service is high, local officials are searching for a 
variety of ways to achieve results without further burdening the 
taxpayer. Your assistance in obtaining additional funding will help us 
reach that goal.
    The Mahomet-Seymour School District certainly supports and 
appreciates your consideration of the Village's request for 
transportation system funding. If I may be of further assistance, 
please contact me.
            Sincerely,
                                         John W. Alumbaugh,
                                                    Superintendent.
                               __________
                         Cornbelt Fire Protection District,
                                                     April 3, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

Dear Senator Inhofe: I am writing on behalf of Cornbelt Fire Protection 
District in support of the Village of Mahomet's requests for local 
transportation system funding. The Village annually appropriates an 
average of $175,000 for transportation system improvements. This level 
of funding allows the Village to minimally maintain and repair only the 
most deteriorated infrastructure.
    It is only through the receipt of outside sources of funding, or 
via debt financing, that the Village is generally able to take on any 
substantial capital project. This is the case for the upcoming fiscal 
year. The Village is fortunate to be able to undertake the first phase 
of a large improvement project that will ultimately widen and improve 
the single-most congested intersection in town, i.e. State Street/
Division Street. The total estimated cost of this part of the much 
larger comprehensive State Street improvement project exceeds $440,000. 
On the down side, because the majority of the cost of this project is 
debt financed via general obligation bonds, the Village will not be in 
a position financially to undertake the next phase of this improvement 
project, or any other significant project, for several years. This is 
of concern since there are more than $10 million in capital projects 
identified within the Village's current transportation system capital 
improvements plan, including the three projects identified by the 
Village for your consideration. These particular three are high 
visibility, high priority projects that will positively impact local 
residents and visitors to our community.
    At a time when our economic future is uncertain and demand for 
minimum levels of service is high, local officials are searching for a 
variety of ways to achieve results without further burdening the 
taxpayer. Your assistance in obtaining additional funding will help us 
reach that goal.
    Cornbelt Fire Protection District certainly supports and 
appreciates your consideration of the Village's request for 
transportation system funding. If I may be of further assistance, 
please contact me.
            Sincerely,
                                           Joseph L. Mikan,
                                             Will County Executive.
                               __________
                                         Joliet, IL, April 7, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

Dear Senator Inhofe: Will County, Illinois, is taking this opportunity 
to provide you with information on its desires and concerns regarding 
the upcoming re-authorization of the Federal transportation bill, TEA-
21. This information is being submitted to you in correlation with the 
U.S. Senate Committee on Environment and Public Works' (EPW) field 
hearing on the transportation needs of Illinois.
    Will County, Illinois, is the second largest County in northeastern 
Illinois and the 13"' largest in the State with a current population of 
536,000 and growth projections that have made it the fastest growing 
county in Illinois and placed it in the top ten fastest growing 
counties in the United States. The points listed below identify 
policies for the re-authorization of TEA-21 that are necessary to the 
improvement of mobility for all of Illinois and the County of Will.
    <bullet>  Increase Federal funding levels of the transportation 
bill overall in order to meet critical needs for rehabilitation and new 
capacity.
    <bullet>  Increase Illinois' share of formula-based funds, removing 
Illinois from donor status to recipient status due to infrastructure 
needs.
    <bullet>  Maintain the firewalls made part of the TEA-21 
legislation, protecting funding levels for highway and transit programs 
from being diverted throughout the cycle of the bill.
    <bullet>  Continue the inclusion of quality core programs such as 
Infrastructure Maintenance (IM), Bridge, Surface Transportation Program 
(STP), Congestion Mitigation and Air Quality (CMAQ), Enhancement, and 
National Highway System (NHS) and maintain or increase funding levels 
of these programs.
    <bullet>  Broaden the eligibility of CMAQ to allow eligibility of 
projects that prevent congestion levels from current levels used to 
determine eligibility based on the need to ``mitigate'' congestion.
    <bullet>  Maintain Federal/local match guidelines at 80/20 for 
highway and transit projects
    <bullet>  New Transportation Security programs should be funded 
with General Revenues
    <bullet>  Develop a new Federal funding program to address airport 
planning including land-use, transportation and tax issues.
    <bullet>  High Priority Project programs are an important mechanism 
for addressing critical infrastructure and planning needs and. should 
be in addition to formula-based funds.
    <bullet>  Eliminate the requirement for Major Impact Studies (MIS) 
as there purpose can be fulfilled through Federal EIS process 
requirements.
    <bullet>  Develop a Federal program to address rail freight issues.
    These policy concepts for the re-authorization of TEA-21 can 
provide the structure and vehicle for the planning and funding of 
projects and programs that are crucial to maintaining quality of life 
for the citizens of Will County and the State of Illinois. Thank you 
for this opportunity.
            Respectfully,
                                           Joseph L. Mikan,
                                             Will County Executive.
                               __________
                                                     April 8, 2003.

Hon. James M. Inhofe, Chairman,
Committee on Environment and Public Works,
Senate Office Building,
Washington, DC 20510-3603.

Dear Senator Inhofe: I want to thank you for the opportunity to discuss 
with you and your staff Will County's interest in the development of a 
third airport in Will County during our recent trip to the Capitol. Our 
activities during the past 6 months have focused on developing a 
coalition of support for the third airport with the participation and 
assistance of the South Suburban Cook and Will County Communities as 
well as Kankakee County and the Illinois Department of Transportation.
    We see the new airport as purely supplemental to the existing 
airports serving Chicago. The FAA officials we visited with appear to 
agree with this approach and have offered to give us their support in 
as their review of this element of the region's strategic air 
transportation plan moves forward. We appreciate your support, 
endorsement and leadership in helping to achieve this goal.
    I regret that I was not able to attend the recent field hearing 
regarding the Chicago Region's transportation issues held in Chicago. 
Lack of advance notice and schedule conflicts precluded my appearance. 
Please add Will County and all other collar counties that are part of 
the North Eastern Illinois Planning Commission's six county planning 
area to your notice list for all future hearings relating to the 
transportation needs of the region.
    I have included with this letter my correspondence to Senator 
Inhofe setting forth Will County's desires and concerns regarding the 
upcoming re-authorization of the Federal transportation bill, TEA-21.
    Again, thank you for those courtesies extended by you and staff 
during our Washington, DC. visit.
            Respectfully,
                    Joseph L. Mikan, Will County Executive.











         TEA-21 REAUTHORIZATION: REGIONAL TRANSPORTATION ISSUES

                              ----------                              


                        MONDAY, AUGUST 11, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                 Brownsville, Texas
    The committee met, pursuant to notice, at 10:30 a.m. at the 
Science Education Technology Building, Lecture Hall, 80 Fort 
brown, University of Texas at Brownsville (UTB), Brownsville, 
Texas, Hon. James M. Inhofe [chairman of the committee] 
presiding.

       TRANSPORTATION INVESTMENT ALONG THE SOUTHERN TEXAS BORDER

    Present: Senators Inhofe and Cornyn.

 OPENING STATEMENT OF HON. JAMES M. INHOFE, U.S. SENATOR FROM 
                     THE STATE OF OKLAHOMA

    Senator Inhofe. We are going get started. One thing about 
the committee I chair is we are punctual and we start on time. 
That's unusual for Washington.
    Let me welcome everyone. We have a lot of people who are 
not here. It is my understanding that Solomon Ortiz is out of 
the country and unable to be here, but is he represented today? 
Solomon is a dear friend whom I served with in the House.
    I'm honored to be here with my good friend John Cornyn. In 
fact, he is he reason we are having this hearing here. We have 
only had one field hearing and that was in Illinois. We kind of 
made a deal with John. When he was running for office, I said 
when you win, I want you to be on my committee and I'll agree 
to have the first field hearing if you'll do that. Then I said, 
where would you like to have it. He told me about all the 
things happening in south Texas of which I'm more familiar than 
you might think. I spent 40 years as a builder and developer in 
south Texas so I know a little bit about it.
    So many things are happening as John told me in south Texas 
that we need to be on top of. There are some not actually 
testifying before us. I understand Donna Imard is here. Hi, 
Donna. How are you? I look forward to visiting with you after, 
so don't get away. I want to hear also how Raul is doing.
    I think you are all familiar with what we are doing and why 
we are here. We are in the process of reauthorizing for the 
next 6 years, the Transportation Authorization. The last one 
was 6 years ago and was TEA-21 and the one before that was 
ISTEA, 6 years before that. I was serving on the committee at 
that time also. We are in the process of trying to get this 
done. John and I are working closely together. We were hoping 
to have our authorization done by now before this recess we are 
in. However, the Senate works very slow and we were unable to 
get the floor time to do it. Now I have bad news, John, that 
you may not know about because I just heard about it yesterday 
that we may not get our floor time until October. As you know, 
our authorization runs out before that, so this is critical.
    We are fighting hard on our committee to get to the full 
$255 billion funding level over the next 6 years. If we do 
this, we have tentative formulas and due mostly to the efforts 
of John, it's going to have a very favorable effect on Texas. 
Texas during TEA-21 ended up with $12.6 billion over that 
period of time. This should be increased by around 37 percent. 
That is the second largest increase in the entire country. For 
some unique purposes, Colorado is 41 percent but Texas is No. 2 
in that respect so I think you will be well treated.
    We are concerned about a lot of the things going on down 
here in terms of where the highways go and all that but I also 
want to call your attention to other critical issues such as 
streamlining environmental laws. We want to make sure we are in 
a position to get this work done. Having been a mayor of a 
major city for four terms some years ago, I know what a hard 
job is. I tell my friends in the Senate, the hardest job in the 
world is to be mayor of a city. If something goes wrong, if 
your trash system didn't work, it ended up in your front yard. 
There aren't any hiding places there. We have our mayors here 
and are looking forward to seeing them on the second panel.
    I would say having been the mayor of a city that was out of 
attainment, we understand the problems that come with that. So 
we are looking forward to hearing the second panel as well as 
the first and the third.
    We are going to stay on schedule because we have some very 
important people to testify before us. While there are only two 
senators here, we have our full staff with us. We'll be taking 
notes. We want to know from you what the priorities are 
recognizing that probably Johnny Johnson will have more to do 
with working within those priorities because that is the way 
the system works. We will look forward to working with you.
    [The prepared statement of Senator Inhofe follows:]
   Statement of Hon. James M. Inhofe, U.S. Senator from the State of 
                                Oklahoma
    I would like to welcome everybody to this field hearing of the 
Committee on Environment and Public Works. I am honored to hold the 
hearing for my good friend John Cornyn to learn more about the 
transportation needs along the Southern Texas Border and how we can 
buildup the successes of TEA-21.
    As I'm sure everybody here is aware, the law currently governing 
surface transportation, TEA-21, must be reauthorized this year. I 
believe there is a desire at all levels to finish this legislation as 
soon as possible. It is my desire that we would complete action in the 
Senate early in September.
    My goals for reauthorization are very congruent with the needs of 
Texas and, I believe, the goals of Senator Cornyn.
    I plan to put a great deal of focus on improving safety, 
congestion, and freight movement. A good highway program can save 
lives, improve the economy, and improve peoples' quality of life.
    Reauthorizing the transportation bill also gives us an opportunity 
to examine the environmental laws that govern the process of planning 
and constructing new transportation infrastructure. I plan to 
streamline the approval and building process that bogs-down road 
building today.
    I am also interested in providing a legal basis for the agreements 
that EPA made with States and localities for areas to attain the 8-hour 
ozone standard early. EPA had worked out the concept with environmental 
groups, yet I am concerned that these areas are vulnerable to lawsuits. 
Areas that have signed ``early action compacts'' are taking steps to 
clean their air faster than required. Texas has early action compacts 
for the San Antonio, Austin, and Longview-Tyler areas, and Oklahoma has 
compacts for both Tulsa and Oklahoma City.
    I also would like to see healthy and sustainable growth in funding 
levels under the new bill. The nation's highway and bridge needs are 
staggering. I intend to fund the highway component of the bill at 
include $255 billion over 6 years. This would be about the same growth 
rate in funding as between ISTEA and TEA-21. This will allow us to 
continue the great improvements made under TEA-21.
    But simply increasing funding is not enough. States like Oklahoma 
and Texas currently pay significantly more into the Highway Trust Fund 
than they receive in highway funding. We are donor States. I want to 
significantly increase the rate of return of donor States. This is an 
important equity issue.
    Texas received less than $13 billion under TEA-21. Early estimates 
indicated that Texas would receive at least an additional $4.5 billion 
under a bill written at $255 billion that improved the rate of return 
for donor States.
    I would like to thank the witnesses for coming. I look forward to 
hearing your testimony.
    Senator Inhofe. Our first panel consists of: Emil Frankel, 
Assistant Secretary for Transportation; Johnny Johnson, you 
know him, Chairman of the Commission; and Bill Stockton, 
Assistant Agency Director, Texas Transportation Institute.
    With that, I'll pass it on to Senator John Cornyn for any 
comments he might want to make.

 OPENING STATEMENT OF HON. JOHN CORNYN, U.S. SENATOR FROM THE 
                         STATE OF TEXAS

    Senator Cornyn. Thank you, Chairman Inhofe.
    I want to say how grateful I am for your willingness to 
conduct this field hearing and particularly in an area where I 
know you share a lot of concern and you've spent a lot of time.
    Senator Inhofe. You notice I'm the only one here without a 
tie on. That was the other condition under which we were going 
to have this hearing, that I wouldn't have to wear a tie.
    Senator Cornyn. I continue to learn from Chairman Inhofe 
and next time I won't make that mistake, I promise you.
    When Chairman Inhofe asked me to serve on the Environment 
and Public Works Committee, and was good enough to make sure 
that I was appointed to the Transportation Subcommittee that 
would rewrite TEA-21, coming from a State like Texas, I 
couldn't pass that up. Texas has exploded, our population has 
grown tremendously and no where is that more obvious than in 
south Texas. While south Texas is prospering and jobs are being 
created, you're seeing signs of economic development 
everywhere, it is very encouraging and there are a lot of 
challenges that south Texas has because it's situated along our 
border with Mexico.
    With the advent of NAFTA, there is increased pressure on 
our existing infrastructure that needs to be maintained better. 
We need to expand our trade routes to make sure that the goods 
that flow across the border from our important trading partners 
to the south continue to flow and since 9/11, the challenges of 
national security, homeland security are even greater than we 
realized they were before 9/11.
    Everyone knows that we cannot be so focused on security 
that we forget commerce. We cannot shut down our borders to 
deny both the exchange between families and people who live on 
both sides of the border in a way that perhaps folks in 
Washington might not realize and also the important benefits to 
be gained in the local economy in terms of job creation that 
come along with that commerce.
    No where is that more significant than in terms of 
maintaining and expanding our infrastructure and I know we have 
the A team testifying on all these panels today. I am delighted 
you accepted our invitation to come and tell us about your 
concerns, particularly the concerns we have here on the border 
to make sure the good thing we have going continues for the 
benefit of not only the people in south Texas and the people of 
Texas but the people of Oklahoma and all of the other States 
that benefit from that commerce flowing across our borders.
    Thank you very much.
    Senator Inhofe. Thank you, Senator Cornyn.
    We will start with Secretary Frankel. I'll put the timer on 
this, you can go seven or 8 minutes but try not to get beyond 
that.

    STATEMENT OF HON. EMIL FRANKEL, ASSISTANT SECRETARY FOR 
      TRANSPORTATION POLICY, DEPARTMENT OF TRANSPORTATION

    Mr. Frankel. Mr. Chairman, Senator Cornyn, it is a great 
pleasure to be here, and thank you for the opportunity to 
appear before you to discuss border transportation in the 
context of the reauthorization of the Surface Transportation 
Programs now before your committee.
    I ask that my longer prepared statement be made a part of 
the hearing record.
    Senator Inhofe. Without objection.
    Mr. Frankel. There is no better place to hold such a 
hearing than in the State of Texas, and, particularly, in south 
Texas. There are not many issues more important in 
transportation than those associated with the movement of goods 
and people across our vast land borders in the South and North.
    President Bush knows well the transportation needs of the 
State of Texas and with the border with Mexico. His leadership, 
both as President and as Governor of Texas, has focused on the 
value of a strong transportation system. Secretary Mineta has 
also been a leader on border issues throughout much of his 
remarkable career in transportation.
    When NAFTA was implemented in 1994, exports to Mexico 
constituted less than 10 percent of total U.S. exports. In less 
than 10 years, exports to Mexico have soared over 70 percent 
and now represent more than 14 percent percent of total 
exports. Total U.S. trade with Mexico increased 186 percent in 
the first 8 years following NAFTA implementation. Nowhere has 
this growth been felt more strongly than in Texas, Mexico's 
largest trading partner. Texas ports, bridges and airports 
handle over 70 percent of all U.S. exports to Mexico. In 1994, 
there were less than three million truck-crossings at the U.S.-
Mexico border. By the year 2000, the number was approaching 
four and a half million, a 50 percent increase. Much of this 
traffic is handled here in Texas.
    Given these recent trends, it is appropriate to address 
border transportation issues in the context of the 
reauthorization. The Bush Administration's recently released 
reauthorization proposal entitled the Safe, Accountable, 
Flexible and Efficient Transportation Equity Act of 2003, 
SAFETEA, offers several proposals to improve the flow of people 
and commerce across the Mexican and Canadian borders.
    Most importantly, SAFETEA would replace the current 
National Corridor Planning & Development Program and the 
Coordinated Border Infrastructure Program, a single program, 
with two separately funded programs. TEA-21's Borders and 
Corridors Program, we don't believe, has lived up to its 
potential. Specifically, important border projects too often 
were unable to obtain funding. In 2003, only 5 percent of the 
combined NCPD/CBI went to border-related activities. Only two 
Texas border projects received program awards in fiscal year 
2001 and 2003 and one in fiscal year 2002. Moreover, every 
award under NCPD/CBI was congressionally designated in fiscal 
years 2002 and 2003. As a result, the Secretary has been 
stripped of his ability to implement any coherent strategy to 
improve border transportation operations.
    SAFETEA proposes to increase the focus on land borders 
through the establishment of a new Border Planning, Operations, 
and Technology program. The purpose of this proposed program is 
to improve bi-national transportation planning, operations, 
efficiency, information exchange, safety, and security for the 
U.S. borders with Mexico and Canada. SAFETEA would authorize 
$500 million over the life of the Border Program. In fiscal 
year 2004, $47 million of these funds would be used for 
construction of State border truck safety enforcement 
facilities in Arizona, California, New Mexico, and Texas, 
fulfilling a 3-year commitment for this purpose and helping to 
prepare the way for eventual safe implementation of NAFTA's 
commercial truck and bus access provisions.
    Eligibility under the Border Program would be restricted to 
States and MPOs at or near the borders of Canada and Mexico. 
The proposal envisions a wide range of eligible border 
activities, such as improvements to safety inspection and port 
of entry facilities; enhanced technology and information 
exchange; planning and environmental studies; technology 
facilities improvement implementation; and right-of-way 
acquisition, design, and construction, related to safety and 
technology improvements. The Secretary would retain discretion 
to allocate funds under the SAFETEA proposal but subject to 
clear selection criteria.
    SAFETEA also includes a new Multi-State Corridor Planning 
program. This program would emphasize multi-State planning 
efforts. The proposed program would provide an opportunity for 
States and regional agencies to plan jointly for a variety of 
geographic areas, in addition to tradition metropolitan or 
statewide areas. The principal objective would be to address 
the gap created by formula programs, which do not provide 
specific funds for multi-State, multi-modal, and multi-
jurisdictional decisionmaking on corridors. SAFETEA would 
authorize almost $500 million for the program over the life of 
the bill.
    The potential for a separate border program may be seen in 
projects such as the World Trade Bridge in Laredo, Texas. 
Approximately 35 percent of all incoming trucks and nearly half 
of all incoming trains to Texas pass through Laredo. With the 
downtown Laredo Juarez-Lincoln Bridge stretched to capacity, 
Mexico, the State of Texas, the city of Laredo, and the city of 
Nuevo Laredo constructed a new bridge and related improvements 
for $100 million. The bulk of financing came from Federal and 
State sources, and the $6 million contribution from the Borders 
and Corridors Program was an important boost to the project.
    The new bridge opened on April 15, 2000. Crossings 
typically now take about 5 minutes between the time the vehicle 
leaves the Interstate main lane and the time the vehicle 
crosses into Mexico. Local traffic moves much more efficiently, 
and traffic safety in the area has improved. Many new 
businesses have located along the highway, and Laredo 
experienced substantial job growth in fiscal year 2001, due in 
part to the business opportunities created by the new bridge.
    While the proposed Border Program is the most specific 
border program contained in SAFETEA, it is not the only 
proposal that can improve the efficiency of our borders. 
SAFETEA eliminates most discretionary highway grant programs 
and makes these funds available under the core formula highway 
grant programs, thus giving States and localities tremendous 
flexibility and certainty of funding under core Federal-aid 
highway programs. States like Texas have used these core 
program funds in the past to address border transportation 
issues. I am sure Commissioner Johnson will speak to that more 
specifically. SAFETEA proposes to increase the percentage of 
Federal transportation assistance that is funneled through 
these flexible programs. President Bush believes that State and 
local decisionmakers have the greatest capability to address 
State and local transportation problems. That is a major theme 
of SAFETEA. The success of the World Trade Bridge project in 
Laredo hinged on sustained involvement and leadership from the 
locality and the State of Texas.
    SAFETEA also establishes a new performance pilot program 
under which States, including States with significant border 
activities, can manage the bulk of their core formula highway 
program funds on a block grant performance basis, cutting 
across the programmatic lines by which the Federal-aid highway 
program is normally structured.
    Senator Inhofe. Secretary Frankel, can you summarize?
    Mr. Frankel. I will.
    Under the pilot program, States would work with the 
Department to develop and meet specific performance measures 
that reflect both State and national interests. Also, as both 
of you are aware, there also are proposals in this bill to 
address the environmental streamlining process. We are already 
acting in that regard, pursuant to an executive order issued 
last September by the President. One of the priority projects 
selected under that executive order is the I-69 project here in 
Texas.
    Improving the movement of freight and goods is a top 
priority of the Department, something I know is important here 
in Brownsville. Clearly our intermodal freight network is not 
equipped to handle the growing volume of intermodal freight, 
especially container freight, and we have made specific 
proposals in SAFETEA to enhance the movement of freight and 
goods. The Administration will have other proposals and 
programmatic reforms to improve the intermodal freight 
transportation and connections.
    Finally, while the primary transportation security 
functions no longer rest with our department, we intend to 
maintain an important partnership with the Transportation 
Security Administration and other relevant agencies at the 
Department of Homeland Security, as Senator Cornyn has 
indicated. We have to find the appropriate balance between 
security and productivity at our border crossings.
    As the economies of the United States, Canada and Mexico 
become more interdependent, the demands on the immense land 
borders between us will continue to grow. Transportation issues 
are at the heart of these demands. This Administration and our 
department are working to ensure that U.S. border operations 
promote economic growth and improve security.
    Thank you again for this opportunity to testify, and I look 
forward to responding to your questions.
    Senator Inhofe. Thank you, Mr. Secretary. Appreciate it 
very much.
    Mr. Johnson?

STATEMENT OF JOHNNY JOHNSON, COMMISSIONER, TEXAS DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Johnson. Thank you, Chairman Inhofe and Senator Cornyn.
    I am John W. Johnson, Chairman of the Texas Transportation 
Commission. I appreciate the opportunity to share with you our 
Texas transportation priorities with the reauthorization of 
TEA-21
    I have also submitted written comments and request they 
become a part of the record.
    Senator Inhofe. Without objection.
    Mr. Johnson. On our display board, we have some statistical 
data that I will not repeat in deference to time. One statistic 
I do want to emphasize is during the decade of the 1990's, in 
the State of Texas, 218 billion vehicle miles traveled 
represents a 41 percent increase during that decade. Please 
also note that during that 10 year period highway lane miles 
only increased 3 percent and if you combine those two 
statistics with the population growth Texas experienced during 
the decade of the 1990's, what you simply have is more people 
and more cars in about the same amount of space which is a 
formula for congestion.
    Texas is NAFTA's port of entry. It is the Nation's NAFTA 
port of entry. About 80 percent of U.S.-Mexico trade enters 
through a Texas border point of entry. I know Bill Stockton 
will emphasize what we are doing at our ports of entry and I 
know Secretary Frankel also referred to them.
    Texas is a donor State. We would like the minimum guarantee 
to be set at no less than 95 percent of our share of 
contribution to the Highway Trust Fund and to cover every 
dollar distributed from the highway account. We strongly 
support Senate Bill 1090 and House Bill 2208.
    We have donated more than $5 billion to other States since 
1956 and under TEA-21 our rate of return has been only 88 cents 
on the dollar. We would have recovered another $1.2 billion 
under TEA-21 had this 95 percent minimum guarantee been in 
effect.
    Texas needs more transportation financing tools and fewer 
restrictions. At the State level, we had a significant 
legislative session and passed House Bill 3588 which gives us a 
number of new tools. We have the ability for regional mobility 
authorities, enacting the Governor's vision of the Trans-Texas 
Corridor which is also on this display board which will move 
traffic through and around our major urban areas in a much more 
efficient way.
    We have bonding authority. We have also used a number of 
existing Federal financing tools and would like to broaden the 
authority to be able to use those tools more effectively. 
Primary among these are TIFIA, a $916.7 million loan to be 
specific, that will be used for the construction of the Central 
Texas Turnpike Project, which is a segment of four toll roads 
in central Texas that will become part of the Trans-Texas 
Corridor. We are also using to great effect our State 
infrastructure bank and it now enables locals to bring projects 
to reality sooner.
    I-69 is a major national trade corridor that will bring 
tremendous relief and status to the border region as well as to 
Texas. It is also national in scope as it goes all the way to 
the Canadian border and shares its full length between our two 
major international trading partners.
    The Federal Highway Administration's Design-Build rules 
could cause significant delays in delivery of key 
transportation projects and limit investment of the private 
sector in those needed projects. The rules should be 
liberalized to allow States to use State procurement processes 
for Design-Build contracts.
    TEA-21 reauthorization should create new tools and expanded 
flexibility to provide quicker and more cost efficient project 
delivery mechanisms. We'd like the ability to toll portions of 
the Federal Aid Highway System, buy back portions of the 
system, privatize rest areas and use private activity bonds to 
bring the private sector into a public/private partnership to 
build Texas' 21st Century transportation system. Both the RAPID 
Act sponsored by Congressman Michael Burgess and the FAST Act 
sponsored by Senator Wayne Allard contain provisions that will 
help make these tools available to the States.
    Improvements to the Corridors and Borders Program--which 
were, as stated by Secretary Frankel, created in TEA-21--are 
necessary to direct the funds where they are needed the most: 
the promotion of national economic growth in relationship to 
international, interregional trade and facilitation of the safe 
movement of people and goods across the U.S. borders.
    We strongly support legislation introduced by Senator 
Hutchison in S. 1099 and Congressman Burgess in H.R. 2220 which 
are designated to properly clarify these programs. Congress 
also needs to remove the strings that delay project delivery 
through improving environmental review and planning processes. 
We encourage the Congress to allow States to exercise their 
environmental and project stewardship responsibilities by 
granting more categorical approval authority and delegating 
FHWA overview to the States. An important amendment to the 
Federal environmental laws and regulations is also needed to 
expedite approval of high priority and emergency projects 
including projects to improve the safety of roadways having 
higher than average traffic accident rates.
    Texas will add at least four new non-attainment areas under 
the new ozone standard. The Congestion Mitigation and Air 
Quality Improvement Program must be amended to adjust for 
larger demand on these funds. In addition, we believe that CMAQ 
eligibility should extend to near-non-attainment areas that 
have entered into a legal voluntary emissions reduction 
agreement and more important, we would ask that Congress 
restructure the CMAQ program to allow it to support the 
significant air quality benefits available from congestion 
mitigation, rather than continuing the current restriction of 
these funds to air quality improvement projects only.
    Thank you for the opportunity to bring part of the Texas 
transportation message to you today. Texas has a lot at stake 
in the work now on the congressional agenda. Your work to 
improve the Federal Government's commitment to enhanced 
transportation funding is very important to Texas and to the 
border region.
    Senator Inhofe. Thank you, Commissioner.
    Mr. Stockton?

 STATEMENT OF WILLIAM R. STOCKTON, ASSISTANT AGENCY DIRECTOR, 
                 TEXAS TRANSPORTATION INSTITUTE

    Mr. Stockton. Mr. Chairman, Senator Cornyn, thank you for 
the invitation to join you today and participate in this 
hearing on transportation investment along the Texas southern 
border. It is truly an honor to testify before your committee 
and especially to serve on a panel with distinguished men such 
as Secretary Frankel and Commissioner Johnson.
    I have also submitted written testimony that I would ask be 
included in the record.
    I am Bill Stockton, Associate Director of the Texas 
Transportation Institute, a research agency of The Texas A&M 
University System. Along with colleagues from the University of 
Texas at Austin, UT Brownsville, and other members of the A&M 
and UT systems, we have been working on solutions to border 
transportation issues for many years. Our focus is on 
expediting the movement of increased commercial traffic across 
the U.S./Mexico border without compromising U.S. national 
security.
    In our research we have observed two categories of 
challenges: physical and institutional. We see opportunities 
stemming from both. First, the physical challenges, which are 
generally well known with very few exceptions, today's border 
truck traffic exceeds the level envisioned when most border 
stations, border communities and border highways were built. As 
a result, the border stations are often cramped, border 
communities experience congestion and air pollution, and border 
highways often show distress of repeated heavy loads. Since 
widening of international bridges and significant expansion of 
the border inspection facilities is not an immediate prospect, 
then to deal with these physical challenges, we must focus on 
better ways of managing truck traffic much as we manage traffic 
better on freeways that can't be expanded in our metropolitan 
areas.
    Of at least equal significance are the institutional 
challenges which are not as well known and not well understood. 
The primary challenge is coordination among the players. Lack 
of coordination costs time and money. Most of today's problems 
existed before NAFTA and they continue because there is no 
over-arching mechanism to make sure they get fixed and stay 
fixed. It is a common mistake to focus on the border station as 
the sole bottleneck in the transborder freight movement 
ignoring the reality that the process, especially the 
transportation component of the process begins with the shipper 
in interior Mexico and may end with a receiver somewhere near 
Chicago.
    For example, prior to September 11, more than 100 Federal 
agencies had some role in approving or processing or sharing 
data for truck border crossings and several inspection agencies 
operated independent of each other within the border station 
itself. The Homeland Security reorganization has yielded 
significant improvements among Federal agencies but the 
coordination process across all stakeholders--public and 
private stakeholders--can still be improved.
    Further, each of the myriad of these stakeholders has its 
own measure of success so there is no common yardstick by which 
we can gauge the efficiency or effectiveness of one border 
crossing versus another. That makes it difficult if not 
impossible to know where to allocate resources to improve 
operations or infrastructure.
    The bottom line is that transport of freight movement is a 
supply chain system and the sooner we recognize it and manage 
it that way, the sooner we will reap the benefits. I have to 
say that great progress has been made in spite of the 
challenges of exponential growth and the emerging challenges of 
national security and truck safety. Efforts led by the U.S. 
Department of Transportation and the Texas Department of 
Transportation have not only made bold steps in defining the 
specific issues to be addressed but have also begun rapid 
implementation of solutions.
    I have four recommendations which I believe are consistent 
with safety though maybe somewhat more specific. One is the 
Texas Model Border Crossing which incorporates off-the-shelf 
technologies and processes to detect, identify, screen, and 
track trucks through commercial border crossings, providing 
smooth and rapid passage to those that are in full compliance 
with Federal and State laws and rules. A full scale pilot of 
this prototype at a business Texas port of entry would be a 
wise demonstration, especially in concert with new initiatives 
from the Bureau of Customs and Border Protection.
    Second, the coordination problem I identified can be 
overcome with the development of a public/private overarching 
mechanism to provide supply chain type management. What is 
needed is a multi-partner study to define the elements, the 
players and the process. Such a study could produce those 
benchmarks that I mentioned for performance and the yardsticks 
to measure progress toward our goals.
    Third, the Federal Government should endorse variable toll 
structures instead of fixed rate tolls at international bridges 
which are typically operated by a local government, allowing 
market forces to help balance peak demands and accommodate time 
sensitive shipments.
    Fourth and finally, the federally mandated metropolitan 
planning process should be expanded to officially incorporate 
border station planning and encourage Mexican sister city 
participation.
    Thank you for your time and interest.
    Senator Inhofe. Thank you, Mr. Stockton.
    Let me ask you a question. I'm not really familiar with the 
make-up. You are really associated with the university system 
as opposed to the State of Texas.
    Mr. Stockton. We are actually an agency of the State of 
Texas that's embedded within the university system.
    Senator Inhofe. And you are advisory on some of these 
technical things that you were talking about at border 
crossings?
    Mr. Stockton. That is correct. We do contract research. The 
U.S. Department of Transportation, the Texas Department of 
Transportation are our two largest sponsors. We work with other 
universities and university systems in doing that research.
    Senator Inhofe. I'd like to make a request of you and maybe 
of you too, Mr. Johnson. For quite some time, I've been 
concerned with the lack of improvement in technology of 
security systems coming across which does relate to the subject 
here today. One that we've been trying to get competition on 
post, past neutron analysis. Are you familiar with that?
    Mr. Stockton. Yes, sir.
    Senator Inhofe. Can you enlighten me as to any progress 
that's been made?
    Mr. Stockton. I do not have a current update on the status 
of that.
    Senator Inhofe. For the record, could you send that to me?
    Mr. Stockton. Yes, sir.
    Senator Inhofe. Commissioner Johnson, this chart you had up 
here is a little confusing to me because I needed to have 
someone pointing out where some of these are. Could you have 
one of your staff people come up and show me?
    Mr. Johnson. I can do it or Tonia Ramirez from our 
Legislative Affairs Office can do it.
    Conceptually it is the Trans Texas Corridor which creates 
routes which are different from the ones in existence today 
that will enable freight, rail and passenger traffic.
    Senator Inhofe. where is your I-69?
    Mr. Johnson. It starts here in the valley and also in 
Laredo.
    Senator Inhofe. I see.
    Mr. Johnson. Laredo connects around Victoria, Texas and I-
69 is conceived as a three-legged stool with one leg in 
Brownsville, one leg in McAllen and one in Laredo and they 
would merge in the Victoria, Texas area.
    Senator Inhofe. Your concern on the donor status of the 
State of Texas, let me assure you everything you said also 
applies to my State of Oklahoma, not just for that reason but 
for equity reasons, we are addressing that in our new 
reauthorization. I believe the formulas we are working with, 
although none of this has been approved and passed yet, are 
going to get you up to the 95 percent that you talked about.
    Let me ask one more question and then I'll turn it over to 
Senator Cornyn. Our third panel is going to be in the private 
sector. I'd like to see if there is anything you would comment 
on what the Federal role should be to assist them without 
getting into their jurisdiction? In other words, how can you be 
more helpful as opposed to being more demanding as is sometimes 
the case with bureaucracies?
    Mr. Frankel. Mr. Chairman, is that question particularly 
directed at border crossings?
    Senator Inhofe. Oh, no, no, in the movement of freight in 
general?
    Mr. Frankel. As I think you know from the proposals we have 
made in SAFETEA, we want to improve innovative financing tools. 
I know Commissioner Johnson made reference to private activity 
bonds which is a proposal to allow private activity bonds, to 
be utilized in connection with highway projects and intermodal 
freight projects. That is a very significant proposal in the 
Administration's bill, as are the other changes proposed for 
the TIFIA Program and innovative financing tools, to allow 
greater roles for the private sector--specifically with regard 
to freight and goods movement.
    As you know, SAFETEA also assumes a greater role for the 
private sector and expanded State and local discretion in 
achieving national goals of connectivity and mobility.
    Senator Inhofe. For the information of those who are here, 
the committee that is here before you is the Environment and 
Public Works. We've been talking about just the public works 
part but we also have jurisdiction over some 16 agencies 
including the Environmental Protection Agency.
    I'm glad you mentioned streamlining and I'm glad, 
Commissioner, you mentioned CMAC which I think is a very 
important part of the legislation that will be coming up. I can 
assure you that Senator Cornyn and I are going to be doing what 
we can to make it much more reasonable than it has been in the 
past.
    Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    I'm glad you mentioned the jurisdiction of the committee 
because obviously in places like the Metroplex in Dallas-Ft. 
Worth, in places like Houston, Texas and other areas, we have 
concerns with the intersection of our transportation needs with 
environmental concerns. If I can just say for the benefit of 
everyone here, Chairman Inhofe has been a leader on making sure 
that environmental rules and regulations are based on sound 
science for which I applaud him and I share that view. We all 
want to make sure that our environment is clean, the air we 
breathe the water we drink for ourselves and for our families 
but it's another thing entirely to pass laws or regulations 
which have a tremendous negative impact on the ability of our 
economy to sustain growth and create jobs because we hope but 
cannot really established based on any scientific method, that 
the regulation or proposal will actually work to accomplish 
that end. So we are moving in that direction and I applaud the 
Chairman for his leadership in that area.
    I wonder Mr. Frankel, you talked about some of the problems 
we've had in the past with earmarking funds that could be 
dedicated to improving the Borders and Corridors Program. Would 
you take a few minutes to expand on that and tell us what you 
think the best solution to that is? Is that contained in 
SAFETEA or are there other things we ought to consider or do to 
make sure money that really is intended by Congress to deal 
with the different and larger transportation challenges along 
our international border, that money is actually appropriated 
and allocated for that purpose?
    Mr. Frankel. I want to proceed with some care and caution, 
when addressing two members of the U.S. Senate talking about 
earmarking. I do recognize that there are differences of 
opinion between Congress and the executive branch about the 
role of each in establishing priorities, and I'm respectful of 
that. I think balances have been struck in some programs.
    I do think in what has been the combined Borders and 
Corridors Program, as I mentioned, all of the money has been 
earmarked. There is no opportunity for the executive branch to 
develop a strategic sense in the case of those programs I think 
of the five States that have the highest amount of funds 
received under TEA-21, only three are border States--Texas, 
Washington and I can't remember the third--Arizona, California 
and the other two States are West Virginia and Kentucky.
    I think if Congress' goals and intent, whether it's in 
terms of the Borders Program which should be contained in 
legislation, should be very clear what the strategic goals 
should be but in terms of developing projects that can achieve 
those ends, it's not just a question of the Federal Government, 
it's really a question of States, States and localities 
particularly.
    I might mention specifically, as I think you both are aware 
and I don't now what the outcome will be of the congressional 
process, but we have essentially recommended the elimination of 
most of the discretionary programs and instead pouring that 
money into the core highway programs or other core programs in 
which the money is allocated by formula to the States so the 
States in coordination with local officials, mayors and MPOs 
and so forth can develop the priorities that best suit their 
needs.
    The Borders Program because it is relatively small still 
compared to the core programs is one that we would preserve as 
a discretionary program. I think hopefully and I know with your 
leadership and the Chairman's leadership, we can strike the 
right balance here.
    Senator Cornyn. I understand your sensitivity in talking 
about the difference in perspectives sometimes that occurs 
between the different branches but I must say on this issue I 
believe our vision is the same and I think we need to better 
target the funding for the purpose not only for which Congress 
as a whole intended but also in a way that serves our economic 
and other needs in areas which are used to the benefit of the 
Nation and specifically here along the border region and NAFTA 
routes, other trade routes. That is one reason why I'm a co-
sponsor of Senator Hutchison's bill, S. 1099 which I hope will 
remedy that.
    Mr. Johnson, your remarks addressed environmental review 
and streamlining. Can you take a few minutes to expand upon the 
challenges you see to our goal to improve the transportation 
infrastructure in our State and at the same time address bona 
fide environmental concerns and some of the work your agency is 
doing in order to accomplish that?
    Mr. Johnson. In private business, one of the benefits of 
listening to your customer is today they are demanding that you 
be environmentally sensitive and the same thing is applicable 
to our business. Our customers, who number 21 million Texas 
citizens plus a number of visitors to the State, are demanding 
the same thing and we are being extremely cautious in terms of 
our handling of sensitive environmental issues.
    Sometimes our ability to handle those issues gets 
handcuffed to time delays and when project delivery is 
something that so keenly important in any project, one of the 
analyses I give is that the human race has been incredible in 
reproducing things. We reproduce body parts, we have cloned 
animals, we reproduce capital as business men and women but we 
have not learned to reproduce time and we probably never will. 
So when we are delayed in project delivery, it means that 
people are going to probably be stuck in traffic more than they 
would like to be and at times, it is something they can never 
get back.
    Using that as sort of a framework to get projects delivered 
more quickly and in environmentally sensitive areas, the 
ability to do that is something we need whereby we can one, do 
projects, the environmental issues and the other fermenting 
issues, do them concurrently when we know there is a project of 
high priority instead of linearly when one is finished then you 
start the next approval process.
    Second, we would want the ability to utilize our judgment 
as to what is environmentally sound. Here again, we are guided 
by the dictates of our customers as to what is environmentally 
sound and are extremely sensitive. I would say the other 49 
Departments of Transportation think likewise.
    What we have encountered is not so much overrestrictive but 
the difficulty in getting these decisions made and consequently 
what has happened is projects have been delayed, the starts 
have been delayed and thus completion has been delayed.
    Senator Cornyn. I might just interject here. Chairman 
Inhofe unfortunately had to remind me to mind my manners and 
introduce my wife who is here with us today. Sandy Cornyn, my 
wife, is here with us today and I want to make sure on the 
subject of minding my manners that we expressly recognize the 
generosity of Dr. Julie Garcia, the President of the University 
of Texas at Brownsville for her hospitality. Thank you very 
much.
    Mr. Stockton, I have one question for you. In my short time 
in Washington we seem to hear some who say the answer to all 
our problems along the border is increased use of technology 
and others say, you can't make enough gadgets to solve all the 
problems, you have to have more people and human resources 
committed to deal with these challenges. Would you comment on 
that, please? I know you are active in use of intelligent 
transportation systems. What is your view about the need for 
increased warm bodies along the border as well?
    Mr. Stockton. It is possible that is a need, Senator. I 
think what is missing is a holistic view of how the system 
works. The system actually starts somewhere in interior Mexico 
with the loading of a shipment onto a truck and it ends with 
delivery of that shipment somewhere either in Texas or Oklahoma 
or somewhere else.
    Right now, what happens is each of the stakeholders, not 
just public agencies but private stakeholders as well, has 
their own sphere within which they optimize their function. The 
difficulty with that is there are so many of them that you end 
up with a very suboptimal overall system. So there is the 
potential there for certainly the application of technology. I 
think there is a great opportunity for consolidating 
information exchange which is really what we need for 
international security and we need it for effective trade, 
information exchange. If we can consolidate that across the 
entire spectrum of stakeholders, it may very well be that the 
needs for more people really can be supplanted with 
technologies and systems that accommodate this broader 
perspective.
    Senator Cornyn. I know it's a bit off the subject, but the 
other committee I'm proud to serve on with Senator Inhofe is 
the Senate Armed Services Committee. We have seen the use of 
technology in modern warfare such as we've never observed 
before in our lifetime in the conflict in Iraq in the use of 
unmanned aerial vehicles and some of the surveillance work that 
is necessary to provide for adequate border and homeland 
security as well. We are seeing the cross disciplinary uses and 
perhaps expanded use of technology in ways we never even 
imagined before.
    Thank you very much.
    Senator Inhofe. I thank the first panel, all of you for 
coming. I have to say, Secretary Frankel, you came the furthest 
and we appreciate it very much. We will dismiss you at this 
time but I hope you will stay around because afterwards, we 
will have a little news conference.
    I'd like to invite the next panel to come up: Mayor 
Trevino, Mayor de la Garza, Mayor Franz, and Judge Hinojosa.
    While they are coming forward, let me just expand a bit on 
something Senator Cornyn said and that is when I became 
chairman of this committee, I decided to try to do something 
that has never been tried before and that is to make the 
decisions of the regulators, such as the EPA, to be based on 
sound science. That sounds very logical to everyone here in 
Texas and Oklahoma but it's not logical in Washington. In fact, 
it's outrageous. Nonetheless, we are doing it. In fact, the 
longest speech I ever made on the floor of the Senate was 3 
weeks ago on this whole thing on global warming. You almost 
have to come to the conclusion, speaking scientifically, that 
it's a hoax perpetrated on the American people. We are going to 
try to make sure the decisions that are going to be made are 
going to be based on sound science.
    I would like to ask if you would confine your opening 
statements to 5 minutes. Mayor Trevino, we will start with you. 
I would make one comment, however, I mentioned to the three 
mayors earlier that I quite often remind my fellow Senators 
that the mayors are where it really is and the toughest job in 
the world is being mayor of a city. I know that because I was 
mayor for four terms of Tulsa, Oklahoma.
    Mayor Trevino, would you start off?

   STATEMENT OF EDDIE TREVINO, JR., MAYOR, BROWNSVILLE, TEXAS

    Mayor Trevino. Good morning, Chairman Inhofe and Senator 
Cornyn and distinguished guests.. On behalf of the city of 
Brownsville and its citizens, I want to welcome you to a 
wonderful city and wish to convey our deep appreciation for 
your taking the time to visit us and allowing me the 
opportunity to testify before you today. I would also ask that 
the prepared statement be made a part of the record.
    Senator Inhofe. Without objection.
    Mayor Trevino. Mr. Chairman, Senator Cornyn, through our 
partnerships with TxDOT, the FHWA, and others, the city of 
Brownsville and Cameron County have been able to accomplish 
some great things in recent years. In May 1999, the Veteran's 
International Bridge at Los Tomates opened for business. This 
facility has exceeded its projected traffic and toll revenues 
and is a wonderful example of joint government enterprise.
    Unlike many parts of the United States, South Texas has a 
very young population base. In Brownsville, nearly 50 percent 
of our population according to the last census of approximately 
150,000 is under the age of 24. Even with our developing 
economy, we are having a difficult time finding enough job 
opportunities for our young people. In spite of that, 
Brownsville led Texas in job creation during the second 
quarter. Also,
    In spite of being one of the poorest regions in the entire 
country, we are experiencing rapid growth in our MPO area. For 
example, traffic volumes are increasing between 5 percent to 6 
percent each year on many of our roadways. Volumes will double 
in an 18-20 year period. Congestion problems will become 
intolerable if we don't move ahead on making improvements.
    It would be easy to ask for your help for the completion of 
any one of 10-12 new projects that I submitted in my written 
testimony that we sorely need in Brownsville. Each project is 
being designed to address critical infrastructure needs in our 
community. Some of these projects will help alleviate severe 
congestion problems. I'd like to mention few of those that you 
will hear about if not today in the near future: our East and 
West Loops here in Brownsville; the establishment of the U.S. 
281 connector which would connect Farm Road 511 to U.S. 281 and 
also connecting of U.S. 281 project at the Far International 
Bridge, the west rail relocation and the Brownsville Port 
Bridge.
    However, I want to take this opportunity to ask for some 
assistance on another important matter. TxDOT, with Federal 
assistance and help from the city of Brownsville, has completed 
improvements on U.S. 77 that meet interstate standards. 
Everyone here would acknowledge that U.S. 77 is a designated 
leg of the future I-69 corridor. We are currently not receiving 
interstate maintenance moneys for U.S. 77 as the Federal law 
does not allow for such expenditures until U.S. 77 connects to 
an existing interstate.
    The city of Brownsville previously purchased the land that 
was used for the Expressway extension to the border with 
Mexico. Now we are asking the Federal Government to help with 
this issue. However, the situation represents a very 
unfortunate oversight. We believe the language of the current 
Federal statute needs to be amended. Under the current 
language, our expressway has to be fully improved for 100 miles 
northward to connect to the Interstate System at I-37 near 
Robstown, Texas. At that time, the Secretary of Transportation 
could designate U.S. 77 as part of I-69. That is why we need 
your help to try to change this provision of the law.
    One of the purposes of the interstate is to handle the 
NAFTA traffic. As we all know, we have been doing that for the 
last dozen years, especially here in Brownsville.
    Our suggestion would be that Federal language could be 
amended in a way such as follows. If a highway segment meets 
all interstate design standards, and said highway connects to a 
U.S. deep-water port or to a U.S. Port of Entry, then the 
Secretary could be able to designate that highway as part of 
the interstate system. We would like you to consider this 
particular; amendment in essence not penalizing us for our 
location on the border. The port of entry both in Brownsville 
and at the Port of Brownsville represents a huge Federal and 
local investment aside from the highway. It is my humble 
opinion that Brownsville should be treated as a gateway to 
Mexico, Latin America and Asia. Please help us change the 
statutory language on these matters. This aspect of I-69 
certainly deserves Federal recognition and support as 
Brownsville is the only major seaport in the U.S. without an 
interstate connection.
    The increase in container traffic the port and the city 
have experienced over the last few years will not incur a 
downturn in the coming years. Although we realize that F.M. 511 
does not meet current interstate design standards, when; it 
does, we would like for it to be considered a part of I-69.
    I want to thank you for your attention and the invitation 
to testify before you today. We appreciate your time spent with 
us here today.
    Thank you once again for the opportunity.
    Senator Inhofe. Thank you, Mayor.
    Mayor de la Garza?

    STATEMENT OF CONNIE DE LA GARZA, MAYOR, HARLINGEN, TEXAS

    Mayor de la Garza. Thank you, Mr. Chairman and Senator 
Cornyn. Thank you for asking us to be here. We are certainly 
proud to be before you and I want to welcome you to the Magic 
Rio Grande Valley of South Texas, the Tropical Paradise of the 
United States of America. My name is C. Connie de la Garza, 
Mayor of the city of Harlingen, the third largest city in South 
Texas and the center of the Rio Grande Valley. I am serving my 
second three (3) year term as Mayor and have been involved in 
civic issues in the area for over 20 years. I ask that my 
testimony be made a part of the record.
    Senator Inhofe. Without objection.
    Mayor de la Garza. The purpose of this hearing, to examine 
transportation investment along the Southern Texas Border, 
building upon the Transportation Equity Act for the 21st 
century, is certainly timely. To my knowledge we have never had 
a Senate hearing on transportation in South Texas. I commend 
you for being here to listen to our needs and desires.
    The average citizen of Texas and the United States of 
America does not realize that approximately 1 million people 
live within a 35 to 40 mile radius of Harlingen between South 
Padre Island, Brownsville, McAllen, Rio Grande City, Roma and 
Raymondville, and that is the population north of the Rio 
Grande River International Border. A greater number that use 
our transportation infrastructure live south of the River.
    The latest U. S. Census figures reveal that two of the top 
five fastest growing Metropolitan Statistical Areas in the 
Nation are here in the Rio Grande Valley of South Texas-
Harlingen, Brownsville, San Benito and McAllen, Mission and 
Edinburg. A third one, Laredo's MSA, is just up the Rio Grande 
River from us. Thus, three of the top five (5) fastest growing 
MSAs in the Unites States are in the southern border of Texas.
    Our No. 1 concern is the fact that the Rio Grande Valley of 
South Texas is the only area in the U.S. with over one million 
citizens that does not have access to an interstate highway. 
The nearest interstate is I-37 from Corpus Christi, Texas to 
San Antonio. Long range plans have U.S. Highway 77 and 281 
being converted to Interstate 69 and that is good, but I just 
pray it is completed before my 3-year old granddaughter is old 
enough to drive. The point I am making is the legislation that 
created I-69 stated construction would start on the Rio Grande 
River and go North. We have yet to see anything happen other 
than the signs being placed that state ``Future Corridor I-
69''.
    Gentlemen, the future is now. Federal funds for a few 
overpasses on U. S. 77 between here and Corpus Christi, Texas 
and on U. S. 281 between Edinburg and Pleasanton would 
certainly give us Interstate access. This can be done as just 
stated by simply amending TEA-21 to allow Federal maintenance 
funds to be used on port entry highways and deep water port of 
entry highways providing they meet interstate standards. This 
is very important because since NAFTA, our commercial truck, as 
statistics show, has increased tremendously. All traffic has 
but the important thing is that the rest of the Nation and the 
world have discovered our business climate in the Rio Grande 
Valley and Northern Mexico is an excellent profitable climate. 
We have created many new jobs in industries in South Texas and 
northern Mexico. Adequate and efficient transportation would 
only enhance our job growth.
    Mexico is one of our leading trade partners. In the past, 
highway infrastructure for south Texas and the border was often 
overlooked We have received more Federal and State money in the 
last 5 years than we had in the last 20-30 years. For that, we 
thank you, but we are behind the lack of funding in the past 
and because of our tremendous population growth in the last 10 
years which has averaged between 25 and 30 percent and is 
predicted to go up in the future.
    What we need to not only on highways but also on railroads. 
We are in the process of partnership with Cameron County of 
relocating the railroads out of major cities and all towns in 
Cameron County. We have also teamed up with Cameron County and 
together we are looking for money to locate the railroads out 
of our major cities. We must receive the necessary Federal help 
for the Cameron County railroad relocation plan in order to 
benefit all our citizens.
    In closing, I would like to stress that Texas is a donor 
State, as Commissioner Johnson Stated, where we only get back 
88 cents for every dollar we send in, 49th out of 50 States. We 
demand equity. I was happy to hear earlier in the hearing that 
what we are asking for, 95 cents, is what you are recommending. 
We are thankful for that.
    I would like to commend the representatives of TXDOT that 
are present for doing a fantastic job with the limited 
resources they have, but with Federal money, we can do better 
and the local money would come with it.
    I do thank you and your staff for having this hearing in 
south Texas. I trust you will leave the area with necessary 
information to make the right decisions. We commend each of you 
for an excellent job and we thank you. God bless you.
    Senator Inhofe. Thank you, Mayor de la Garza.
    Just to clarify, we will be taking up in our committee this 
reauthorization probably the second week after getting back. It 
was our intent to go straight to the floor and we are still 
going to try to do that. However, it may be October before we 
get that done. In our mark up, we will I am 99 percent sure be 
able to get it in there with the 95 percent which I know means 
a lot.
    Mayor Franz?

   STATEMENT OF JOHN D. FRANZ, MAYOR, CITY OF HIDALGO, TEXAS

    Mayor Franz. Senator, welcome to the Valley. Both of you, 
it is great to have you here.
    I'm the Mayor Hidalgo, Texas, a community on the Texas-
Mexico border. We are one of many front doors to the United 
States along the great border of Texas and Mexico.
    I am in my fifth term as mayor.
    Senator Inhofe. How long are those terms?
    Mayor Franz. They start at 2 years and we turned them into 
4 year terms so we could get some work done but it's been 14 
years now.
    Senator Inhofe. You're not that old.
    Mayor Franz. I've aged well. I've got a great wife.
    Senator Hidalgo has 11 million crossings to and from 
Mexico. We are located in Hidalgo County, alongside the port of 
entry with over 700,000 annual commercial crossings. This area, 
as you heard from the other two mayors, my good friends and 
colleagues, has exploded in terms of population and commerce 
and there are significant needs here.
    I am going to repeat what you have just heard. I-69 is a 
priority. The legislation is in place, the need is recognized 
but something needs to be done. I can't stress enough you won't 
find another area in the United States of America that has the 
population that we have in the Rio Grande Valley that does not 
have an interstate highway.
    Mayor de la Garza said the future is now. It should have 
been here 20 years ago and we just have to place our trust in 
fine Senators like yourselves to take that message to 
Washington. This needs to be addressed, it is critical the 
reason being our proximity to Mexico. Our local economy, the 
Texas economy, is very dependent on Mexico. Mexico is our ally, 
is our friend. I said earlier, we at Hidalgo are a front door 
as is Brownsville, to our great country. We need to make these 
folks feel welcome and we need to ensure that the goods and the 
people coming from Mexico, the law abiding citizens, the law 
abiding businesses, can get their goods and their people into 
our country without any hassle and without any trouble. One of 
those components is highway infrastructure which is sadly 
lacking.
    We applaud the efforts of TXDOT. They have done wonders to 
bring funds to south Texas which were not seen before but that 
is still not enough. A prosperous border is going to lead to a 
prosperous State and a more prosperous country. It makes sense 
for everyone.
    One of the challenges we face is homeland security versus 
commerce and people coming in. While we respect what Washington 
is doing to secure our borders, we also recognize that you can 
overreact. Gentlemen, we've met the enemy and the enemy is not 
Mexico. So let's keep that in mind when we set up rules for the 
safety of our country. We will be the first to stand up for 
security but we need a more sensible approach, one that does 
not turn foreigners away, law abiding foreigners, foreigners 
who can bring tremendous benefit to our country.
    I know you are familiar with South Padre Island, the lower 
Rio Grande Valley, Chairman Inhofe, and you know how dependent 
it is on Mexico and commerce and trade. We need to look and 
review these restrictions that Immigration has in place and 
Customs with regard to trade and people and evaluate them in 
terms of the economic impact, at the same time recognizing 
security.
    On the environmental issue as well, Hidalgo is partnering 
with Mission and McAllen for the creation of Ansel Lewis Bridge 
Crossing. This is an environmental hearing of sorts. One of the 
things I noticed in dealing with Washington and over 40 
agencies and trying to obtain a Presidential permit is there 
are so many requirements, they conflict with each other, they 
overlap and we really need to evaluate that, whether it is 
building a highway, constructing a bridge, an international 
crossing, we need to carefully evaluate that.
    We are all for protecting the environment but you have to 
balance that with good common sense and what is required to 
provide us with the highway infrastructure that we need to 
serve the trade community.
    You have heard the testimony of the prior mayors. It is all 
going to be pretty consistent. We feel we have been overlooked 
for decades. We appreciate your being here. I have full 
confidence and faith that this is going to be the beginning of 
greatness for south Texas and it will be because of the help of 
yourself as Chairman and Senator Cornyn.
    If there is anything we can do here in the Valley or the 
city of Hidalgo to help you further this message, we are at 
your disposal.
    Thank you.
    Senator Inhofe. Thank you, Mayor Franz, an excellent 
statement.
    Judge

  STATEMENT OF HON. GILBERTO HINOJOSA, JUDGE, CAMERON COUNTY, 
                             TEXAS

    Judge Hinojosa. Thank you, Senator Inhofe and Senator 
Cornyn for being here today.
    Senator Inhofe, I would just like you to know for the 
record that 25 miles from where we're located, it is illegal to 
wear a tie on South Padre Island, so you appropriately dressed 
for a nice visit over there later on.
    Senator Cornyn and I served together in the State of Texas 
many years ago as State district judges and probably neither 
one of us thought we would be here today talking about the 
infrastructure needs of south Texas and the great State of 
Texas but we are here. We are very much appreciative that you 
came to talk to us today about these most important issues that 
face our great State and community of south Texas.
    Over the last decade, Texas has passed New York to become 
the second most populous State in the United States. Rising 
birth rates and the influx of millions of new residents have 
caused our State's population to swell to more than 21 million 
persons. During that same period Cameron County has seen its 
population grow by 29 percent, from 260,000 to 335,000. We are 
the eleventh largest county in the State of Texas out of 254 
and if you count the ones in between, you know we are big 
relative to the rest of the State. It is easy to see the 
demands that growth has placed upon our infrastructure and the 
explosion of sustainable economic development in our 
communities.
    Although Cameron County is one of the few communities in 
the United States to have four modes of transportation of 
trade: seaports--three of them, airports--two of them, rail and 
international bridges as well as highways, Cameron County does 
not have direct access to an Interstate Highway, but I'll 
address that in greater detail later but I know you have heard 
about that from every single speaker you hear from today.
    With the rapid development of NAFTA, our system has been 
overburdened due to an increased utilization of all modes of 
transportation. Like many border counties, Cameron County 
suffers an extra penalty from rapid growth because it is caught 
between two worlds. While sweeping economic changes and swift 
urbanization pull our region toward the future, the existing 
infrastructure is unable to keep pace. Compounded by dwindling 
availability of State funds, our local community is left to 
solve the problems created by increases in traffic and the 
subsequent congestion.
    I want to discuss with you today is the reauthorization of 
TEA-21, now called The Safe, Accountable, Flexible, and 
Efficient Transportation Equity Act or SAFETEA. It is critical 
that SAFETEA addresses our existing and future needs, since 
this will be the only vehicle for new transportation projects 
over the next 6 years.
    There are several issues that I would like to point out 
regarding SAFETEA and its construction. First, new language 
must be included that will provide funding for the maintenance 
of highways that meet interstate standards and connect 
international ports of entry and seaports. This will allow us 
to access vital funding and spur development that is not 
currently available through TEA-21.
    Second, a narrower scope needs to be defined for 
international trade corridors. The Borders and Corridors 
Transportation Funding program was established to help border 
communities, and communities along international trade 
corridors, handle the increased traffic they faced from growing 
NAFTA trade. Unfortunately, the funding was heavily earmarked 
causing fewer dollars to be available for them and true 
international trade corridors. The resulting funds were 
diverted to the interior of the country and other non-trade 
international corridors. Shockingly only 14 percent of this 
funding ever made it to border communities.
    We need your help to stop these diversions and redirect the 
money to its intended destination, the border areas. Border 
communities and international trade corridors play an important 
role in the overall national transportation system and they 
warrant their own programs and separate funding streams. 
Significant increases in funding levels, or even the percentage 
of funds available, for borders should be dedicated to 
communities that move the goods from border ports of entry to 
the national highway system. These funds could even go so far 
as to help with the implementation of the new and creative 
measures aimed at increasing security of our homeland.
    You've heard everyone talk about the fact that we have a 
million people and 1.5 million south of the border adjacent to 
us, 2.5 million people within a 50 mile radius of Harlingen and 
Westlaco, yet we don't have access to an interstate system. It 
is critical for the development of not just this community but 
for the whole State of Texas that we start working toward that 
goal and that we dedicate additional funding for the I-69 for 
the State of Texas as well as south Texas.
    I don't want to get into that too much because you are 
going to hear it over and over but that is probably our No. 1 
priority when it comes to infrastructure programs.
    The final issue I would like to address is the 
consolidation of our railroads here in Cameron County. Cameron 
County has developed a plan that includes relocating existing 
rail lines and virtually bypasses the cities of Brownsville, 
Harlingen and San Benito, eliminating problems of congestion, 
safety and all the problems that go along with that. We would 
like to ensure that you support funding programs like S. 1329 
which was introduced by Senator Lott that will dedicate and 
provide money for railroad relocation programs similar to 
Cameron County's.
    I want to end with this. We are willing to do our part. I 
think Commissioner Johnson talked about the regional mobility 
authority. We raise local moneys to provide a matching amount 
of money to fund some of these infrastructure projects, 
including the creation of an interstate highway here in Cameron 
County and the rest of the Rio Grande Valley. We are in the 
process of putting together a regional mobility authority. That 
will set up a vehicle to obtain local moneys through tolls 
charged at the different infrastructure projects we intend to 
help fund through those programs because we know it is a two-
way street. We are coming to you and asking for help, we are 
coming to the State asking for help and we are willing to do 
our part as well.
    Thank you very much and by the way, I know you mentioned 
something earlier Senator Inhofe about how we can work together 
with private enterprise like our railroads to try to put 
together infrastructure projects that will benefit not only the 
local community but the private enterprise. I can tell you 
whenever you get a chance how we are doing it here in Cameron 
County and ensuring we get moneys from the railroads, moneys 
from the cities, moneys from the Federal Government and the 
State and the county to put together a project to relocate 
these railroads out of our communities, yet allow them to 
continue to remain to provide transportation and access between 
our country and Mexico in a much needed way.
    Senator Inhofe. Thank you, Judge Hinojosa. I appreciate 
your comments and the fine work you are doing.
    To all of you, I would say--and you mentioned this Mayor 
Franz--that the problems you have in this mirage of all the 
different agencies and the proliferation of all these different 
requirements we have, having been a mayor for four terms, I 
understand that, along with unfunded mandates. We are going to 
try to actually do something about that and run things 
differently than they have been run before.
    You talked about a lot of specific projects. As you know, 
that is going to be more up to you guys here in the State of 
Texas and that is the way it should be. What Senator Cornyn and 
I have to do on behalf of the committee is to understand the 
overall State of Texas and the problems you have that are 
unique to Texas, and they are unique. This is where it all 
begins, right here in the Valley and that's why we are having 
the hearing here.
    There are some things we intend to do in the separation of 
the borders and the corridors but they will be dramatically 
increased in terms of their funding. As I mentioned, the 37 
percent increase if the bill stays as it is today would put you 
as only second in the Nation in terms of the increases that I 
think are justifiable. That along with the donor status and 
other things you've mentioned, we will be your friends on that.
    Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    Every time I hear you say 37 percent increase, I just want 
to savor that for a little while because we have a lot of work 
to do to achieve that objective.
    Senator Inhofe. Let me make sure everyone understands that 
this is where we are working today, we are working on formulas 
and we are prepared to go in right now with the mark-up and 
that's the area in which I believe we will end up.
    Senator Cornyn. Thank you for that.
    For my friends and the members of this panel, I just want 
to make one observation and one request. Then I will basically 
be through. My observation is that having been involved in 
State government since about 1990, it seems like we've seen a 
change in attitude with regard to the Valley and funding for 
necessary services in the Valley, and an encouraging increase 
in the level of responsibility State officials have taken 
toward the needs, whether health care, transportation or the 
like, in south Texas including the Rio Grande Valley.
    For that I think a lot of credit is due to former Governor, 
now President Bush, Governor Rick Perry, the leadership of 
Johnny Johnson and the members of TXDOT and the members of the 
Texas Senate and the Texas House of Representatives. They have 
worked hard I think to finally accept that this is not just a 
local responsibility, it is a State responsibility.
    Having said that, I wish I could keep such glowing praise 
on the leadership in Washington, DC. for taking responsibility 
for conditions along an international border. That is why I 
think this is such a positive development that we are actually 
having this hearing today because Chairman Inhofe is willing to 
use his leadership position to help advance the cause of this 
international region and not just leave it up to the border 
States and not just leave it up to local governments which I 
think Mayor Trevino observed are historically some of the most 
underserved regions of our State and present some of the 
greatest challenges.
    That is my observation. My request is this. I think your 
requests have been pretty cohesive and very similar in some 
respects but obviously there is going to be some competition 
and some rivalry in the Valley for different projects, whether 
they be if the Texas Department of Transportation in Austin or 
in the nature of congressional earmarks and that sort of thing 
but I would just encourage you to do what I think you are 
already doing but I would encourage you to do it even more and 
that is work together and try to come up with a plan that 
represents the considered best interest of all of your 
constituents here in the Valley. As a unified effort, I always 
think we have a better chance of getting something done when we 
compete against each other and when it becomes a win-lose as 
opposed to a win-win, that creates problems for all of us. I'm 
just telling you what you already know but I would encourage 
you and make that request that you continue to work together in 
the best interest of our constituents here in south Texas and I 
think we will be able to accomplish something great.
    Thank you, Mr. Chairman.
    Senator Inhofe. Thank you, Senator Cornyn.
    With that, we will dismiss this panel and thank you very 
much for being here today.
    We will ask our next panel to come forth: Mr. Sam Vale, Mr. 
Pat Townsend and Mr. Bill Summers.
    First of all, we want to try to adhere to our timing. If 
you would identify who you are representing so that we will 
better understand that, we will start with you, Mr. Vale.

STATEMENT OF SAM VALE, PRESIDENT, STARR-CAMARGO BRIDGE COMPANY 
             ON BEHALF OF THE BORDER TRADE ALLIANCE

    Mr. Vale. My name is Sam Vale and I'm here testifying on 
behalf of the Border Trade Alliance, as chair of the Strategic 
Planning Committee.
    In my real life, my company owns and operates an 
international bridge port of entry as well as I am the CEO of 
the local Telemundo Spanish language television affiliate.
    We also have submitted written testimony and would ask that 
become a part of the record.
    Senator Inhofe. Without objection.
    Mr. Vale. The organization I am speaking on behalf of was 
founded in 1986 basically on the basis of complaints Senator 
Graham gave to us that he was tired of hearing the same 
comments from Brownsville, McAllen, Laredo and El Paso and we 
weren't working together. Much along the lines you recommended 
we work regionally, he said the whole State needed to be 
working together.
    We thought we could take that a bit further and we have 
this wonderful idea of trying to get together all along the 
border and said, why don't we get the people from New Mexico, 
Arizona and California together. They have to have some of the 
same problems and we thought we really had something good 
going. I'm going to paraphrase something my father used to say, 
``Son, that's a darned good idea but it's just not worth 
fertilizing.'' Everyone said, why? I'm using the Senate as an 
example, if everybody agreed, if Senator Cornyn and Diane 
Feinstein agreed, and everybody voted together, you'd only have 
eight guys. That and maybe a five dollar bill will get you a 
cup of coffee in Washington, DC.
    So we went a little further and decided to look along the 
northern border and we found 16 States up there with 32 
Senators. We said what if some of those guys would work with 
some of the guys on the southern border. We got a bigger group 
but still didn't get them all. We still don't have what you'd 
need to pass anything.
    It wasn't until we got to the point of looking at trade 
corridors when we were able to add the icing to the cake and 
that is when you look at the five major ones, the I-5 in 
California, the Cana-Mex, the Port DePlaines, the I-69 and the 
I-35 corridors, all of a sudden you have a potential majority. 
That's been the founding principle behind what this 
organization tries to do, so we speak in much broader strokes 
than just a region. We talk about it as trade power. That is 
the basis on which I am testifying here.
    We were very supportive of the Homeland Security 
Department's creation. In fact we met with then Governor Ridge 
in October right after 9/11. We have had over 11 meetings with 
him since that time.
    We all heard the testimony and you know very well the 
Borders and Corridors money was created in 1998 as a symbol 
because it really wasn't money to do anything. Let's talk like 
it really is, $140 million with two borders and corridors you 
couldn't build an overpass. The idea was symbolic but it was a 
great symbol. For the first time we had something that we 
called Borders and Corridors.
    Then what happens is we broke it down to where we had some 
people calling themselves corridors and others calling 
themselves borders. The results you have heard, 86 percent of 
the money went to corridors which were not involved in the 
border area, 14 percent nationwide went to border areas. We 
feel something has to be done in that area.
    You've already addressed the issue of earmarking. What 
happens with the earmarking is that the stronger communities 
win the votes because you've got more people. That's part of 
life in Washington but we would encourage it to be something 
like it was originally proposed, a competitive process.
    We also feel that it should be a different type of 
allocation now. My organization says 50 percent of the money 
ought to go to corridors and 50 percent to borders. Personally, 
I think all of it ought to go to borders and corridors. I think 
you ought to have a corridor for the border defined as 
something within 50 miles of a port of entry and you give it 
more buoyancy if it serves more ports of entry.
    For example, both U.S. 77 and 281 can serve up to four and 
a half each ports of entry if those people are given funding to 
do that, get those connections in there. Use the other part, 
the borders money for connecting to the ports and getting in 
and out of those. They are not going to be interstates, those 
are going to be local streets or State highways. That would 
alleviate a national issue because as the man from the 
Institute pointed out, the money goes from south to north.
    Finally, we would like to say that there are some things we 
need to do. You have MPOs, those MPOs have money but we don't 
connect the dots between the MPOs. We don't have the small 
communities between those big urban areas planning and working 
along with the big communities. Funding ought to be on the 
basis of need. We have twice the population on the Mexico side, 
Laredo crosses most of the traffic. They get 1 percent of the 
population. How does that work? How does that add up?
    Finally, we will point out that we think the whole concept 
of homeland security is important. The regulatory process we go 
through to establish it needs to be economically sound. We are 
very supportive of that, are very willing and are working very 
closely with Secretary Ridge's staff now to try and develop 
position papers that will be beneficial to that.
    We look forward to answering questions.
    Senator Inhofe. Thank you, Mr. Vale.
    Mr. Townsend?

  STATEMENT OF PAT TOWNSEND, PRESIDENT/CEO, MISSION ECONOMIC 
                     DEVELOPMENT AUTHORITY

    Mr. Townsend. Chairman Inhofe and Senator Cornyn, we 
appreciate your visit here today and accepting our testimony 
and our views.
    My name is Pat Townsend. I am the President of the Mission 
Economic Development Authority, an organization created by the 
city of Mission and charged with continuing to foster growth as 
part of the MSA which has been in the Nation's top five 
according to the U.S. Census Bureau over the last 5 years and 
really in the top five for the past 10 years.
    One of the activities we are engaged in in this MSA that 
impacts transportation needs is Sharyland Plantation being 
developed by Hunt Valley Development, a 6,000 acre master plan 
community with residential, retail, multi-family and more 
importantly for our discussion today, a 900 acre business park 
much of that in a foreign trade zone status.
    Several companies, such as Symbol Technologies, Black & 
Decker and T-Mobile, already have begun operations at the 
business park. All these companies have connections to Mexico 
which you have heard today how important their ties are to the 
United States from a matter of trade. These companies and this 
business park play an increasing role in that increased trade 
activity.
    Some of these businesses are involved in expediting 
products being shipped from other States into Mexico and others 
take products, assemble them in a finished product and ship 
them back into our country. As an example, Whirlpool is one of 
six companies in the McAllen/Reynosa area choosing a campus 
environment to create 40-60 acres in size with end products 
resulting in as many as 100 trailers outbound from each campus, 
and nearly as many inbounds. Some of Whirlpool's sub-assemblies 
are northbound through the heart of Texas to Tulsa, your 
hometown, Mr. Chairman, where Oklahomans turn them in to 
finished products for consumers all over the country.
    In spite of trends elsewhere in Mexico, we expect even more 
companies to join Whirlpool, Corning Cable and Maytag that 
express confidence in Reynosa because Reynosa is the only city 
in all of Mexico not to show a loss in jobs in the maquiladora 
industry. So, our continued growth is linked to the economic 
growth of other areas in Mexico, Texas and in many parts of the 
U.S.
    Another important link in the Valley that will impact trade 
and our highway system is the proposed Anzalduas Bridge. Mayor 
Franz touched on it. The city of Hidalgo, and the cities of 
McAllen and Mission are partners in this effort along with 
TXDOT and Federal agencies and more importantly with our 
partners in Mexico and the city of Reynosa.
    This new bridge will have a direct impact on the Sharyland 
Plantation by providing another connection to their growing 
business park and more importantly, to a landowner, Grupo Rio 
San Juan, owner and developer of approximately 16,000 acres of 
land containing the Mexican port of entry and a master planned 
community containing a large and growing industrial park, 
Parque Villa Florida, complimenting that of the Sharyland 
Business Park. Their business park has a tenant, Black and 
Decker, whose presence in our area has already encouraged 
suppliers to locate on both sides of the border.
    The Anzalduas Bridge is important we believe because of its 
proximity to U.S. Expressway 83 and future I-69. Ultimately 
there is a 12 mile separation between the Autopista tollway 
linking Reynosa to Monterrey, Nuevo Leon. Monterrey is the 
industrial capital of Mexico, with over 4 million inhabitants 
only 120 miles away. Our existing bridges strain to handle the 
current volumes of traffic, especially trucks and we believe 
Anzalduas will serve to expedite moving trade back and forth. 
As you know, trucks waiting at the border mean higher costs and 
lost profits for the companies involved.
    As you heard today, our interstate service is extremely 
important for the valley. We are the single largest populated 
area as many have already said. We think it is vitally 
important that we get this link.
    One of the things we'd like to point out to you is that in 
the Valley we are already handling levels of truck traffic 
comparable to other areas having interstate service with over 
10,500 trucks on interior segments of U.S. 281 on any given 
day, that is comparable to I-10 in Harris County and I-45 in 
the Dallas area.
    You've already heard our group express its support for TEA-
21 and its reauthorization and we stand here to assist in 
designating highways that will connect U.S. deepwater ports and 
U.S. points of entry to the interstate system.
    You've also heard about railway realignments and additional 
east/west corridors. U.S. Expressway 83 is being expanded but 
in spite of being expanded is at near capacity with the 
tremendous growth you've seen in population and trade.
    Mayor Franz touched on the importance of streamlining 
environmental processes and coordination among the many 
agencies and Federal Government needed for these vital projects 
to occur. We are working to work with you in any way to help 
streamline that with our additional ideas.
    We have also expressed concern about our daily activities 
involving homeland security measures and immigration policies. 
We have talked to Senator Cornyn about that and we hope that we 
will be included in future policy discussions as it results in 
transportation issues because of that implementation.
    We cannot stress enough how important it is that you be 
cognizant of the historical, cultural and family connections on 
both sides of the Rio Grande as you deliberate these issues.
    We also thank Commissioner Johnson for his work here today 
and work he has provided through his agency. We are ready to 
help educate our region regarding Proposition 14 and how 
vitally important it is.
    Again, I thank you for being here and working on behalf of 
our community.
    Senator Inhofe. Thank you, Mr. Townsend.
    Mr. Summers?

  STATEMENT OF WILLIAM SUMMERS, PRESIDENT, RIO GRANDE VALLEY 
                PARTNERSHIP/CHAMBER OF COMMERCE

    Mr. Summers. Thank you for being here in the beautiful Rio 
Grande Valley.
    My name is Bill Summers, President and CEO of the Rio 
Grande Valley Partnership, the only regional chamber of 
commerce in the State of Texas.
    Senator Cornyn, you did an outstanding job as attorney 
general of the State of Texas. I'm so proud to be a friend of 
yours and we appreciate you. You made a commitment when you had 
your campaign to help the Rio Grande Valley and you're keeping 
your word. We really appreciate it.
    I had some prepared remarks but you have heard them all, 
but I do want to talk to you a minute. I do want to introduce 
you to a couple of people because they sign my paycheck. That 
is our Chairman-elect from Harlingen, Oscar Garza from Bradley 
who owns the plants. Without the plants, maybe we wouldn't need 
bridges but it is very important to us. The jobs they provide 
over there, several hundred thousand, would not be here, they 
would be in the Far East somewhere. People like Oscar Garza 
have faith in the Rio Grande Valley and our border.
    Johnny Johnson, the chairman of the Highway Commission, is 
a great guy and it is good to see you again. Tell them one of 
these days about that airplane ride you had down here.
    Senator Cornyn mentioned he would like for us to work 
together. We have been since 1990. You have in our testimony 
our map and our new mobility plan for the Rio Grande Valley for 
the year 2003 to 2030. This is the third plan we've put 
together starting in 1990 when the Highway Commission came to 
the Rio Grande Valley and said, you guys have to start working 
together. All the gentlemen here, the mayors, the judge, came 
together for the third time. We just completed this and made a 
presentation last month or a couple of months ago to the 
Highway Commission.
    They put in their time, their effort, their cities' money 
and we came up with this plan. We worked with the MPOs, we 
worked with Mario who is our district engineer, a great guy and 
put together the plan. It is something we can all be proud of, 
something we feel the Highway Commission accepted and will work 
with us, as much money as they have.
    When Senator Hutchison added our two highways, 281 and 77, 
introduced the bill to be part of Corridor 18 which is I-69, it 
was a great moment to see the little bitty boy from down in the 
Rio Grande Valley hear this U.S. Senator say we want this to be 
part of this Corridor 18. The people in Washington are being 
good to us, Senator. I know you think a lot of the valley and 
Senator Cornyn. We appreciate your having taken the time.
    I'd also like to introduce Paul Cowan, the chief of 
staffer. Senator Lucio is in New Mexico looking at highways.
    Senator Inhofe. But not in Lawton, Oklahoma.
    [Laughter.]
    Mr. Summers. I was so proud of our mayors and in fact, Sam 
Vale was the President of the Valley Partnership when they 
hired me and he's never regretted it, I don't think.
    Working with these people all the time, Senator, they are 
great people and our State officials with the highway 
department are great. We appreciate your coming to the Valley 
and have a safe trip back.
    Senator Inhofe. Thank you, Mr. Summers. One thing I have 
observed and can take back with me is the idea you are working 
together. You guys are even talking to each other. That's one 
of the problem you have that you started out with Mr. Vale. You 
were very articulate in that and how to put together these 
coalitions. I was glad you didn't use the duo of Senator Cornyn 
and Senator Boxer but as you get around the country, don't 
forget Oklahoma because we are a very integral part of that. As 
you go through these corridors, remember the map that was up 
here because it's very important that we are kind of all in 
this together.
    Mr. Vale. I love Oklahoma except 1 day a year.
    Senator Inhofe. I appreciate very much the time you are 
spending with each other working on these things and I can 
assure you we will try to be of some help to you.
    Senator Cornyn?
    Senator Cornyn. Thank you, Mr. Chairman.
    I want to thank each of the panel members for your 
contribution. As Mr. Townsend mentioned, I had a good meeting 
beginning yesterday on some of these infrastructure issues. 
This has come up a number of times tangentially but I want to 
acknowledge how transportation infrastructure issues cannot be 
considered in isolation from other issues that are so important 
to the Valley, whether they be immigration issues, homeland 
security, border security issues, obviously our continuing war 
on drugs and other security matters. So it's sort of a complex 
set of issues.
    The fundamental issue is if we don't have the 
infrastructure in place, then none of the other good things the 
Valley is benefiting from, the free flow of people whether it's 
tourists who want to come to south Texas and vacation or people 
who want to spend their money here, or transportation from 
Mexico up to Texas through Oklahoma and up to Denver and the 
ports to planes corridor and the creation hopefully of an 
Interstate Highway 69 system that will provide that link for 
the Valley to the rest of the country.
    I want to say thank you for your contribution, for your 
willingness to labor so long and hard for relatively little and 
the contributions you make to this wonderful community. I've 
come away very encouraged but you also have my commitment that 
I will continue to do everything I can do. I know Senator 
Inhofe shares that commitment to try to make sure that Texas is 
treated fairly and that any oversight that may have occurred in 
the past is corrected as we go forward.
    I just have to say one thing. Mr. Vale, you said you need 
to get a certain critical mass of Senators. Well, I would say 
even more important than that is to have the Chairman of the 
Environment and Public Works Committee in south Texas today.
    With that, I just want to express my gratitude again to 
Chairman Inhofe for his willingness to be here and his 
commitment to making sure Texas gets a fair shake when it comes 
to reauthorization of TEA-21 and addressing so many of these 
critical issues as we go forth.
    Thank you very much.
    Senator Inhofe. I would just add to that I've spent quite a 
bit of time seeing Don out here at the Port of Brownsville. A 
lot of people aren't aware that my hometown of Tulsa I believe 
is the most inland port. I actually see the barges that come in 
down here from Tulsa, Oklahoma. So we have this tendency to say 
this is a problem of south Texas but this is a problem in 
California and we are all in this together.
    It's been very helpful also for our staff. Our committee 
staff is down here. It's a lot different when you read a report 
and when you can reach out and touch something and see it, and 
see the cooperation that you folks have working with each 
other. I can assure you that you are well represented in 
Washington and certainly well represented on the committee I am 
honored to chair.
    With that, we will adjourn the meeting and look forward to 
visiting personally with you folks.
    Thank you very much.
    [Whereupon, at 12:08 p.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
      Statement of Hon. Emil H. Frankel, Assistant Secretary for 
          Transportation Policy, Department of Transportation
    Chairman Inhofe and Senator Cornyn, thank you for the opportunity 
to appear before you today to discuss border transportation.
    There is no better place to hold such a hearing than in the State 
of Texas, and there are not many issues more important in 
transportation than those associated with the movement of goods and 
people across our vast land borders in the South and North.
    President Bush knows well the transportation needs for the State of 
Texas, including the myriad of issues that border traffic creates. His 
leadership both as President and as former Governor of Texas has 
focused on the value of a strong transportation system. Secretary 
Mineta has also been a leader on border issues throughout much of his 
remarkable career in transportation.
    With Mexico recently surpassing Japan as America's second largest 
trading partner, Canada and Mexico now stand as the biggest and second 
biggest trading partners for the United States. Together, they 
represent almost 35 percent of total U.S. imports and exports.
    While Canada is the United States No. 1 trading partner, the U.S.-
Mexico trading relationship has experienced recent dramatic growth. 
When the North American Free Trade Agreement was implemented in 1994, 
exports to Mexico constituted less than 10 percent of total U.S. 
exports. In less than 10 years, exports to Mexico have soared over 70 
percent and now represent more than 14 percent percent of total 
exports. Total U.S. trade with Mexico increased 186 percent in the 
first 8 years following NAFTA implementation.
    The two major trade agreements from the 1990's, NAFTA and the 
Uruguay Round, are producing between $1,200 and $2,000 in annual 
benefits to the average American family. And one out of every 12 
American jobs depends on trade. In 1973, international trade in goods 
and services represented just 13.2 percent of total U.S. Gross Domestic 
Product. Today, that number stands at 23.5 percent.
    Nowhere has this growth been felt more strongly than in Texas, 
Mexico's largest trading partner. Texas ports, bridges and airports 
handle over 70 percent of all U.S. exports to Mexico. Texas ports 
handle 85 percent of total Southern Border train crossings and 87 
percent of rail containers. In 1994, there were less than three million 
truck-crossings at the U.S.-Mexico border. By the year 2000, the number 
was approaching four and a half million. Much of this traffic is 
handled by just four locations in Texas: Laredo, El Paso, Hidalgo and 
Brownsville. As President Bush's vision for a Free Trade of the 
Americas comes closer to reality, the Mexico-U.S. trade relationship, 
and consequently, the state of the Mexico-U.S. border, will grow even 
more crucial to the economic well-being of both countries.
    Given these recent trends, the timing is ripe to address border 
transportation issues in the context of the reauthorization of the 
Transportation Equity Act for the 21st Century. The Bush 
Administration's recently released reauthorization proposal entitled 
the Safe, Accountable, Flexible and Efficient Transportation Equity Act 
of 2003 (SAFETEA) offers several proposals to improve the flow of 
people and commerce across the Mexican and Canadian borders.
    Most importantly, SAFETEA would replace the current National 
Corridor Planning & Development Program and the Coordinated Border 
Infrastructure Program (NCPD/CBI) with two separately funded programs 
both administered by the Federal Highway Administration (FHWA). TEA-21 
funded NCPD/CBI out of a single source. A history and detailed 
discussion of the trends over the life of the program under TEA-21 was 
just recently placed on the FHWA website at: http://www.fhwa.dot.gov/
hep10/corbor/ncorbor.htm.
    The underlying concept of TEA-21's NCPB/CBI was simple, yet 
insightful: recognize the trend toward a north/south orientation of 
trade flows under NAFTA and designate resources to remove bottlenecks 
and facilitate the trade. While visionary, the program did not live up 
to its potential under TEA-21. Specifically, important border projects 
too often were unable to obtain funding under TEA-21. In 2003, only 5 
percent of the combined NCPD/CBI went to border-related activities. 
Only two Texas border projects received program awards in fiscal year 
2001 and 2003 and one in fiscal year 2002. Moreover, every award under 
NCPD/CBI was congressionally designated in fiscal year 2002 and fiscal 
year 2003. As a result, the Secretary has been stripped of his ability 
to implement any coherent strategy to improve border transportation 
operations.
    SAFETEA proposes to increase the focus on land borders through the 
establishment of a new Border Planning, Operations, and Technology 
program (Border Program). The purpose of this proposed program is to 
improve bi-national transportation planning, operations, efficiency, 
information exchange, safety, and security for the U.S. borders with 
Mexico and Canada. SAFETEA would authorize $496.5 million over the life 
of the bill for the Border Program. In fiscal year 2004, $47 million of 
these funds would be used for construction of State border truck safety 
enforcement facilities in Arizona, California, New Mexico, and Texas, 
fulfilling a 3-year commitment for this purpose and helping to prepare 
the way for eventual safe implementation of NAFTA's commercial truck 
and bus access provisions.
    Eligibility under the Border Program would be restricted to States 
and MPOs at or near the borders of Canada and Mexico. The proposal 
envisions a wide range of eligible border activities such as 
improvements to safety inspection and port of entry facilities; 
enhanced technology and information exchange; planning and 
environmental studies; technology facilities improvement 
implementation; and right-of-way acquisition, design, and construction 
related to safety and technology improvements.
    The Secretary would retain discretion to allocate funds under the 
SAFETEA proposal given certain selection criteria. Those criteria 
include the benefits of the project relative to its costs, the 
prospects for early completion of the study or project, strong support 
from bi-national organizations, the existence and significance of 
signed and binding multi-jurisdictional agreements, contributions from 
other sources over and above the minimum required, and the extent to 
which the project benefits are multi-modal. The Federal share payable 
on account of any project carried out under this proposal is capped at 
80 percent of the total costs of such project.
    SAFETEA also includes a new Multi-State Corridor Planning program. 
This program would emphasize multi-State planning efforts. The proposed 
program would provide an opportunity for States and regional agencies 
to plan jointly for a variety of geographic areas, in addition to 
tradition metropolitan or statewide areas. The principal objective 
would be to address the gap created by formula programs, which do not 
provide specific funds for multi-State, multi-modal, and multi-
jurisdictional decisionmaking on corridors. SAFETEA would authorize 
$496.5 million for the program over the life of the bill.
    Although the aims of the NCPD/CBI program have not been fully 
realized over the life of TEA-21 due to the practice of congressional 
designation, the program receives a high level of interest from States 
and MPO's and has made significant contributions to our national 
transportation system. From shortening the time spent crossing the U.S. 
borders with Canada and Mexico to improving roads in high-traffic trade 
corridors, projects funded by the NCPD/CBI program contribute to 
economic growth and more efficient travel across the country. The NCPD/
CBI program also encourages multi-State project efforts.
    The success of the NCPD/CBI program may be seen in projects such as 
the World Trade Bridge in Laredo, Texas. Few cities have been forced to 
address the transportation implications of growth in U.S.-Mexican trade 
more than Laredo. Approximately 35 percent of all incoming trucks and 
nearly half of all incoming trains to Texas pass through Laredo. With 
the downtown Laredo Juarez-Lincoln Bridge stretched to capacity, 
Mexico, the State of Texas, the city of Laredo, and the city of Nuevo 
Laredo began planning in the late 1980's for a new bridge outside the 
central business district that would carry commercial traffic. By 1993, 
the bridge project and various other improvements to highways, ramps 
and other facilities that would serve the crossing were placed on the 
Texas multi-year transportation improvement program.
    In 1995, a comprehensive funding agreement was reached. With 
traffic backups on the existing bridge reaching four miles on many 
occasions in the late 1990's, timing was of the essence. The total cost 
of the new bridge and related improvements was approximately $100 
million. The State of Texas provided about 35 percent of the total cost 
including short and long-term State Infrastructure Bank (SIB) loans 
made available by the State and Federal Government. Federal aid 
amounted to another 65 percent comprised of formula funding and a $6 
million discretionary grant from the NCPD/CBI during fiscal year 1999. 
The city of Laredo and other local government sources together provided 
the right of way (ROW) property and easements necessary for the 
construction of the project. The city of Laredo also participated with 
short and long-term SIB loans. Although the bulk of financing came from 
other Federal and State sources, the $6 million NCPD/CBI contribution 
was an important boost to the project.
    The new bridge opened on April 15, 2000. Crossings typically now 
take about 5 minutes between the time the vehicle leaves the Interstate 
main lane and the time the vehicle crosses into Mexico. Local traffic 
moves much more efficiently and traffic safety in the area has 
improved. Many new businesses have located along the highway and Laredo 
experienced substantial job growth in fiscal year 2001, due in part to 
the business opportunities created by the new bridge.
    Some construction projects currently in progress that have 
benefited from NCPD/CBI funds include the FAST (Freight Action 
Strategies) corridor in Washington State and the Bridge of the Americas 
and the Paso del Norte Bridge between El Paso, Texas and Ciudad Juarez. 
The FAST project will replace a number of highway/rail grade crossings 
with grade separations will improve safety, relieve congestion, and 
improve operation of the water ports and rail lines. In El Paso, a 
modest expenditure (about $3 million for each bridge) will improve 
physical inspection capacity on each bridge by as much as 40 percent.
    While the proposed Border Program is the most specific border 
program contained in SAFETEA, it is not the only proposal that can 
improve the efficiency of our borders. SAFETEA eliminates most 
discretionary highway grant programs and makes these funds available 
under the core formula highway grant programs, thus giving States and 
localities tremendous flexibility and certainty of funding under core 
Federal-aid highway programs. States like Texas have used these core 
program funds in the past to address border transportation issues, and 
SAFETEA proposes to increase the percentage of Federal transportation 
assistance that is funneled through these flexible programs. Because of 
its significance to the Nation, however, one of the only new 
discretionary programs proposed in SAFETEA is the Border Program.
    As the successes of ISTEA and TEA-21 have shown, State and local 
decisionmakers have the greatest capability to address State and local 
transportation problems. The success of the World Trade Bridge project 
in Laredo hinged on sustained involvement and leadership from the city 
of Laredo and the State of Texas, as well as FHWA. SAFETEA continues 
this principle and expands upon it. The Federal Government can 
facilitate and enable State and local transportation decisionmakers, 
while bringing multiple States and localities to the table in 
addressing regional and national issues.
    SAFETEA also establishes a new performance pilot program under 
which States, including States with significant border activities, can 
manage the bulk of their core formula highway program funds on a 
performance basis, cutting across the programmatic lines by which the 
Federal-aid highway program is normally structured. Under the pilot 
program, States would work with the Department to develop and meet 
specific performance measures that reflect both State and national 
interests.
    We all know that it takes a long time to take a transportation 
project from concept to completion, and this Administration is 
committed to streamlining this process. Border projects in particular 
can be extremely complex and difficult to complete. Projects that were 
cutting edge while in the concept stage too often end up turning into 
``catch-up'' projects after years of delay.
    The Department has made great strides in addressing those delays 
related to environmental review, including better coordination during 
the environmental review process, and other improvements that have 
resulted from implementing the President's Executive Order on 
Environmental Stewardship that was issued last fall. However, certain 
legislative changes are necessary. In the environmental review area, 
SAFETEA provides a menu of solutions, all of which should help reduce 
the time it takes for a sponsor to deliver a transportation project. 
These include:

    <bullet>  Strengthening the provisions of current law that 
establish timeframes for resource agencies to conduct environmental 
reviews and make decisions on permits;
    <bullet>  Improving the linkage between the transportation planning 
and project development processes;
    <bullet>  Simplifying the processing of Categorical Exclusion 
approvals;
    <bullet>  Clarifying the legal standard under ``section 4(f)'' 
applicable to determinations as to whether a possible project 
alternative is feasible and prudent;
    <bullet>  Resolving the current overlap between Section 106 of the 
National Historic Preservation Act and ``section 4(f)'';
    <bullet>  Establishing an exemption for the Interstate Highway 
System as an historic resource, unless the Secretary deems an 
individual element worthy of protection under the National Historic 
Preservation Act.
    <bullet>  Providing for timely resolution of outstanding legal 
disputes by establishing a 6-month statute of limitations for appeals 
on the adequacy of projects' environmental impact statements and other 
environmental documents; and
    <bullet>  Expanding the ability of States to provide Federal-aid 
highway funds to resources agencies to expedite the environmental 
review process.

    Improving the movement of freight and goods is a top priority of 
SAFETEA. Recent estimates indicate that Import/Export Freight Tonnage 
could double by 2020 and Domestic Freight Tonnage could increase by 
about 70 percent over that same period. As stated above, international 
trade now comprises over 25 percent of U.S. GDP and is expected to rise 
to one-third in less than 20 years.
    In Brownsville, the sixth biggest border crossing on the US-Mexican 
border in value of shipments, over $10 billion in trade moves between 
the two NAFTA partners each year. Most of this trade is moved in the 
250,000 and 300,000 truck crossings and over 600 train crossings per 
year.
    Today's intermodal freight network is not equipped to handle the 
growing volume of intermodal freight, especially container freight. The 
resulting congestion degrades the reliability and performance of 
carriers, shippers, and terminal operators-a serious problem for 
businesses. Predictable travel times are vital in an economy where 
just-in-time delivery and tightly scheduled production and distribution 
processes are the norm. Through the implementation of sophisticated 
logistics policies to manage massive numbers of containers, an 
inventory management revolution is currently taking place that we must 
be very careful to protect and promote. To support and complement this 
revolution in inventory management and global trade, good governance 
demands investment at our borders to reduce existing inefficiencies and 
costly bottlenecks.
    The goal of linking production decisions to the shifting pace of 
consumer demand that seemed elusive just 20 years ago is suddenly very 
attainable. With it comes the even more elusive hope of smoothing out 
business cycles. The ability to actually move freight quickly across 
various modes of the transportation system, however, is the linchpin of 
this revolution. The benefits attributable to dramatically lower 
inventory costs and increased liquidity for businesses that do not need 
to spend capital on unused inventory can be severely compromised by 
inefficient border operations.
    Although carriers and shippers are by and large private entities, 
their financial health is inextricably linked to the health of public 
transportation infrastructure. As a result, cooperation between the 
private sector and government must be improved through an increase in 
public-private partnerships. The United States, with the most vibrant 
and dynamic private sector in the world, is unique in its lack of 
private sector involvement in transportation infrastructure. In 
addition to improving the overall condition of the Nation's surface 
transportation network, SAFETEA specifically targets the capacity and 
efficiency of the Nation's freight system by:

    <bullet>  Establishing a National Highway System (NHS) set-aside to 
fund highway connections between the NHS and intermodal freight 
facilities, such as ports and freight terminals;
    <bullet>  Expanding Surface Transportation Program (STP) 
eligibility to include freight connector projects;
    <bullet>  Continuing the Transportation Infrastructure Finance and 
Innovation Act of 1998 (TIFIA) and allowing rail freight projects to 
qualify for TIFIA credit assistance;
    <bullet>  Lowering the TIFIA program's project threshold from $100 
million to $50 million; and
    <bullet>  Expanding the availability of tax-exempt private activity 
bonds to include highway projects and freight transfer facilities.

    While virtually every other industry in the world has gone through 
a technological revolution, the implementation of technology in the 
management of transportation infrastructure could be greatly increased. 
SAFETEA continues to foster the research, development, and 
implementation of Intelligent Transportation Systems technologies but 
places a much greater emphasis on using these technologies to improve 
the performance and operation of transportation systems and motor 
vehicles in a way that directly benefits transportation customers. 
Because operational efficiencies are so integral to border activity, 
improving technology applications can substantially speed the flow of 
people and goods through major international gateways.
    The technology proposals contained in SAFETEA buildup technology 
implementation activities already underway at the Department. In 
coordination with our partners in State and local governments and the 
private sector, the Department has initiated several operational tests 
on the use of electronic manifests, electronic seals, and asset cargo 
tracking.
    First, the Air Cargo Electronic Supply Chain Manifest System of 
biometric ``smart cards'' will confirm the identity of truck drivers 
and will provide cargo movement and access information to reduce the 
time spent on processing manifests, verifying loads, and validating 
truck driver identities. Second, the Electronic Seal project affixed 
electronic seals to containers to track cargo from its point of origin 
to its point of destination, using a radio frequency that emits a 
signal as it passes reader devices, displaying information about 
container tampering, thus assuring security and expediting movement 
across the border. Finally, the Asset Cargo Tracking project was 
designed to improve visibility and productivity via the monitoring of 
transport assets and cargo during movement between freight terminals 
and customers and to provide asset and cargo information in a standard 
format to a variety of users. This prototype electronic tracking system 
collects data on cargo location, status, and time-stamped information 
via sensors affixed to transport assets. The tracking system reduced 
costs through improved efficiencies in chassis and container 
utilization and enhanced recognition of potential security and routing 
issues.
    Beyond technology tests, the Department is working with other 
Federal agencies and our partners in Mexico to assess border crossing 
improvements. Developed cooperatively with the General Services 
Administration, Bureau of Customs and Border Protection, and other 
Federal inspection services, the BorderWizard, a border Port of Entry 
simulation model, identifies infrastructure and operational needs 
internal to the Port of Entry. States are able to use Border Wizard to 
help with their border investment decisions.
    Because good data is central to any efficient border crossing 
system, the Department is working with other Federal agencies to 
establish the International Trade Data System (ITDS). This project will 
modernize, for the first time in decades, the information flows that 
accompany trade movements. The ITDS will work with the Automated 
Commercial Environment, or ACE, to improve both the collection and 
sorting of trade data to expedite trade across our borders and to 
enhance our targeting of high risk cargoes.
    The new system will help overcome information stovepipes and 
enhance border security by providing interagency information sharing, 
and real-time, cross-government access to more accurate information. 
Shipment information will be analyzed prior to arrival, allowing 
advanced inter-agency assessment of risks and threats. Results will 
determine if, upon arrival, a shipment is to be examined or cleared for 
release.
    Technology can also be particularly effective in the implementation 
of innovative demand management strategies. SAFETEA provides more 
resources to expand capacity at our nation's borders, but also provides 
new tools to States and localities to manage existing capacity more 
rationally. Our proposal would allow States to establish user charges 
on Federal-aid highways, including the Interstate System, to improve 
these facilities. It would also allow States to permit Single Occupancy 
Vehicles (SOVs) on HOV lanes, so long as time-of-day variable charges 
are assessed on SOVs for such access.
    There are other ways that U.S. DOT is currently working to directly 
improve border transportation. FHWA co-chairs the U.S.-Mexico Joint 
Working Committee (JWC) with the Mexican Secretariat of Transportation 
(SCT). The JWC was established in 1994 by a Memorandum of Understanding 
(MOU) signed by the U.S. and Mexico. The purpose of the JWC is to 
coordinate bi-nationally the various planning processes for border 
transportation activities. In addition to FHWA and SCT, its members 
include representatives from the U.S. State Department, the Mexican 
Secretariat of Foreign Relations, the four U.S. border State 
Departments of Transportation, and the six Mexican border States. The 
General Service Administration and the Department of Homeland Security 
also participate in the meetings. The JWC meets twice a year, most 
recently on July 10 and 11, 2003. It will celebrate its 10th 
anniversary next August.
    In 1994, the JWC initiated a bi-national transportation planning 
study to establish the framework for bi-national planning and 
coordination. This $2.5 million study identified many opportunities for 
improving planning and operations at the border ports of entry. The 
study included an inventory of transportation infrastructure; a 
description of commercial vehicle trade flow process, a description of 
U.S. and Mexican transportation planning processes, an analysis of the 
economic impacts of U.S.-Mexico trade, an evaluation of U.S. and 
Mexican border area capabilities to forecast trade, and port of entry 
case studies.
    A key product of the bi-national study is a data bank containing 
information on trade and traffic flows, socioeconomic data, traffic 
flows at the ports of entry, and existing and planned border 
infrastructure improvements. The JWC is committed to updating and 
maintaining this data bank.
    The JWC activities are guided by 2-year action plans negotiated by 
the group. The 2001 to 2003 work plan included a Border Infrastructure 
Needs Assessment study, geographic information systems platform 
development, and the Analysis of Coordination Systems for Operation of 
Border Ports of Entry study. The Texas Department of Transportation led 
the Analysis of Coordination Systems for Operation of Border Ports of 
Entry study. The current work plan (2003-2005) includes an Innovative 
Financing study, the Analysis of Coordination Systems for Operation of 
Border Ports of Entry pilot project (spearheaded by the Texas State 
Department of Transportation in El Paso), a Transportation 
Infrastructure and Traffic Management Analysis of Cross Border 
Bottlenecks study, and further development of geographic information 
systems, including a training program. The JWC also plans to convene 
the first ever U.S.-Mexico Safety Conscious Planning Forum during 2004.
    The JWC also helps to promote effective coordination and 
communications. It has resulted in the formation of many new 
professional relationships within the U.S. and with Mexico. An example 
of one of these new partnerships is the Border Technology Exchange 
Program (BTEP). BTEP was developed and implemented in conjunction with 
the work done by the JWC. Funded by FHWA, with additional funding 
provided by Mexico and southern border States in the U.S., the mission 
of BTEP is to improve the safety, efficiency, and security of the 
trans-border movement of people and goods. BTE is used as a support for 
JWC work plan activities, providing training and dissemination of work 
plan products, currently for the geographic information systems 
training.
    The five objectives of BTEP are to create a permanent technology 
exchange process; to increase institutional, technical, and legal 
compatibility and understanding; to improve transportation systems in 
the border region; to enhance professional and cultural understanding; 
and to strengthen professional and technical capabilities. This program 
resulted in the creation of two technology transfer centers in Mexico 
and four more are planned in the remaining Mexican border States in the 
next few months. BTEP also has provided several training opportunities 
as well. For example, it is estimated that over 1,500 Mexican 
engineers, lab technicians and other transportation stake holders have 
participated in the Texas program alone.
    Although primary transportation security functions no longer rest 
with our Department, we intend to maintain an important partnership 
with the Transportation Security Administration (TSA) and other 
relevant agencies at the Department of Homeland Security (DHS). Both of 
our massive land borders present daunting transportation, commercial, 
and security challenges. None can be solved independently of the other. 
Successfully incorporating security improvements into a commercial 
framework will test the abilities of the Federal Government and the 
States in ways that they have not been tested previously.
    The early results are quite promising. For example, the Container 
Working Group (CWG), made up of elements of DHS, the Office of the 
Secretary of Transportation and a large number of private sector 
participants, is focusing on addressing key components of the process 
through which a container is packed, secured, loaded and transported to 
the U.S. The CWG's aim is to ensure integrity of the shipment at all 
points of the international transportation chain. Another example is 
the Border Station Partnership Council (BSPC) headed by Bureau of 
Customs and Border Protection at DHS. The BSPC is a group of Federal 
inspection services that plans for internal infrastructure decisions 
for land Ports of Entry. The BSCP includes a representative from the 
Federal Highway Administration and is working to collaborate with the 
State Departments of Transportation.
    TSA and the Federal Railroad Administration (FRA) have been working 
closely to develop transportation security guidelines for the rail 
sector along the principles of the threat based and risk management 
approaches used in other security areas. Guidelines will be developed 
using critical rail infrastructure risk assessments and input from 
industry. Working with the FRA, DHS has agreed to a process for 
targeting, screening, and examining rail shipments transported into the 
U.S. from Canada the two largest cross-border rail carriers has been 
agreed to with the Canadian Customs and Revenue Agency.
    Pending the opening of the Southern border to Mexico-domiciled 
commercial vehicles, the Federal Motor Carrier Safety Administration 
(FMCSA) has border inspectors and auditors conducting inspections and 
safety audits on commercial zone carriers. Border safety investigators 
are assisting other FMCSA staff in conducting compliance reviews to 
maintain their skills and conducting compliance reviews on commercial 
zone carriers. Eighty-four FTEs will be redeployed to border crossing 
locations to conduct truck inspections.
    This group is comprised of 46 auditors, 30 safety investigators, 
and 8 inspectors and will perform the following duties: Vehicle 
inspections of CMVs (including those transporting HAZMAT), motor 
coaches, Camionetas, and southbound CMV traffic; ensure compliance with 
Out of Service (OOS) trucks towed from the compound and oversee traffic 
control in the compound; train less-experienced inspectors; review 
defects discovered during inspections; conduct registration and CDL 
checks using Personal Digital Assistants (PDAs); participate in strike 
force activity at various border patrol check points and State Ports of 
Entry to check for unauthorized long-haul transportation by Mexican 
carriers; continue outreach and education efforts.
    The high level of cooperation and support between our Department 
and DHS extends throughout the operating administrations. The 
relationship will continue to grow and change in the coming years, and 
the intersection of transportation activity and security demands that 
it will always be a close one.
    As the economies of the U.S., Canada and Mexico become more 
interdependent, the demands on the immense land borders between us will 
continue to grow. Transportation issues are at the heart of these 
demands. This Administration and our Department are working to ensure 
that U.S. border operations promote economic growth and improve 
security.
    Thank you, again, for giving me the opportunity to testify.
                               __________
    Statement of John W. Johnson, Texas Department of Transportation
                              introduction
    I am John W. Johnson, Commissioner of Transportation and chairman 
of the three-member Texas Transportation Commission that oversees the 
Texas Department of Transportation (TxDOT). I appreciate the 
opportunity to brief the committee on the importance of the Texas 
transportation system to the Nation and our recommendations for the 
reauthorization of Federal surface transportation programs now before 
the Congress.
    The Texas Department of Transportation oversees the largest State 
highway agency-owned road system in the country, with 79,000 centerline 
miles and 187,000 lane miles. Texas has more interstate highway system 
miles (3,234) than any other State. Texas has 13,435 miles (8.2 
percent) of the designated 165,000-mile National Highway System. Texas 
is home to more highway bridges than any other State in the Nation, 
with 48,085 bridges in the statewide inventory, 10,555 of which are 
classified as deficient, and 2,138 of those deficient bridges are on 
the National Highway System. Statewide, Texans and visitors to Texas 
logged more than 218 billion vehicle miles of travel in 2000 on the 
301,000-mile statewide roadway system (State and local roads). Texas 
has the largest rural population in the nation--that's 6,687,000 rural 
residents according to the 2000 census. Our urban population 
(14,049,000 by 2000 census counts) is the third largest in the United 
States.
    According to a recent report of the Texas Governor's Business 
Council, the central issue for road conditions in Texas today is 
highway congestion. This study's goal is addressing highway congestion 
in the State. Urban traffic conditions have deteriorated substantially 
in urban areas, where two-thirds of Texans live, as traffic volumes 
have far outpaced roadway capacity improvements. Now, travel demand 
exceeds roadway capacity for several hours of a typical day in the 
larger urban areas. The size of the road system must increase to 
respond to dramatic population and business growth. Quality of service 
must improve to meet the needs of an increasingly affluent society with 
high values of time for both people and goods and to assure a vigorous 
business climate and quality of life.
    Texas' population will increase from 20.8 million in 2000 to 29.6 
million in 2025. Ninety percent of the growth, or almost 8 million more 
people, will live in Texas' metropolitan areas. Traffic congestion is 
getting worse. From 1990 to 2000, Texas' population grew 23 percent, 
the number of vehicles increased 23 percent, the number of workers grew 
by 23 percent, and vehicle miles traveled increased by 41 percent.
    However, the number of lane-miles increased by only 3 percent. From 
1990 to 2000 traffic congestion has cost Texas 2.6 billion hours of 
delay (costing $40 billion) and 4.5 billion gallons of wasted fuel 
(costing $5.6 billion), bringing the total cost of delay to $45.6 
billion. During this same period TxDOT spent only $37.4 billion on 
maintenance and new construction. If the current highway construction 
and maintenance spending trend continues, Texas will spend only $140 
billion over the next 25 years. The report suggests that at least 
another $78 billion in highway investments are needed in Texas over the 
next 25 years to appropriately address the State's highway congestion. 
The results of such an increased investment could cut delays by 20 
billion hours, save 31 billion gallons of fuel, provide 120,000 
additional permanent jobs, reduce emissions by 775,000 tons of 
hydrocarbon pollutants, improve safety, and provide other benefits 
totaling $511 billion.
    U.S.-Mexico trade also continues to grow strongly. The Texas ports 
of entry handle nearly 80 percent of the surface trade across our 
borders, with over 85 percent of it being moved by truck. The border 
bridges at Texas ports recorded over 5.7 million truck movements in 
1999. More than half of these had U.S. origins or destinations outside 
Texas. Trucks engaged in North American Free Trade Agreement (NAFTA)-
related commerce comprise a significant portion of the truck traffic in 
Texas; based on modeled volumes, NAFTA truck traffic comprised 16.5 
percent of all truck traffic on Texas highways.
    NAFTA trade is hampered by choke points at the border. Texas 
infrastructure problems are only one of the factors in determining 
these choke points and in most cases not the principal factor; other 
contributing factors include border clearance through numerous, often 
uncoordinated, State and Federal agencies, paperwork, staffing issues, 
and institutional and cultural issues. For example, border 
infrastructure is often located in congested downtown areas, 
complicating commercial traffic flows and aggravating the challenge of 
traffic congestion. Additionally, location in a fully developed area 
limits the possibilities for needed expansion.
    TxDOT alone cannot solve all of the border trade transportation 
problems, but we will continue to monitor the problems, identify 
potential strategies, and recommend solutions for addressing them. 
TxDOT has placed a great emphasis on infrastructure development along 
the Texas-Mexico border. TxDOT will continue to monitor the development 
and implementation of NAFTA, study its impact on our system, and plan 
and schedule appropriate improvements to meet the needs of 
international trade.
    The department has made significant commitments to improving the 
border region's transportation system. From 1998 to 1993, the border 
received 5.6 percent of State transportation dollars and from 1994 to 
2000 that share grew to 9.8 percent. For 2001 to 2004, we plan to spend 
12.2 percent of State transportation dollars along the border. Beyond 
the immediate future, TxDOT has plans in place to direct more than $1.8 
billion to the border region over the next 10 years.
    In coordination with the Texas Department of Public Safety, we are 
planning eight motor carrier safety inspection stations along the 
border. Estimated cost of the stations is $115 million. TxDOT and our 
university research partners have developed a model border crossing 
prototype that will combine State and Federal agencies at one location 
to improve the flow of truck traffic through these key entry points.
    The entire country, not just Texas, benefits from NAFTA. Texas 
should not be forced to fund the full financial burden of needed 
infrastructure improvements to handle the international trade 
agreement.
    Texans paid $2.6 billion in Federal motor fuels taxes into the 
Highway Trust Fund in fiscal year 2002. However, Texas' fiscal year 
2002 obligation limitation was set at only $1.73 billion. Our State has 
received a rate of return of only about 88 cents on the dollar on our 
motor fuels tax payments through the Federalaid highway program 
distributions under TEA 21 (1998-2003).
    Our citizens are not just looking to the Federal program to handle 
our transportation needs; State fuels tax revenues in 2000 totaled more 
than $6 billion. However, one quarter of these State revenues are 
directed to the State's public school fund and are not available for 
transportation purposes. Our most recent annual highway construction 
letting volume exceeded $5 billion. And yet, our identified 
transportation needs exceed our available funds by a two to one ratio.
                    texas reauthorization priorities
    Texas has a lot at stake in the work now on the congressional 
agenda. While it is a time of tight budgets at both the national and 
State levels, Texas needs to be able to do more with the resources we 
have to meet the tremendous transportation demands of our growing and 
diverse State.
    In every reauthorization effort, TxDOT's objectives remain the 
same:

    <bullet>  To protect and enhance the Federal investment in 
transportation infrastructure;
    <bullet>  To capture for Texas the largest possible share of 
Federal transportation dollars; and
    <bullet>  To give State and local governments the broadest possible 
discretion over the Federal transportation dollars we do bring home to 
Texas.

    As my colleague on the commission, Ric Williamson, indicated in his 
testimony to this committee's September 25, 2002 joint hearing with the 
Committee on Finance, Texas is working hard to create the financing 
tools we need to make the most out of our available transportation 
dollars. At the State level, we are developing new opportunities to use 
bonding and other private sector financing options to leverage our 
public sector funds to address our transportation needs. At the same 
time, we are working closely with our State and local partners to 
improve the efficiency with which we deliver needed transportation 
improvements in both urban and rural situations. However, if we are to 
be able to take full advantage of these new areas of opportunity, we 
need Congress to untie our hands.
    During its 78th Session, the Texas Legislature passed, and Governor 
Rick Perry signed, HB 3588, landmark transportation legislation that 
redefines the way infrastructure is delivered in our State. HB 3588 
permanently establishes the Trans Texas Corridor as the next-generation 
transportation facility to move people across the State. As envisioned, 
this long-range response to the transportation needs of Texas will be a 
multi-use, statewide transportation corridor that will include toll 
roads, high-speed passenger and freight rail, regional freight and 
commuter rail, and underground transportation for water, petroleum, 
gas, and telecommunications. Designed to be a much faster and safer 
transportation of people and freight, the Trans Texas Corridor will 
include four multi-modal, high priority corridors approximately 1,200 
feet wide. Implementing this vision, one of the largest transportation 
projects in the State's history, is expected to take 50 years or more.
    HB 3588 also enhances the ability of local governments, acting 
through Regional Mobility Authorities, to deliver infrastructure much 
faster, and it offers new project delivery methods that will have 
travelers using new facilities much more quickly.
    Even before Texas begins to take full advantage of these new tools 
at the State level, we are already serving as model for the Nation in 
the use of the variety of transportation financing tools now available. 
The Central Texas Turnpike Project (CTTP) being developed as a State-
maintained toll facility includes four project elements--SH 130, SH 45 
North, Loop 1, and U.S. 183A. Currently, TxDOT is developing the first 
phase of the CTTP--the northern 49 miles of SH 130, SH 45 North, and 
Loop 1. These 65 miles of new toll roads in Central Texas will cost 
approximately $2.9 billion. This includes right of way acquisition, 
utility adjustments, design, and construction. With the addition of 
required reserve funds, interest, insurance and issuance costs, the 
total estimated costs are $3.6 billion. The four elements of the 
funding package include local contributions, State highway dollars, a 
$916.76 million Transportation Infrastructure Finance and Innovation 
Act (TIFIA) loan, and the sale of bonds, which will be paid for through 
the collection of tolls. (The TIFIA loan is the largest such loan in 
the history of the program.) By using this mixture of public and 
private project financing instead of traditional pay-as-you-go 
financing, we will be able to shave at least 20 years off the project 
delivery time and have Texans using these facilities by December 2007. 
The CTTP will bring congestion relief to I-35 and surrounding arterial 
roads in Travis and Williamson counties, as well as the Central Texas 
region. Providing more transportation options for commuters, 
businesses, and motorists will improve mobility and safety in the 
region.
    But Texas is not stopping with the CTTP in our efforts to deliver 
needed project faster. TxDOT is asking private companies to submit 
innovative strategies to build a high priority segment of the Trans 
Texas Corridor. TxDOT has requested competing proposals to develop the 
I-35 High Priority Trans Texas Corridor, extending from the Red River 
to the Mexican border.
    This high priority corridor would generally parallel I-35. Portions 
of the I-37 and I-69 high priority Trans Texas Corridors may be 
included as necessary for connectivity and financing. The notice asks 
teams to submit plans to acquire, develop, design, construct, finance, 
maintain, and operate a combination of rail, roadway, and utility 
facilities for this high priority corridor. In addition, each team must 
include a description of the group's qualifications, experience, and 
expertise. Proposals will be evaluated based on the team's experience 
in developing large, complex projects and the financial and technical 
feasibility of the proposal. If a successful proposal is selected from 
the short list, TxDOT intends to enter into a comprehensive development 
agreement for this project. An agreement will allow the selected 
proposer to acquire, design, build, and partially finance the project.
    Another key project for the future of Texas transportation is the 
ongoing development of Interstate 69 (I-69), which begins right here in 
Brownsville, extends to Texas' busiest port of entry at Laredo, and 
continues through Texas to Houston and Texarkana. Outside of Texas, the 
I-69 Corridor will provide a much needed mid-continent trade route 
connecting the United States' two largest trade partners--Mexico and 
Canada. Within Texas, I-69 will connect the Rio Grande Valley with the 
rest of the State with a controlled-access Interstate freeway facility 
and provide relief to Valley communities from the congestion of 
international trade traffic.
    However, the I-69 corridor will be the nation's corridor. The 
benefits from international trade flow to all parts of United States. 
The States benefiting from that trade must bear an appropriate share of 
the cost to Texas to provide the transportation infrastructure 
necessary to support that trade. It is estimated that the entire I-69 
corridor from Brownsville to Indiana will cost more than $15 billion to 
construct. Within Texas, we estimate that the construction cost will 
run close to $6 billion. If we are to build this vital international 
trade corridor quickly (i.e., over the next 6-10 years), we in Texas 
would need about $800 million per year.
    Of course, we cannot afford to sacrifice the transportation needs 
of the rest of Texas to build I-69. With current funding, we can only 
do about one out of every three projects that need doing. To make I-69 
a reality without sacrificing other transportation needs in Texas, 
funding for I-69 must be over and above what Texas would otherwise 
receive in Federal highway funds.
    The new financing and planning tools that we now have available 
within the State and the enhanced Federal tools we hope to see in the 
TEA 21 reauthorization at the Federal level will go a long way toward 
making our plans for the future of I-69 in Texas (and the other major 
transportation projects in the State) a reality sooner for the people 
of Texas. A few enhancements to Federal law will be necessary to fully 
realize the potential of HB 3588, I-69, and the Trans Texas Corridor, 
and the Senate Environment and Public Works Committee can help deliver 
those additional resources. In particular, our agenda calls for changes 
that will improve funding equity, enhance flexibility, and create 
innovative finance mechanisms to leverage available transportation 
funding.
    Strengthen the Federal Investment in Transportation. We need 
Congress to strongly affirm what we all know to be true--that increased 
investment in transportation is a sound and efficient way to stimulate 
the economy, create and sustain jobs, and improve the efficient 
movement of goods and services so vital to the business community and 
our quality of life. We need Congress to continue to grow the Federal 
transportation program investment and to strengthen the guarantees on 
those funds for the benefit of the Nation.
    Enhance Highway Funding Equity. Mr. Chairman, the reauthorization 
must include equity improvements in order for it to provide a better 
economic benefit to Texas and other donor States. Your State and mine 
(and many others across the nation) continue to pay more of our Federal 
gas tax into the Highway Trust Fund than we receive in Federal highway 
program funds. Even with improvements made in TEA-21, Texas only 
realizes about 88 cents on each dollar contributed. The next Federal 
act should guarantee all States at least a 95 percent rate of return on 
all funds distributed to the States through Federal highway programs. 
If a 95 percent Minimum Guarantee had been in place in TEA 21, Texas 
would have received nearly $1.2 billion more to invest in 
transportation since fiscal year 1998. The TEA 21 reauthorization 
legislation should alleviate this inequity by including the highway 
funding equity proposal embodied in S. 1090, introduced by Senators 
George Voinovich and Carl Levin and strongly supported by Texas 
Senators John Cornyn and Kay Bailey Hutchison and 19 other senators.
    Improve Project Delivery Mechanisms. Changes to current Federal 
policies and financing mechanisms could significantly improve our 
ability to quickly and efficiently address our growing Texas mobility 
needs.
    The recently adopted Federal Highway Administration regulations on 
Design-Build Contracting are hampering our progress and limiting the 
level of investment from our private partners. The Federal Highway 
Administration, through these regulations, has restricted States in 
ways we believe are directly contrary to provisions in TEA-21 allowing 
flexibility to agencies wishing to engage in innovative contracting. 
Our primary concerns relate to the detailed regulations requiring State 
and local agencies to adjust their existing procurement processes to 
conform to Federal practices, as well as a requirement that compliance 
with the National Environmental Policy Act process be completed before 
proceeding with an innovative contract.
    The procurement requirements may be inconsistent with an agency's 
existing authority under State or local law. These requirements would 
preclude a department of transportation from gaining the benefit of 
private sector innovation in planning its infrastructure projects and 
developing innovative procurement processes. I urge your support for a 
modification to this rule that would permit agencies to use procurement 
processes allowed under State law.
    The Reforming, Accelerating & Protecting Interstate Design (RAPID) 
Act (HR 2864) by Congressman Michael Burgess proposes the most 
important of these modifications. The RAPID Act also allows a donor 
State to use a thorough and efficient environmental process for a 
multi-modal transportation project like the Trans Texas Corridor.
    An important amendment to Federal environmental laws and 
regulations is also needed to expedite approval of high priority and 
emergency projects, including projects to improve the safety of 
roadways having higher than average traffic accident rates.
    Expand Options for Tolling the Existing Federal Aid Highway System. 
Because tax-funded roads have not kept pace with need, Governor Rick 
Perry has led Texas in efforts to expand our State's ability to use 
tolling to supplement existing funding. This tool was extended under HB 
3588, and a Federal proposal supporting the use of tolls to address 
issues of congestion, pollution, and safety has been introduced. I 
understand pending proposals (S 1384 and H.R. 1767) would grant States 
tolling authority for the expansion of Interstate highway routes, with 
the limitation that the tolls be eliminated after capital costs are 
recouped. Texas needs such authority; however, I would like to 
reinforce that discretion over its use should reside with the State, 
including the amount of time the tolls are in effect. Once again, the 
Burgess RAPID Act improves on this by providing States with this 
additional discretion.
    In the Bush Administration's ``Safe, Accountable, Flexible and 
Efficient Transportation Equity Act of 2003'' (SAFETEA) proposal, we 
are encouraged by the proposal to allow Interstates to be tolled to 
reduce congestion or emissions in non-attainment areas if they use 
variable pricing based on congestion or time of day. This goes beyond 
just high-occupancy toll (HOT) lanes to tolling the entire roadway and 
is not limited to SAFETEA's proposed three ``Interstate Tolling'' 
pilots.
    Continue the Availability and Expand the Reach of Transportation 
Project Financing Tools. Another vital tool is the ability to use tax-
exempt bonds or private activity bonds to finance highway and surface 
freight intermodal projects developed through public/private 
partnerships. I urge your support for private activity bond (PAB) 
provisions similar to those contained in the Bush Administration's 
SAFETEA reauthorization proposal. The proposal allows up to $15 billion 
in bonds to be exempt from Statewide caps on the issuance of certain 
other types of PABs. SAFETEA would include highway facilities and 
surface freight transfer facilities among those projects for which PABs 
may be issued.
    Your support for continuing financing tools under TEA-21--such as 
the Transportation Infrastructure Finance and Innovation Act (TIFIA), 
ensuring that Texas retains full use of its State Infrastructure Banks 
(SIBs), Grant Application Revenue Vehicle (GARVEE) bonding authority, 
and advanced construction and flexible match provisions--is critical. 
Congress should continue the availability of these tools and consider 
the creation of additional financial tools.
    In addition, existing tools like TIFIA, SIBs, and toll credits must 
be refined for Texas to make full use of them. For instance, 
restrictive financial covenants in the TIFIA loan agreements should be 
lifted, repayments to SIBs should be free of Federal requirements to 
ensure that future borrowers (mainly cities and counties) are able to 
access the funds, and States should receive toll credits based on the 
proportion of a project's toll financing, even if Federal funds are 
used for part of the project's costs.
    Target Border and Corridors Programs to Meet NAFTA Needs. With 
ever-increasing demands on Texas' transportation system for both local 
mobility and international trade transportation improvements, I believe 
that existing TEA-21 programs directing funds to border States for 
trade corridor and border transportation infrastructure development are 
falling short of accomplishing this goal. The National Corridor 
Planning and Development program and the Coordinated Border 
Infrastructure program must be reformed so that priority is granted to 
corridors with increased traffic since the enactment of the North 
American Free Trade Agreement. Also, specified funds should be spent 
exclusively on international border and corridor projects. I believe 
this reform would return the programs to their original intent--
promotion of national economic growth in relation to international/
interregional trade and facilitation of the safe movement of people and 
goods across U.S. borders. Legislation introduced by Senator Kay Bailey 
Hutchison (S 1099) and Congressman Michael Burgess (HR 2220) is 
designed to properly clarify these programs. Texas will continue to 
push for greater Federal investment in the international trade 
corridors that traverse our State and border improvements serving the 
Nation.
    Strengthen Environmental Stewardship and Program Flexibility. State 
DOTs like TxDOT are the Federal Government's agents in the federally 
funded, State-administered Federal-aid highway program. We believe that 
Congress should shift more decisionmaking authority to Texas State and 
local transportation officials. I encourage Congress to allow States to 
exercise their environmental and project stewardship responsibilities 
by granting more categorical approval authority and delegate FHWA 
overview to the States. A key provision in the Bush Administration's 
SAFETEA proposal would allow States to assume some of USDOT's 
responsibilities for transportation enhancements, recreational trails, 
and transportation and community and system preservation program 
projects. This delegation would streamline the review and approval 
process, thereby expediting project delivery.
    Texas will add at least four new non-attainment areas under the new 
ozone standard. The Congestion Mitigation and Air Quality Improvement 
Program (CMAQ) must be amended to adjust for the larger demand on these 
funds. In addition, we believe that CMAQ eligibility should extend to 
near-nonattainment areas that have entered into a legal voluntary 
emission reduction agreement (e.g., the O3 Flex Agreement, the Early 
Action Compact). Even more importantly, we ask that Congress 
restructure the CMAQ program to allow it to support the significant air 
quality benefits available from congestion mitigation, rather than 
continuing the current restriction of these funds to air quality 
improvement projects only.
Conclusion
    Thank you for the opportunity to bring part of the Texas 
transportation message to you today. As stated earlier, Texas has a lot 
at stake in the work now on the congressional agenda. Your work to 
improve the Federal Government's commitment to enhanced transportation 
funding is very important to Texas and to the border region. We look 
forward to working closely with the Texas delegation and the 
authorizing committees to ensure that the reauthorization of surface 
transportation programs and funding results in a positive environment 
for the future of Texas transportation. By providing the enhanced 
funding equity, more flexible program provisions, and expanded 
transportation project financing tools we have outlined here, Congress 
will help Texas be better positioned to build on our success and plan 
for the 21st century, providing greater prosperity for our citizens now 
and into the future.
                               __________
 Statement of Wm. R. Stockton, P. E., Associate Agency Director, Texas 
       Transportation Institute, The Texas A&M University System
Introduction
    Thank you, Mr. Chairman, Senator Cornyn and members of the 
committee for the opportunity to be here today. I am Bill Stockton, 
Associate Director of the Texas Transportation Institute, a research 
agency of The Texas A&M University System. Along with colleagues from 
the University of Texas at Austin, I have been working on a variety of 
transportation issues relating to the Texas-Mexico border for the past 
several years. Our focus has been transborder freight movement, in 
particular, how to speed the movement of the increased commercial 
traffic resulting from the implementation of NAFTA across the border 
without compromising U.S. national security.
    Why should you care about the impact of border freight on the Texas 
transportation network?
    <bullet>  Mexico is the second largest trading partner of the 
United States--$200 billion annually
    <bullet>  80 percent of that trade crosses the border in a truck, 
mostly through Texas--$160 billion annually
    <bullet>  60 percent of that truck traffic is bound for a 
destination beyond Texas--$100 billion annually.
    <bullet>  25 percent of all border trade, northern or southern 
border, comes through Texas
    <bullet>  So Texas is the port-of-entry for the rest of the Nation.
    In our research, we have observed two categories of challenges-
physical and institutional-and we see opportunities stemming from both
Physical Challenges
    With very few exceptions, current border truck traffic is far 
beyond the level envisioned when most border stations, border 
communities and border highways were planned. As a result, the border 
stations are often cramped, truck traffic backs up into border cities 
on both sides causing congestion and air pollution, and border highways 
often show distress of repeated heavy loads. Very few of the inspection 
compounds have adequate space to accommodate peak traffic demands. 
Advances in inspection technologies and changes in inspection practices 
are often
    difficult to accommodate in older vintage border stations, where 
inspections were carried out at a loading dock instead today's multi-
million dollar ``x-ray'' machines. Likewise, most of the international 
bridges have too few lanes to keep northbound trucks from standing in 
long queues back into Mexico.
    Local street networks on both sides of the border are often 
overloaded with traffic, but it is the truck queues waiting to cross 
the border that cause most of the mobile source air pollution. Sister-
city trade has dropped off considerably due to long queues waiting for 
processing at the border. Regional highways that connect the border to 
the rest of the Nation, like U.S. 77, U.S. 281 and I-35 have seen 
dramatic increases in truck traffic. Because a fully loaded truck 
causes pavement damage 9000 times greater than a passenger car, the 
stresses on local streets and regional highways is well beyond the 
original design. That means additional costs for State and local 
transportation agencies as they try to maintain roads and keep local 
drivers safe.
Institutional Challenges
    It is a common mistake to think of transborder freight movement as 
something that begins and ends at the port-of-entry. In the past, most 
proposed ``solutions'' have examined only the port-of-entry, ignoring 
the reality that the process-especially the transportation component-
begins with the shipper, possibly in interior Mexico, and ends with the 
receiver, perhaps as far inside the U.S as Chicago. If we want to 
achieve the full economic benefits of international trade, while 
assuring security and safety, we have to see the process in its ``big 
picture'' view.
    Prior to September 11, 2001, more than 100 Federal agencies had 
some role in approving or processing or sharing data on truck traffic 
crossing the border. That number does not include the host of State, 
local and private interests that have legitimate roles in the crossing 
process. Given the complexity of the process and the vast number of 
players, it is amazing that it works as well as it does. As you might 
imagine with a system this complex, coordination among all the players 
is very difficult and historically has not been very effective.
    Most of today's coordination problems existed before NAFTA and they 
continue because there is no over-arching mechanism to make sure they 
get fixed and stay fixed. The reorganization of the Department of 
Homeland Security certainly provides a structure for the Federal 
inspection agencies, but because transportation issues are not 
exclusive the Federal inspection compound, there is still great room 
for improvement.
    It should be understood that the goals of transborder truck 
transportation are different from any other aspect of transportation. 
Each of the myriad of public and private sector stakeholders in the 
process has its own measure of success, so there is no common yardstick 
by which we can measure the efficiency or effectiveness of one port-of-
entry versus another. Without such benchmarks, it is difficult, if not 
impossible to know where to allocate resources to improve operations or 
infrastructure. Each of these stakeholders does the natural thing: they 
focus on streamlining and optimizing their portion of the process, with 
only passing attention to how their actions affect the overall process. 
For example, border infrastructure and staffing is overloaded during 
parts of the day and very underutilized at others. Long standing 
private sector practices and differences in public agency schedules 
have thus far thwarted efforts to even the flows throughout the day, 
reducing congestion, waiting time and air pollution. There is enormous 
potential for ``everybody wins'' in a big picture approach to 
coordination.
    The bottom line is that transborder freight movement is a supply 
chain system. The sooner we manage it that way, the sooner we'll reap 
the benefits. There are lots of things that remain unknown, but there 
are great universities that possess enormous skill to tackle the 
unknowns as objective outsiders. In addition to Texas A&M University 
and UT-Austin, we have colleagues at UT-Brownsville, Texas A&M 
International in Laredo, UT-El Paso, and UT-San Antonio who contribute 
greatly to the betterment of transborder trade. They bring unique 
experience and expertise which can help identify particular regional 
issues to be addressed.
Opportunities
    Great progress has been made in spite of the challenges of 
exponential growth in truck traffic and emerging needs for security and 
truck safety. Efforts led by the Federal Highway Administration and the 
Texas Department of Transportation have not only made bold steps in 
defining the issues, but also have begun rapid implementation of 
solutions. And despite the concerns I have raised about physical and 
institutional challenges, there are excellent opportunities to be 
explored and solutions to be tested.
    Since widening of the international bridges and expansion of the 
border inspection facilities is not an immediate prospect, then we must 
focusing on better managing the traffic, just as we do on freeways that 
cannot be expanded. Many of the tools of intelligent transportation 
systems, or ITS, have excellent application in transborder truck 
movement.
    Several are worthy of mention:

    <bullet>  The Texas Model Border Crossing incorporates off-the-
shelf technologies and processes to detect, identify, screen, and track 
trucks through commercial border crossings, providing smooth and rapid 
passage to those that are in full compliance with Federal and State 
laws and rules. This traffic management application would be an ideal 
complement to the Bureau of Customs and Border Protection's Secure 
Trade Expedited Processing program, in progress on parts of the Texas-
Mexico border. I have taken the liberty to attach to this testimony a 
copy of the Model Border Crossing Briefing Document.
    <bullet>  Deploying short range radio frequency technologies to 
detect and identify trucks before they reach the border. Not only does 
this provide advance notice to inspection agents, but it allows them to 
identify ``low risk'' traffic and route it expeditiously, focusing 
resources on unknown or high risk traffic. These improvements are being 
pilot tested at the commercial crossing in Otay Mesa, CA.
    <bullet>  Using dynamic message signs and lane control signals to 
sort trucks and route them upstream of and within the border station.
    <bullet>  Interfacing the computer systems of Federal inspection 
agencies with those of State governments, especially at the border 
safety inspection facilities operated by the Texas Department of Public 
Safety to share identification data and violation histories, as well as 
credentials, operating authority, insurance coverage, etc. It makes 
sense to capture this information once and share it.
    <bullet>  Incorporating this computer interface with TxDOT's 
commercial vehicle operations strategic program, which will eventually 
allow law enforcement personnel throughout the State and nation to 
quickly access information about weight, inspection history, etc, 
saving time for law enforcement and trucker alike.

    Making changes to improved traffic management takes two partners-
government and the trade community. Compliance with trade laws, 
national security requirements and truck safety regulations ought to be 
worth something to the trade community. Coordinated incentives are 
essential. It does little good for a trucker to save 5 minutes from an 
expedited inspection by a Customs inspector if he had to wait 3 hours 
to get to the inspection booth. A comprehensive program to provide 
meaningful time incentives-for the entire supply chain from receiver to 
shipper-would improve appreciably voluntary compliance and provide 
significant benefits to both trade and security.
Recommendations
    1. Provide for a full-scale pilot of the model border crossing at a 
busy Texas port-of-entry.
    2. Commission a study to define the elements, the players and the 
process to assure over-arching planning and coordination of the entire 
supply chain movement of transborder freight.
    3. Expand the Smart Border pilot project at Otay Mesa, CA to the 
larger commercial border crossings, especially in Texas.
    4. Encourage variable tolling at international bridges, using 
market forces to balance peak demands and accommodate time-sensitive 
shipments. Provide reserve funding to assure bridge operators and bond 
holders financial interests.
    5. Expand the federally mandated metropolitan planning process to 
incorporate border station planning and encourage Mexican sister-city 
participation.
                               __________
        Statement of Hon. Eddie Trevino, Mayor, Brownsville, TX
    I am Eddie Trevino, Jr., Mayor of Brownsville. Good morning, 
Chairman Inhofe and Senator Cornyn, distinguished guests. Welcome to 
the Lower Rio Grande Valley!
    On behalf of the city of Brownsville and its citizens, I wish to 
convey our deep appreciation for your taking the time to visit us.
    Through our partnerships with TxDOT, the FHWA, and others, the city 
of Brownsville and Cameron County have been able to accomplish some 
great things in recent years. In May 1999, the Veteran's International 
Bridge at Los Tomates opened for business. This facility has exceeded 
its projected traffic and toll revenues.
    Unlike many parts of the United States, South Texas has a very 
young population base. Even with our developing economy . . . we are 
having a difficult time finding enough job opportunities for our young 
people. I would note that Brownsville led Texas in job creation in the 
2d quarter.
    We are experiencing rapid growth in our MPO area. For example . . . 
traffic volumes are increasing between 5 percent to 6 percent each year 
on many of our roadways. Volumes will double in an 18-20 year period. 
Congestion problems will become intolerable if we don't move ahead on 
making improvements.
    It would be easy to ask for your help for the completion of any one 
of 10-12 new projects that we sorely need in Brownsville. Each project 
is being designed to address critical infrastructure needs in our 
community. Some of these projects will help alleviate severe congestion 
problems. For example, roadway improvements are needed for the 
following thoroughfares:

    <bullet>  East Loop
    <bullet>  West Loop (From F.M. 3248 to E. 6th Street)
    <bullet>  Morrison Road, (to old Port Isabel Road)
    <bullet>  West Morrison Road
    <bullet>  Widening of Robindale Road
    <bullet>  Construction of Pineda Boulevard
    <bullet>  Widening of Old Port Isabel Road
    <bullet>  Establishment of the U.S. 281 Connector, (to connect F.M. 
511 and U.S. 281)
    <bullet>  Extension of Magnatek Drive to S.H. 48
    <bullet>  Rehabilitation of Price Road
    <bullet>  Widening of Coffee Port Road

    Instead, I want to take this opportunity to ask for some assistance 
on another important matter. TxDOT, with Federal assistance and help 
from the city of Brownsville, has completed improvements on U.S. 77 
that meet interstate standards. Everyone here would acknowledge that 
U.S. 77 is a designated leg of the future I-69. We are currently not 
receiving interstate maintenance moneys for U.S. 77.The current Federal 
law does not allow for such expenditures until U.S. 77 connects to an 
existing interstate.
    The city of Brownsville bought the land that was used for the 
Expressway extension to the border. We have done our part. Now it is up 
to the Federal Government to help with this issue.
    Let me assure you that we don't believe that this oversight is due 
to malicious intent. However, this situation represents a very 
unfortunate oversight. It needs to be amended. Under the current 
language of the applicable Federal legislation . . . our Expressway has 
to be fully improved for 100 miles northward to connect to the 
Interstate System near Robstown, Texas. At that time, the Secretary of 
Transportation could designate U.S. 77 as part of I-69.
    I suggest to you that everyone in this room will be much older when 
that occurs. That's why we need your help to change this provision of 
the law.
    What is the purpose of I-69? One of the purposes of the interstate 
is to handle NAFTA traffic. We are already accomplishing that goal 
right here in Brownsville.
    I suggest that the Federal language on this matter needs to be 
amended. If a highway segment meets all interstate design standards, 
and said highway connects to a U.S. deep-water port or to a U.S. Port 
of Entry . . . then the Secretary should be able to designate that 
highway as part of the interstate system. We should not continue to be 
penalized for being located here on the border. We are some distance 
from Robstown. The Port of Entry represents a huge Federal and local 
investment, aside from the highway.
    In other words, Brownsville should be treated as the gateway to 
Mexico, Latin American and Asia. Please help us change the statutory 
language on these matters. We have met our responsibilities for 
building this part of I-69 and therefore, it deserves Federal 
recognition and support. Brownsville has the only major seaport in the 
U.S. without an interstate connection. We realize that F.M. 511 does 
not meet current interstate design standards. But when it does meet 
those standards, as U.S. 77 does today, it should be accepted as a part 
of I-69.
    Thank you for your attention. We do appreciate your time spent with 
us here today.
                               __________
  Statement of Hon. C. Connie de la Garza, Mayor, city of Harlingen, 
                                 Texas
    Thank you for allowing me to be before you today. Welcome to the 
Magic Rio Grande Valley of South TexasCthe Tropical Paradise of the 
United States of America. My name is C. Connie de la Garza, Mayor of 
the city of Harlingen, the third largest city in South Texas and the 
center of the Rio Grande Valley. I am serving my second three (3) year 
term as Mayor and have been involved in civic issues in the area for 
over 30 years.
    The purpose of this hearing is to examine transportation investment 
along the Southern Texas Border--building upon the Transportation 
Equity Act for the 21st century (TEA-21) is certainly timely. To my 
knowledge we have never had a Senate hearing on transportation in South 
Texas. I commend you for being here to listen to our needs and desires.
    The average citizen of Texas and the United States of America does 
not realize that approximately one (1) million people live within a 35 
to 40 mile radius of Harlingen between South Padre Island, Brownsville, 
McAllen, Rio Grande City, Roma and Raymondville. And that is the 
population north of the Rio Grande River International Border. A 
greater number that use our transportation infrastructure live south of 
the River.
    The latest U. S. Census figures reveal that two (2) of the top five 
(5) fastest growing Metropolitan Statistical Areas (MSAs) in the Nation 
are here in the Rio Grande Valley of South Texas-Harlingen, 
Brownsville, San Benito and McAllen, Mission and Edinburg. A third 
one--Laredo's MSA is just up the Rio Grande River from us. Thus, three 
(3) of the top five (5) fastest growing MSAs in the Unites States are 
in the southern border of Texas.
    Our No. 1 concern is the fact that the Rio Grande Valley of South 
Texas is the only area in the U. S. with over one million citizens that 
does not have access to an interstate highway. The nearest interstate 
is I-37 from Corpus Christi, Texas to San Antonio. Long range plans 
have U. S. Highway 77 and 281 being converted to Interstate 69 and that 
is good. But, I just pray it is completed before my 3-year old 
granddaughter is old enough to drive. The point I am making is the 
legislation that created I-69 Stated construction would start on the 
Rio Grande River and go North. We have yet to see anything happen other 
than the signs being placed that State ``Future Corridor-I-69''.
    The future is now. Federal funds for a few overpasses on U. S. 77 
between here and Corpus Christi, Texas and on U. S. 281 between 
Edinburg and Pleasanton would certainly give us Interstate access. This 
is very important because since NAFTA our commercial truck and 
automobile traffic between the USA and Mexico has grown tremendously. 
Statistics readily prove that. The rest of the Nation and the world 
have discovered our business climate in the Rio Grande Valley and 
Northern Mexico is an excellent profitable climate. We have created 
many new jobs in South Texas. Adequate and efficient transportation 
would only enhance our job growth.
    Mexico is one of our nation's leading trade partner. We want to be 
able to efficiently transport the goods produced and manufactured on 
both sides of the River. The highway infrastructure must be enhanced in 
order for all of us to grow and profit.
    In the past highway infrastructure for South Texas and the Border 
was often overlooked. We have received more Federal and State money in 
the last 5 years than we have in last 20-30 years and for that we thank 
you. But we are behind the curve because of the lack of funding in the 
past and because of the tremendous population growth in the last 10 
years (25 percent-30 percent increase) and predicted growth in the next 
10-20 years. We need to catch up and build for the future.
    Our population and trade growth since NAFTA has also placed a great 
burden on our railroad systems that go through the middle of nearly all 
our Rio Grande Valley cities. The main Union Pacific line that cuts my 
city--Harlingen, in half as well as the city of San Benito, Town of Los 
Fresnos and Brownsville must be re-routed. The city of Brownsville in 
partnership with Cameron County and the Port of Brownsville have 
commenced a plan to relocate the U P Line with Federal, state and local 
dollars. We have also teamed up with Cameron County and the city of San 
Benito to do the same thing at the north end of Cameron County. The end 
result would be a Cameron County wide plan to relocate the main Union 
Pacific line and switching yards to an area away from our population 
base. Thus, the efficiency of our traffic flow would be increased. As 
it is now, a great number of our commercial and private traffic is 
stalled for hours (3-5 times a day) at the rail crossings. Emergency 
vehicles, fire and police, EMS also have the same dilemma. We must 
receive the necessary Federal help for the Cameron County Railroad 
Relocation plan in order to implement it for the benefit of commerce 
and our citizens.
    In closing, I would like to stress that Texas is a donor state that 
gets only 874 back for every dollar of the Federal Gas Tax we send to 
Washington. We are 49th out of 50 on the list of dollars returned. We 
demand equity and would settle for 954 out of every dollar we send. 
That would enable TXDOT to do much more than what they presently do. I 
also want to commend the representatives of TXDOT that are present for 
doing a fantastic job with the limited resources they have. But, 
together with Federal help and local help we can do more.
    I do thank you and your staff for having this hearing in South 
Texas. I trust you will leave the area with necessary information to 
make the right decisions for all our citizens. We commend each of you 
for the excellent job you are doing. Thank you and God Bless.
                               __________
     Statement of Hon. John David Franz, Mayor, city of Hidalgo, TX
    Good morning, Chairman Inhofe and welcome to Texas and the Rio 
Grande Valley. We are honored to have you here and appreciate the 
opportunity to provide information to you and our other guests. As 
always, Senator Cornyn, welcome, and thank you for being here again. 
And, Chairman Johnson, we appreciate your frequent visits and interest 
in our region since your appointment 3 years ago to the Texas 
Transportation Commission.
    As a mayor, I have to spend a few minutes talking about my special 
city. Hidalgo is an old city with the, first settlement founded in 
1749. We are located six miles south of McAllen. We are not a large 
city, population-wise, but we have grown substantially in the last few 
decades. We have three times the number of people we had in 1980. One 
of our primary business sectors is trade, with our city being home to a 
number of custom brokers and freight companies. Over 11,000,000 
vehicles cross the McAllen/Hidalgo Bridge annually going to and from 
Mexico. Almost 700,000 trucks cross at the Pharr Bridge. We are working 
on plans for a new bridge at Anzalduas to help meet the ever-increasing 
volume of crossings between Texas and Mexico.
    Our proximity to Mexico, our historical connection with our friends 
on the other side of the river, our position in the ever-expanding web 
of trade between Texas, the United States and Mexico and our explosive 
regional population growth, leads me to talk about a number of specific 
challenges and issues related to transportation. And, I would like to 
talk about some of regional and State initiatives that address these 
challenges.
    One of the newer challenges is homeland security versus the 
movement of trade and the flow between our communities. Communities and 
individuals on either side of the river have been connected for 
generations. We go back and forth to visit, to shop, and to conduct 
business. Even prior to 9-11, we had seen restrictions that affected 
the daily flow of life between communities along the border. Since 9-
11, the number of restrictions has compounded and the complexity of the 
rules threatens to severely hamper our lives and the economy of our 
Nation. An example is the new truck inspection system and stations. 
Inside the stations, USDOT enforces a set of regulations. Just outside 
these stations, the Texas Department of Public Safety enforces truck 
regulations. Unfortunately, the rules are not the same, creating 
considerable confusion for drivers and companies.
    As Senator Cornyn has said, ``our immigration system is broken.'' 
Thank you, Senator, for your legislative efforts, to address this 
problem and the effects of this system on our daily lives. Dinner, 
shopping and visiting friends in another country is something the 
border citizens In the US and in Mexico were used to doing on a regular 
basis. Our past, but more importantly our future, are inexorably 
linked, and separating our realities is impractical and will damage the 
economies and relationships between our countries.
    Please know that we want our communities and nation to be safe. We 
do not want unsafe trucks on our streets or threats to our security, 
but we may all be experiencing an over-reaction that does not 
necessarily translate into increased security or safety. Further, there 
is concern that our border be treated equally with U.S.-Canadian 
border. We stand ready to work with you at the Federal level and the 
State level to address the challenges, and we believe that our direct 
and long-term experience with the issues of movement across a border 
would assist you in developing solutions. However, we need to be 
included in the formulation of these solutions and have the opportunity 
to help develop workable policies and regulations
    A second challenge that I see is just the physical infrastructure 
required to move the increasing volumes of trade. Approximately 80 
percent of all U.S. trade with Mexico goes by truck and approximately 
80 percent of that truck traffic crosses the Texas border. Therefore, 
54 percent of all truck traffic carrying U.S.-Mexico trade comes 
through Texas. Some days it seems like all those trucks are on U.S.-77, 
U.S.-83 and U.S.-281 in the Valley.
    Had we envisioned this decades ago, perhaps we could have planned 
our communities differently. But, long before there were trucks, we 
were river settlements with crossings to Mexico. So, all those trucks 
are funneled from the major highways onto roadways not designed for 
that type of traffic and too often on roadways with traffic lights, 
schools and normal urban traffic. This impacts us, but it also impacts 
businesses in San Antonio, Dallas, Houston, Oklahoma and beyond. These 
delays cost time and money, and they obviously affect our lives.
    Two of the solutions to help with these problems of truck 
congestion and freight movement are interstate level highways into our 
region and improved direct connections, especially for trucks, from 
these highways to the bridges. Easy to say, but there is the persistent 
problem of the dollars to make these projects happen. Like Oklahoma, we 
would appreciate being something less of a donor State in terms of the 
fuel tax, but we recognize that even more fuel tax money will not 
necessarily supply the level of funds needed.
    Texas took a bold step in the recently passed HB 3588, which will 
provide new financial tools at the State level. We thank Chairman 
Johnson, the Commission and the Department for their work on this 
landmark legislation. We are ready to work with you on passage of the 
constitutional amendment; Proposition 14, to allow TxDOT to issue 
bonds, on using regional mobility authorities to fiend projects and on 
encouraging the use of other tools such as development agreements and 
leases.
    There are also some ways we can save dollars, as you have 
recognized Senator Inhofe, and as the Commission proposes in their 
``Texas Transportation Priorities'' prepared for their work with the 
108th Congress. The maze of our current environmental processes creates 
delays in projects and cost substantial money. If the results were 
tangible in terms of protecting our natural resources and creating new 
habitats, then it would be worthwhile. Unfortunately, far too often it 
seems, it is process that seems geared to collecting data and studies 
rather mitigating impacts or improving the natural environment. You go 
from agency to agency, encounter conflicting rules, experience staff 
changes that send you back to square one and watch millions dollars 
being spent to produce huge and complicated documents. Trees are felled 
and energy consumed to produce stacks of paper in order to save 
forests.
    As you have noted, Chairman Inhofe, it is time to re-think our 
environmental regulations in order to protect the environment and have 
a strong economy in the future. A side benefit will be the potential to 
dedicate more transportation funds to maintaining and building 
infrastructure, which can certainly include environmental features. I 
applaud your efforts at the national and State level to develop more 
efficient environmental processes, and I am ready to help you if I can 
be of assistance.
    Chairman Johnson, I hope you will let me know what I can do to help 
with Proposition 14 and support your priorities as the work on 
reauthorization of the surface transportation continues. Chairman 
Inhofe and Senator Cornyn, if there is any information or assistance I 
can provide to you or your staff, then it would be my honor to assist.
    Again, thank you all for visiting us in the heat of the summer, and 
for all the work you do for Texas and for these great United States.
                               __________
          Statement of Cameron County Judge Gilberto Hinojosa
    Good Morning. My name is Gilberto Hinojosa and I have served as 
Cameron County Judge since 1995. I thank you for allowing me to speak 
with you this morning on a matter of great importance to residents of 
our State as well as the nearly two million Texas residents who live 
along our international border. But before I do, I would like to thank 
Chairman Inhofe, Senator Cornyn and the members of this committee for 
the work they do in Washington. I would also like to welcome you 
Cameron County.
    Over the last decade, Texas has passed New York to become the 
second most populous State in the Union. Rising birth rates and the 
influx of millions of new residents have caused our State's population 
to swell to more than 21 million persons. During that same period 
Cameron County has seen its population grow by 29 percent, from 260,000 
to 335,000. It is easy to see the demands that growth has placed upon 
our infrastructure and the explosion of sustainable economic 
development in our communities. It has been said that if Texas is the 
front door of the United States' trade corridor, then Cameron County is 
the screen door.
    While you would not think of it by looking at us, Cameron County, 
specifically the city of Brownsville, mirrors Detroit, Michigan, in 
that we both provide four modes of transportation for trade. We both 
have seaports, airports, rail and international bridges (highways). No 
other two cities in the United States share this distinction. However, 
we do have one major difference. Cameron County does not have direct 
access to an Interstate Highway, but I'll address that in greater 
detail later.
    With the rapid development of NAFTA, our system has been 
overburdened due to an increased utilization of all modes of 
transportation. Like many border counties, Cameron County suffers an 
extra penalty from rapid growth because it is caught between two 
worlds. While sweeping economic changes and swift urbanization pull our 
region toward the future, the existing infrastructure is unable to keep 
pace. Compounded by dwindling availability of State funds, our local 
community is left to solve the problems created by increases in traffic 
and the subsequent congestion.
    I want to discuss with you today is the reauthorization of TEA 21, 
now called The Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act or SAFETEA. It is critical that SAFETEA 
addresses our existing and future needs, since this will be the only 
vehicle for new transportation projects over the next 6 years.
    There are several issues that I would like to point out regarding 
SAFETEA and its construction. First, new language must be included that 
will provide funding for the maintenance of highways that meet 
interstate standards, connect international ports of entry and 
seaports. This will allow us to access vital funding and spur 
development that is not currently available through TEA 21.
    Second, a narrower scope needs to be defined for international 
trade corridors. The Borders and Corridors Transportation Funding 
program was established to help border communities, and communities 
along international trade corridors, handle the increased traffic they 
faced from growing NAFTA trade. Unfortunately, the funding was heavily 
earmarked causing fewer dollars to be available for them and true 
international trade corridors. The resulting funds were diverted to the 
interior of the country and other non-trade international corridors. 
Shockingly only 14 percent of this funding ever made it to border 
communities.
    We need your help to stop these diversions and redirect the money 
to its intended destination, the border areas. Border communities and 
international trade corridors play an important role in the overall 
national transportation system and they warrant their own programs and 
separate funding streams. Significant increases in funding levels, or 
even the percentage of funds available, for borders should be dedicated 
to communities that move the goods from border ports of entry to the 
national highway system. These funds could even go so far as to help 
with the implementation of the new and creative measures aimed at 
increasing security of our homeland.
    As I mentioned earlier, the Rio Grande Valley is the only community 
not a part of the interstate highway system. With an over all 
population quickly approaching a million, not counting the hundreds of 
thousands who live and work across the river, we act as the one of the 
primary corridors for trade between the United States and Mexico. The 
quicker goods move through our communities the sooner they reach their 
destinations. South Texas, specifically Cameron and Hidalgo Counties 
must become a part of the Interstate Highway System for the good of not 
only our community, but the nation's as well. We need continued support 
of Federal funding for I-69. Currently, the Texas Department of 
Transportation has committed to let the contracts for the location and 
environmental studies on all segments of independent utility. The 
timely completion of these assessments will enable us to move forward 
on the I-69 program. However, we need additional funding for the I-69 
portion in the State of Texas and the other I-69 corridor States. We 
recommend that priority be given to studies that emphasizes multi-modal 
planning, including planning for operational improvements that increase 
mobility, freight productivity, access to seaports, safety and 
security. We believe that locally I-69 will accomplish all that and 
more.
    I am pleased to tell you that Cameron County will be investing 
approximately half a million dollars to improve access to the 
commercial primary inspection lanes for the U.S. Customs and Border 
Protection. What this will do is provide dedicated truck lanes for 
commercial vehicles approaching the import lot for the Federal 
inspection agencies. Ports of entry, such as the Veterans International 
Bridge and the Free Trade Bridge at Los Indios, should be allocated 
funding under the SAFETEA to provide dedicated truck lanes that connect 
the international bridges to the highway system. The movement of 
products would be greatly improved and the trade routes would become 
much safer and less congested.
    The final issue I would like to address is the consolidation of 
existing railroad tracks and switching yards, more commonly know as 
railroad relocation projects. Cameron County has developed a plan that 
includes relocating existing rail lines and virtually bypasses the 
cities of Brownsville, Harlingen and San Benito. We plan to eliminate 
100 at grade crossings and reduce the daily traffic volume at these 
crossings from half a million to just over a hundred thousand vehicles. 
With each crossing representing a moment of danger, we can easily 
deliver four hundred thousand vehicles out of harms way.
    I am not overstating the case. Cameron County has ranked as high as 
fourth in the State of Texas in auto-train collisions. In the 1990's 
197 auto-train accidents occurred resulting the loss of 15 lives. In 
Matamoros, Mexico, our international neighbor, 17 people were killed 
during the years of 2000 and 2001 alone.
    In addition to accidents, derailments create major safety concerns 
locally as hazardous materials are transported via rail between Mexico 
and the United States through Cameron County. On top of this, daily 
switching operations block vital crossing and deny emergency vehicles 
access to highly urbanized areas of the county.
    This is why I am requesting your support of Senate Bill 1329, which 
was introduced by Senators Lott and Kerry. This bill requires the 
Secretary of Transportation to implement a grant program that provides 
financial assistance for local railroad relocation projects similar to 
Cameron County's. Federal participation is crucial to the success of 
these programs. These projects not only promote more efficient trade, 
but they create safer communities.
    Senators, managing growth so that it benefits the United States is 
a goal vital to the future of our community, and an objective that 
cries out for comprehensive planning and dedicated resources. We offer 
the plans and we look to you for the dedicated resources. The present 
situation threatens the future of our economic viability by limiting 
progress and hampering opportunity. By giving border communities and 
trade corridors these much needed resources for construction and 
highway maintenance you can help to protect the accomplishments of some 
of Texas' hardest working residents. And at the same time securing 
sustainable economic growth and trade. I urge you to act on the hope 
and promise of this new century.
    Thank you for the opportunity to testify before you today, I humbly 
request that you remember Cameron County in your deliberations in 
Washington.
                               __________
             Statement of S.F. Vale, Border Trade Alliance
    Chairman Inhofe, Senator Cornyn, my name is Sam F. Vale. I am a 
businessman here in the Rio Grande Valley involved in various aspects 
of cross-border trade as the CEO of the Starr-Camargo Bridge Company, 
as well as president of the local Telemundo television affiliate. But I 
appear here today as chair of the Strategic Planning Committee of the 
Border Trade Alliance, an organization of which I am a founding board 
member and for whom I have served as chairman.
    As you may know, since 1986 the BTA has served as the voice for 
free and efficient trade for our border communities, north and south. 
Our mission is to initiate, monitor and influence public policy and 
private sector initiatives for the facilitation of international trade 
and commerce through advocacy, education, issue development, research 
and analysis, and strategic planning. Throughout our history, the BTA 
has had numerous occasions to testify before congressional committees 
such as this one, and we welcome the opportunity to join you here 
today.
    I would like touch on a few topics here today that I hope will be 
of interest to the committee as it examines the state of affairs of our 
borders and our international ports of entry. First, I'll provide some 
comments on BTA's position on border region transportation funding. 
Second, I'll touch on the subject of border region infrastructure. 
Finally, I'll close with subject of great
    importance to both the U.S.-Canada and the U.S.-Mexico borders: 
Entry and exit controls, or, as the entry/exit project is now known, US 
VISIT.
               border region transportation funding issue
    In 1998, a program and funding stream was established to help 
border communities and communities along international trade corridors 
handle the increased traffic they faced from growing NAFTA trade. The 
funding for the Borders and Corridors program, sections 1118 and 1119 
of the Transportation Equity Act for the 21st Century (TEA-21), will be 
reauthorized this year.
Background
    In 1998, the Borders and Corridors Program was authorized at $140 
million per year for fiscal years 1999 through 2003.
    A total of 43 corridors were identified in this program, with a 
provision to add corridors at a later date; and every border port of 
entry in the United States was eligible for funding. In addition, the 
designated funding stream was heavily earmarked, making even fewer 
dollars available for border communities and true international trade 
corridors, as funds were diverted to the interior of the country and 
other non-trade corridor projects.
    The corridor applicants to the program were allocated 86 percent of 
the program funding, while border communities were allocated 14 percent 
of the funding.
Position
    The Border Trade Alliance (BTA) supports the following changes in 
the structure of the Borders and Corridors Program:
    1. Cease Earmarking. The BTA feels that earmarking puts politically 
weaker communities at a distinct disadvantage and reduces the overall 
amount of money available to the communities for which it is intended.
    2. Split Program Funding. The BTA believes border communities and 
true international trade corridors are both important enough in the 
fabric of our national transportation system to warrant their own 
programs. The borders and corridors should each be allocated their own 
funding stream.
    In addition, we encourage a significant part of the funding 
allocated for the borders be dedicated to projects within 50 miles of 
the U.S. border and that are directly related to the movement of goods 
from land border ports of entry to interstate highways.
    The division of these programs will also help with the 
implementation of many of the new measures aimed at increasing the 
security of our homeland. Operations at our ports of entry play an 
integral role in the security of our borders and our supply chain. 
Additional funding, dedicated for borders, would help fund even more 
increased security measures at all ports of entry.
    3. Define Ratios. The BTA believes a specific ratio of funding 
should be defined for the borders and corridors separated funding 
streams. We support a minimum split of 50 percent-50 percent. For the 
past five fiscal years, corridors have received 86 percent of the 
funding, while borders have received only 14 percent. It is time to 
make up that vast disparity and provide enough funding to the borders 
so that they may process ever-burgeoning trade and move it quickly onto 
true international trade corridors.
    4. Increase Appropriations. The land border ports of entry and the 
trade corridors contribute billions annually to the economy of the 
United States. It is imperative that we fund the infrastructure 
improvements needed in order to continue reaping the benefits of NAFTA 
and other free trade agreements. The BTA recommends an annual 
appropriation of at least $500 million dollars, split 50-50 between the 
borders and corridors.
    5. Develop New Language Regarding Priority Ranking System. Small 
rural border communities that are not part of a Metropolitan Planning 
Organization are often left at the bottom of the priority ranking 
system by their States. The BTA recommends language be written into the 
law that would direct States, in their ranking of projects, to treat 
projects from areas without an MPO equally.
    A final point, that is not directly related to the Borders and 
Corridors Program but that is relevant to border communities and 
transportation funding, is the issue of population based formulas used 
in determining a community's allocation of its State's total Federal 
funding. Currently, border communities are allocated money from their 
State's share of TEA-21 based on a population formula. This is 
insufficient. Laredo, Texas, for example, has 1 percent of our State's 
population, and is therefore allocated 1 percent of the TEA-21 funding 
from this State. However, Laredo, Texas is second in the Nation in the 
amount of trade traffic they process on a daily basis.
    Border communities are also unique in that their metropolitan areas 
are not completely in the United States and therefore their total 
metropolitan area populations are not accounted for in population-based 
formulas. Border communities are often only blocks away from their 
sister cities on the other side of the border, a shorter distance than 
many cities that are grouped together in the Metropolitan Statistical 
Area within the States. We need to create formulas that take the unique 
geography and realities of border communities into account.
    Status quo of the Borders and Corridors Program is unacceptable. 
The BTA believes that these changes will enhance the ability of goods 
to move quickly and efficiently through our ports of entry and into the 
rest of the country so that consumers may continue to benefit.
Border region infrastructure
    The BTA has long called for improved infrastructure and technology 
at our land border ports of entry. The men and women who secure our 
borders while processing ever increasing volumes of trade deserve 
efficient facilities that make it possible for them to carry out their 
important jobs to the best of their abilities.
    While the BTA does not take positions on individual projects 
proposed by various border communities, we can say that our borders 
need new and improved bridges, and new land crossing facilities. With 
the coming implementation of US VISIT, the Department of Homeland 
Security's entry and exit control system, the need to install modern 
functional infrastructure has taken on even great importance.
                                us visit
    The Border Trade Alliance's various positions on border 
transportation and infrastructure are now colored by the coming 
implementation of the US VISIT entry/exit system. US VISIT is the 
acronym for the United States Visitor and Immigrant Status Indicator 
Technology Program.
    According to a Department of Homeland Security press release issued 
on April 29, US VISIT ``will utilize a minimum of two biometric 
identifiers, such as photographs, fingerprints or iris scans, to build 
an electronic check in/check out system for people coming to the U.S. 
to work, study or visit.''
    The BTA has been the border trade community's watchdog on entry/
exit since the subject first arose in the Illegal Immigration Reform 
and Immigrant Responsibility Act of 1996, and the subsequent 
legislation that amended the 1996 law, the INS Data Management and 
Improvement Act of 2000, or DMIA.
    According to DMIA, an integrated entry and exit control system is 
to be installed and the 50 largest land border ports of entry by 
December 31, 2004 and at all remaining land border ports of entry by 
then end of 2005.
    As these deadlines inch ever closer, we in border communities are 
faced with the prospect of severe traffic congestion at our southbound 
lanes, and damage to our local economies as the hassle of crossing our 
borders increases, thus discouraging legitimate tourists and shoppers. 
It is vitally important to the continued economic health of border 
communities from San Diego to Brownsville that when US VISIT is 
implemented that it is done in manner that is in the best interest of 
border communities.
    The Department of Homeland Security claims that US VISIT will 
enhance traffic flow for individuals entering or exiting the U.S. for 
legitimate purpose by:

    <bullet>   Facilitating travel and commerce;
    <bullet>   Respecting the environment;
    <bullet>   Strengthening international cooperation; and
    <bullet>   Respecting privacy laws and policies.

    If US VISIT is poorly designed and implemented and does not, as it 
claims it will, enhance the border crossing process, then we run the 
risk of inflicting economic damage on our communities the likes from 
which we may never recover.
    The Border Trade Alliance thanks you for this opportunity to offer 
our testimony on these important issues affecting the Texas-Mexico 
border region. We are committed to ensuring that the border region's 
transportation, infrastructure, and security needs are met for the 21st 
century.
                               __________
   Statement of Pat Townsend, Mission Economic Development Authority
    Chairman Inhofe, thank you for your leadership; Senator Cornyn, we 
appreciate your return visit on this business of the Senate; and 
Chairman Johnson--thank you for being here today to share your agency's 
views. And, thank you, Mr. Stockton and Mr. Frankel for your visit and 
testimony. You have heard from many of our regional leaders today, and 
I hope I won't take too much time repeating what has already been said.
    I am the President of the Mission Economic Development Authority, 
an organization charged with continuing to foster growth in the 4th 
fastest growing MSA in the Nation for the past 5 years according to the 
U.S. Census Bureau (and in the top 5 for the past 10 years). I want to 
briefly wrap up and touch on some things that were not mentioned but 
will have an impact on our highway infrastructure.
    One of those is the Sharyland Plantation, a 6,000 acre master 
planned mixed-use community that currently includes 10 residential 
subdivisions, a growing retail sector, apartments, an extended-stay 
hotel, a 43,000-square-foot medical diagnostics center and a 900-acre 
business park, with 650 acres in foreign trade zone status. Several 
companies, such as Symbol Technologies, Black & Decker and T-Mobile, 
already have begun operations at the business park. And as Mr. Summers 
noted earlier, trade with Mexico is growing, and they are becoming an 
even more important trade link for our economy. The tenants at the 
business park all have direct ties to Mexico and will be responsible 
for even more U.S.-Mexico trade activity.
    Some of these businesses expedite products being shipped from other 
States to Mexico, and others take products, assemble them in a finished 
product and ship them back in to our country. For example, Whirlpool is 
one of 6 companies in the McAllen/Reynosa area choosing a campus 
environment of 40-60 acres in size with end products resulting in as 
many as 100 trailers outbound from each campus, and nearly as many 
inbounds. Some of Whirlpool's sub-assemblies are northbound through the 
heart of Texas to Tulsa, where Oklahomans turn them in to stoves. In 
spite of trends elsewhere in Mexico, we expect even more companies to 
join Whirlpool, Corning Cable and Maytag. We say that with confidence 
because Reynosa is the only city in all of Mexico not to show a loss in 
jobs in the maquiladora industry for the previous 2 years (INEGA 2003). 
So, our continued growth is linked to the economic growth of other 
areas in Mexico, Texas and in many parts of the U.S.
    Another development in the Valley that will impact trade and our 
highway system is the proposed Anzalduas Bridge. It is expected to be 
complete in 2006 and much of this bridge is locally funded by the 
partnership of Mayor Franz's city, Hidalgo, and the cities of McAllen 
and Mission. This bridge truly represents an international partnership. 
The U.S. Border Station, TxDOT, area governmental entities and others 
partnered with the Mexican State of Tamaulipas and the city of Reynosa 
on this bridge project. This new bridge will have a direct impact on 
the Sharyland Plantation by providing a direct connection between the 
Sharyland Business Park and the business and industrial parks in 
Mexico. Key to this connection is Grupo Rio San Juan, owner and 
developer of approximately 16,000 acres of land containing the Mexican 
port of entry and a master planned community containing a large and 
growing industrial park, Parque Villa Florida, complimenting that of 
the Sharyland Business Park. A major tenant in Villa Florida is Black & 
Decker, whose presence has encouraged suppliers to locate on both sides 
of the border.
    The Anzalduas Bridge has been planned to allow better highway 
connections and avoid disruptions for trade traffic. The U.S. port of 
entry is 3.5 miles south of Expressway 83 (future I-69), with 12 miles 
separating I-69 from the Autopista tollway linking Reynosa to 
Monterrey, Nuevo Leon. Monterrey is the industrial capital of Mexico, 
with over 4 million inhabitants only 120 miles away. Our existing 
bridges strain to handle the current volumes of traffic, especially 
trucks. With 47 percent of all trucks and 30 percent of all vehicles 
using Texas land ports crossing the bridges in the Valley, new 
connections that link our border to major trade highways are the key. 
Trucks waiting at the border mean higher costs and lost profits. As per 
the terms of the U.S. Presidential Permit, the bridge will open 
accommodating passenger vehicles and incorporate commercial truck 
access as inspection agencies and GSA secure necessary congressional 
funding authority.
    Links to our international bridges are also important now that our 
traditional traffic patterns are north-south oriented. The Military 
Highway (SH 1016/US 281) expansion is an example of how we can create 
additional connections between international bridges and relieve some 
of the traffic on U.S. Expressway 83, which is nearing or at capacity 
in some areas.
    As you heard today, interstate service is extremely important for 
the Valley. We remain the single largest populated area in the Nation 
without interstate highway service. Several speakers have pointed to 
statistics on what I-69 would mean to the area, the State and the 
Nation, so I won't repeat those. The bottom line is that the Valley is 
already handling levels of truck traffic comparable to areas of the 
State that have interstate highway service. As an example, there are as 
many as 10,500 trucks on interior segments of U.S. 281 on any given 
day, which is comparable to I-10 in Harris County and I-45 in the 
Dallas area.
    You have already heard today about our support for an amendment to 
TEA-21 or new language in the Federal reauthorization bill that will 
assist in designating highways that connect to U.S. deep water ports or 
U.S. ports of entry to the Interstate System.
    You have seen the results of the just completed update to the 
regional mobility plan and heard about some other major transportation 
needs, such as rail realignments and additional east-west corridors, 
such as Military Highway. This project, by the way, could link bridges 
and help relieve traffic on U.S. Expressway 83, which as I mentioned is 
already overburdened though expansion work is barely completed in some 
sections. It is also a possible toll project, one that could serve as a 
model for coordinating preservation of important habitat areas and 
roadway planning and development.
    By the way, a word or two about our regional mobility plan. This 
effort is 100 percent locally funded. A thank you is due to Valley 
elected officials and leaders for their support of this effort and 
their hard work on this project. It is really a unique effort given the 
large geographical area and coordination of multiple MPOs and rural 
areas. A note of appreciation to the Valley Partnership and Mr. Summers 
for his leadership over the last decade on this effort and to the very 
competent and professional folks from the Pharr District of TxDOT for 
their daily help with transportation planning, construction, and 
maintenance.
    Mayor Franz already touched on the importance of streamlining the 
environmental process for critical transportation projects. President 
Bush's Executive Order in October 2002 for streamlining environmental 
review of important infrastructure projects, such as I-69, and your 
work Chairman Inhofe is exactly on point with our concerns.
    You have also heard about some of the issues we confront daily as 
the result of heightened homeland security measures and immigration 
policies. We hope we will be included in discussions on future policies 
in terms of their impact on our communities, and look forward to 
working with you, Senator Cornyn, on the much needed reforms to the 
immigration system. We cannot stress enough how important it is that 
you be cognizant of historical, cultural and family connections on both 
sides of the Rio Bravo as you deliberate these issues.
    As noted earlier, we are grateful for the hard work the 
Transportation Commission and our local legislative delegation has done 
this session. Commissioner Johnson, we are ready to help with efforts 
to educate our region about the importance of passing Proposition 14. 
And, Chairman Inhofe and Senator Cornyn, we are here to assist Congress 
with reauthorization of TEA-21 and to work with the Commission at the 
State level on this legislation, Trans Texas and their other plans.
    Again, I want to thank you for being here today and for everything 
you do for our communities.
                               __________
        Statement of Bill Summers, Rio Grande Valley Partnership
    Welcome Chairman Inhofe, Senator Cornyn, Chairman Johnson and other 
distinguished guests to the Rio Grande Valley. We know how you are all 
extremely dedicated public officials, and you prove it today by 
journeying all the way to the tip of Texas in the heat of the summer to 
allow us to meet with you. Thank you and we are honored to have you 
here.
    A special thanks to Ana Maria Garcia and the other staff who helped 
organize this meeting. We appreciate your hard work for this hearing 
and for all of us every day.
    I am providing you with an Executive Summary of our Regional 
Mobility Plan for 2003 to 2030. This is the third time since 1992 that 
the four counties, the many cities of the Valley and three MPOs have 
joined together and taken a truly regional approach to transportation 
planning. Obviously, regional efforts can be stressful. When we started 
in the early 90's, I had a full head of wavy dark brown hair. But, it 
has been worth it. Because of leaders like you at the national level, 
leaders like Chairman Johnson at the State level and our fine local 
officials, we have accomplished some amazing things in the last decade. 
We are ready to do the same, with your guidance, in the coming decade.
    Before mentioning a few of the priorities developed by the Mobility 
Task Force over the last year, it might be good to provide a little 
background on our region.
    Last century, Texas and Oklahoma were being called the frontier. 
Our region is still the frontier, or `` la frontera'' as northern 
Mexico is known. We are the frontier and the door to trade in the 
Americas. Wat happens in our border area is important to the economy of 
Oklahoma, San Antonio, Houston and beyond. As you are all aware Mexico 
is growing and becoming more prosperous and able to buy more U.S. 
goods. U.S. trade with Mexico is now approximately $250 billion. And, 
with the advent of new trade agreements with Central American 
countries, there is an increasing opportunity for trade growth. For 
example, the new Toyota facility in San Antonio may ship finished 
vehicles to Mexico and Central America, and the State of Oklahoma is 
continuing to ship increased amounts of exports to Mexico and Central 
America. Many of these shipments will be sent on trucks through the 
Valley.
    We have opportunities, and we welcome the economic development 
associated with trade. Our population is growing extremely fast, and we 
are very fortunate to have a young population who will enter the 
workforce in the coming years. In the last decade, the Valley has grown 
by almost 40 percent, and almost 35 percent of that population is under 
the age of 18.
    But, it is not just our population that uses the highway system in 
the Valley. Factoring in the 2 million people on the Mexican side of 
the border who come to the Valley to shop, work or conduct business, 
there are 3 million people in the bi-national metropolitan area and 
that figure is projected to be 6 million or more by 2030. Northern 
Mexico has undergone an economic revitalization in the last decade. It 
is now home to a number of new companies that are injecting new dollars 
into our economy. If it were not for the relationship afforded by the 
maquila program, then many of the jobs created in the US and Mexico 
would be in Asia or elsewhere.
    While we welcome the benefits of these new opportunities, we have 
seen enormous increases in the level of truck and train traffic 
carrying goods to and from Mexico. There are now more than 500 at-grade 
rail crossings in the Valley and rail traffic is doubling. And, few 
people know that almost 1 out of every 2 vehicles crossing to or from 
Mexico and 30 percent of all truck traffic use the bridges in the 
Valley.
    New developments in Mexico also impact our region. Later this year, 
Mexico will complete a new highway connecting San Luis Potos and Ciudad 
Victoria in Tamaulipas, and you are all invited to the dedication with 
the Partnership. This new route, shown on the back of the map, will cut 
four to 6 hours off the journey from Mexico City to the United States. 
This new route, which we have strongly supported, will bring even more 
truck traffic through our region.
    The Rio Grande Valley Partnership has an office in Ciudad Victoria 
and has worked closely with officials in Mexico on this and many other 
projects. We recognize our important link to our southern neighbors. 
The bottom line is what happens in Mexico affects the Valley, the State 
and nation.
    While this economic and trade growth is great, it results in two 
things critical to our transportation planning. First, our cities are 
growing out into rural areas and becoming more densely settled. Second, 
the trade traffic is added to the traffic of our region. Truck traffic 
has increased 143 percent in the Valley and traffic has increased 60 
percent to 70 percent along U.S. 83 and U.S. 281.
    We have to develop new roadways to move around and between our 
cities, and better connections from the bridges on through our region 
to the north. Now is the time to secure the needed right-of-way for the 
future. If we do not, then the cost will be astronomical in the future. 
Now is the time to explore dedicated truck lanes and new ways to 
finance needed improvements as I will discuss in a moment.
    I'd would like to focus now on the Mobility Plan and touch on some 
of the major projects that are outlined in the Executive Summary inside 
the map. As you can see, interstate highway service is a major 
priority. Over 10 years ago, we joined together with cities and States 
from Texas to Illinois to establish the I-69 Alliance. Once complete, 
I69 will serve as the most direct trade route, connecting the 
industrial centers of North America through the primary border 
crossings. You will notice on the map cover, Mr. Chairman, will connect 
to your State more directly through I69 to I37 to I35, but we must get 
US 281 and US 77 up to interstate standards.
    The interstate system was initially designed as an east to west 
system. But trade flows have shifted, particularly after the passage of 
NAFTA, from east-west to north-south, yet our infrastructure system has 
not evolved to reflect this change.
    All total, I-69 Corridor States and States using the I-69 Corridor 
and/or its border-crossing ports account for over 63 percent of total 
U.S. truck-borne trade with North America. And, As Mayor Franz pointed 
out, approximately 80 percent of all U.S.-Mexico trade is by trucks 
crossing the Texas border. To remind you, in the Valley, we have no 
interstate level highway. The truck traffic on US 77 and US 281 goes 
through the middle of towns and school zones. Construction of I69, 
including interim improvements, is a major priority. And, we support, 
as I will discuss in a moment, the proposal to designation of I69 as an 
interstate in the Valley now because of the link to international 
bridges.
    The plan also identifies the importance of improved connections to 
the bridges, expanded east-west connections between bridges and near 
the river and intercity loops. We have to plan these routes now and 
secure the land before development makes cost prohibitive.
    We also have to work to shift some of our trade cargo to train. 
Chairman Johnson and the Commission are working on the Trans-Texas 
Corridor plan, which will include a high-speed rail system. Getting 
some of this cargo onto trains can help all of us. But, we must get the 
rail and switching stations out of the middle of our cities. Too many 
cities experience the safety problems associated with the increasing 
frequency and length of the trains. The Mobility Plan has identified a 
number of these new rail projects.
    Chairman Johnson, the Task Force recognizes that it will be 
difficult, if not impossible, for the State to fund all of the 
statewide transportation projects, so, as I mentioned earlier, we are 
exploring creative funding solutions including Regional Mobility 
Authorities and dedicated truck lanes, to assist the development of 
construction plans. We welcome learning more about the potential for 
tolls as a means of needed projects, and hope to learn from Chairman 
Inhofe's State. I understand that the Oklahoma Turnpike System, through 
its PikePass programs, receives $60 million annually from tolls and 
serves various areas in the State.
    We are grateful for the Transportation Commission's vision and 
efforts, along with our local legislative delegation, to pass HB 3588 
and HJR 28 (Proposition 14) this last session. Both measures will give 
Texas new financing tools to generate additional sources of 
transportation funding. We are ready to work with the Commission and 
help educate our community on the importance of this proposition. In 
fact, we are preparing some guest editorials and other public 
information to encourage voters to approve Proposition 14 in September.
    We want to work with Congress on the Reauthorization of TEA-21. We 
believe that ISTEA and TEA-21 have been an integral part of making our 
transportation system safe, efficient and productive. They recognized 
the unique needs of the border area. We are seeking passage of an 
amendment to TEA-21 or new language in the Federal reauthorization bill 
that will allow our I69 segments here to be designated as interstates 
since they connect to a U.S. deep-water port or to a U.S. port of 
entry. This would allow those portions of U.S. 281, U.S. 77 and FM 511 
in the Valley to be accepted as part of the Interstate System today.
    Hopefully, SAFETEA will expand State and local funding flexibility 
as well as enhance and streamline the environmental review process for 
transportation projects. And, hopefully, it will help us with I69 and 
our other border-related transportation needs.
    The Mobility Plan is the product of regional leaders recognizing 
the importance of looking beyond the needs of a given community and 
focusing on the needs of the region, State and nation. Your presence 
today indicates that you share in these beliefs. We are ready are work 
with and assist in any way we can. We thank you for coming here today 
and for everything you do for our region, our State and our Nation.
                               __________
Statement of Hon. Solomon P. Ortiz, U.S. Representative from the State 
                                of Texas
    I want to thank Senator John Cornyn for arranging this hearing to 
talk about the important matters of transportation investment in South 
Texas. I'd also like to thank my good friend Senator Inhofe who happens 
to be my occasional constituent here in the Rio Grande Valley. The 
chairman is quite familiar with the needs of our community. I am 
currently on a trade delegation mission to the Far East, or I would be 
attending this hearing personally to deliver this message.
    Our transportation system is the lifeblood of trade and commerce 
that flows through our communities and keeps jobs here in the Valley. 
The South Texas border has unfathomable potential, and enormous 
challenges, associated with rapid changes in transportation and 
infrastructure.
    I hope today's testimony will substantiate the need for increased 
Federal funding for area roads and highways--like I-69--ports, bridges, 
and airports in the South Texas area.
    This is one of those rare pieces of geography that accommodates a 
truly intermodal transportation system, at the front door of NAFTA. The 
Rio Grande Valley sits between the worlds of North and Central America 
. . . on the Gulf Intracoastal Waterway . . . and between the Gulf of 
Mexico and the vast American Southwest.
    In the very near future, we will have a land bridge in Mexico that 
will serve as a better means of transporting cargo from global markets 
all over the world, providing more options for shippers and fostering 
greater competition for transporting containerized cargo by way of 
rail, trucks or ship.
    Just this month, the Port of Brownsville signed a sister port 
agreement with the Mexican Port of Manzanillo-Glipsa on the coast of 
the Pacific. As an established partner with sister ports in China and 
Tawian, the agreement with the Port of Manzanillo-Glipsa completes the 
last segment of a route from Asia overland by rail in Mexico, through 
the Port of Brownsville, and into the Gulf of Mexico and onto the 
markets of the East Coast of North America and Europe.
    The Rio Grande Valley sits at the crossroads of trade waters, 
interstates, and international borders--and in the midst of the trade 
that churns through our economy, both in South Texas and the Nation.
    Again, I offer my thanks to Senator Cornyn and Senator Inhofe for 
their attention to this vital part of the State of Texas in hearing 
about our transportation needs. I look forward to working with both 
senators--and the Texas delegation in the House of Representatives--to 
include these priorities in appropriations bills now before Congress 
and in the upcoming Transportation Authorization bill (TEA-21).
                               __________
 Statement of Hon. Randy Neugebauer, Texas State Representative, Texas 
                       congressional District 19
    Thank you for the opportunity to present testimony before this 
committee and its esteemed chairman. As the founding chairman of the 
Ports-To-Plains Trade Corridor Coalition I feel that I may be uniquely 
qualified to submit testimony on the issues before you today.
Beginnings
    The United States is a young country that is continually developing 
its infrastructure. The Ports-to-Plains Trade Corridor is a visionary 
approach to investing in our future by providing access and improving 
safety for rural communities located in the central part of the United 
States.
    In 1997, the City Council of Lubbock, Texas set a lofty goal. They 
decided to pursue the designation of a National High Priority Corridor 
(a NAFTA Corridor) that would serve the Central United States with a 
North / South trade route from Mexico to Canada. In 1998 the Coalition 
was organized along IH-27 with 12 member communities. They adopted this 
mission statement:
    The Ports-to-Plains Trade Corridor is an uninterrupted multi-lane 
divided highway that will transport goods and people from Mexico and 
the Border Region through West Texas, Oklahoma, New Mexico, Colorado, 
and ultimately Canada and the Pacific Northwest.
    In five short but very eventful years, Ports-To-Plains has grown to 
over 70 members including businesses, cities, counties, chambers, 
economic development groups, colleges, universities, and individuals 
along the route. And together they have accomplished phenomenal 
results.
    In 1998, the city of Lubbock, on behalf of the Ports-to-Plains 
Corridor commissioned a feasibility study to:

    <bullet>  Analyze trade and transportation issues together
    <bullet>  Determine if a case can be made to support a Ports-to-
Plains Corridor
    <bullet>  Recommend specific Corridor routes

    This was the first time a study had been conducted along the 
corridor that analyzed trade and transportation issues together. They 
found that the route was feasible based on international trade, 
traffic, existing roadway conditions and on existing regional support.
Trade
    In order to have trade you must first produce something to sell. 
Since 1990 the Gross Domestic Product of the NAFTA trading partners has 
grown significantly. The U.S. GDP has grown 5.7 percent per year. 
Canada 's GDP has grown at a respectable 2.6 percent per year while 
Mexico's has grown at an incredible rate of 9.1 percent per year. With 
this type of output available and NAFTA in place the trade of the three 
partners has significantly outpaced all other international trade. 
Between 1994 and 2000 International trade grew at an average rate of 8 
percent per year. NAFTA trade grew at an average rate of 11 percent per 
year. During the same timeframe U.S. trade with Canada grew at a rate 
of 8.9 percent per year with trade between the U.S. and Mexico growing 
at an incredible pace of 16 percent per year.
    The following illustration represents a growth rate just 13 percent 
per year projected out to the year 2010.
    The result will be 400 percent growth in trade (and traffic) by the 
tear 2010. That is just 7 years away.
Traffic
    Any way you measure it, 70 percent of this trade will travel by 
truck. All modes of transportation will struggle to keep pace with the 
demand. Truck transportation is able to adjust more quickly than others 
BUT the roads and highways they travel are not keeping pace with the 
demand. The next graph illustrates the distribution trade traffic among 
the different modes available.
    Since 1994 truck crossings in at Texas border stations are up 250 
percent. Since 1990 commercial mileage in Texas is up 37 percent. Texas 
corridors carry up to 90 percent of U.S. / Mexico truck trade.
    The Ports-To-Plains corridor is well positioned to take advantage 
of this opportunity by offering a far less congested route that 
connects Texas to far less congested border crossings at Del Rio and 
Eagle Pass. The infrastructure of Coahuila, Mexico is being improved 
rapidly to connect to these border crossings to try and alleviate the 
current congestion being felt at other border stations.
Roadway Conditions
    In 2001 the Texas Department of Transportation (TxDOT) completed a 
Route Identification Study that further served to clarify the best 
route for the Ports-To-Plains Corridor. The final route designated by 
Congress is represented by the following map:
    This route was chosen for several reasons. Chief among them were 
the significant miles of four-lane highway already in place. Roughly 50 
percent of the 1200 + mile route is already multi-lane divided highway. 
This is basically represented by the ``heart'' of the route from San 
Angelo north to Stratford. This route is unimpeded by air quality 
problems and dollars invested go further in construction than in more 
congested parts of the State.
Regional Support
    With over 70 diversified member organizations it is easy to see why 
Ports-To-Plains has been able to garner significant support to address 
the issues at hand. They have successfully pursued three significant 
Federal legislative efforts resulting their final designation as NHP 
Corridor 38. They have pursued and won inclusion in Unified 
Transportation Plans (UTPs) in Texas, Colorado, Oklahoma, and New 
Mexico. They have also successfully pursued legislative efforts in 
Texas that will result in increased transportation funding for the 
entire State.
Corridor Highlights
    The membership has accomplished a great deal with a great deal of 
help from Federal, State and local officials. The pieces of our highway 
puzzle are falling into place. Here is a partial listing of those 
highlights:

    <bullet>  General Corridor Designation
    <bullet>  Feasibility Study Completed by Coalition
    <bullet>  Ports-to-Plains Strategic Plan
    <bullet>  1st Phase of Trunk System Funding
    <bullet>  3 Summits (1 Amarillo & 2 Lubbock)
    <bullet>  Marketing Materials
    <bullet>  Website www.ports-to-plains.com
    <bullet>  Four State Route Identification Study
    <bullet>  Established 501 C6 Corporation
    <bullet>  Full Time Staff
    <bullet>  Economic Development Research Project
    <bullet>  Eastern Colorado Mobility Study
    <bullet>  Route Designation in Oklahoma May, 2001
    <bullet>  Route Designation in Texas June, 2001
    <bullet>  Route Designation in Colorado July, 2001
    <bullet>  Four State Consensus on Route July, 2001
    <bullet>  congressional Designation of the Route
    <bullet>  $24.6 Million in Federal 2002 & 2003 Funding
    <bullet>  Retained Federal Legislative Consultant
Cooperative Efforts
    Not only do the Coalition members cooperate well with each other, 
the organization has established a reputation for leading cooperative 
efforts with other transportation coalitions such as Spirit 54, La 
Entrada al Pacifico, and TEX-21. All of the transportation corridors of 
Texas desperately need infrastructure improvements if the State is 
going to be able to keep pace with transportation growth demand.
    Ports-To-Plains has also joined forces in a cooperative venture 
with two additional multi-State corridor coalitions in an effort to 
truly join the NAFTA trading partners ``at the hip'' in the Great 
Plains Region. The Heartland Express (NHP14) and the Theodore Roosevelt 
Expressway are working with Ports-To-Plains to establish the Great 
Plains International Trade Corridor. The following map represents this 
multi-lateral effort:
    To complete the package the Ports-To-Plains Coalition is scheduled 
to make a presentation in September to a transportation conference in 
Saskatoon, Saskatchewan Canada. We are also scheduled to meet with the 
Governor of Coahuila, Mexico in September. Both meetings are designed 
to begin the process of designating the trade route in their respective 
countries.
Economic Development
    Since this country was founded, two elements have been crucial in 
ensuring its growth and survival. Those two elements are trade and 
transportation. These two interchangeable entities involved not only 
the exchange of goods and services, but also that of information and 
culture. The Ports-to-Plains Coalition understands the urgency to 
improve transportation and to establish better trading patterns. There 
membership is striving to achieve this goal.
    The Ports-to-Plains Trade Corridor is a link to international and 
domestic trade markets as well as to the future economies of the United 
States, Mexico, and Canada. The Corridor will connect existing roads, 
develop intersections, and construct new portions of highway. According 
to the Texas Department of Transportation, the route will serve more 
than 5 million people.
    From a business perspective, the Ports-to-Plains Trade Corridor is 
an investment in economic development for member organizations. In 
addition, agricultural industries will see increased returns from the 
route due to the strong agricultural ties with communities along the 
Corridor. Raw commodities and heavy industrial equipment will be 
transported easier and at higher profitability for both producers and 
freight carriers. In addition, the Ports-to-Plains route will increase 
opportunities to further develop less-congested ports of entry along 
the Texas / Mexico border.
    The development of the Corridor, utilizing I-27, will provide 
alternate trucking routes around developed areas and congested 
corridors in metropolitan areas suffering major air quality problems. 
The Ports-to-Plains Corridor will connect to less congested ports of 
entry on the Texas / Mexico border. It also will allow the rural and 
urban principle arterial routes to serve as a gateway for major ports, 
airports, international border crossings, public transportation 
facilities and intermodal transportation facilities serving interstate 
and inter-regional travel.
    Through the Transportation Equity Act for the 21st Century (TEA 
21), the Ports-to-Plains Trade Corridor has been designated a high 
priority corridor. This makes the route eligible for Federal funds 
designated for the coordinated planning, design, and construction of 
corridors of national significance, economic growth and international 
or inter-regional trade. The entire Ports-to-Plains route is on the 
National Highway System and the Texas Trunk System and more than 50 
percent of the route is already a four-lane divided facility.
    When you talk to any business executive looking to relocate their 
company, you invariably hear the same question: Does your area have the 
infrastructure to support our needs through good distribution routes? 
If you can answer yes, businesses will locate to your city so they can 
have access to major highways.
    This highway corridor through the heart of America via Texas, 
Oklahoma, New Mexico and Colorado has the potential to enhance economic 
opportunities in those States. The Ports-to-Plains Corridor offers an 
opportunity to target an underdeveloped part of the country by focusing 
on balanced growth. Also, the Corridor presents an opportunity to 
develop new border crossings with Del Rio and Eagle Pass, Texas, while 
still connecting to the border crossing in Laredo. With its proximity 
to other interstates and existing national highways, the Corridor opens 
a sorely needed North / South route that currently does not exist in 
the region.
    Local governments and private organizations along the route have 
committed over a million dollars to the Ports-to-Plains Trade Corridor 
Coalition. They are putting their money where their needs are and 
making an investment in their future.
Future Focus
    Today, with increased membership and support from member 
organizations, State and Federal funding, and legislative support, all 
signs point to success for the Ports-to-Plains Trade Corridor
    What was once a modest dream shared by a handful of business people 
and politicians has now evolved into an international project with a 
full-time staff and a board of directors. The 19-member Board of 
Directors is made up from member communities all along this great 
highway. Working together the Coalition has had great accomplishments 
BUT there is still so much to do. The Coalition's strategic plan calls 
for focus on the following efforts:

    <bullet>  Inclusion in Four State UTPs
    <bullet>  Corridor Management Plan
    <bullet>  Implement Strategic Plan
    <bullet>  Market Corridor
    <bullet>  Balanced Growth for the Region
    <bullet>  Attract Businesses to the Region
    <bullet>  Promote Safety for Route (2 lane to 4 lane)
    <bullet>  Northern / Southern Connections
    <bullet>  Position Corridor for TEA-21 Re-authorization
    <bullet>  Coordinate Local PTP Task Forces
    <bullet>  Construction of Corridor Segments
    <bullet>  Alternative Financing
    <bullet>  Construction of Reliever Routes
    <bullet>  Uniform Signage of NHP's
    <bullet>  Map Designation for NHP's
    <bullet>  Expand the Membership
    <bullet>  Educate / Spread the Word
    <bullet>  Pursue Intelligent Transportation Data Systems
Funding Crisis
    As far as U.S. trade with Mexico is concerned ``all roads lead to 
Texas''. In a very real sense this situation is critical. As 
illustrated by this map, over 80 percent of this trade traverses Texas 
highways.
NAFTA Trade Patterns
    Along with the NAFTA demand for transportation services there have 
been many more issues that impact the need for transportation funding. 
Among these are population growth, demographic shifts, and increased 
mobility. Since 1970 the U.S. population has grown by more than 35 
percent. The Texas population has grown by more than 100 percent and is 
expected to grow by at least another 50 percent by 2025. Licensed 
drivers have increased by 62 percent and licensed vehicles have 
increased by 90 percent. During the same timeframe total miles driven 
has increased by 132 percent. Our infrastructure development is falling 
behind fast. Since 1970 our highway capacity has only increased by 15 
percent.
    If we are to meet the challenges ahead we must find a way to 
significantly accelerate transportation construction in this region. 
Traditionally, funding of highways has been based on traffic counts, 
engineering studies, and Federal requirements. However, with a new 
focus on corridor extensions being proposed by TxDOT, a new kind of 
thinking has emerged, the kind of thinking that will shape the 
demographics of this State. We will be able to position Texas with a 
transportation system that will help the economy grow. We realize long 
term transportation planning and implementation determines the regions 
that will be populated in the future while creating economic 
development opportunities. With this in mind, rural areas of the State 
should be ensured access to transportation facilities that assist in 
their growth and development.
    Investing in expansion of four-lane divided highways would provide 
a more efficient road system for Texas and develop opportunities for 
growth of rural areas. The Ports-to-Plains corridor is one example of 
the tremendous potential for expansion and growth opportunities. With 
its proximity to other interstates and the existing national highways 
already in place, the Ports-to-Plains initiative could prove to be an 
economic development engine for the Western portion of Texas, Oklahoma, 
New Mexico and the Eastern Plains of Colorado.
    We think TxDot's concept of focusing on completing corridors is 
very timely considering the impact trade is having and will continue to 
have on Texas roads. We particularly like the improvements planned 
along the Ports-to-Plains Corridor route. NAFTA has played a major 
role. With this in mind, the Ports-to-Plains corridor should position 
itself now for economic opportunities in the future. Coordination 
between transportation investments and local and regional economic 
development and trade related goals will help ensure that Texas, 
Oklahoma and Colorado remain competitive as States vie for capital 
investments and jobs to keep up with growth patterns brought on by a 
healthy economy and the continued increase in trade. We need to view 
transportation strategically and place ourselves in the best position 
to trade on a global level. West Texas needs sound infrastructure and 
good distribution routes in order to respond to current and future 
demands. Accessibility for businesses to be able to transport goods 
between markets, producer, and distributors is essential in today's 
market place.
    Taking advantage of trade opportunities will require corridor 
alternatives and non-traditional project criteria. We need to look 
beyond our borders and serve as the gateway for international trade.
Conclusion
    ISTEA and TEA-21 both represented significant positive steps for 
transportation infrastructure funding in this country. With the 
enormous impact of NAFTA and demographic shifting much more is needed 
soon. The bottleneck created by increased trade at the busiest border 
crossings has made investment in less congested border stations a 
necessity.
    The Ports-to-Plains Trade Corridor runs through one of the largest 
agricultural regions in the United States and the World. Today, the 
vast majority of the State's raw agricultural products--from cotton to 
cattle--are prepared for sale or consumption in retail markets outside 
the State. There is an ever-increasing need to ship products from this 
agricultural region to various markets throughout the United States and 
abroad. The Ports-to-Plains Trade Corridor will serve as a catalyst to 
develop this under served area of our country. It will ensure that our 
farmers, ranchers, and businesses have a direct route to ship their 
goods.
    The Ports-to-Plains Corridor is strategically positioned to take 
advantage of national and international commerce. There is room to grow 
along the corridor because of a lack of congestion as compared to other 
heavily congested corridors. This corridor is a true gateway to the 
Nation and the rest of the United States.
    Benjamin Franklin said trade never hurt a nation. The same cannot 
be said for those areas that have to endure long wait times as 
congestion continues to weigh heavy in the urban parts of other 
corridors. This is a major concern in Texas and other States on other 
corridors that are experiencing problems with bottlenecks along major 
arteries.
    Transportation is the cornerstone of any economy. Transportation 
infrastructure is crucial to our communities and it is an integral part 
of developing an economic engine. The Ports-to-Plains Corridor goes 
through some of the largest commodity producing areas of the country. 
We are building our corridor in a series of routes. Being able to tie 
our regions together is important in moving goods from its origin to 
the final destination points. We have worked well with other corridors 
and learned that the key to success is to connect to other existing 
routes that can enhance opportunities along the main route.
    Because about 80 percent of all truck and rail traffic goes through 
Texas and places a disproportionate weight on Texans, we need more 
funding from the Federal level. The benefit will touch the State of 
Texas and other States that connect to our route.
    Mr. Chairman, I thank you and I appreciate the opportunity you've 
given me to present this information. The Ports-to-Plains Trade 
Corridor is a project that I, and many others, have worked hard on 
through the years. As we develop this route and link to other States, 
we will develop the backbone for increased trade in Texas and for the 
Nation.













       REAUTHORIZATION OF TEA-21: REGIONAL TRANSPORTATION ISSUES

                              ----------                              


                       THURSDAY, AUGUST 14, 2003

                                       U.S. Senate,
                 Committee on Environment and Public Works,
                                                   Medford, Oregon.
    The committee met, pursuant to notice, at 9 o'clock a.m. at 
the City Council Chambers, Medford, Oregon, Hon. Ron Wyden 
[acting chairman of the committee] presiding.

             IMPACT ON THE ECONOMY OF THE PACIFIC NORTHWEST

    Present: Senator Wyden.

  OPENING STATEMENT OF HON. RON WYDEN, U.S. SENATOR FROM THE 
                        STATE OF OREGON

    Senator Wyden. The committee will come to order. Does it 
appear that the microphones are on?
    Mr. Frankel. The green light is on.
    Senator Wyden. Very interesting, the light on means mike 
off; light off means mike on. OK.
    Mr. Frankel. So we turn the light off.
    Senator Wyden. We turn the light off.
    Mr. Frankel. Is this the way they do things in Oregon?
    Senator Wyden. We are always seeking to be unique. Today 
the Senate Committee on Environment and Public Works is pleased 
to be here in Medford in beautiful Southern Oregon to have a 
chance to listen on important issues. I want to express my 
appreciation first on to Chairman Inhofe.
    He has always been very gracious and tried to work on these 
issues in a bipartisan way. Thanks go also to Senator Jeffords, 
the senior member on the other side of the aisle, for his 
cooperation. Today we are going to be zeroing in on what is my 
No. 1 priority: that is, to find ways to grow Oregon's economy 
and to create jobs.
    My view is that the best way is to increase transportation 
funding in our country and, of course, to get a fair share of 
the money for our States. The U.S. Department of Transportation 
estimates that every $1 billion additional funding creates 
50,000 good paying, family wage jobs and roughly $6 billion in 
total economic activity.
    In addition to the direct economic benefits, funding 
critical transportation projects can relieve highway congestion 
on I-5 and other key commercial routes. That congestion 
threatens the movement of freight and stalls our economy in 
addition to the frustration it causes drivers who are stuck in 
traffic jams.
    Compounding the problems for commercial traffic is the 
State's growing bridge problem. Oregon has many, many aging 
bridges that are cracking and must be repaired or replaced.
    The Oregon Department of Transportation estimates the cost 
of fixing all the problem bridges at $4.7 billion. Even more 
staggering than the cost of the repair bill is the potential 
cost of inaction. The State faces huge economic losses if these 
bridges are not repaired. The estimated impacts are $14 billion 
in lost productivity and 16,000 lost jobs.
    Now, there is a strategy that brings people together. 
Increasing transportation funding cannot only meet our State's 
growing transportation needs, it will put people back to work 
and put our State's economy on the road to recovery.
    Our State has shown that transportation is a critical 
investment for our future by passing transportation funding 
packages in the last two legislative sessions. What they've 
done in Salem could be a roadmap for Congress as we tackle 
transportation funding.
    We've been a pioneer in creating new ways to fund 
transportation such as selling bonds back by revenue from 
vehicle fees. Our State has shown transportation projects and 
economical growth can be done in ways that protect and even 
enhance our quality of life.
    It is time for the Federal Government to think outside the 
gas tank as well.
    Senator Jim Talent of Missouri and I have sponsored 
legislation to issue $50 billion of Federal bonds to fund all 
sorts of transportation projects. We call our program ``The 
Build America Bonds Program'' to give our citizens a chance to 
make a special investment in the country that can help heal our 
economy and create jobs.
    The Build America Bonds Program would also provide much 
needed relief to truckers who need to detour miles out of their 
way to avoid weight-limited bridges and to anyone in danger 
when they drive treacherous, badly maintained roads.
    Senator Smith and I have a bipartisan agenda for our State. 
We meet weekly to go over it, and he shares our commitment to 
getting Oregon's fair share of transportation funding. That's 
why this has been an essential part of our bipartisan agenda 
for Oregon for this session.
    Unfortunately, Senator Smith could not be with me today, 
but I'd like everyone to know that Esther Kennedy, Senator 
Smith's Southern Oregon representative, is here to represent 
him.
    Where is Esther? This is Esther. We welcome you and thank 
you for all of your assistance.
    We're also pleased to have here Emil Frankel, Assistant 
Secretary of Policy at U.S. Department of Transportation. He 
faced a variety of transportation challenges just in terms of 
getting here.
    Mr. Frankel, we're grateful that you would come and speak 
today for the Administration and to listen to what Oregon's 
transportation business and labor leaders have to say about the 
needs of our State and transportation arena.
    We're also pleased that our Transportation Chair, Stuart 
Foster, who has been very helpful to us on a variety of issues 
is here as well as ODOT Director Bruce Warner. Then Jackson 
County Commissioner Sue Kupillas who has done such important 
work for Southern Oregon will be testifying and heading up the 
Medford area's transportation planning as well.
    On the second panel, we're pleased to have Bob Shiprack, 
Executive Director of the Oregon Building Trades arena and our 
business leaders, Mike Burrill, Brad Hicks, and Peter Kratz. 
And I want to thank all of our witnesses.
    Why don't we begin first with you, Mr. Frankel. If everyone 
could take five to 7 minutes or thereabouts, we can have 
everybody's presentation, and then we'll have some questions.
    Mr. Frankel, welcome.

  STATEMENT OF HON. EMIL H. FRANKEL, ASSISTANT SECRETARY FOR 
    TRANSPORTATION POLICY, U.S. DEPARTMENT OF TRANSPORTATION

    Mr. Frankel. Senator, thank you very much. And it's a great 
pleasure to be here in Southern Oregon. Thank you for the 
opportunity to be here. I would ask that my written statement 
be made part of the record of this hearing.
    Senator Wyden. It will be done.
    Mr. Frankel. Let me say, as I was saying prior to this 
hearing, this is not my first visit to Medford and to Southern 
Oregon. I was not expecting to be back so soon.
    I was actually here about a month ago. My closest friend 
for over 50 years, Dr. Seth Weintraub, who grew up in 
Connecticut and spent his professional life in Florida, moved 
to Jacksonville, OR, about three or 4 years ago. He thinks that 
this is the most wonderful part of the United States.
    So, when I was in Portland for a conference about a month 
ago, I came rushing down here to visit him. It's been wonderful 
not only to be here with you and others, but to visit with him 
again. I agree with him--this is one of the great parts of the 
United States.
    This year, 2003, as you mentioned, is an extraordinary year 
for transportation issues. We have before us the 
reauthorization of the surface transportation programs, the 
reauthorization of the aviation programs, and, hopefully, 
consideration of a multi-year authorization of intercity 
passenger rail programs.
    There are few people, as your constituents know, who are in 
a more important position with regard to those issues than you. 
You are a member of the two key transportation committees in 
the Senate. While this is a field hearing of the Environment 
and Public Works Committee, I also will be talking a little bit 
about intercity passenger rail because you are a key member of 
the Senate Commerce Committee.
    As you know, Secretary Mineta has stated often that there 
are few things that have a greater impact on our economic 
development, growth patterns, and quality of life than 
transportation. This is equally true at the national, State, 
and local levels. A safe and efficient transportation system is 
essential to keeping people and goods moving and communities 
prosperous.
    Since the enactment of TEA-21, combined investment in 
highways constructed by all levels of government has increased 
sharply. Total highway expenditures by Federal, State, and 
local increased by 25 percent between 1997 and 2000 and the 
increased Federal funding levels for highway capital investment 
under TEA-21 through 2000 have been matched and exceeded by 
increases in State and local investment. And that's certainly 
true here in Oregon.
    Despite this progress, significant challenges remain. 
Building upon the principles, values, and achievements of the 
ISTEA and TEA-21, the Administration's reauthorization 
proposal, the Safe, Accountable, Flexible, and Efficient 
Transportation Equity Act of 2003, SAFETEA, which seeks to 
create a safer, simpler, and smarter Federal program.
    SAFETEA calls for a record Federal investment in surface 
transportation spending over $201 billion on highway and safety 
programs and nearly $46 billion on public transportation 
programs from fiscal years 2004 through 2009. The 
Administration's proposal marks a 19 percent increase over the 
amounts provided in TEA-21.
    One of main focuses of the Administration's proposed 
reauthorization legislation, SAFETEA, is transportation safety. 
Although we have made improvements in the rates of fatalities 
and injuries on our highways, the total numbers remain in 
intolerable, and they are rising. In 2002, nearly 43,000 people 
lost their lives on our highways and roads. Families are 
destroyed, promises lost. The economy costs are unacceptable as 
well. The total annual economic impact of all motor vehicle 
crashes exceeds $230 billion, a staggering figure.
    SAFETEA proposes the creation of new core funding category 
dedicated to safety within the Federal-aid highway program. 
This new category will more than double funding over TEA-21 
levels for highway safety infrastructure programs. The 
Administration is also seeking, as you know--and this is 
through the Commerce Committee--to consolidate and simplify the 
safety programs administered by the NHTSA.
    SAFETEA would enhance the capacity and flexibility of State 
transportation and safety officials to target scarce Federal 
safety funds on the most relevant problems facing their 
communities. Incentive bonuses will reward those States that 
achieve demonstrable safety results. Oregon particularly should 
be commended for its outstanding safety record, including an 
impressive 88 percent safety belt usage rate.
    In 2002, Oregon saw its total fatalities drop 12 percent 
from a year earlier. In fact, 2002 marks only the second time 
since 1956 that the annual number of fatalities has been less 
than 430. Considering the fact that the State's population has 
doubled, this is a truly remarkable achievement and an example 
to and model for other States.
    Unfortunately, other States have not taken safety issues as 
seriously as Oregon has. The majority of States have not 
enacted primary safety seat belt laws, despite overwhelming 
evidence linking such laws to improved reduction in fatalities. 
Enactment of the safety provisions in SAFETEA would be an 
important step in reducing highway fatalities and injuries. We 
welcome the support of the Commerce Committee in moving forward 
many of the key features of SAFETEA.
    SAFETEA seeks to improve transportation in other important 
ways, as well, including improving project delivery efficiency, 
emphasizing freight and goods movement, reducing congestion, 
and enhancing intermodal connectivity. Our proposal addresses 
the transportation problems of national significance while 
giving State and local transportation decisionmakers such as my 
colleagues on this panel, more flexibility to solve 
transportation problems in their communities.
    SAFETEA would increase State and local government 
flexibility by eliminating most discretionary highway programs 
and making these funds available under the core formula highway 
grants programs. States and localities have tremendous 
flexibility and certainty of funding under these core programs. 
SAFETEA would also establish a new performance pilot program 
under which States can manage the bulk of their core formula 
highway program funds on a performance basis of cross modes.
    The Administration believes that we can and must protect 
our environment while improving the efficiency of 
transportation project delivery. To accomplish this goal, 
SAFETEA would clarify the role of States or project sponsors 
and expedited review procedures, particularly regarding the 
establishment of time periods for environmental reviews, the 
initiation of dispute resolution procedures, and the 
preparation of Environmental Impact Statements.
    Again, an area you questioned me on, when I was before EPW, 
was environmental streamlining. I hope that our proposals move 
in a direction that you wanted, in terms of enhancing project 
delivery, while protecting the environment.
    The health and productivity of our Nation's economy is 
increasingly tied to domestic and international goods trade. 
The importance of the movement of freight is evident here in 
Oregon. On an average weekday, Oregon highways move nearly 
800,000 tons of goods worth over $480 million. I-5 is one of 
the most heavily traveled truck-freight corridors in the 
Western United States.
    I can attest to that. On my trip from Portland to Medford a 
month ago, I experienced the traffic congestion. Seattle to 
Portland truck tonnages rank among the top of Western 
metropolitan area truck trade interchanges. Oregon companies 
export over about $10 billion worth of products to foreign 
nations.
    SAFETEA enhances our Nation's freight transportation system 
in a number of ways. First, the bill invests the National 
Highway System Program funds in the often neglected, but 
critical ``last mile'' roads that connected the NHS to 
intermodal freight facilities.
    Although these roads do not represent a significant portion 
of the total NHS mileage, their health is critical to 
intermodal freight activity in many parts of the country. And I 
know that's an issue here, not only in terms of Portland, but 
also smaller ports and gateways and intermodal freight 
facilities.
    Second, SAFETEA makes several innovative financing tools 
available for private intermodal freight projects including 
amending TIFIA to make it more available in these circumstances 
as well as authorizing so-called private activity bonds for use 
in intermodal freight projects and highway facilities.
    Finally, SAFETEA requires States to designate a freight 
transportation coordinator to foster private and public sector 
collaboration to enhance intermodal freight movements.
    SAFETEA also provides valuable new tools for States and 
localities to manage existing and new capacity more 
efficiently. And these tools would be particularly beneficial 
in heavy trade corridors where congestion is both more likely 
and more costly.
    In addition, the significant amount of funding provided 
through the core programs, all these innovative proposals could 
be used to upgrade or improve the major trade corridors like I-
5, which as I mentioned, is one of the most congested 
corridors.
    Working with the Portland/Vancouver, Washington I-5 
Transportation and Trade Partnership and with our State 
partners in Oregon and Washington, USDOT is excited to begin 
the process of implementing that partnership's comprehensive, 
strategic vision of highway, transit and rail capacity 
expansion, better system management and environmental 
protection.
    Finally, as I mentioned, I'd like to touch briefly on 
intercity passenger rail. As you know, the Bush Administration 
recently transmitted to Congress the Passenger Rail Investment 
Reform Act of 2003, the first comprehensive proposal to 
fundamentally reform the Nation's intercity passenger rail 
system in 30 years.
    The Administration's proposal would bring investment in 
intercity passenger rail in line with all other transportation 
modes by creating a system in which States and local 
communities, using capital investments supported by Federal 
funds, operate rail service in their areas.
    This proposal builds on proven models of success in 
attracting riders and providing quality service for travelers, 
such as the Cascades service between Portland and Seattle and 
other State-funded trains in California and Illinois.
    States and multi-State compacts would submit proposals for 
passenger rail capital investment and train operations to the 
USDOT. Ultimately, States would be free to choose the train 
operations provider of their choice, whether a private company, 
a public transit agency, or Amtrak.
    We don't claim to have all the answers. I know that you 
have some substantive points of disagreement with the 
Administration's proposal, but I do hope that it has stimulated 
debate about fundamental issues. I do think--and perhaps we can 
talk about this more--that it is important to recognize the 
need to change the current model. Together we should try to 
reach consensus on a model that can be more successful, more 
sustainable, more supportive of States like Oregon, which has 
invested so much of its own money in this.
    These are challenging and exciting times for the 
Department, for Congress, and the entire transportation 
community. We must work together for long-term reauthorization 
of surface transportation and intercity passenger rail 
programs.
    Enactment of these bills is critical, not only for funding 
stability, but also to implement innovative reforms that will 
provide more revenue dollars without raising taxes and produce 
cost savings through more efficient investment of the dollars 
that are made available.
    Senator Wyden, this concludes my statement. I thank you 
again for the opportunity to testify here in this wonderful 
part of the United States. I'll be pleased not only to respond 
to any questions, but I'd also like to listen to my colleagues 
from the State and local level, and to hear what they have to 
say about transportation. Thank you very much.
    Senator Wyden. Thank you, Mr. Frankel. We're very glad 
you're here, and again note that it was a challenge for you to 
make your way across the country. We appreciate it. I'll have 
some questions here in a moment.
    Mr. Foster, we welcome you and know that you have put in a 
lot of years of yeoman service for Oregon on these issues. Go 
ahead, and I'll be anxious to hear your thoughts.

   STATEMENT OF STUART FOSTER, CHAIR, OREGON TRANSPORTATION 
                           COMMISSION

    Mr. Foster. Thank you, Senator Wyden.
    We really appreciate this opportunity to discuss the 
reauthorization of TEA-21. As you know, I'm the Chair of Oregon 
Transportation Commission known as OTC, and I also really 
appreciate you holding these hearings in Medford. I'm a 
resident of Medford, long-term resident of Medford, and a small 
business owner in Medford.
    On behalf of the commission and ODOT, we'd like to express 
our appreciation to the committee and to you for your part in 
drafting TEA-21. I know you were a leader in getting Oregon 
additional funds in that.
    When that was done 6 years ago, it resulted in Oregon 
getting 50 percent more funding than it had before. So thank 
you very much, Senator.
    Senator Wyden. You're welcome.
    Mr. Foster. Looking ahead to reauthorization of TEA-21, the 
State's developed a position paper on reauthorization together 
with the Association of Oregon Counties and the League of 
Oregon Cities. I've submitted a copy of that position paper 
with my written testimony, and our No. 1 priority is to 
increase funding in the State of Oregon for the State of 
Oregon.
    There are three compelling arguments why Oregon should have 
its former funding increased in the next bill. As you pointed 
out, we have a tremendous bridge problem in Oregon, a $4.7 
billion bridge problem. It's simply too large for us to deal 
with on a State basis.
    Without Federal help, more bridges will be weight limited, 
affecting the movement of freight not only within the State or 
nationwide. Second, experts forecast, notwithstanding the 
amount of freight traffic that we have now on the Interstate 
system, that freight traffic in the Pacific Northwest will 
outpace the national average.
    The State's aging transportation system and congested 
freight corridors such as I-5, particularly in the Portland 
area, will not be able to accommodate this growth without 
greater Federal investment.
    Third, Congress should recognize the effort the State of 
Oregon has made to address the bridge problem and growing 
congestion. That's not only the State of Oregon, but local 
government. For example, the city of Medford is going to 
contribute $15 million to rebuild the South Medford Interchange 
on I-5.
    The Governor and the State Legislature recently enacted a 
State funding package that, when bonded, will generate $2.5 
billion, 1.9 of which will be dedicated to repair and replace 
deficient bridges and $100 million is dedicated to projects 
that improve freight mobility.
    Prior to adopting the position paper, OTC and our local 
partners took considerable time discussing the issue of high 
priority project earmarks. It is important for the Committee to 
understand how these earmarks impact the State and local 
communities.
    There are three thoughts I'd like to leave with you: First, 
when earmarks partially fund a project and the project sponsor, 
for example, local government, does not have funding set aside 
to make up the shortfall, other projects that have been vetted 
through the public involvement process are delayed or canceled 
to free up funding for the earmarked project.
    Second, when funding is earmarked for a project that has 
not been evaluated by a State or regional prioritization 
process, those that play by the rules are penalized.
    Last, if funding is earmarked for a project that has not 
cleared most Federal and State environmental requirements, 
construction will not begin for many years, thereby losing the 
immediate benefit to the State of funding projects that are 
ready for construction, which as you pointed out, is important 
in light of Oregon's economy for us to able to get these 
projects on the ground and going. So we need to have earmarked 
projects that are ready to be built.
    Based on our experience with TEA-21, we strongly urge you 
to fully fund the high-priority projects identified by the 
Commission. The Commission worked very closely with our 
commissions on transportation known as ACTs to develop this 
list of projects. The funding has been set aside for these 
projects so, if they are earmarked, we will be able to build 
them. The Governor and the Commission want to do everything we 
can to put Oregonians to work now with good paying jobs.
    I want to take a moment to talk about collaboration. The 
commission and ODOT are continually working to improve the way 
we work with Federal and local partners to ensure that we 
maximize the use of local funds and that we did it on a 
partnership basis. In Oregon the general public, cities and 
counties, metropolitan planning organizations, regional 
governments, and representatives from business community and 
private sector participate in the planning and funding 
prioritization process mandated by Federal law.
    We have implemented significant new initiatives to 
strengthen this collaborative effort. For example, we formed a 
stakeholder group that is refining the process by which the 
State identifies and prioritizes projects for Federal funding.
    We've established among the agencies an agreement with 
Federal and State resource agencies on environmental 
stewardship and streamlining known as the Collaborative 
Environmental and Transportation Agreement on Streamlining, and 
we've encouraged all regions of the State to form ACTs 
commissions on transportation. And for all practical purposes, 
that has occurred.
    ACT's are regional advisors to the Commission. Local 
governments, transportation providers, and private stakeholders 
in each region of the State are invited to meet regularly to 
prioritize projects and make funding recommendations to the 
commission.
    We work closely with ODOT regional staff. Most of ACTs 
encompass two or more counties. The idea is simple yet 
innovative for a State transportation agency. You have local 
communities, local stakeholders in a more meaningful role in 
Federal funding and transportation policies.
    From the State's points of view, ACTs have brought more 
people to the decisionmaking table, which is leading to better 
decisions.
    As this committee considers how Federal formula funds will 
be allocated among the States in TEA-3, we want to make sure 
that you are aware that the Federal funding entrusted to ODOT 
is spent collaboratively and that all Oregonians are 
benefiting. It is another important reason to support 
increasing Oregon's share of the Federal highway formula 
funding and fully funding the list of projects approved by the 
Commission and submitted to the Oregon Delegation for High 
Priority Project funding.
    This concludes my remarks. I thank you, Senator, for being 
here, and I will be more than happy to respond to your 
questions.
    Senator Wyden. Very good. Thank you. Excellent statement.
    Mr. Warner, I know that you have a big load these days. 
You've got the State legislature still in session, and you all 
have just been very helpful and constructive and easy to work 
with, and we appreciate all your leadership and welcome your 
remarks.

   STATEMENT OF BRUCE WARNER, DIRECTOR, OREGON DEPARTMENT OF 
                         TRANSPORTATION

    Mr. Warner. Thank you, Senator, and good morning. For the 
record, I'm Bruce Warner. I'm the Director of the Oregon 
Department of Transportation, and I too want to thank you for 
the opportunity to discuss the importance of the Federal 
investment in transportation here in Oregon and the Northwest 
and tied into it the reauthorization of the Transportation 
Equity Act for the 21st Century, whatever we're going to call 
the next edition of this.
    It's clear in your opening remarks and what you're hearing 
here, the people on this panel understand some of the issues 
confronting Oregon and the Northwest. And what I want to 
briefly do--and you have my testimony as part of the record--is 
talk about the distinctive importance of transportation to the 
Northwest's economy and two specific challenges which you've 
heard about.
    I'll give you some specifics that will help you in terms of 
understanding the real on-the-ground impact of some of these 
problems. Before I really begin that, I do want to again really 
thank you for your leadership on transportation issues. You've 
been a tireless advocate in the Senate for improving all modes 
of transportation here in the Northwest, and we really 
appreciate that.
    So on behalf of the Department and the State, I want to 
thank for your efforts, and we do look forward to working with 
you and your staff in building the next Transportation Equity 
Act and make sure that it's as good for Oregon as TEA-21 and 
ISTEA were. And they were good for Oregon, and you've heard 
some of the good things we have done with those funds.
    What I want to discuss for you is that the Pacific 
Northwest's regional economy is built on transportation-
intensive industries: Agriculture, construction, transportation 
equipment, wholesale and retail trade, and manufacturing make 
up 54 percent of Oregon and Washington's economy, which is much 
greater than the Nation as a whole; and therefore, the 
efficiency of the transportation system affects the 
competitiveness of Oregon and Washington businesses.
    To gain and keep our competitive edge in reaching those 
national and global markets you've heard about earlier, the 
region must have a reliable and cost-effective access to 
businesses, farms, ports, airports, and trade partners.
    And efficient transportation is also important because the 
economy of the Northwest is dependent on that global trade. You 
heard some numbers, and I want to give you one. Oregon and 
Washington combined export $45 billion worth of products each 
year.
    If you look on the I-5 corridor, I think the statistics 
I've seen at one time or another, 25 percent of all imports and 
exports in the United States are at one time or another on that 
corridor between Canada and Mexico, to just give you an idea of 
the importance of the corridor.
    And if you look at that $45 billion of export from Oregon 
and Washington, it's about twice what you see in other regional 
areas of the United States.
    And there is a growing concern and, I think, a rightful 
concern that the existing transportation system is not capable 
of supporting the growth and freight movement that we expect in 
coming years. And to highlight that, our numbers show that 
import and export tonnage is expected to double by the year 
2020. And the domestic freight tonnage is expected to increase 
by 70 percent, and a particular concern is how our bridge 
problems and congestion on the interstate corridor are going to 
impact those areas.
    You touched on the bridges and the issues. I just want to 
give you an example. On I-5 right now there are currently 12 
bridges that are weight restricted; in other words, the trucks 
cannot go over with legal loads.
    Total replacement costs of those 12 bridges is $187 
million, and if we didn't have some investment from the Feds 
and from the State government, we would expect that 30 percent 
of our State bridges would be load posted by the end of this 
decade.
    That would give you an idea of how important the 
legislature's investment was and how important we think the 
Federal investment is. And I want to also say I really do 
appreciate your efforts to try to get additional dollars for 
bridges and get Oregonians back to work through your Wyden-
Talent proposal, the Build America Bonds Program. I hope you're 
successful, and we'll be sure to get some of those moneys to 
our bridges and other infrastructures if you're successful.
    One thing I think you don't understand, most people don't 
understand, is the impact weight-limited bridges have on the 
Interstate, for example, to some of the communities along those 
routes. If you load limit a bridge on Interstate 5, you're 
going to put trucks on roads that were never designed to carry 
those large trucks, and sometimes those are the main streets of 
our downtown.
    I'll give you an example: My second day on the job as the 
Director about two and a half years ago, I was told that we 
needed to post the Forge Bridge near Roseburg to 64,000 pounds. 
The little community of Riddle adjacent to the freeway, before 
we put up those postings, had about three trucks that went 
through downtown on a daily basis.
    When we enacted those restrictions and during the 6 weeks 
of emergency repair, there were 1,500 large trucks a day going 
through downtown Riddle. You can imagine the impact on that 
community and to the road system. And another things is I think 
if you--I'm sorry to hear from my counterparts that Oregon is 
not alone with the problems in bridges. You're starting to see 
this problem pop up around the United States. It's something I 
think you need to address in the next edition of the Surface 
Transportation Act.
    It's important to know the bridges we built in the 
Interstate era of the 50's and 60's are, quote, ``quickly 
approaching the ends of their useful life.'' 50 years is what 
they are designed for, and guess what? They are starting to 
wear out at this 50-year mark. The $2.5 million that the State 
has given us in new funding is going to help, but we can't do 
it alone especially on the Interstate corridor, and the Federal 
Government must be part of the solution. And I urge the 
Committee to look at ways to address this problem in the next 
authorization bill.
    Some options I might suggest are updating the current 
bridge formula to better direct resources to this particular 
problem or even setting aside a discretionary bridge funding as 
was done for California in TEA-21 following the earthquakes in 
the early 1990's, which addressed some of their major issues.
    And then the second issue I do want to touch on a little 
bit more is just congestion in the I-5 corridor, especially 
dealing with highway and rail crossing over the Columbia River, 
but all up and down the I-5 corridor. And the I-5 and the River 
has become a major choke point, and we've done an economic 
analysis.
    I think you have the summary of that attached to my 
testimony, which shows that the costs of delay to trucks in 
that corridor currently is about $14 million a year. And by the 
year 2020, that's expected to increase 140 percent to $34 
million a year in today's dollars; so you know that's going to 
be more in the future.
    And the rail network is equally congested, and that's 
another issue we're working on; in fact, the level of 
congestion in our rail system in the Portland area is 
equivalent to what Chicago sees. So that gives an idea of the 
magnitude of that.
    The cost of congestion affects most motorists and trucks, 
but freight is clearly disproportionately affected as 
congestion spreads into times trucks have to work around, both 
in the morning and the afternoons. And they lead to higher 
transportation costs and limit some access to jobs for folks 
and their labor force.
    So the bottom line is Oregon businesses will find it harder 
to compete in the domestic and global markets as congestion 
threatens their productivity. And what I want to make clear to 
you is we've been working very hard with the Washington 
Department of Transportation and with your counterparts on the 
other side of the river.
    And we have a unique collaborative process where we've 
worked with citizens, with businesses, and interest groups to 
come up with a solution to that corridor. And with the money 
made available through the Federal reauthorization last time 
and the identification by Congress of I-5 as a corridor of 
national significance, we've been able to make progress.
    And if we're able to secure money for that corridor, I want 
to assure you of the political consensus on what we've been 
doing there, and we'll start moving projects forward toward 
construction as quickly as possible. I think you may want to 
look at, again in the reauthorization, of making sure that when 
you start talking about some of these important corridors, that 
you really do focus the efforts and resources in the corridors 
that are truly significant to the Nation, like the I-5 
corridor.
    And that's hard to do, I know. I think there is a number of 
corridors which could be identified, in other words, limit the 
number of corridors that are important and would receive 
funding under that program if it's continued in the next 
reauthorization.
    So with that, I think I'm going to conclude. I want to 
thank you, Senator Wyden, and your Committee for your strong 
support of dealing with this issue. You've heard the importance 
of freight in the Medford area itself and some of the things 
we're trying to do to keep the I-5 corridor operating down 
here. But again, as you move forward, I do strongly encourage 
you to think about bridges and again strengthening the national 
corridor program and focusing a bit more on those corridors 
that are truly of nationwide significance.
    Again, thank you. I think I'll stop there. If you have any 
questions, I'll be glad to answer.
    Senator Wyden. Good recommendations, and we thank you.
    Sue, welcome.

     STATEMENT OF SUE KUPILLAS, JACKSON COUNTY COMMISSIONER

    Ms. Kupillas. Thank you.
    Good morning, Senator Wyden. I hope you can here me. I'm 
far from the microphone. Thank you so much for having the 
hearing here in Medford this morning. I think that--well, my 
name is Sue Kupillas, and I'm a County Commissioner here in 
Jackson County as well as a chair of the Metropolitan Planning 
Organization.
    I work with a group of cities and special districts as well 
as the County to prioritize the projects that we're interested 
in for Jackson County. So I'll talk a little bit about those 
today and the importance of actually addressing those needs in 
Jackson County as it affects our economy. You so well stated 
that this is one way to jump start the economy in our area.
    I want to also thank you for the level of funding we've had 
in Oregon. We're sort of--we have a number of opportunities 
here with your leadership in Congress with you working together 
with Senator Smith.
    Senator Wyden. Yes.
    Ms. Kupillas. I think that's unique in the United States 
that we have Democrats and Republicans working together in 
Oregon. You do much better in Congress than we have in the 
State legislature.
    Senator Wyden. Senator Smith likes to point out that there 
aren't Democratic roads and Republicans roads, just 
transportation.
    Ms. Kupillas. That's right. And the other benefit we have 
is having somebody of the stature of Stuart Foster who is from 
the Medford area who is chair of the Transportation Commission, 
and I think with this kind of strength that we have some 
opportunities in this next go around to address the funding 
issues that we need to.
    I want to talk a little bit about Oregon counties because 
we have been working together with the Transportation 
Commission to look at the issues that we have. Our counties are 
responsible for more than 27,000 miles of county roads and 
6,580 miles of local access roads, 4,000 bridges with one 
dollar in every four dollars that we need for repairing and 
keeping them in good condition. Counties have 15,600 miles of 
paved roads. Of that number, more than 13 percent of the 
pavements are in poor or very poor condition.
    In Jackson County 1,720 miles of paved road and 220 miles 
of gravel road. We have approximately $10 million in backlog of 
projects on roads which should be done in the next 5 years. 22 
bridges need repairs, totaling around $44 million.
    Jackson County, like many counties in Oregon, is being 
significantly impacted by large population increases, which are 
creating more and more congestion problems in our urbanizing 
communities. Our population is growing at over 3 percent a 
year.
    Our priorities for the next funding bill--whatever the name 
is--I call it TEA-21 reauthorization, we do need an increase in 
Oregon's annual highway formula funding, and that's probably 
our top priority as the MPO.
    We also are interested in Federal transit funding. It must 
be increased, and I agree that public transportation systems 
are absolutely vital even in our area where we don't have the 
population to totally support it. We do need to have those 
public transportation systems.
    And then the basic structure of TEA-21 works, and that 
should be retained, and I think a lot has been said about the 
bridge rehabilitation and replacement program; so I'm not going 
to go into detail, but absolutely that's a top priority for 
Oregon and for Jackson County.
    In the past TEA-21 projects in Jackson County, we got 
funded $19.6 millions on the North Medford Interchange, the I-5 
viaduct structural overlay and seismic retrofit received $15.4 
million, and that's pretty much, and that pretty much completed 
I-5's Interstate Maintenance preservation project at $12.8 
million. And the Highway 62 Linn-Dutton widening project was 
funded at $11.7 million, and those projects are all pretty much 
completed.
    I want to talk about a couple of priorities for the that 
the MPO has recognized and that Jackson County has recognized. 
Future priority is widening Fern Valley Road to a five-lane 
section from Highway 99 eastward over I-5 to North Phoenix 
Road. It will add capacity on Fern Valley Road as well as 
provide safe vehicle, pedestrian, and bicycle movements.
    The project is eligible for Federal funds because of the 
need to build a new higher capacity interchange to meet the 
congestion needs of the area. The request for earmarked funds 
is $20 million. That, plus State and local matches will total 
around $36,000.
    And this is one of the first truck stops from California on 
I-5, and so at this particular time--I travel through that 
intersection a lot--it's extremely congested and a very top 
priority for the future.
    And another priority is the Highway 62 expressway between 
Medford and White City. Jackson County has managed the Jackson 
County Urban Renewal Project in White City for 12 years. This 
project is a significant economic development project, as the 
largest industrial park in the county is in White City, and 
it's within the project boundaries. The industrial park is an 
economic engine for all of Jackson County providing hundreds of 
family wage jobs with benefits as well as manufacturing 
projects desired all over the world. Rail and truck freight as 
well as efficient access to I-5 are key to this continued 
expansion of this White City project in our industrial park.
    And I might add that one of the ideas that our county 
commission has also brought forth is extending 140, Highway 140 
to I-5, and that isn't on a priority list, but I've attached a 
letter from our new commissioner Dave Gilmour that talks in 
more detail about what we're doing to get that back up on some 
kind of a list.
    One of the most important projects on Highway 62 expressway 
is from Delta Waters, milepost 1.59 in Medford to Linn Road, 
milepost 10.6 in Eagle Point. The highway is part of the 
National Highway System from milepost .41 to the State Highway 
140 intersection.
    Current average daily traffic is around 43,000 vehicles per 
day; so it's traveled as much as I-5 at many times and certain 
times of the day, and it's projected we'll have 57,000 vehicles 
on that within the next 20 years. So the Highway 62 corridor, 
we have the study out on it now, and we are looking for funding 
to actually complete some of the projects along there which 
will be a main expressway which will help us with freight as 
well as with the vehicles, with moving vehicles in Jackson 
County.
    Then there's another issue that I wanted to talk about that 
the Transportation Committee should pay attention to, and it's 
created by an omission of the House Appropriations Committee, 
and it's a little bit separate from TEA-21 reauthorization.
    But the Transportation and Treasury Appropriations Bill on 
the house side eliminated funding for transportation 
enhancement, and as you know, we had the Bear Creek Greenway 
which is a major pedestrian bikeway through Jackson County. We 
just yesterday, I believe, signed an agreement with ODOT and 
the County to work together on a portion of that.
    These transportation enhancement dollars are absolutely 
vital to make sure that we have alternative methods of 
transportation. Our goal is to link our cities completely 
through along the corridor of I-5, and there's another group in 
Rogue River who has the vision of actually extending that to 
Rogue River with sidepaths off to Gold Hill at Eagle Point, 
which would just be a major, major alternative transportation 
for our entire county, but without the transportation 
enhancement funds, we can't do that.
    Senator Wyden. I think my staff tells me that the full 
House Appropriations Committee put back the enhancement 
funding.
    Ms. Kupillas. That's great.
    Mr. Sandberg. That's correct.
    Mr. Frankel. If I might say, Senator, my understanding is 
the full committee mark would make enhancements eligible for 
STP funds. It would make enhancements an eligible activity, as 
opposed to the mandatory set-aside fund. That's in the full 
committee mark.
    Mr. Sandberg. The intent is to have that mandatory program 
show that funds will be reserved, or set aside.
    Senator Wyden. Well, I think we don't mean to interrupt 
your excellent statement, Commissioner Kupillas. I think it's 
the intent of the Senate that this be a mandatory program; that 
we ensure that these kinds of excellent initiatives you're 
talking about actually get done. Obviously, the Senate and the 
House will go back and forth on that, but you finish your 
statement and know that you've got a lot of support for the 
program.
    Ms. Kupillas. Thank you. I very much appreciate that. 
That's a very significant project in our county, and actually, 
I have almost completed my statement.
    We have had one of the highest jobless rates in the United 
States in Oregon and in Jackson County. We have had 8.5 
percent, a national high unfortunately, as I'm sure you're 
totally aware, and it's currently fallen to 8.1 percent, which 
is still very high.
    So an infusion of transportation dollars into our sluggish 
economy will certainly give us a short-term boost, with the 
long-term benefit of more efficient systems to serve our 
rapidly growing freight industry and general population. And I 
might add that I echo that it has to be a balanced approach 
that we have. We have tremendous collaboration, I think, the 
leaders in the State on our collaborative efforts at 
prioritizing transportation projects and then working with our 
air quality committee to make sure we address the environmental 
issues of transportation.
    With that, I'll conclude my statement, and I would be happy 
to answer any questions. Thank you.
    Senator Wyden. OK. Thank you all. Excellent statements, and 
you know, it's quite obvious that you cannot have big league 
economic growth with little league transportation systems. It's 
just that simple, and that's what we're focusing on. We haven't 
even really gotten to the agricultural sector. And we do a lot 
of things well in this State, and the best is we grow things. 
If you want to transport agricultural products, you need big 
league transportation. And all of you have been excellent.
    Let me begin, if I could, with you, Mr. Frankel. As you 
know, the Secretary and I came to the Committee, and he said, 
quote, ``Nothing has as great an impact on economic development 
as quality of life and transportation,'' but when I do the math 
for the SAFETEA reauthorization proposal, as far as I can tell, 
we're looking at a cut in transportation spending for the 
upcoming year.
    The current fiscal year 2003 funding is $31 billion. By my 
calculation, the Administration SAFETEA proposal called for $29 
billion for fiscal year 2004. That would be a cut of $2 
billion, and $2 billion translates into almost 100,000 fewer 
jobs.
    Now, maybe you should enlighten us as to what's going on 
here because obviously we all want to have the job growth and 
job creation next year. The Secretary, it seems to me, is 
absolutely right in talking in terms of how important it is, 
but if we're going from $31 billion in this fiscal year and the 
Administration is to go to $29 billion, that would be of some 
concern to me, and maybe you could give me your assessment of 
all this.
    Mr. Frankel. I'll be glad to, Senator, and I might say if 
one looks at 6 years, as opposed to 1 year, as the Secretary 
has indicated in testimony and statements, SAFETEA proposes a 
record level of funding and would increase spending over the 6-
year life of SAFETEA.
    We've tried to strive in our proposal for prudent spending. 
It's not as ambitious certainly as the bipartisan leadership of 
the House Transportation and Infrastructure Committee, nor as 
high as the budget resolution as amended by the Senate. But 
nonetheless, we think it's the appropriate balance between 
investment and the transportation system and fiscal 
responsibility.
    We do have a concern the adopted level for spending for the 
current fiscal year, fiscal 1903, which is at a level above 
what the Administration recommended, represents a draw down of 
the balances in the trust fund.
    The House Appropriations mark--we were just talking about 
it in connection with the enhancements program--that figure is, 
I think, about $34 billion. I don't know whether it will 
finally be adopted. That represents a further draw down on the 
trust fund balances, and at that level of spending, unless we 
have a substantial increase in resources available to the 
Highway Trust Fund, the Highway Trust Fund is going to go broke 
during the life of SAFETEA.
    The President has indicated that he does not favor 
increases in the gasoline tax. With all due respect to the bold 
and imaginative proposal that you have cosponsored in the 
Senate, as you know, Treasury Secretary Snow has indicated his 
opposition to bonding. However it is done, it will increase the 
deficit.
    In trying to strike the right balance between investment 
and concerns about increasing the deficit or increasing taxes, 
we think that SAFETEA has found an appropriate level. We hope 
that it will be adopted ultimately by Congress and that its 
authorization will be respected in the appropriations process, 
not only for fiscal 2004, but throughout the reauthorization 
period.
    Senator Wyden. Well, it's not your bailiwick for national 
priorities, but I am troubled. We're going to spend a billion 
dollars a week in Iraq, I guess, and somehow we don't have the 
money for the kinds of transportation projects, you know, here 
at home. And I'll talk for a minute in a second about what the 
Administration is against.
    What we want to do is work with you on a bipartisan basis 
so we can afford something that will get this work done. That's 
what Senator Talent and I did by talking to the bond market and 
others who think our idea is a very innovative one, and let me 
start by saying that what seems to me to be, you know, 
particularly frustrating for communities and States is the way 
this ritual seems to play out.
    When the Administration first put out a transportation 
budget for this year, the amount was around $23 billion. Now, 
Congress said, on a bipartisan basis with these record votes in 
the Senate, that this was not our sense on bipartisan basis of 
what we needed for transportation. So the Administration then 
went to $27 billion.
    In the end, the President signed the bill with the funding 
level that I mentioned $31 billion. So now a year later, we've 
got the Administration proposing transportation funding levels 
significantly below what the vast majority of Members of 
Congress say is needed and, in my view, clearly below what's 
needed for the country.
    So I guess the question is how many times are we just going 
to keep replaying this same game over again, and are we going 
to have the same kind of drill, you know, this time. And I 
think probably the most important question for Oregonians today 
is that, if Congress passes the higher transportation funding 
level again this year, that is what the Senate has been looking 
at, is the President going to veto the bill? Then we've got to 
say to Mr. Warner and Mr. Foster and Ms. Kupillas, wait around 
and hang in limbo.
    Mr. Frankel. First of all, I'm obviously not authorized to 
use the ``V'' word, although the Secretary of the Treasury did 
suggest that in responding to various proposals. Let me say, as 
you well know, Senator, that I think it's not quite appropriate 
to refer to a veto. The Administration's proposal for funding 
for fiscal 2003 was $23 billion plus, but that was really an 
application of the so-called RABA mechanism, which Congress 
enacted in TEA-21, with which you are familiar.
    SAFETEA proposes to continue the RABA mechanism with some 
modifications, as well as to continue TEA-21's provisions that 
funds raised from the transportation system should be 
reinvested in the transportation system, that is, the fire 
walls. That was an essential element of TEA-21, one of the 
significant reforms of TEA-21, with which I'm sure which you 
were involved. And the money to be raised should be spent as 
quickly as we can determine.
    The RABA mechanism, which I think over the first 4 years or 
5 years of TEA-21, provided an additional $9-plus billion in 
spending above and beyond the authorized levels, when applied 
to 2003, was below the authorized level. That was the basis of 
the Administration's proposal. And by going above that, even 
with the $27 billion and certainly to the $31 billion, required 
a drawdown on the trust fund balances, which we cannot keep 
doing.
    Senator Talent and you have taken a step to avoid that by 
proposing to augment resources by borrowing. It's a proposal 
that the Administration does not support, but nonetheless, I 
think, does represent an indication that if we're going to 
spend at the levels talked about by Congress on a bipartisan 
basis, then we've got to augment resources.
    Senator Wyden. That's what the Senate has been trying to 
do, and every time we tried, Democrats and Republicans, the 
Administration, says here's what we're against, and it doesn't 
say here is what we're for.
    And do you think it's at all odd that the Federal 
Government and now the Administration for the bipartisan 
proposal, Senator Talent who is a Republican and myself, do you 
think it's at all odd that the Federal Government is the only 
entity on the planet that's not willing to look at bonding?
    I mean, everybody else, State and local, is doing it. We 
worked with Wall Street. They think our approach is 
particularly innovative because we're looking at a tax credit 
approach; so we really are looking at much less exposure for 
taxpayers than other traditional approaches, and you know, I 
just want to get something I can work with the Administration 
on.
    You've told us the Administration--that all of the 
following, A through Z, is unacceptable. All of this is off the 
table, and people like myself and Senator Talent is saying here 
is a bipartisan group of us that wants to work with you on 
things that we think will get it done, and we need to get a 
sense of what those answers are because it isn't going to 
happen by osmosis.
    And if the Senate is now at $31 billion this year--I mean, 
all this math is awful hard for people to figure out when you 
draw down this and draw down that--if we're at $31 billion now 
and the Administration publishes documents and their documents 
come in at $29 billion for this year, you don't have to be a 
rocket scientist to figure out that's a cut.
    And somewhere along the way we've got to find some way to 
get to common ground, and maybe for purposes of just this 
round, give me your sense of how we can work together in some 
way to find what we're for and find a common ground and get 
these good people the tools they need.
    Mr. Frankel. I want to reiterate that I think we have to 
look at 6 years versus 6 years. As the Secretary has indicated 
in appearances before both transportation committees on which 
you serve, that the Administration's proposal, while showing a 
dip from fiscal 2003 to 2004, over the life of SAFETEA 
represents a record level of investment.
    The increases are not as high as many favor, but 
nonetheless they do represent quite substantial increases in 
spending in the SAFETEA reauthorization versus TEA-21. I think 
that is the place to start. Really, it's not appropriate for me 
to get into the details of either the proposal Senator Talent 
and you have cosponsored or into various specific bonding 
mechanisms.
    Senator Wyden. Are you all looking at any ideas for ways in 
which we can find this additional revenue? I want to be 
sensitive to your not----
    Mr. Frankel. There are proposals other than increases in 
the motor fuel taxes--reenactment of the initial reforms of 
TEA-21, and the proposal, which I think is pretty broadly 
supported in the Energy Bill pending before the Senate, to 
transfer the 2.5 cent tax on gasohol or ethanol from the 
General Fund to the Highway Trust Fund.
    Also, we propose drawing down the Trust Fund balances, just 
not as dramatically, if you will, as some other proposals 
would; so I think those are the areas of agreement.
    I think in terms of bonding mechanisms--and let me comment 
about that not based on my current position, but from the 
position I once held like Bruce's that is, heading a State 
agency in size and budget very comparable to Oregon's. I 
headed, as you know, the Connecticut Department of 
Transportation for 4 years, and our capital program was almost 
entirely from bond funds, despite my efforts to shift more to 
pay-as-you-go. I thought I accomplished that, but the 
legislature figured out some other use for that money.
    But the difference is that there were dedicated revenue 
streams to service that debt. To compare that to what is 
proposed--and again, I don't mean to get into the details of 
your proposal or some of the other bonding proposals--what's 
proposed is really not comparable to what States do, where they 
have designated revenue streams to service transportation-
related debt.
    Senator Wyden. Now, the Secretary talked favorably at one 
point about tax exempt status for bonds for freight projects. 
Is that still something that's on the table?
    Mr. Frankel. I think that is probably a reference to the 
so-called private activity bonds. That is very much on the 
table. We're very hopeful that Congress will enact private 
activity bonds, which are private bonds, private borrowers in 
which tax exempt status is available for some transportation 
projects, but not all. And we would allow authorized private 
activity bonds to be utilized in connection with the highway 
and intermodal freight projects.
    That is very much on the table. I might say that my 
colleagues and friends who served in the prior administration 
are amazed that we got that proposal through OMB and the 
Treasury, the professionals there, not on a political basis, 
but we did get approval. We hope it will be favorably 
considered.
    Senator Wyden. I hope that you will look at other ideas to 
help us get the transportation funding that the country needs, 
and I think that when you look both at the economic multiplier, 
I think we all agree that there is no economic multiplier out 
there like transportation.
    We have this huge backlog, and the approach that Senator 
Talent and I are pursuing, we think this is a chance to really 
get the country excited about where we're headed in 
transportation, and I look forward to the day when we give our 
children and our grandchildren a Build American Bond, and they 
can learn the value of saving and thrift, and at the same time 
do something that will make our country a stronger and safer 
place.
    I want this part of the questions to wrap up by making sure 
that the olive branch is extended----
    Mr. Frankel. I appreciate that.
    Senator Wyden [continuing]. In a very direct fashion. We 
are open to any and all ideas. I think it is just clear that 
we're going to have to find a way to get these funds in order 
to address both the economy and transportation needs that the 
country has, and as we put things off the table, let's figure 
out a way to get some things on the table. And we appreciate 
your cooperation in that regard.
    Now, on the bridge situation, we've got 487 cracked bridges 
that are owned by the State. The cost of them is $4.7 billion. 
Now, the State folks seem to feel that Oregon would get less 
money during each of the 3 years with respect to the bridge 
question.
    What is your sense of how Oregon deals with this bridge 
issue and particularly the Federal role?
    Mr. Frankel. Well, I can appreciate, let me say, from 
personal experience the passion that Mr. Foster and Director 
Warner have about this. You remember in 1983 a bridge on the 
Interstate system went down in Connecticut, and I became 
commissioner about seven or 8 years after that.
    And someone said to me it's true that for everybody in the 
Connecticut department, certainly the professional engineers--
Bruce knows this probably from his own contacts with my 
colleagues from Connecticut--to see a bridge collapse was their 
Vietnam. Every one of them swore that no other bridge was going 
to go down on their watch. It became a passion to rebuild 
Connecticut's bridges.
    As he said, it is true that a bridge has a life, and we're 
at the end of the useful lives of many bridges. Actually, the 
major part of the transportation program in Connecticut at the 
State level is to rebuild bridges. It's critically important. 
As you know, Administration advocates the elimination of the 
Bridge Discretionary Program, which is totally earmarked, so 
that more money could flow through the formula programs, This 
would have the effect of raising available funds and increase 
Oregon's level.
    Actually, I'm not certain, and I would have to get back to 
the committee, of the details of what Oregon would get under 
this revised and expanded core bridge program. But certainly 
I'm respectful and do understand the emphasis in this State on 
restoring, rebuilding, and replacing bridges. It is absolutely 
critical. I can't think of anything more important to be done 
in heavily used portions of not only the Interstate and 
Federal-Aid Highway System, but also at the county and local 
level.
    Senator Wyden. From a philosophical standpoint, do you 
think the Federal Government has a role when we're talking 
about the bridges on the Interstates?
    Mr. Frankel. That's obvious. This is, as you know, one of 
the key core programs and will continue to be so. And as I 
said,--and I think you probably share this--I think that the 
discretionary programs, for the most part, really represent an 
opportunity for earmarks--they are 100 percent earmarked.
    The Administration, as a theme running through SAFETEA, 
would eliminate the discretionary programs, with the exception 
borders and corridors and one or two other areas, and would 
like to see more money flow to the States so the States can 
establish priorities on how, for example, the bridge funds are 
utilized.
    Senator Wyden. On the bridge issue, let's get Mr. Warner 
and Mr. Foster in as well. Perhaps we can even have you start 
by just reacting to Mr. Frankel's comments.
    Mr. Warner. Senator, obviously the bridge problem is large 
in Oregon. As you know, we've stepped up to deal with some of 
the funding, $4.7 billion is the problem we believe we have. 
The State has come up with $1.3 billion for the State system, 
300 million for the City and County bridge system.
    There is clearly a national interest in the Interstate 
program. There should be a national interest in all the major 
freight and NHC routes throughout the State of Oregon, and I 
think it is important to look at ways to assure that the 
bridges throughout the United States are adequate to deal with 
the freight needs that are coming shortly in dramatic 
increases.
    So there's a number of ways to get additional revenues 
toward bridges, obviously raising the overall revenue level at 
the Federal level, and again maintaining the formula at a high 
level is the most effective way to get large amounts of money 
to Oregon and to other States. And then again, we would utilize 
the dollars in the priority areas that we deem the most 
appropriate.
    However, if again, you and the Committee feel that the 
bridges are priority and you want to set up a program that 
would again focus bridge dollars to areas, then again, I would 
focus on those corridors of national significance as well as 
the other major significant freight corridors throughout Oregon 
as well as the United States.
    If I'm being responsive to your question . . .
    Senator Wyden. Mr. Foster, do you want to add anything?
    Mr. Foster. I'd just simply add that not only is the State 
stepping up and local government is stepping up in this issue, 
and we really need the Federal Government to partner with us. 
The major corridors are of significant Federal interest, I-5, 
I-84, and we cannot address this just through State funding and 
local funding. We need to have that partnership from the 
Federal Government.
    Senator Wyden. Are we looking at, in terms of a growing 
bridge, less money, say, over the next 3 years, less Federal 
money?
    Mr. Warner. Senator, if you look at the proposal for the 
continuation, there would be less dollars. I think what Mr. 
Frankel is saying, if you look over the life proposal, 
essentially we would be looking at utilizing more and more of 
our discretionary funds that we get toward bridges. That's 
clearly a priority. Our commission has said we need to put 
additional dollars in.
    So even if our funding level is lower overall from the 
Federal Government, I think you'll see this State apply more of 
its moneys toward bridges to address this critical problem we 
see facing Oregon.
    Senator Wyden. All right. I'm glad to see that you're doing 
it. It's just that I think the Federal Government, if it's a 
partner here, particularly as it relates to the Interstates, 
it's always we look at the overall program. The funding is 
lower this year, and somehow we'll make it up down the road and 
the bridge funding is lower, but somehow we'll make it up down 
the road.
    We seem to have hundreds of billions of dollars for other 
things, and you know, we're fighting to deal with 
infrastructure at a critical time, and the amounts seem to go 
down, and that's not to be all resolved today. I understand 
that.
    But I want the people of the State to understand that 
budgets aren't just, you know, charts and facts and figures. 
They are about your homes and aspirations and most importantly 
about your priorities, and it just doesn't seem that 
transportation is getting the priority it's warranted.
    Let's go to the question of I-5 as a key trade corridor, if 
we could. Mr. Frankel, as I think you know, Senator Smith and I 
have felt for a long time that this has got to be a priority, 
and we're pleased that the Administration is looking at 
increased funding for the multi-State corridors as part of the 
reauthorization proposal.
    Congress has provided additional funds to look at how to 
address congestion; region is working. Several have already 
said on a multi-State basis to come up with solutions, and 
obviously Federal assistance here as well is going to be 
important. And this isn't just Interstate. This is the entire, 
you know, up and down the West Coast because we do have you 
here and this is so important for the region.
    Could you say, for purposes of this morning, that you would 
agree that under the Administration's Multi-State Corridor 
Program that our area I-5 ought to be given a priority as one 
of the corridors for funding.
    Mr. Frankel. Well, as you know, Senator, this is one of the 
few areas we would preserve the discretionary program and 
actually divide what is currently a united program for borders 
and corridors, into separate programs with funding at a level 
of $0.5 billion--just under $500 million--over the life of 
SAFETEA for each of those programs.
    And it is a strong emphasis, a strong theme. I know you 
share the concern about freight movement and a variety of 
programs including the corridors program. I think it's one of 
the more problematic initiatives to try to enhance spending and 
Federal attention on freight and goods movements both at 
gateways, major gateways like the Port of Portland, and other 
key gateways in smaller places including other transportation 
intermodal centers in a State like Oregon.
    And clearly the Secretary will give, if he has the 
discretion, because this money again has been totally 
earmarked. The Borders and Corridors Program has been 
earmarked, and there is no discretion in terms of national 
strategies and priorities, and I don't think there's any 
question that, if you had discretion, the I-5 corridor 
including and most specifically the Pacific Northwest has got 
to be viewed as one of the most important and one of the most 
congested in the United States.
    Senator Wyden. Very good. And we will work with you on 
that, and that seems to be a constructed effort. We appreciate 
it.
    Now, on the Amtrak issue, the Administration has a reform 
proposal now for Amtrak. I think Oregonians would be interested 
in your assessment of how the Administration's proposal would 
affect passenger rail service in Oregon.
    Mr. Frankel. Well, I think as a general matter, Senator, 
and I hope there will be attention focused on this that the 
Administration seeks to assist intercity passenger rail on the 
basis of priorities established from the ground up rather than 
the top down.
    And by that, I mean a definition of places where intercity 
passenger rail can really fill a significant niche, can provide 
competitive service. I think we all acknowledge, and certainly 
experts do, that intercity passenger rail not only can be 
successful, but is critical in city pairs of 200, 300 miles to 
4 or 500 miles apart.
    Oregon and Washington have shown the way. The Cascade 
Service, I think, is one of the real success stories. As you 
know, the Secretary made specific reference to it in 
introducing our proposal not only in the sense of showing a 
place where there's a niche where intercity passenger rail can 
serve a function, but also cooperation, really extraordinary 
cooperation between two States and, I think, gives a lot to 
people who throw up their hands and say it's impossible for 
States to cooperate. You just can't go--it's got to be 
national, and the decisions have to be given about where routes 
are and needs to be driven by decisions made in Washington, 
whether at Amtrak or in the halls of the U.S. Congress.
    I think that States and localities, local communities as 
Washington, what the States of Washington and Oregon have done, 
are the best places to define where this need exists, and the 
Federal Government's role in rail should be what it is in every 
other mode, and that is to give capital grants. We're not in 
the operating subsidy business with very few exceptions, but to 
give capital grants.
    There have been disagreements whether they are 50/50 or 80/
20, but the principle of capital grants where an individual 
State like California, let's say, or States come together and 
say this service is really critical and important and will be 
supported, those are the principles.
    And again, while we may argue about the details, I hope we 
can engage in a discussion, and I know you view that the same 
about--really fundamentals about how we approach it from a 
philosophic basis. As I said in my remarks, respectfully I 
think the model we have been operating under, if I can use that 
word, has not been successful.
    The fact of the matter is Amtrak was created absentmindedly 
35 years ago with odds and ends when the private freight 
railroads wanted to get out of the business. And in order to 
create and be able to build a competitive mode in the State, 
the private railroad said we need a passenger rail service, and 
then what was there was, you know, conglomerated into what was 
called Amtrak.
    It is not a national system by any stretch of the 
imagination. Even if it were, it's time we look at it. That's 
35 years ago, and the United States has changed. It's changed 
socially, economically, demographically. It's time for us to 
look at this fundamentally, whatever our differences may be 
about details.
    But to say, as some have, that basically what exists is 
perfect and just pour more money into the existing system, I 
don't think and the Administration doesn't think, from the 
President on down--this went to the President--not the 
Secretary's proposal, but the President's proposal, and I hope 
we can deal with these fundamental issues.
    I think frankly for a State like Oregon that has been the 
model along with the cooperation of the State of Washington, I 
think, shows what good passenger rail service can be, and 
incidentally it's time that Oregon got Federal assistance 
because the fact of the matter is what Oregon and Washington 
have done has been almost entirely without Federal assistance. 
And one of the things we seek to do is to provide equity 
fairness, so that the treatment of Oregon is the same, if you 
will, as you know, intercity passenger rail in New Jersey.
    Senator Wyden. Mr. Warner seems to be smiling.
    Mr. Warner. Senator, I want to thank you for your comments 
there. I think it is important that Oregon and Washington have 
stepped up to fund the Cascade trains, and it's important not 
only because it helps in terms of diversifying the 
transportation system, but the ridership of those two trains is 
about 120,000 passengers per year.
    Without those trains, those trips are going to be on the 
Interstate facility, which is going to further clog that 
facility, and what really makes me feel good about Mr. 
Frankel's remarks is again making sure that again our model or 
the model in the northeast the corridors is something that we 
share.
    In other words, we don't pay for the entire service while 
some of the other corridors have fully subsidized service, and 
that's a breakthrough. If we can actually have us all on the 
same playing field, that would be very, very helpful for all of 
us and probably would encourage other States to step up and try 
to help out and provide passenger rail service in other areas 
that currently are unserved.
    Senator Wyden. Well, I too think that's very constructive. 
The other point on Amtrak I would make is to hope that we give 
a special effort in this reinventing exercise, which is one 
that I think is constructive, and I am actually in support of 
it. The communities that aren't on the traditionally well-
populated corridors are willing to put a lot of effort, in 
effect, a lot of skin in the game.
    I don't know how much you followed it, but all through 
Eastern Oregon, for example, virtually every community has 
actually voted to impose per-person assessments in order to get 
rail service. In Eastern Oregon, folks have done everything to 
get rail service other than have bake sales in order to get 
some rail service.
    I again want to work closely with you, Senator Smith, 
Congressman Walden. We all worked on these matters in a 
bipartisan way, and we would very much like as part of this 
reinvention effort to try to give some concerns and priority to 
these kinds of area that are really willing to put a lot of 
resources and a lot of efforts, and you're talking about 
building stations, and they've already had the per capita 
assessment, and I think you find overwhelming enthusiasm for an 
effort to really look at reinventing how the government goes 
about serving the rail needs of these areas.
    But it will require some resources for a jump start, and we 
appreciate that. Let's do this. Let's spare Mr. Frankel here 
for a moment and move on.
    Mr. Frankel. I came a long way, Senator. It's fine.
    Senator Wyden. You're being a patient soul here. Mr. 
Warner, give us your sense of what kind of jobs we're talking 
about with transportation dollars in our State.
    Mr. Warner. Senator, I think you touched on it somewhat in 
your opening remarks. There's a lot of variance in terms of how 
many jobs are created per million dollars of investment in 
transportation. We in Oregon are a bit on the conservative 
side. We believe for every millions dollars, we know there's 
going to be about 23--or 20 to 23 jobs or so created in the 
State directly as a result of that improvement.
    However, if you look at the multiplying effect of buying 
steel sometimes from plants around the Nation, the Federal 
Government uses numbers that are closer to, I think, 47 per 
million. So just to give you an example, a $1 billion increase 
in overall funding through the Surface Transportation Act, this 
State would get about $10 million of that.
    So you're talking about, if you use the Federal standards 
as you pointed out in your opening testimony or remarks, 
somewhere between 470 or 500 new jobs for the State of Oregon 
as a result of that billion dollar increase on a national 
level.
    And again, one of the big driving factors for why the 
legislature elected to put additional resources into 
transportation this session was because they wanted our 
department to move those bridge projects out quickly to the 
private sector where we anticipate, if we add up over the next 
few years, we're going to have an average of 5,000 new 
construction and professional jobs per year sustained over a 
10-year period.
    Senator Wyden. Now, my understanding is that you all 
recently looked at the freight issue on the I-5 corridor, and 
of course, our region's economy has been built on 
transportation-intensive industries, agricultural, trade, 
construction, manufacturing.
    My understanding is that something like more than 2 million 
tons of farm and food products and a million tons of lumber, 
paper, and wood products move through I-5 in Medford each year.
    So my sense would be that addressing this question as it 
relates to freight is absolutely a priority for our delegation 
in this upcoming session.
    Any thoughts on that and what we ought to be doing to be 
helpful in that regard either, Mr. Warner or Mr. Foster?
    Mr. Foster. Thank you, Senator. Well, I think that it all 
ties together with the bridges. The first step is we've got to 
get these bridges remediated. If we don't do that, then that 
freight drops off. And what's significant is and what I think 
few people understand is the impact on the local economy if we 
have to weight list those bridges.
    Every fuel truck that brings fuel into this Valley is 
105,000 pounds. If we have to weight list those bridges at 
80,000 pounds, that means fuel costs in the community are going 
up. Many of the industries in this community bring in freight 
from Port of Portland.
    The wood products industry is importing a lot of their raw 
materials. Now, those are all coming down on 105,000 pound 
trucks. If we weight list one of these bridges like we weight 
listed the Forge Bridge that Director Warner talked about 
earlier--I had some clients that I had had that were bringing 
raw materials for wood products in that had to be detoured over 
58, down 97, and back 140, and it costs them $200 per load in 
additional costs.
    And our wood products community works on very near margins, 
as you know. It's highly competitive, and that doesn't sound 
like too much per load, but that has very significant impacts. 
We need to have the funding to address the capacity on I-5.
    And the problem is if the State bares the whole burden of 
the bridges, we can't address the capacity issues. We can't 
address the freight issues to get freight out of Port of 
Portland. We can't address Interstate crossing on I-5 in 
Portland which are critical to this, just as critical to this 
community as it is to the Willamette Valley.
    So you know, when we have to shift all of our resources to 
bridges to maintain the Interstate system or to save the 
Interstate system, we lose resources to address critical 
modernization projects we need for freight capacity.
    Senator Wyden. Well, you've just made the case for the 
Wyden-Talent Bonding Proposal and some of these other kinds of 
issues because you've just said, all right, we've got this 
bridge crunch. Even with the legislature looking at additional 
money, we're going to have to move money from bridges to 
Interstate. Interstates are a Federal responsibility. Everyone 
acknowledges that. Mr. Frankel, to his credit, acknowledges it.
    And we're going to have to find these dollars, and you all 
have made a compelling case, and for our State folks, know that 
this is priority business for Senator Smith and I, and we'll be 
working closely with you.
    Let's wrap up with just one last question for our State 
folks. My understanding is that here in Southern Oregon a lot 
of folks have been concerned about transportation projects not 
taking into consideration the local viewpoint, and they've got 
a citizen's initiative on the ballot to make sure concerns are 
heard and addressed.
    One of the reasons Senator Smith and I do the talent hall 
meetings together and make these efforts to get out and about 
and listen is to make sure people are being heard on their 
priority kind of questions in transportation and other areas.
    And obviously again, we've got to find ways to get projects 
built, deal with the State's economic needs while making sure 
that people who are out filing these, you know, petitions and 
reflecting their concerns know that somebody is paying 
attention to them, that somebody is listening.
    So I would be interested to hear from you, Commissioner 
Kupillas, and Mr. Foster and Mr. Warner, maybe we can wrap up 
by you all telling us your thoughts as we go into this next 
round of the Surface Transportation Bill. Give us your thoughts 
about how the Federal Government can be more responsive to 
communities in terms of addressing these local concerns.
    And I really encourage you to, you know, think out of the 
box. As you know, Mr. Frankel knows, a couple years ago Mr. 
Sheinkman here did some extraordinary work in terms of looking 
at and encouraging growth management, and we basically 
empowered local communities to come up with competitive ideas, 
and we saw some exciting proposals, got bipartisan support, got 
a fair amount of Federal support for innovative approaches and 
growth management, and Mr. Warner knows we did pretty well in 
that area for a while.
    So we need to think out of the box, and if you might on 
this issue of making sure that local folks are heard, tell us 
any suggestions you might have for us, Commissioner, Mr. 
Foster, Mr. Warner, so that we can put Mr. Sheinkman and our 
good staff folks here to work, again trying to put your 
creativity and your genius into law.
    Commissioner Kupillas.
    Ms. Kupillas. Yes, Senator, I think this does give us all a 
heads up that people do want to be involved in decisions, 
transportation decisions, as well as a lot of other that have 
come up under initiatives. I think probably the model that we 
have in Jackson County has been exemplary in the State.
    And one of the things that we've done, for instance, on the 
Highway 62 issue that I mentioned, was that we had what they 
call a select where we brought people in from all of the 
communities that were affected by the Highway 62 corridor and 
had an interactive day looking at all of the issues surrounding 
this. And I think that model is very good.
    It's, again, a good model that works from the bottom up in 
helping us look at priorities and all of the wide range of 
issues that affect people as we go through the decisionmaking 
process.
    And then we do have at least three organizations that 
reflect different groups throughout the Valley, and a lot of 
opportunity pour input into the system on this transportation 
issue, and I know the cities and the County have hearings on 
the issues. We also have what we call a regional problem 
solving where we are looking at long-range planning where 
growth should occur in Jackson County.
    And there's a lot of opportunity for input on that, and we 
want that to measure with your transportation systems and then 
also the air quality issues that we deal with with respect to 
this. As the Board of Commissioners, we invited a lot of public 
comments on exactly how we approach the air quality issues in 
terms of transportation.
    I think looking at the local models and collaborative 
models that bring people into this discussion it is probably 
the best way to do this and to have the hearings where we can 
talk to you about what people have said.
    Senator Wyden. Mr. Foster.
    Mr. Foster. Thank you, Senator. We have really, as I think 
you know, really worked hard in this State in the last 8 years 
to develop a collaborative process with local communities in 
how we identify projects, how we prioritize projects that need 
to be built.
    Particularly in the last 2 years we've had a stakeholder 
committee that I referred to in my testimony that has developed 
an objective method of identifying projects and prioritizing 
them. And then that is being implemented by the Area 
Commissions on Transportation and the MPO's, and so we've got 
that process.
    In regard to specific projects, we have local committees. 
We have solutions committees. The project in question that's 
created the issue here is the South Medford Interchange, and 
that was a very open and probably the most extensive public 
process we've ever gone through.
    Whenever you build a major project like that, you are going 
to have differences. Reasonable people can differ on an element 
solution. We worked hard to address all the issues. We'll 
continue to work hard to address all the issues, but when you--
and part of the--frankly, part of the reason why there may be 
some controversy there is because of a growth management 
strategy is we want a more compact community. We don't want 
urban sprawl. We don't want to be building big additional 
freeways, additional interchanges down the freeway. It's better 
to rebuild the two major interchanges in Medford.
    That may have some impact, some people may perceive that as 
having adverse impacts on their immediate neighborhoods. We're 
trying to address that. I frankly don't think that there are 
the kind of impacts that some people feel there are going to 
be, but they certainly have every right to disagree with us and 
every right to seek an initiative.
    I think that what we're doing works well. As Commissioner 
Kupillas says, we are continually trying to improve on that 
program. One of the things that we found that really helps when 
we go into a community--I'm really happy to hear that it's back 
in--are the enhancement programs. Lakeview and Joseph are 
beneficiaries of those kinds of programs that resulted in win-
win projects. So I would urge you--I would urge you not to 
implement any additional requirements on the Federal level 
but----
    Senator Wyden. There are not a lot of rallies outside my 
office for more Federal bureaucracy.
    Mr. Foster. And I want you to know we take this very 
seriously, and we're trying to work with them, but you can't 
build a major project without having some controversy.
    Senator Wyden. Anything you want to address, Mr. Warner?
    Mr. Warner. Senator, I think I would add if you look at our 
track record we are getting better. There are always going to 
be controversial projects. Our committee and staff have made a 
conscientious effort to make sure that the reselect projects 
move forward. They are projects we know have gone through an 
environment and land use screen, and we want to make sure that 
they have the political consensus, frankly, from the area to be 
able to move forward.
    We usually find ourselves in arguments where essentially 
the planning work has not been done ahead of time to agree on a 
solution, and we've told them, if they want to implement a 
solution, we have to go back and look at all the options and 
essentially do the planning that should have been done ahead of 
time as we're actually, quote, working on a project, whatever 
that project may be.
    And I think the existing Federal rules in terms of project 
development require us to do that. If people are doing the 
required transportation planning and getting their citizens 
involved in what the overall plan should be for a particular 
area, we find that many of those issues, like South Medford 
Interchange, are often resolved well before we get into a 
construction project and moving forward with construction.
    And our commission has been very clear that's the kind of 
checks they want, and they want to make sure before they invest 
money in a project that the project has been fully bedded, and 
I think as you look at your track record there's very few of 
those around the State where we have issues.
    When you do hear about them, they are often very 
controversial. I want to be frank there. I agree with the 
Commission and Chair Foster, that I think the rules are 
adequate. We just want to make sure people are living up to 
those rules.
    Senator Wyden. All right. All of you have been excellent. 
Mr. Frankel, let me let you have the last word because you have 
journeyed the furthest, and we appreciate your cooperation. I 
think you can see the passion that is in our State for these 
issues.
    You know, we like to think we've been first in a lot of 
areas, whether it's light rail in the metropolitan area, the 
various other kinds of initiatives around the State. And people 
are willing to think creatively and think out of the box, and 
what we need to do now that this is not exclusively within your 
province, we need to have the resources to jump start some of 
these initiatives. So we really appreciate your journey here, 
and we want to give you the last word for this panel.
    Mr. Frankel. Well, Senator, let me thank you again. This is 
a trip you make probably just about every weekend, if not to 
Medford, certainly back to your State. Really, being here and 
listening and experiencing this directly, and seeing these 
projects in Medford or in this State, is the best way for me 
certainly and for the Secretary to learn. So, thanks for the 
opportunity.
    Suffice it to say, you've been consistent throughout this 
hearing as you have in Washington, in your comments to say that 
we should work together. While reasonable people can differ 
about some of the substantive details, I think that same spirit 
generally permeates the transportation field and certainly will 
characterize our approach to reauthorization of the surface 
transportation programs.
    We look forward to working with you and your colleagues in 
trying to come up with a reauthorization bill. We're still 
committed and hopeful that it will happen this year. One way or 
the other there's going to be a reauthorization bill, and we 
look forward to working with you. It's been great to be here. 
Thank you for giving me the opportunity to come to this 
wonderful place.
    Senator Wyden. We thank you. And Senator Smith and I get 
together every Thursday for lunch to work on Oregon's agenda, 
and transportation is high up on it, and any time you have one 
of those creative kind of ideas, we'll make sure you get on 
before the entourage is done.
    Mr. Frankel. Great. Thank you.
    Senator Wyden. We thank you very much. We'll excuse all of 
you today. I appreciate you coming. OK.
    Our next panel Mr. Mike Burrill of Burrill Real Estate; 
Brad Hicks, President and CEO of the Chamber of Medford/Jackson 
County; Mr. Peter Kratz, Vice President of Bear Creek; Bob 
Shiprack, executive secretary of the Oregon Building Trades.
    You all have been very patient, and we thank you for it, 
and let's get you up here so you can have a chance to testify 
before dinner time, I think.
    OK. Thank you all. We'll make your prepared remarks a part 
of the hearing record in their entirety, and we thank all of 
you for coming.
    Mr. Burrill, why don't you start.

    STATEMENT OF MICHAEL BURRILL, SR., CEO, BURRILL FAMILY 
                           COMPANIES

    Mr. Burrill. Senator, thank you for coming to Southern 
Oregon and listening to our concerns. I might point out that, 
when I got the call that this hearing was going to take place, 
I was off on one of my transportation research trips, and I was 
riding a motorcycle to Alaska and was told that I needed to get 
back and I need to have my testimony in on Tuesday, but I was 
out in the middle of nowhere. It was impossible; so I imposed 
on my friend Brad here to help in doing that and imposed on 
your staff to help that happen also. I'm very glad to be here.
    I'd also comment that I'm very disappointed that I just 
found out this morning that your staff member here, Traci, will 
be leaving us and we'll miss her. She's done a wonderful job.
    Senator Wyden. She is a super star.
    Mr. Burrill. So anyway, having said that, you have my 
written statement, and one of the advantages of being not at 
the beginning of a hearing is that you get to make notes as you 
listen to comments made by others. I'm not going to go over my 
written statement. I'm going to paraphrase some thoughts and 
see how we go with this.
    But the things that we've heard this morning, first thing I 
want to point out is that I serve in a variety of 
transportation capacities. My family through the years has been 
in the forest products business. We started in business in 
early 1940's, and you and I have worked together in that 
industry for many, many years, but we went out of that business 
about 5 years ago, and we now do commercial industrial real 
estate development and sales.
    And one of the things that I found in that transition was 
that you could have a company like ours that employed a couple 
hundred people and have it close down and then bring a new 
company to town to employ 200 people and find out that you 
couldn't put that new company here because of transportation 
problems, that our highways couldn't absorb the new, even 
though the old was gone.
    So I took a great deal of interest in transportation. I 
spend a great deal of my time in that field, and it's not just 
in roads. I'm on the Aviation Board for the State of Oregon; I 
serve on the Freight Advisory Committee to ODOT; I serve on 
solutions teams and citizen advisory committees with ODOT 
locally. So anyway, I have a great deal of interest.
    A couple points I'd like to make on highways would be that 
when we talk about Interstate 5 and Interstate 84 that you 
talked about earlier today, it's not just an Oregon problem.
    If you look at the charts and the maps that ODOT puts 
together and if you consider Interstate 5 from end to end, 
Interstate 84 starting in Portland and going east and the other 
Interstates that do that, the solutions are not just Oregon 
solutions. They are national solutions, and so we can't just 
work in the vacuum of Oregon to fix them.
    The need to fix the bridges in Oregon is also a need for 
the people of Idaho, the people of Colorado, the people in 
other States that those Interstates head toward. You've talked 
about economic development and how, if we want to create family 
wage jobs and bring businesses, we have to have a 
transportation system, and that is so right because when 
businesses come to a community and they start to ask about 
what's going on, they want to know how they are going to get 
their goods to market, they want to know how all these pieces 
fit together; so it's vitally important.
    It isn't just the jobs that Mr. Warner talked about, the 
5,000 jobs per year for the next 10 years with the bridge bill. 
That's just a small part of what this does for Oregon. What 
this does is it opens up the community so they can grow, and 
they can provide jobs to their citizens. It isn't just the 
citizens along the Interstate 5 and Interstate 84 corridors 
that are going to be getting benefit because we have other 
freight routes that are just as important.
    And you're going to have communities, whether it's Baker 
City on Interstate 84, or Lakeview or John Day or other 
communities around Oregon that will get the benefit and allow 
us to bring jobs to those communities.
    I chair the Marketing Committee, and we're celebrating our 
local economic group, and as we work to try to bring new jobs 
to this community, again transportation and all modes is very, 
very important.
    I want to jump from highways to aviation because in serving 
on the Aviation Board for the State, we're vitally concerned 
about aviation and how that entire system works. I have talked 
to you in recent months about a plan that we're doing of 
bringing together an aviation system planning conference that 
will be held in Portland sometime this fall that will include 
the States of Washington, Oregon, some people from California, 
SEA-TAC, Portland International, and maybe San Francisco, but 
also will include Boise, Spokane, Medford, and other airports.
    The idea is to look at the capacity constraints that are on 
the big airports and see if there is capacity excesses that 
might be at some of the regional airports that could help in 
the short term for a large airport or any airport really to go 
from deciding they'd like to build a new runway to getting an 
airport off from that runway can be as long as 15 years. If we 
don't have those plans in place now and construction going, the 
forecast of doubling or actually tripling of cargo over the 
next 20 years is going to make it impossible at those major 
airports. So we're working on that.
    The growth projections can't be left on this vacuum of 
airplanes and growth there. The same projections take place on 
containers coming in and going out on the sea, and the 
interesting part is every one of those connects to our 
highways. So this whole intermodal multi-modal argument we 
have, we have to be aware of how all those pieces fit together.
    We've talked about some of the projects here, and the one 
that I have a lot of interest in is--it's personal as well as 
an interest in the community--is the Highway 62 project. There 
was more vehicle trips per day on Highway 62 than there is on 
Interstate 5, and it's forecasted to double in the next 10 
years, I believe, is the number.
    We had a gentleman that worked with us on transportation in 
years past, his name was Hank Snow, and he used to work for 
Medford Corporation here. And he had an interesting comment he 
would make as we would be talking about planning processes and 
all the stuff that we have to go through in order to get 
projects done, and he would say, ``All I want to do is see us 
move dirt.''
    So, Senator, help us get the money for projects, and I 
guarantee you we'll be moving dirt in Oregon. Thank you.
    Senator Wyden. Well said. Very good.
    Mr. Hicks, welcome. We thank you, and the Chamber has been 
so supportive on so many initiatives we've been working on. I 
really appreciate all your help.

  STATEMENT OF BRAD HICKS, PRESIDENT AND CEO, THE CHAMBER OF 
                     MEDFORD/JACKSON COUNTY

    Mr. Hicks. Well, thank you. I guess I, before I start my 
written testimony, would echo Mr. Burrill's sentiments about 
Traci Dow. I'm sorry to see her leave your Southern Oregon 
office. She's been a great partner in a lot of the things that 
you've been working to do here. So we'll miss her.
    So to Senator Wyden and to members of the Committee, thank 
you all for allowing me to appear before you today to discuss 
our thoughts regarding reauthorization of the next TEA-21, or 
as Mr. Warner said earlier, whatever this next reauthorization 
is going to be called.
    For the record, my name is Brad Hicks, President and CEO of 
the Medford/Jackson County Chamber of Commerce. Also for the 
record, I'd like to say today officially that I'm not a 
candidate for Governor of the State of California.
    Senator Wyden. But you can still run for President.
    Mr. Hicks. Absolutely. But I did want to point out, 
depending on what day you ask, our Chamber is the second 
largest in the State of Oregon representing companies and 
organizations of every size, sector, and corner of Southern 
Oregon.
    My testimony will address some thoughts about 
reauthorization that I believe are critical to the business 
community and equally critical to our entire nation. Safe, 
unclogged roads are vital to this country. These highways and 
bridges impact the independence and mobility of our citizens, 
our productivity, and our employment base, certainly our 
competitiveness, and maybe now more than ever, our national 
security and the health of our economy.
    I believe that the 108th Congress will look at few other 
priorities that will have a more direct impact on the personal 
and professional lives of their constituents than the look at 
transportation investment. Investment in our transportation 
infrastructure is directly connected to future economic growth, 
competitiveness, quality of life, and national security. That's 
no different here in Southern Oregon.
    As a regional economy, Medford, Jackson County, and 
Southern Oregon each enjoy the benefits of family wage jobs 
provided by the trucking companies who reside here. In fact, 
one of the areas largest employers--I'm not sure what number, 
maybe No. 3--is a trucking company that employees hundreds of 
residents at above-average wages. This does not take into 
account the many other smaller trucking firms, brokerage firms, 
and other related businesses.
    However, while there are obvious economy advantages to our 
geographic situation along the I-5 corridor because Medford is 
a pass-through region, if you will, for many using the I-5 
corridor, Southern Oregon is also left to contend with well-
used infrastructure.
    Taking into consideration the significant positive impact 
of the region's economy that sound highway and bridges have 
combined with TEA-21's tremendous investment to date, making 
transportation safer, less congested, and more efficient, it 
seems that a well-financed dependable, and efficient 
transportation system is essential for a healthy Oregon 
business climate.
    In order to achieve that end, I'd like to suggest that the 
budgetary firewall be restored to ensure the original promise 
of the Highway Trust Fund. The highway taxes would be used 
exclusively for highway improvements and to continue to explore 
other options for increasing revenue to the Highway Trust Fund 
including drawing down the nearly $20 billion surplus in the 
Highway Trust Fund, restoring interest payments to the Highway 
Trust Fund, and then exploring other innovative ideas that 
would leverage private sector investments in transportation.
    And I applaud your efforts on the Build America Bond 
proposal. I think that's exactly what I'm taking about in my 
third bullet item are ideas such as that.
    Once reauthorization of TEA-21 has occurred and the debate 
begins as to where those dollars go, I hope, Senator, that 
you'll help fully fund Oregon's priority projects and of 
particular interest to those of us in Southern Oregon, in 
addition to Highway 62 as Mr. Burrill mentioned, is the Fern 
Valley Interchange project between Phoenix and Medford. And 
I'll allow others to speak in detail about that.
    In closing, The Chamber will continue to advocate increased 
spending on transportation infrastructure and streamlining of 
the environment review process. We'll play an active and 
progressive part in advancing the idea of a transportation 
agenda that strengthens our transportation systems.
    This is a new environment that requires new thinking and 
new approaches, as you've mentioned multiple times this 
morning, to transportation that should be characterized by 
changed behaviors and measurable results. We will continue to 
remind the public and Congress that infrastructure is not 
disposable; it is a strategic asset that must be renewed and 
protected.
    The impact of doing nothing will be increased congestion, 
decreased safety on our roads, and setbacks in our ability to 
improve air quality. Our Chamber and, I believe, chambers 
throughout the Nation look forward to working with Congress and 
the President to bring about continued, predictable investment 
in the nation's transportation system in TEA-21 
reauthorization. Investment in our national transportation 
system will ensure we remain a leader in the global 
marketplace.
    Thank you again for bringing this opportunity to Southern 
Oregon. You saved us a 3,000 mile trip, and I'll be happy to 
answer questions later.
    Senator Wyden. Thank you. And the Chamber has always been 
so cooperative in all of these economic development issues with 
our office, and we very much appreciate it. And we'll be 
working with you often on these issues and certainly a lot of 
others. Excellent presentation.
    Mr. Kratz, welcome.

  STATEMENT OF PETE KRATZ, SENIOR VICE PRESIDENT AND GENERAL 
       MANAGER OF PRODUCT SUPPLY, BEAR CREEK CORPORATION

    Mr. Kratz. Thank you. Good morning. My name is Pete Kratz, 
and I'm the Senior Vice President and General Manager for Bear 
Creek Corporation. And I certainly thank you for allowing me to 
address this subject today that is so critical to our business, 
and that's transportation.
    Bear Creek is one of the largest or top direct marketing 
companies in the Nation. Both of our brands, Harry & David and 
Jackson Perkins, are nationally known. Our Medford, Oregon 
campus is the headquarters for all of Bear Creek Corporation 
including the Harry & David and Jackson Perkins businesses.
    We are the largest employer in the entire Southern Oregon 
region. This year we will employ in excess of 7,300 seasonal 
and full-time employees in the Rogue Valley.
    Probably the most well known of our companies is Harry & 
David which was founded in 1919 by two brothers Harry & David 
Holmes. We have been one of the primary economic backbones of 
the Valley for years, and our current revenues will approach 
$550 million.
    The statistics associated with our companies today are 
impressive. We mail more than 110 million catalogs each year, 
and we ship in excess of 9 million packages both in this 
country and internationally to more than 100 nations. Our 
payroll this year in Medford is in excess of $100 millions. For 
many people the name Harry & David is synonymous with Medford, 
Oregon.
    And as you can well imagine, transportation is essential to 
a company such as ours. Back when we started, it was rail 
service that we counted on to move our product. Today it is the 
highway system.
    Because we are a vertically integrated company starting 
with our roots in Agriculture and our fruit, almost all of our 
products originate from Medford, Oregon. Millions upon millions 
of gifts spend some time on Interstate 5. They are transmitted 
to regional express centers in California and Portland, and the 
daily cutoff times for these express deliveries make any delay 
in service transportation critical to the service of our 
customers.
    There are trucks that take products to our regional 
distribution center in Ohio while other trucks move gifts to 
mailing centers and our 147 Harry & David stores in 34 States. 
There are trucks that bring fruit, raw materials, and packaging 
to our Medford campus. Many of these deliveries are made just 
in time to support our production operations. This method of 
operations lessons the burden on local transportation systems 
and reduces truck movements between local storages.
    Many of our packages are highly perishable fruit that are 
received at our packing house, gift packed, and shipped within 
1 day. An efficient transportation system is essential to the 
viability of this business.
    Last year there were more than 30 inbound truck deliveries 
to our Medford campus per day during our peak production month, 
and during our peak shipping month there were also more than 30 
outbound trucks per day.
    We project that over the next 10 years our business will 
continue to grow at near double digit rates. That means several 
things for this region. It means young people from the local 
education centers won't have to move to other cities to find 
jobs. It means the local area will have a steady stream of good 
paying and dependable jobs. Conversely, it also means the need 
for good and dependable surface transportation. This is 
transportation for both our employees and our products.
    As mentioned earlier, the number of key regional 
transportation projects including Fern Valley, South Medford 
Interchange for I-5, improvements to Highway 62 are very 
critical to sustain and grow our business.
    I would also suggest a place at the table for business on 
the Metropolitan Planning Organization as a way of aligning 
economic growth with transportation planning.
    In 1919 two creative brothers were drawn here for the rich 
pear orchards. Because of the rail transportation system, they 
were able to start the multi-million dollar business we manage 
today. Just as it was in the early days, transportation is 
still vital to our company and its future.
    Thank you for allowing me to address this important subject 
for us today.
    Senator Wyden. Good. Well said.
    Mr. Shiprack?

STATEMENT OF BOB SHIPRACK, EXECUTIVE SECRETARY, OREGON BUILDING 
                         TRADES COUNCIL

    Mr. Shiprack. Thank you, Senator Wyden. It's my pleasure to 
see you again. I'm going to be brief. Again, I'm Bob Shiprack. 
I'm Executive Secretary of the Oregon Building Trades Council, 
representing unionized construction workers throughout the 
State of Oregon. I'm a journeyman inside wireman electrician. 
I've had the job for 17 years. I know quite a bit about these 
topics.
    I was also a member of the Oregon Legislature for 12 years. 
So some of my comments today, Senator, will both be policy and 
politics because it appears that a little of both is involved 
in the problems that you're facing.
    In the building trades today we're suffering 20 to 35 
percent unemployment across the board depending on the craft 
and region in the State. We have people now who have not only 
exhausted their State Unemployment Benefits, but Federal 
Extended Unemployment Benefits.
    This is a unique recession, and I've been working with the 
tools since 1971 in that usually in a recession, even in the 
worst of recession of the 1980's, you could go somewhere else 
in the country and work. That isn't occurring today. There's no 
place to go. So you're sitting here exhausting the 
unemployment, and people are now losing homes. And I just 
wanted to share that with you, Senator. This situation here in 
Oregon, at least for my industry, is very bleak.
    Senator Wyden. What's your unemployment rate in terms of 
the building trades?
    Mr. Shiprack. Anywhere from 20 to 35 percent. I checked 
with my local union in Portland who you're familiar with. We 
have 630 journeyman electricians of that book one, local 
members, out of work, 630 as of yesterday morning, about 90 
apprentices, I might add.
    This situation has led to a lot of discussions I hear from 
my people about putting the country to work, and frankly, 
Senator, we're incredulous, with the elections coming up next 
year, one thing we used to able to count on, in election years, 
things would get better. I'm not seeing that happen. And I 
think that the inaction of the Administration of Congress not 
only on the transportation package, but other spending 
proposals such as the water, sewer, the dams, reservoirs--all 
those other spending bills have not come out either.
    So I think that for at least from my industry--and I can 
tell you I can speak for a lot of my employers, we have an 
extraordinarily good labor management relationship--that things 
will not be getting better soon.
    Bruce Warner mentioned a spin-off effect, a tremendous 
spin-off effect when we do these Federal spending programs 
could really help put the country back to work. And I don't 
want to be flippant or partisan--as you know, the building 
trades are highly bipartisan--but a lot of my folks are saying, 
``If we're going to rebuild Iraq, why can't we start to rebuild 
America.'' I think that's hard to refute. I don't see how 
people can debate that issue. It's something people should 
think about.
    The next issue is funding. We haven't funded Oregon 
highways for 10 years. We had a pretty large group of people 
with no new taxes pledges. We disputed the fact that highway 
funding is a tax as all. We consider it as a user fee. You 
don't use the highway, you don't pay the tax or fee.
    So unfortunately, for 10 years we didn't put anything more 
into our infrastructure in this State until it reached a crisis 
situation: Over 400 bridges affected dramatically having the 
potential to effect Interstate commerce along the West Coast 
and my State here.
    We not only survive on these public works projects, but we 
have to have a good business climate. We're pro business. We 
need business to be successful. And to have a successful 
business climate, you have to have a good transportation 
system.
    The legislature stepped up, and Senator, I've been in the 
capitol in Oregon for 20 years. I've never seen a coalition of 
labor management industry business people coming together to 
support increased user fees. There was virtually no opposition 
because we finally realized we had to do this to keep Oregon 
viable and create jobs.
    Congress and the Administration has a Constitutional 
responsibility to fund the Interstate system. As you well know, 
Senator, every time the State wants to do things that perhaps 
Congress doesn't like or federally preempted commerce clause of 
the U.S. Constitution, only the Federal Government can regulate 
Interstate commerce, and therefore, they have a responsibility 
to fund these projects.
    The last thing I'll talk about is funding. I was asked to 
talk about it. Of course, I support increasing these user fees. 
Bonding, very innovative great idea, Oregon does it. And right 
now our State Treasurer, I guess, unlike the Federal Treasurer, 
thought it was not only timely, but innovative and made a lot 
of sense.
    I like the public private partnerships we're starting to 
look at both in Oregon and at the Federal level, very 
interesting way, and ODOT is actively looking into this.
    As a second generation native Oregon, there's two things we 
don't like: We don't like sales taxes, and damn it, we're not 
going to pay tolls on our roads. I've changed my opinion on No. 
2. I think that tolling, having traveled around the country 
where they have these new toll projects, is a minor 
inconvenience to the motorists and might be a way--another 
way--it hasn't been mentioned today--as a way to fund some of 
these projects.
    For your benefit, Senator, I'm also intrigued and 
encouraged by the Federal procurement program for contracting, 
not so much highway work, but other types of projects in that 
the Federal Government is leading the way in looking at 
selective contractors for these projects perhaps not based 
solely on cost, but also on the quality of the contractors and 
the subcontractors they bring in.
    In recent Federal work, Senator, I must say that every 
contract I've seen awarded by the Federal Government certainly 
went to a highly qualified contractor and was held to strict 
schedules. My point of all this is the taxpayers are getting 
their moneys worth by the way you procured the projects, and 
I'm proud to say Oregon is looking at that now.
    I'll just follow up, it was finally mentioned by someone to 
the left of me it would help funding of highways if we'd quit 
raiding the trust funds as well as the other trust funds that 
have been set aside for the airports and others.
    Last but not least, I'd be derelict only because I've heard 
this mentioned in Washington DC, any Federal funding program 
for public works that goes ahead would maintain, as it has for 
the last 70 years, the Davis Bacon Wage and Fringe Protection 
requirement in our public works bill to help ensure local 
contractors and workers to have a fair shot to build these 
projects and help ensure quality workmanship and productivity.
    That concludes my remarks. Thank you.
    Senator Wyden. Well said. And you've done such a great job 
of advocating for the trades, and we go back a long way----
    Mr. Shiprack. Yes.
    Senator Wyden [continuing]. You and I, through both your 
work and labor and at the legislature. I'm really glad to have 
you.
    Mr. Shiprack. I appreciate it.
    Senator Wyden. Very, very good. Excellent presentation.
    Mr. Hicks, I understand we've also got the Chair of the 
Chambers Transportation Committee here, Mr. Mike Montero, and 
why don't we bring him in.
    Mr. Hicks. Thank you.
    Senator Wyden. Good. So our able recorder knows, this is 
Mr. Mike Montero. I think it's M-o-n-t-e-r-o.
    Mr. Montero. Right.
    Senator Wyden. We welcome you and glad to have an expert on 
this. Why don't we start to get into this question of local 
involvement and what's triggered the petition and the concerns, 
and you can start with you, Mr. Montero, and go right down the 
line here and have you all give us a sense of what works with 
the current process and what doesn't work with the current 
process. Maybe we can just do that for all of you.

   STATEMENT OF MIKE MONTERO, CHAIR, CHAMBERS TRANSPORTATION 
                           COMMITTEE

    Mr. Montero. Senator Wyden, I think that we in Southern 
Oregon and, frankly, in Oregon in general have a lot to be 
proud of with regard to the template that we've developed. 
Commissioner Foster and, I might add, one of the members of 
this panel, not myself, were instrumental in developing this 
highly collaborative planning vehicle tool, if you would, that 
the State uses, and that's these area commissions on 
transportation.
    I'm not going to go into all of the details, and perhaps an 
anecdotal illustration will help you to appreciate how 
effective they are and how we believe that the template that 
was developed here in the Medford area and is now being 
exported throughout Oregon might be something for the Federal 
Government to look at.
    If you can imagine for a moment a body with an individual, 
a voting member from each city in two counties, each county 
getting a vote, transportation district getting a vote, transit 
district getting a vote, and then you put four private sector 
business people from each county each getting a vote and you 
put them in a room and you say, ``We have $400 millions worth 
of projects, and by the way, we've got $14 million to spend, 
you guys split it up.''
    We do it every other year unanimously, and I think I need 
say no more. It has been just a roaring success, and I think 
that it speaks well to the level of collaboration that we have 
here in the State.
    I think it's particularly important for you to hear that 
because the scarce transportation revenues that are going to be 
available really need to be subjected to a process whereby they 
are spent properly.
    I've got two additional comments that--I've been listening 
through the testimony--that are issues that are of particular 
interest to us here. You've heard Commissioner Kupillas talk 
about our air quality. You may or may not know that we have 
some significant limitations here.
    So we are particularly mindful of the adverse consequences 
that would accrue to our area where we'd have a major failure 
of one of these bridges; so we applaud not only the Oregon 
Department of Transportation's commitment to repairing the 
bridges, but appeal to you folks to help fund that.
    That said, that is more of a defensive operation than an 
offensive one, and when you think about where Oregon rests 
geographically on the West Coast, if we are forced to limit our 
investments to bridges, it puts the State at a distinct 
disadvantage in competing for additional growth and economic 
development activities.
    As Oregon--or as California and Washington continue on a 
more robust economic development activity schedule, then that 
freight that moves through Oregon then consumes the capacity 
that we need. So that's why Commissioner Foster made, I think, 
a very specific comment that it's funding for the bridges, but 
we also need additional funding to ensure our modernization 
needs keep us economically competitive. So those are my 
comments with regard to the area here.
    In addition to being the Chamber's transportation chair, 
I'm also the chair of the Regional Transportation Commission 
for ODOT and coincidentally Air Quality Advisory chair. So 
that's the symbiotic relationship in this Valley.
    Senator Wyden. You wear all the hats.
    Mr. Montero. Well, at different times, thankfully.
    Senator Wyden. Not just multiple. All the hats.
    Mr. Montero. It's important that it be recognized, and I 
was really encouraged that this panel was looking at both 
public works and environment. Sometimes they are viewed as 
mutually exclusive. They can never be viewed as mutually 
exclusive.
    Senator Wyden. Mr. Burrill, Mr. Hicks, any comments?
    Mr. Burrill. Let me comment on some of the questions that 
were asked of the previous panel in regard to citizen 
involvement and how ODOT is working with that. Through the 
years, I have served on citizen advisory commissions and 
service teams with ODOT, and I was on the solutions team of the 
south interchange, I-5 interchange we're looking at locally, 
and that is the project of the focus of the initiatives that 
have been filed.
    I can tell you from my experience as being part of that 
process, it was a very open process, that not only did ODOT 
create a solutions team that had a variety of interests that 
brought the public together, it also invited people that are 
not part of the team to sit in on the meetings, the same people 
who are filing the initiative petitions were in those meetings.
    There were no surprises. One of the things people need to 
realize and they don't, you may have several solutions you need 
looked at on a particular project, and South Medford 
Interchange had something like 14 different options we looked 
at through the process, but one of the options was a no-build 
option, and you take the no-build option and you project that 
into the future and say what will life be like on that corridor 
10 years, 20 years from now if we don't do something? Life in 
that corridor will be far worse than it would be with the 
options that are being considered, and the option was selected.
    The folks that live over there would like to keep things as 
they are now and not to have growth in the community, not to 
have increased traffic in the community, and let life go on, 
but we know that isn't the way it works.
    And I think, Mr. Burrill, one of the things that we have 
happening in this Valley is that the communities around Medford 
are growing significantly, and yet the city of Medford is the 
regional retail shopping center; it's the regional medical 
center; it's the regional transportation center. So people from 
all of the outlying communities constantly drive into Medford 
to use the facilities we have here.
    So even if Medford itself doesn't grow, the transportation 
woes we have to deal with here will grow. So I want to say, I 
guess, is that I feel that ODOT has done a very good job of 
reaching out to the public. And it's just those who would 
rather it didn't happen in their backyards are really the one 
opposed to it.
    If this initiative was to pass, it would have a significant 
detrimental impact on the ability of ODOT to deliver projects 
into the Medford area.
    Senator Wyden. OK. Mr. Hicks.
    Mr. Hicks. For many years the Oregon Tourism Department has 
had a slogan that says, ``Things look different here,'' and 
lately that's taken on kind of a negative connotation.
    But I think it's still true here in Southern Oregon and 
more so to the original spirit of that slogan as it relates to 
transportation. One of the groups that most of the people 
you've heard from this morning participate are individuals 
you've heard from this morning is a group called TRADCO. It's 
more than just a two-county collaboration, but it's also a 
public private partnership.
    And every month members of the business community, members 
of ODOT staff, City staff, County staff and other interested 
individuals and transportation agencies come together to report 
to one another and work on some of the issues that Mr. Montero 
was mentioning.
    I think that's been a real success, and that was really the 
genesis or the birth place of those acts, and there was also 
somebody in the room here that has been a real advocate in both 
of those groups and these local efforts, and that's our Medford 
City Council person Skip Knight. So I wanted to recognize him.
    As much as the Chamber is supportive of full funding, I 
want to make sure that we balance that with a regulatory 
environment at the Federal level that helps these dollars, 
making sure, I guess, we get the biggest bank for our buck. And 
being careful, I know you guys are looking right now, I think, 
the Senate just sent back over to the House the SHIPA proposal 
and that would create some weight and size restrictions on 
truck travel and on trucking.
    And I just want to make sure we're being careful not to 
create more truck traffic. You know, we have different highways 
out here on the West Coast than maybe they do in Rhode Island 
or Connecticut. We might have five stoplights on Highway 97, 
and a highway that runs through Rhode Island maybe they have 
hundreds; so we want to make sure we're being careful to look 
at those things so that we're not creating a regulatory 
environment that would tie the hands of folks like Mr. Warner 
in allowing us to improve our infrastructure full throttle, so 
to speak.
    But anyway I guess the final thing that I would say is that 
it's no secret that we've had some challenges in the Oregon 
Legislature----
    Senator Wyden. No.
    Mr. Hicks [continuing]. This session, but even in the 
environment those folks are playing in right now, they manage 
to craft a bipartisan agreement to fund transportation in the 
State, and I think to Mr. Shiprack's point earlier, you see 
groups like business organizations such as our own, building 
trades, Republicans, Democrats coming together.
    And I suppose to remind folks, like you say Senator Smith 
likes to say, there is no such thing as Republican and Democrat 
roads. They are just roads, and they are just transportation.
    So I hope in Washington DC and in Congress that same thing 
will rule the day, and thank you again.
    Senator Wyden. Well, excellent points, and you know this 
whole question of making sure that you don't get the extra 
money and chew it up in red tape and bureaucracy, it's very 
important. You've been working on this streamlining effort for 
years, you go down this road on getting the project on the 
ground, digging the dirt, going forward, getting the work 
underway, and somebody would come in at the last minute and 
file some kind of NEPA environmental policy request, and the 
whole thing would be stalled for years.
    And that was what Mr. Frankel was talking about trying to 
make sure those two are done concurrently, and we still have 
some ways to go, but it's illustrative of the very good point 
of chewing up time and money on unnecessary stuff.
    On the SHIPA points, I'm advised that nothing is going to 
be changed in our State on truck length and weight 
requirements, but obviously we're going to have to deal with 
this nationally, and we'll be anxious to work with the Chamber 
and all of you on it and certainly an area that ought to be 
watched.
    Mr. Kratz, anything you like about the way the process goes 
now? Anything you want changed?
    Mr. Kratz. I think the comments I'll make are again going 
back to the business that we're in. When you ship a product 
like cherries and as highly perishable as those are, and that's 
just an example. That's how critical transportation is to us. 
So any initiative that may delay a project certainly is not in 
our best interest.
    My recommendation on this would be, if there's any help 
certainly that you can provide, but really looking at what did 
we learn from the South Medford interchange process and try to 
reach some common ground, if there is any.
    Having been involved with it, I thought it was a very, very 
open process, but certainly there's some folks that don't feel 
the same. And if we can sit down and learn that short of the 
initiative that's going to be on the ballot, that would be 
helpful, I think, for us to find some common ground.
    Senator Wyden. Great. OK. Well, listen we've been at it a 
long time. I think we all agree that we're going to need a 
transfusion of transportation help in our State given all this 
economic hurt out there. This is something that can provide a 
real shot in the arm and help with a lot of folks that have 
been flattened get back on their feet. And to a great extent, 
this holds our ability to meet the region's economic future not 
just today but down the road.
    And we've got safety projects, projects like the Bear Creek 
Greenway, that are opportunities for recreation and improving 
the well-being of our citizens. And we're going to work with 
all of you and try to follow up on these suggestions, get 
people more involved in the process earlier.
    I think that speaks to Mr. Hicks's point to make sure the 
money is used well and get people more involved early on rather 
than waiting for calamities to take place later down the road, 
and of course, the key is to get this done in a bipartisan way 
and a way that's fiscally responsible.
    All of you have been excellent. Any of you panel members, 
anything you want to add? All right. The Committee on 
Environment and Public Works is adjourned.
    [Whereupon, at 11:40 a.m., the committee was adjourned, to 
reconvene at the call of the Chair.]
    [Additional statements submitted for the record follow:]
      Statement of Hon. Emil H. Frankel, Assistant Secretary for 
          Transportation Policy, Department of Transportation
    Senator Wyden, thank you for the opportunity to speak to you today 
about the importance of transportation to the economy. Secretary Mineta 
has stated that few things have as great an impact on our economic 
development, growth patterns, and quality of life, as transportation. 
This is equally true at the National, State, and local levels. A safe 
and efficient transportation system is essential to keeping people and 
goods moving and communities prosperous.
    American households spent an average of $7,000 on transportation in 
1999, nearly 20 percent of their income and second only to the amount 
they spent on housing. In 1999, the U.S. recorded about 4.6 trillion 
passenger miles of travel and 3.8 trillion ton-miles of domestic 
freight shipments. The U.S. freight transportation network moved over 
15 billion tons of goods in 1998. In 2000, more than 10 million people 
were employed in transportation-related industries.
    Construction and maintenance of highway facilities also can help 
National, State, regional, and local economies grow by attracting new 
businesses and by providing access to new markets. Studies from the 
Federal Highway Administration show that highway infrastructure 
investments generate important economic benefits by reducing production 
costs, increasing productivity, and fostering private capital 
investment.
    Since the enactment of the Transportation Equity Act for the 21st 
Century (TEA-21) in 1998, combined investment in highway 
infrastructure, by all levels of government, has increased sharply. 
Total highway expenditures by Federal, State, and local governments 
increased by 25.0 percent between 1997 and 2000. The increased Federal 
funding levels for highway capital investment under TEA-21 through 2000 
have been matched and exceeded by increases in State and local 
investment.
    In addition to economic benefits, this increased investment is 
reflected in improvements in pavement ride quality and reductions in 
bridge deficiencies. Increased spending for system improvements is one 
of a number of factors that has aided in the reduction of the Nation's 
highway fatality rate. The fatality rate per 100 million vehicles has 
decreased from 3.3 fatalities in 1980 to 1.5 fatalities in 2002.
    Despite this progress, our Nation's transportation systems face 
significant challenges in the areas of safety, security, congestion, 
intermodal connectivity, and timely project delivery. Building upon the 
principles, values, and achievements of the Intermodal Surface 
Transportation Efficiency Act of 1991 (ISTEA) and TEA-21, the 
Administration's reauthorization proposal--the Safe, Accountable, 
Flexible, and Efficient Transportation Equity Act of 2003 or 
``SAFETEA''--addresses these challenges as it seeks to create a safer, 
simpler, and smarter Federal program.
    SAFETEA builds upon the substantial funding increases under TEA-21 
by calling for a record Federal investment in surface transportation, 
spending over $201 billion on highway and safety programs, and nearly 
$46 billion on public transportation programs, from fiscal year 2004 
through fiscal year 2009. The Administration's proposal marks a 19 
percent increase over the amounts provided in TEA-21.
    These funding levels would be achieved by: 1) continuing the 
financial guarantees of TEA-21 that linked highway funding with the 
receipts generated by transportation excise taxes; 2) redirecting to 
the Highway Account of the Highway Trust Fund the 2.5 cents per gallon 
of the gasohol tax currently deposited in the General Fund; and 3) 
dedicating an additional $1 billion a year of Highway Trust Fund 
dollars over and above each year's estimated receipts into the Highway 
Trust Fund to improve highway infrastructure performance and 
maintenance.
    One of the main focuses of our proposed legislation is 
transportation safety. Although we have made improvements in the rates 
of fatalities and injuries on our highways, the total numbers remain 
intolerable, and they are rising. In 2002, nearly 43,000 people lost 
their lives on our highways and roads. Families are destroyed and 
promise is lost. The economic costs are unacceptable as well. The total 
annual economic impact of all motor vehicle crashes exceeds $230 
billion, a staggering figure.
    For these reasons, the Administration has made saving lives an 
essential priority in SAFETEA. We have a moral, as well as an economic, 
obligation to address immediately the problem of transportation safety. 
The Bush Administration is committed to reducing highway fatalities, 
and SAFETEA offers proposals to take those actions that can make the 
achievement of this goal possible.
    SAFETEA proposes the creation of a new core funding category 
dedicated to safety within the Federal-aid highway program. This new 
category will more than double funding over TEA-21 levels for highway 
safety infrastructure programs. The Administration also is seeking to 
consolidate and simplify the safety programs administered by the 
National Highway Traffic Safety Administration (NHTSA).
    By enhancing their capacity and flexibility, State transportation 
and safety officials can target scarce Federal safety funds on the most 
relevant problems confronting their communities. Incentive bonuses will 
reward those States that achieve demonstrable safety results. Oregon 
should be commended for its stellar safety record, including an 
impressive 88 percent safety belt usage rate. In 2002, Oregon saw its 
total fatalities drop 12 percent from a year earlier. In fact, 2002 
marks only the second time since 1956 that the annual number of 
fatalities has been less than 430. Considering that the State's 
population has doubled since 1956, this is a truly remarkable 
achievement.
    Unfortunately, not every State has taken safety issues as seriously 
as Oregon has. The majority of States have not enacted primary safety 
belt laws, despite overwhelming evidence linking such laws to improved 
safety belt usage rates. Enactment of the safety provisions in SAFETEA 
would be an important step, we believe, in reducing highway fatalities 
and injuries, and providing greater flexibility to State and local 
governments to use these funds consistent with a comprehensive 
strategic highway safety plan.
    Our Nation's transportation system faces significant challenges in 
other areas as well, such as timely project delivery, freight 
efficiency, congestion, and intermodal connectivity. Our proposal 
addresses transportation problems of national significance, while 
giving State and local transportation decision, makers more flexibility 
to solve transportation problems in their communities.
    SAFETEA would increase State and local government flexibility by 
eliminating most discretionary highway grant programs and making these 
funds available under the core formula highway grant programs. States 
and localities have tremendous flexibility and certainty of funding 
under the core programs. SAFETEA also would establish a new performance 
pilot program under which States can manage the bulk of their core 
formula highway program funds on a performance basis, cutting across 
the programmatic lines by which the Federal-aid highway program is 
normally structured. Under the pilot program, States would work with 
the Department to develop and meet specific performance measures that 
reflect both State and National interests.
    The Administration believes that we can and must protect our 
environment while improving the efficiency of transportation project 
delivery. To accomplish this goal, SAFETEA would clarify the role of 
States or project sponsors in expedited review procedures, particularly 
regarding the establishment of time periods for environmental reviews, 
the initiation of dispute resolution procedures, and the preparation of 
Environmental Impact Statements.
    For States like Oregon, which are planning major system upgrades, 
streamlining the environmental process will be a key factor in keeping 
the projects environmentally sound, on-time and on-budget. SAFETEA will 
also revise the Congestion Mitigation and Air Quality Improvement 
(CMAQ) program to better address the new air quality standards; revise 
the High Occupancy Vehicle (HOV) lane provisions to encourage the use 
of cleaner and more fuel-efficient vehicles; and encourage the active 
consideration and implementation of context-sensitive design principles 
and practices in all federally aided transportation projects.
    The health and productivity of our Nation's economy is increasingly 
tied to a domestic and international goods trade. The importance of the 
movement of freight is evident in Oregon. On an average weekday, 
Oregon's highways move nearly 800,000 tons of goods worth over $480 
million. 1-5 is one of the most heavily traveled truck-freight 
corridors in the Western United States. Seattle to Portland truck 
tonnages rank among the top of Western metropolitan area truck trade 
interchanges. Oregon companies export over $10 billion worth of 
products to foreign nations, including Japan, Canada, South Korea, and 
Taiwan--Oregon's leading foreign trade partners.
    SAFETEA attempts to enhance our Nation's freight transportation 
system in a number of ways. First, the bill invests National Highway 
System (NHS) Program funds in the often neglected, but critical ``last 
mile'' roads that connect the NHS to intermodal freight facilities. 
Although these roads do not represent a significant portion of total 
NHS mileage, their health is critical to intermodal freight activity in 
many parts of the country.
    Second, SAFETEA makes several innovative financing tools available 
for private intermodal freight projects. Under the credit program 
authorized by the Transportation Infrastructure Finance and Innovation 
Act of 1998 (TIFIA), the Administration's proposal lowers the project 
threshold to $50 million from $100 million and expands the program's 
eligibility to include freight projects involving the private sector. 
In addition, SAFETEA proposes that bonds issued to finance intermodal 
freight projects and highway facilities benefit from Federal tax-
exempt, status, even though private entities operate the facilities.
    SAFETEA also provides valuable new tools for States and localities 
to manage existing and new capacity more efficiently. These tools would 
be particularly beneficial in heavy trade corridors where congestion is 
both more likely and more costly. Our proposal would allow States to 
establish variable user charges or tolls on any highway, bridge, or 
tunnel, including the Interstate System, to manage congestion or 
improve air quality. It would father allow States to permit Single 
Occupancy Vehicles (SOVs) on HOV lanes as part of such a variable toll 
pricing program.
    The Administration fully recognizes that tolling is neither 
appropriate nor necessary on many highway facilities. However, we 
believe that States facing congestion crises should be permitted to 
explore all viable options to allocate scarce road capacity. In 
addition, tolling can provide a valuable revenue stream to speed up 
completion of a capacity expansion on the tolled facility. Empirical 
evidence regarding tolling, especially variable tolling, from parts of 
the United States and other parts of the world, strongly indicates that 
it can be a highly effective demand management tool and an important 
facility financing mechanism. The Federal Government should not be an 
obstacle to further innovation in this area.
    In addition to the significant amount of funding provided through 
the core programs, all of these innovative proposals could be used to 
upgrade a major trade corridor like I-5. The Texas Transportation 
Institute (TTI) currently ranks the Portland/Vancouver metropolitan 
areas as the 12th most congested in the Nation, with 1-5 being one of 
the most congested facilities in the region. In addition, congestion is 
projected to worsen substantially with rapid population growth and 
increases in vehicle-miles of travel (VMT) per capita. For example, 
congestion at the I-5 Columbia River bridge is expected to create six-
to seven-mile peak direction queues during the morning and afternoon 
peak periods in 2020, if no improvements are made.
    Working with the Portland/Vancouver 1-5 Transportation and Trade 
Partnership and with our State partners in Oregon and Washington, USDOT 
is excited to begin the process of implementing the Partnership's 
comprehensive strategic vision of highway, transit and rail capacity 
expansion, better system management and environmental protection.
    The proposal to reform the current Intelligent Transportation 
Systems (ITS) Program in SAFETEA will give incentives and flexibility 
to States that implement technology solutions to improve operations. As 
we increase total funding for capacity expansion, we must also look for 
ways to improve operational efficiencies. Few things offer more promise 
in this regard than technology.
    In Oregon alone, vehicles drove over 34 billion miles on highways 
in 2001. In the preceding 10 years, vehicle miles of travel in the 
State grew 31 percent while lane miles of public roads in Oregon did 
not grow at all. As a consequence, traffic becomes routinely congested 
on nearly 500 miles of Oregon's highways, affecting in particular about 
two-thirds of the freeway mileage in Portland. Under SAFETEA, States 
will be rewarded for using technology to reduce delays caused by 
accidents, work zones, lack of intermodal integration, poor 
intersection signalization and lack of traveler information, among 
other things.
    The State of Oregon and the city of Portland already have several 
Traffic Management and Operations Centers to monitor traffic, provide 
motorists with timely information, and respond to incidents. Truckers 
get immediate information on traffic delays through the Oregon 
Department of Transportation QuickFax service, which reaches over 150 
trucking companies and 30 truck stops. SAFETEA will allow greater 
investments in approaches such as these to improve reliability, reduce 
travel times, and respond quickly to life-threatening situations.
    SAFETEA also promotes common sense public transportation solutions 
by reducing the number of different program ``silos'' and formularizing 
all programs except the New Starts Program. This will give States and 
localities the flexibility they need to fund local priorities. We want 
States to maximize mobility and create a seamless community 
transportation network, not try to match projects to specific pots of 
money.
    Here in Oregon, the success of the Portland Streetcar and the 
Portland Light Rail projects demonstrate how investments in public 
transportation can contribute substantially to the economic development 
of a city. Over $1 billion has been invested near the Streetcar 
alignment since 1997, including over 3,600 housing units and over 2 
million square feet of office, institutional, retail and hotel 
construction. Since the Portland light rail system was constructed, 
more than $3 billion in new development and 10,000 housing units have 
been built along the tracks. More than 46 percent of downtown commuters 
use transit to get to work and the system eliminates 187,000 car trips 
every day. The most recent construction project, the Interstate 
Metropolitan Express (MAX) extension, generated 2,940 construction-
related jobs, and is expected to relieve traffic on I-5.
    Stable formula funds help agencies do more with limited resources 
because they give financial markets the confidence to support transit 
investments; give communities an incentive to commit long-term 
resources; and give community developers the confidence that the 
transit commitments necessary to support new development will be 
honored.
    Under SAFETEA, New Starts would be expanded to provide capital 
assistance for new non-fixed guideway corridor systems and extensions 
that meet the New Starts criteria, as well as new fixed guideway 
systems and extensions. FTA has always funded meritorious public 
transit projects, but the current statute restricts New Starts funds to 
projects that utilize a fixed guideway. Fixed guideway projects are 
critical to public transportation and they will continue to be eligible 
for funding, but worthy projects that propose lower-cost non-fixed 
guideway solutions also deserve consideration. With today's 
technology--particularly bus rapid transit--a fixed guideway is often 
not the most cost-effective method of providing new or expanded 
corridor systems. The current rules encourage communities to choose a 
more expensive fixed guideway system in order to qualify for a New 
Starts grant.
    Moreover, some small and medium-sized communities that would 
benefit enormously from the creation of new transit options simply 
cannot generate enough riders or travel-time savings to justify a more 
expensive fixed guideway system. We will work closely with Congress and 
with all of our stakeholders to ensure that, as we make room for these 
cost-effective, non-fixed guideway transit solutions, we do not 
compromise the intent of the New Starts program.
    Finally, I would like to touch briefly on intercity passenger rail. 
As you know, the Bush Administration recently released the Passenger 
Rail Investment Reform Act of 2003, the first comprehensive proposal to 
fundamentally reform the Nation's intercity passenger rail system in 
thirty years.
    The Administration's proposal would bring investment in intercity 
passenger rail in line with all other transportation modes by creating 
a system in which States and local communities, using capital 
investments supported by Federal funds, operate rail service in their 
areas. The proposal builds on proven models of success in attracting 
riders and providing quality service for travelers, such as the 
Cascades service between Portland, Oregon, and Seattle, Washington, and 
other State-funded trains in California and Illinois.
    The Administration's proposal replaces subsidy payments to the 
National Railroad Passenger Corporation (Amtrak) after a transition 
period, with direct Federal matches for capital investment to be paid 
directly to the States. States and multi-State compacts would submit 
proposals for passenger rail capital investment and train operations to 
the U.S. Department of Transportation. Ultimately, States would be free 
to choose the train operations provider of their choice--whether a 
private company, a public transit agency or Amtrak.
    At the rollout of the legislative proposal, Secretary Mineta cited 
the Cascades rail service, developed by Washington and Oregon, as a 
model for the support and innovative planning that results when 
communities and States take the lead in addressing their needs for 
passenger rail service. The two States have invested some $170 million 
in developing high-quality passenger rail service from Portland to 
Seattle. State funds have been used to improve track, purchase new 
trains and upgrade stations. Oregon and Washington have provided 
operational subsidies to support the service and have hired Amtrak to 
run it. Other States are exploring the potential of such multi-State 
coalitions for the planning of intercity passenger rail service and 
eventually high-speed rail service.
    We believe this model for investment--reflecting the States' better 
understanding of local priorities for passenger rail--should be the 
driver of Federal subsidies for intercity passenger rail. Oregon and 
Washington have done an outstanding, innovative job in building a 
service that works, but have had to do that without Federal support for 
capital investment. The Administration's approach would finally bring 
that support to the table.
    These are challenging and exciting times for USDOT, the Congress, 
and the entire transportation community. We must work together for a 
long-term reauthorization of surface transportation and intercity 
passenger rail programs. Enactment of these bills is critical not only 
for funding stability, but also to implement innovative reforms that 
will provide more revenue dollars without raising taxes and produce 
cost savings through more efficient investment of the dollars that are 
made available.
    Senator Wyden, this concludes my statement. I again thank you for 
the opportunity to testify today and I will be pleased to answer any 
questions you may have.
                               __________
  Statement of Stuart Foster, Chair, Oregon Transportation Commission
    Thank you Senator Wyden and Members of the Committee for this 
opportunity to discuss the State of Oregon's priorities for the 
reauthorization of the Transportation Equity Act for the 21st Century 
(TEA-21). I am Stuart Foster and I am the chair of the Oregon 
Transportation Commission (OTC). The OTC is comprised of five citizen 
volunteers appointed by the Governor and confirmed by the Oregon Senate 
which sets policy directions and approves transportation funding 
decisions for the State. I am also a resident of Medford and a small 
business owner.
    I would like to acknowledge what has been accomplished in Oregon 
with the Federal funds we received under TEA-21. In the first 3 years 
of TEA-21 alone, we built 78 modernization projects totaling $164 
million, 186 paving projects totaling $288 million, and 296 bridge 
projects totaling $153 million. We have improved pavement conditions 
statewide after years of decline; helped revitalize downtowns in rural 
communities such as Joseph and Lakeview; and, brought traffic 
fatalities down to the lowest level in over forty years. This is 
tremendous progress in just a 5-year time period.
    On behalf of the Commission and the Oregon Department of 
Transportation (ODOT), I want to thank this Committee for its part in 
crafting TEA-21. This legislation has truly made a difference in this 
State. I also want to point out that it was Senator Wyden who led the 
charge 6 years ago to increase Oregon's share of formula funding when 
TEA-21 was being written. He was successful, and as a result, Oregon 
received 50 percent more funding than we received under the previous 
bill. Thank you Senator Wyden.
    Looking ahead to the reauthorization of TEA-21, the State has 
developed a position paper on the reauthorization of TEA-21 together 
with the Association of Oregon Counties and the League of Oregon 
Cities. The recommendations in the position paper were delivered to 
each of Oregon's congressional offices and I have submitted a copy with 
my written testimony for the record. Our No. 1 priority is to increase 
Oregon's annual highway formula funding because:

    <bullet>  These funds make up the largest portion of funding in the 
bill.
    <bullet>  The State shares these funds with local governments.
    <bullet>  The State invests these funds wisely an inclusive public 
process determines how funds are spent.

    There are three compelling arguments why Oregon should have its 
formula funding increased in the next bill. First, the Federal 
Government must help solve Oregon's $4.7 billion bridge problem. The 
problem is simply too large for the State to solve on its own. Without 
Federal help, more bridges will be weight limited, effecting not just 
the movement of freight within the State but nationwide.
    Second, experts forecast that freight traffic in the Pacific 
Northwest will outpace the national average. The State's aging 
transportation system and congested freight corridors such as 
Interstate 5 will not be able to accommodate this growth without 
greater Federal investment. Third, Congress should recognize the effort 
that the State of Oregon has made to address the bridge problem and 
growing congestion. The Governor and State Legislature recently enacted 
a State funding package that when bonded will generate $2.5 billion for 
local and State transportation projects. $1.9 billion is dedicated to 
repair and replace deficient bridges and $100 million is dedicated to 
projects that improve freight mobility.
    The position paper also highlights several other priority 
recommendations for reauthorization. They include:

    <bullet>  Increase overall funding for highways and transit 
programs.
    <bullet>  Maintain TEA-21's funding guarantees and firewall 
provisions.
    <bullet>  If funding is earmarked for ``High Priority Projects'', 
the Delegation should focus its efforts on fully funding requests that 
are eligible, feasible, reasonable, timely and widely supported.
    <bullet>  Continue TEA-21's basic program structure.
    <bullet>  Give States the flexibility to use Federal funds for rail 
capital improvements.
    <bullet>  Adequately fund passenger rail services.
    <bullet>  Strengthen research and innovative finance programs that 
improve freight mobility.

    Prior to adopting the position paper, the Oregon Transportation 
Commission and our local partners spent considerable time discussing 
the issue of ``High Priority Project'' earmarks. It is important for 
the Committee to understand how these earmarks impact States and local 
communities. There are three thoughts I want to leave you with. First, 
when earmarks partially fund a project and the project sponsor (i.e. a 
local government) does not have funding set-aside to make up the 
shortfall, other projects that have been vetted through a public 
involvement process are delayed or canceled to free up funding for the 
earmarked project. Second, when funding is earmarked for a project that 
has not been evaluated by a State or regional prioritization process, 
those that ``play by the rules'' are penalized. Last, if funding is 
earmarked for a project that has not cleared most Federal and State 
environmental requirements, construction will not begin for many years, 
thereby losing the immediate economic benefit to the state of funding 
projects that are ready for construction.
    Based on our experience with TEA-21, we strongly urge you to fully 
fund requests that are eligible, feasible, reasonable, timely and 
widely supported. The OTC worked very closely with Area Commissions on 
Transportation (ACTs) to develop a list of projects that meet these 
standards. Funding has been set-aside for these projects so they will 
be built if we receive close to the amount of Federal funding requested 
in the next authorization bill. And most importantly, these are 
projects that can be constructed over the life of the next bill. This 
Governor and Commission want to do everything we can to put Oregonians 
to work now, when good paying jobs are desperately needed.
    Now that I have discussed the State's priorities for 
reauthorization, I want to take a moment to talk about the importance 
of collaboration. The OTC and ODOT are continually working to improve 
the way we work with our Federal and local partners to ensure that we 
maximize the use of Federal funds.
    Federal law requires States to conduct 20-year long-range plans and 
a public process for selecting projects that will be funded with 
Federal dollars. Each State must publish a document every 2 years, a 
statewide Transportation Improvement Program (STIP), which shows which 
projects will receive funding. In Oregon, the general public, cities 
and counties, metropolitan planning organizations, regional 
governments, and representatives from the business community 
participate in this planning and funding prioritization process.
    In recent years, we have begun implementing significant new 
initiatives to strengthen this collaborative effort. For example, we 
have formed a stakeholder group that is reviewing how the State selects 
projects for Federal funding. We have established a multi-agency 
agreement with Federal and State resource agencies on environmental 
stewardship and streamlining, known as the Collaborative Environmental 
and Transportation Agreement on Streamlining (CETAS). We have 
encouraged all regions of the State to form Area Commissions on 
Transportation.
    ACTs are regional advisory committees to the Oregon Transportation 
Commission. Local governments, transportation providers (transit 
operators, ports, etc.) and private stakeholders in each region of the 
State are invited to meet regularly to prioritize projects and make 
funding recommendations to the Commission. They work closely with ODOT 
regional staff. Most ACTs encompass a two to three county area (see 
attached map). The idea is simple yet innovative for a State 
transportation agency give local communities from all parts of the 
State greater access to Federal funding and transportation policy 
decisions.
    Mike Burrill and Sue Kupillas who are testifying later this morning 
can give you feedback on this region's experience with the Rogue Valley 
Area Commission on Transportation (RVACT). From the State's point of 
view, ACTs have brought more people to the decisionmaking table, which 
is leading to better decisions.
    What does this discussion about collaboration have to do with the 
State's priorities for the reauthorization of TEA-21? As this Committee 
considers how Federal formula funds will be allocated among the States 
in TEA-3, we want to make sure you aware that Federal funding entrusted 
to ODOT is spent collaboratively and all Oregonians benefit. It is 
another important reason to support increasing Oregon's share of 
Federal highway formula funding and fully funding the list of projects 
approved by the OTC and submitted to the Oregon Delegation for High 
Priority Project funding.
    This concludes my remarks. I would be happy to answer any 
questions.
                               __________
       Statement of Bruce Warner, Director, Oregon Department of 
                             Transportation
    Good morning Senator Wyden and Members of the Committee. I am Bruce 
Warner and I am the Director of the Oregon Department of Transportation 
(ODOT). Thank you for this opportunity to discuss the importance of 
Federal investment in transportation in Oregon and the Pacific 
Northwest as part of the reauthorization of the Transportation Equity 
Act for the 21st Century (TEA-21). I will briefly describe the 
distinctive importance transportation has to the Pacific Northwest 
economy and two specific challenges we face that require greater 
Federal assistance.
    Before I begin I would like to recognize Senator Wyden for his 
leadership on transportation issues. He has been a tireless advocate in 
the Senate for improving all modes of Oregon's transportation system. 
On behalf of the Department, thank you Senator. I look forward to 
working with you and your staff to ensure the next ``TEA'' bill is as 
good for Oregon as TEA-21 and ISTEA were.
    The Pacific Northwest region's economy is built on transportation-
intensive industries. Agriculture, construction, transportation 
equipment, wholesale and retail trade, and manufacturing make up 54 
percent of the Oregon-Washington economy, but only 49 percent of the 
national economy. As a consequence, our economy is more dependent on 
transportation.
    The efficiency of the transportation system affects the 
competitiveness of Oregon-Washington businesses. To gain a competitive 
edge in reaching national and global markets, the region must have 
reliable and cost-effective access to its businesses, farms, ports, 
airports, and trade partners.
    Efficient transportation is also important because the economy of 
the Pacific Northwest is dependent on global trade. Oregon and 
Washington export $45 billion of products each year. As a percentage of 
the region's economy, this is about twice the national average.
    There is growing concern that the existing transportation system is 
not capable of supporting the growth in freight movements that we 
expect in the coming years. For example, import-export freight tonnage 
is forecast to double by 2020 and domestic freight tonnage is expected 
to increase by about 70 percent. Of particular concern in Oregon is the 
State's worsening bridge problem and congestion in the Interstate 5 
Corridor.
    Oregon faces a massive $4.7 billion bridge problem that threatens 
the movement of freight within the State, the region, and across the 
country. More than 500 bridges, most on the Interstate System, are 
beginning to crack. Severe cracking has forced the State to weight 
limit an increasing number of bridges. For example, 12 bridges on I-5 
are currently weight limited with a total replacement cost of $187 
million. Without significant new investment in Oregon's infrastructure, 
30 percent of the State's bridges will be posted with reduced weight 
limits by the end of this decade.
    Weight limited bridges not only restrict the movement of heavy 
trucks on the Interstate the routes established by Congress to carry 
the nation's freight but they drive up costs as freight is diverted off 
the Interstate, often onto local roads that were never built to handle 
such heavy loads. Safety is also a concern because many of the detour 
routes send large trucks down the ``Main Street'' of small communities 
that parallel the Interstate.
    Oregon is not the only State facing this problem as thousands of 
bridges built throughout the country during the Interstate era are now 
at or nearing the end of their design life. These bridges were not 
built to be maintained indefinitely, but rather to be replaced at the 
end of their useful life. In Oregon, nearly 25 percent of bridges are 
greater than 50 years old.
    The Governor and Legislature have responded to the problem. Just 
last month they enacted a $2.5 billion State transportation bonding 
package, of which almost $2 billion is dedicated to bridges. This major 
accomplishment alone is not enough, however, because the problem is 
simply too large and the impacts too far reaching. The Federal 
Government must also be part of the solution, particularly where the 
Interstate System is concerned and interstate commerce is negatively 
impacted.
    I urge the Committee to look at ways to address this problem in the 
next authorization bill. Some options might include updating the 
current bridge formula to better direct resources to this particular 
problem, setting aside discretionary bridge funding as was done for 
California in TEA-21 following earthquakes in the early 1990's, or 
others.
    Another major transportation challenge we face in the region is 
congestion in the I-5 Corridor, especially the highway and rail 
crossings over the Columbia River. The I-5/Columbia River crossings 
have become a major choke point that threatens the region's economy and 
livability.
    At the I-5/Columbia River crossings, the cost of delay to trucks is 
forecast to increase by 140 percent from $14 million in 2000 to $34 
million in 2020. The rail network is equally congested. Congestion adds 
about 40 minutes to every train move in the Portland-Vancouver area.
    The cost of congestion affects both motorists and trucks but 
freight traffic is disproportionately affected as congestion spreads 
into times when truck deliveries are made, in the mid-morning after 
businesses open and mid-afternoon when most pick-ups are made before 
businesses close. Congestion leads to higher transportation costs for 
businesses due to delay, unreliable travel times, and increased 
inventory costs. The bottom line is Oregon businesses will find it 
harder to compete in domestic and global markets as congestion 
threatens their productivity.
    A recent study showed that congestion in the corridor affects not 
only the Portland-Vancouver area but also the economies of Oregon, 
Washington, the West Coast and the Nation. For example, about half of 
rail shipments originating from Seattle-Tacoma travel south through 
Portland-Vancouver on the way to their final destinations. About 133 
million bushels of wheat grown in eastern Washington and Oregon are 
shipped through the corridor for export to foreign markets.
    Washington and Oregon are developing innovative solutions to 
overcome this threat. Through a collaborative public process, we have 
identified transportation improvements needed to relieve highway and 
rail congestion in the Portland-Vancouver segment of this critical 
corridor. There is much more work to be done, and we will be requesting 
additional help from this Committee in the coming years. We have a 
solid foundation upon which to build.
    This Committee has recognized the national significance of the I-5 
Corridor and included language in TEA-21 designating it a priority 
corridor and making it eligible for funding under the National Corridor 
Planning and Development Program. Since then, more than $7 million of 
Federal funding has been awarded to projects in the corridor. Thank you 
Senator Wyden and the Committee for your strong support of this 
important corridor. I think it is significant and worth pointing out 
that we have received funding under both Republican and Democratic 
Administrations for the corridor and it has strong bipartisan support 
in Congress.
    In the Medford region, dealing with rapid growth and congestion in 
the I-5 Corridor is a priority for State and local officials. The 
solution is to upgrade interchanges on the Interstate to better 
accommodate freight traffic and improve safety for local residents. 
Again, with your help, Senator, and the help of the Oregon 
congressional Delegation, we have made some progress. We have funded 
two projects in Medford that will help alleviate congestion on I-5 when 
they are completed over the next several years.
    As this Committee works on reauthorizing TEA-21, I strongly urge 
you to strengthen the existing national corridor program. Instead of 
spreading limited funding to dozens of corridors a year, the Committee 
should consider directing increased funding to a handful of corridors, 
such as the I-5 Corridor, that have true national significance as 
freight corridors.
    conclusion, Congress must take steps now to ensure that the 
nation's transportation system will be capable of moving greater 
numbers of people and freight, safely and efficiently. The Pacific 
Northwest will need extra assistance as experts predict that the 
region's population and freight movements will grow at a rate faster 
than the national average. In Oregon, our companies simply will not be 
able to compete in today's global markets if the Federal Government 
does not help us modernize our aging bridges and overcome congestion in 
major trade corridors such as I-5.
    Thank you for inviting me to speak today. I would be happy to 
answer any questions.
                               __________
  Statement of Hon. Sue Kupillas, Commissioner, Jackson County, Oregon
    Senator Wyden and Members of the Committee on Environment and 
Public Works: My name is Sue Kupillas, fourth-term county commissioner 
in Jackson County. I come before you today to represent both county and 
city transportation systems. I support the reauthorization of TEA-21 
funding. It is important to our county and to all Oregon counties as it 
directly affects our economy and quality of life. Additionally, I am 
here to address another issue that will be considered by this 
committee, namely, Transportation Enhancement funding.
    I thank you for the opportunity to familiarize you with the 
transportation issues critical to Jackson County in Southwest Oregon. 
Furthermore, I take this opportunity to thank Senator Wyden for your 
leadership in helping Oregon receive its current funding level. While 
we still have far to go in terms of transportation funding, we have a 
good beginning in the dollars presently provided by TEA-21.
    I serve as the Chair of the Rogue Valley Metropolitan Planning 
Organization (RVMPO) which includes seven cities, the Rogue Valley 
Transit District, Jackson County and the Oregon Department of 
Transportation (ODOT). Our role is to identify transportation policies, 
issues, and needs which are area-wide in scope, and to plan and 
recommend actions in areas of intergovernmental concern. The RVMPO's 
responsibility is also to ensure that transportation decisions are 
consistent with area-wide goals and objectives.
    Oregon counties are responsible for more than 27,000 miles of 
county roads; 6,580 miles of local access roads; and 4,000 bridges with 
one dollar in resources for every four dollars in needs. The counties 
have 15,600 miles of paved roads. Of that number, more than 13 percent 
of the pavements are in poor or very poor condition. In Jackson County 
we have 720 miles of paved road and 220 miles of gravel road. We have 
approximately $10 million in backlog of projects on roads which should 
be done in the next 5 years. Twenty-two bridges need repairs, totaling 
$44 million. Jackson County, like many counties in Oregon, is being 
significantly impacted by large population increases which are creating 
more and more congestion problems in our urbanizing areas. Jackson 
County's population is growing steadily at over 3 percent per year.
    Priorities for TEA-21 reauthorization are the following:

    <bullet>  Increase Oregon's annual highway formula funding. These 
make up the largest portion of funding in the bill.
    <bullet>  Federal transit funding must be increased. Public 
transportation systems are vital to keep our disadvantaged citizens a 
viable part of our communities.
    <bullet>  The funding guarantees and firewall provisions of TEA-21 
must be continued. Assurance of continued revenues is vital to good 
planning.
    <bullet>  The basic program structure of TEA-21 works and should be 
retained.
    <bullet>  The Highway Bridge Rehabilitation and Replacement program 
(HBRR) is vital to keeping our roadways open. The cost to replace some 
of the bridges in poorly funded rural counties is nearly as much as an 
entire year's road maintenance budget. The 20 percent match requirement 
on HBRR projects also places a burden on poorly funded rural counties. 
States like Oregon, with large amounts of Federal lands have lower non-
Federal match requirements than other States on certain programs. These 
so-called ``sliding scale'' provisions should be extended to the HBRR 
program.
    <bullet>  The Federal Forest Highway Program as part of the Public 
Lands Program provides vital money for improvements to county roads and 
State highways accessing National Forests for recreational use and 
forest management. These are the types of projects that do not compete 
well for funding against high capacity urban highways. However, without 
these rural projects both the National Forests and the communities that 
support them would suffer.

    Increased Federal-aid for our rural roadways is vital for the 
safety of our citizens and the economic vitality and livability of our 
rural communities.
    We thank you for funding past TEA-21 projects in Jackson County. In 
1998, the North Medford Interchange was awarded $19.6 million dollars; 
the I-5 viaduct structural overlay and seismic retrofit received $15.4 
million; I-5 Interstate Maintenance preservation project was $12.8 
million and Highway 62 Linn-Dutton widening project was funded at $11.7 
million.
    A future priority in Jackson County is to widen Fern Valley Road to 
a five-lane section from Highway 99 eastward over I-5 to North Phoenix 
Road. It will add capacity on Fern Valley Road as well as provide safe 
vehicle, pedestrian and bicycle movements. The project is eligible for 
Federal funds because of the need to build a new higher capacity 
interchange to meet the congestion needs of the area. The request for 
earmarked funds is $20 million. That, plus the State and local matches 
will total $36 million.
    This Fern Valley Interchange (Exit 24) is the first truck stop from 
California into Oregon. Also, Exit 24 serves as the main link between 
the I-5 corridor and the city of Phoenix. The interchange is under 
pressure because of continuous growth in both Phoenix and Southeast 
Medford. The growth and large volume of truck traffic using the 
interchange (Petro Truck Stop) has created an unsafe situation. This 
has caused the Interstate ramps to fail. Also, the inadequate sight 
distance of the existing I-5 crossing is unsafe due to a high vertical 
curve.
    Another priority is the Hwy. 62 expressway between Medford and 
White City. Jackson County has managed the Jackson County Urban Renewal 
project in White City for 12 years. This project is a significant 
economic development project, as the industrial park in White City is 
within the project boundaries. The industrial park is an economic 
engine for all of Jackson County providing hundreds of family wage jobs 
with benefits as well as manufacturing products desired all over the 
world. Rail and truck freight as well as efficient access to I-5 are 
key to the continued expansion of industry in White City.
    Several projects remain a priority as improvements are made to the 
infrastructure by urban renewal within the project. One of the most 
important projects is the Highway 62 expressway designation from Delta 
Waters, Milepost 1.59 in Medford to Linn Road, Milepost 10.6 in Eagle 
Point. The highway is part of the National Highway System (NHS) from 
Milepost 0.41 to the State Highway 140 intersection, Milepost 6.03. 
Current average daily traffic within the NHS portion of Hwy. 62 is 
43,000 vehicles per day. It is projected to be at 57,000 vehicles per 
day in 20 years. The service level at the Delta Waters intersection is 
failing now and is projected to be at a much lower service level in 20 
years. The project proposes to restore the function of Hwy. 62 as an 
expressway within the NHS section, relieving the congestion and 
capacity problems.
    The original project was initiated in 1997. Work on the 
Environmental Impact Statement (EIS) for the corridor was re-directed 
to focus on the I-5 to Poplar Drive area, designated Unit 1. Unit 1 
will begin construction in FFY2003. The recently restarted Hwy. 62 
corridor solutions process will complete the EIS in approximately 2 
years. Current conceptual design estimates range from $130 to $200 
million, depending on the alternative selected. This estimate is to 
build the entire corridor. The project could be phased in two units, 
however, phasing the project may create risk.
    Attached to the testimony is a letter from Commissioner Dave 
Gilmour. He, with support from the entire Board of Commissioners, is 
renewing interest in extending Hwy. 140 through the White City area to 
the Seven Oaks Interchange north of Central Point. While this is not on 
a priority list today, it has been in the past. The connector would 
solve many congestion problems on Highway 62.
    Another issue that the transportation committee should pay 
attention to is one created by an omission of the House Appropriations 
Committee, a separate matter from TEA-21 reauthorization. Section 114 
of the FY04 Transportation and Treasury Appropriations Bill would 
eliminate funding for Transportation Enhancements. I strongly urge you 
to restore funding for this important program before the Senate and/or 
Congress completes work on the bill.
    Transportation Enhancement dollars have been put to good use in 
Oregon since the program's inception in 1991. Over 70 Oregon 
communities around the State have benefited from the transportation 
improvements made possible by this program rural and urban communities 
alike.
    Downtown ``Main Streets'' have been revitalized, bicycle and 
pedestrian access has been improved, and historic transportation 
landmarks are being restored for current and future generations of 
Oregonians to enjoy.
    The Bear Creek Greenway project in Jackson County has benefited not 
only county government, but also 5 cities, including Central Point, 
Medford, Phoenix, Talent and Ashland. Gold Hill, Ashland, Klamath Falls 
and Grants Pass have also secured Transportation Enhancement funds for 
other community projects.
    The current 2.75 mile trail segment is the third Greenway project 
built with these funds. It is a good example of enhancement dollars 
serving to build a trail that can reduce the number of vehicle trips on 
roadways. It also is an excellent example of a private/public 
partnership that leverages both money and community involvement. We 
will need funding in the future to fund the gaps in the trail between 
Medford and Talent. When completed the Bear Creek Greenway will be 
continuous between Ashland and the Pine Street Bridge in Central Point.
    A vision for people in the city of Rogue River is to bring the 
trail to Rogue River, with secondary trails including Gold Hill and 
Eagle Point. This vision is being studied by an independent group of 
citizens in the community of Rogue River .
    Transportation Enhancement funding represents just 10 percent of 
the overall Federal Highway Bill but provides enormous direct benefit 
to local governments that cannot be secured anywhere else. Millions of 
dollars in on--the-ground projects are at stake. Safe, flexible, 
efficient transportation equity are all as important to non-motorized 
travel as to roads and highways.
    The economic benefits of trails have been studied by the National 
Association of Realtors and the National Association of Home Builders. 
The survey report, Consumers Survey on Smart Choices for Home Buyers, 
released in April shows that 36 percent of 2,000 recent home buyers 
designated walking, jogging or biking trails as either an ``Important'' 
or a ``Very Important'' community amenity. Trail availability outranked 
16 other options including security, ball fields, golf courses, parks 
and access to shopping or business centers. Only highway access beat 
out trails as 44 percent of the surveyed indicated.
    Not only do home buyers like homes near trails, but motels, and 
other city restaurants and businesses like to locate near trails. It 
enhances the economic vitality of cities and businesses alike.
    Finally, trails and greenways are a great economic boon to 
communities and add to the quality of life as we connect all our 
cities. It is not possible to build our way out of congestion. 
Meaningful alternate transportation options are the only way to assure 
any future quality of life. Trails move people at a slower pace, a 
respite from our pressured society. They provide excellent 
opportunities for our stressed, overweight, sedentary populations, 
without any fee.
    Thus many enhancements not only contribute to Oregon's livability, 
but also to the economy. Tourism is a major component of the State's 
economy and many enhancement projects including trails, support local 
efforts to increase tourism. Given the downturn in the economy, 
supporting the State's tourism industry and the many small Oregon 
businesses that make up that industry, is more important now than ever.
    Oregon in the recent past had a jobless rate of 8.5 percent, a 
national high. It currently has fallen to 8.1 percent.
    An infusion of transportation dollars into our sluggish economy 
will certainly give us a short-term boost, with the long-term benefit 
of more efficient systems to serve our rapidly growing freight industry 
and general population.
    Thank you for allowing me to speak today. I will be happy to answer 
any questions.
                               __________
    Statement of Michael Burrill, Sr., CEO, Burrill Family Companies
    Good morning Senator Wyden, members of the committee my name is 
Michael Burrill, Sr. and I am the CEO of the Burrill Family Companies, 
a mix of companies involved in real estate acquisition, development and 
sales.
    Relative to this discussion, I also serve as Chair of a local, two 
county transportation advocacy group named TRADCO, which I'll describe 
later, and as a member of the Oregon State Aviation Board. I also serve 
on the Freight Advisory Committee for the Oregon Department of 
Transportation.
    We understand that our transportation future may rest on the banks 
of the Potomac so, let me thank you for saving us the 3000-mile trip.
    Over the life of the Federal highway program, funds have been 
targeted mainly at construction and repair of highways. While I want to 
join the others in stressing the importance of those efforts, as a 
member of the State Aviation Board, I want to also suggest that our 
nation's transportation infrastructure is more than highways, but, air, 
rail, pipelines and waterways as well.
    Freight transportation can no longer be taken for granted, and 
``seamless multi-modal trade corridors'' are no longer the stuff of 
transportation fiction. Transportation--as an integrated system--is an 
essential component of America's global competitiveness, and, as such, 
it can no longer be relegated to the backbench of U.S. public policy.
    Today, as we continue to respond to the events of September 11, we 
should strengthen, not diminish, America's freedom of movement, and 
transportation systems to effectively grow the economy. Consequently, 
service interruptions--like accidents, congestion, driver shortages, 
labor strikes, late arrival of planes, ships and trains, terrorism, 
security inspections and unpredictable systemic inefficiency--can 
quickly unravel today's tightly strung systems. That's why many of us 
in the business community are challenging proposals that are advanced 
to make us feel more secure, but which won't work. I believe that 
defending our homeland should be achieved without losing our openness 
and mobility, or slowing the engines of commerce.
    Many think about transportation vertically or each particular mode 
as an individual economic mechanism. Each, of course, has its strengths 
and its weaknesses, and its wants and needs and those are legitimate 
characteristics of individual business. But in today's world, American 
economic efficiency requires that we rise above parochial thinking. I 
encourage TEA-21 and AIR-21 reauthorization so that we might continue 
the process of developing our transportation network as an integrated 
system.
    I'd like, for a moment to talk about a local success that I hope 
will suggest that southern Oregon is doing its part to help find 
solutions to our growing transportation needs. I mentioned earlier a 
group called TRADCO. The mission of TRADCO is to offer an educational 
forum and to use political and social influence to advocate for the 
improvement and maintenance of the Jackson/Josephine County 
Transportation System consistent with the region's transportation 
goals. This initial public/private forum was designed to bring all of 
our region's stakeholders to the table for the purpose of true 
coordination of our area transportation projects. What we started 
worked so well that it is was the inspiration for Rogue Valley Area 
Commission on Transportation (RVACT) and subsequent Area Commission on 
Transportations (ACTs) around the State of Oregon. The Oregon 
Transportation Commission reached out to the local communities for 
assistance in identifying and prioritizing transportation projects by 
creating the ACT's in the differing geographic regions of the State.
    There are many consequences of a sub par system--congestion, 
decreased productivity, more accidents and diminished competitiveness. 
Not to mention the billions of dollars that are lost when products 
don't reach their destinations on time or when projects are not 
coordinated so we get the greatest benefit at the least cost. 
Coordination should be not only at the local level but at the State 
level and even between States. This fall The Oregon Aviation Board, 
Oregon Department of Aviation and the Port of Portland will be holding 
the first ever Aviation System Planning Conference focusing on the 
Northwest and involving the States of Washington, Oregon, Idaho and 
possibly California. The purpose of this conference is to start a 
dialog within the region involving system growth and planning and 
regional solutions to the planning process.
    Let me close by saying that since 1956, when the Congress enacted 
President Eisenhower's plan to have an Interstate Highway System 
designed to protect American public's safety and the American economic 
machine as well; the Federal Government has taken a leadership role in 
preserving our investment in that national system of highways, bridges, 
airports, and other portions of our transportation system I want to 
urge you to enact a successor bills for the reauthorization of both TEA 
21 and AIR 21 that will continue the legacy of maintaining a top-
quality transportation network.
    Thank you for your consideration. I'd be happy to address any 
questions.
                               __________
   Statement of Brad Hicks, President & CEO, The Chamber of Medford/
                             Jackson County
    To Senator Ron Wyden, and to members of the Committee, thank you 
all for allowing me to appear before you today to discuss our thoughts 
regarding reauthorization of the next TEA--21. For the record, my name 
is Brad Hicks, President & CEO of the Medford/ Jackson County Chamber 
of Commerce. Our Chamber is the second largest in the State of Oregon 
representing companies and organizations of every size, sector and 
corner of southern Oregon. My testimony will address some thoughts 
about reauthorization that are critical for the business community and 
equally critical to the Nation.
    Safe, unclogged roads are vital to this country. These highways and 
bridges impact the independence and mobility of our citizens, our 
productivity and employment base, our competitiveness and maybe now 
more than ever, our national security and health of our economy. I 
believe that the 108th Congress will look at few other priorities that 
will have a more direct impact on the personal and professional lives 
of their constituents than the decisions on transportation investments.
    For our country, as I stated, the investment in our transportation 
infrastructure is directly connected to future economic growth, 
competitiveness, quality of life and national security. That is no 
different here in southern Oregon. As a regional economy, Medford, 
Jackson County and southern Oregon each enjoy the benefits of the 
family wage jobs provided by the trucking companies who reside here. In 
fact, one of this area's largest employers is a trucking company 
employing hundreds of residents at above average wages. This does not 
take into account the many smaller trucking firms, brokers and other 
related businesses. However, while there are obvious economic 
advantages to our geographic situation, because Medford is a ``pass 
through'' region for many using the 1-5 corridor, southern Oregon is 
also left to contend with well-used infrastructure.
    Taking into consideration the significant, positive, impact to the 
region's economy that sound highways and bridges have--combined with 
TEA 21's tremendous investment, to date, making transportation safer, 
less congested and more efficient--it seems apparent that a well-
financed, dependable and efficient transportation system is essential 
for a healthy Oregon business climate.
    In order to achieve that end, I'd like to suggest that the 
``budgetary firewall'' be restored to ensure the original promise of 
the Highway Trust Fund--that highway taxes would be used exclusively 
for highway improvements and to continue to explore other options for 
increasing revenue to the Highway Trust Fund, including:

    <bullet>  Drawing down the nearly $20 billion surplus in the 
Highway Trust Fund;
    <bullet>  Restoring Interest payments to the Highway Trust Fund;
    <bullet>  Exploring other innovative ideas that would leverage 
private sector investments in transportation.

    Once reauthorization of TEA-21 has occurred and the debate begins 
as to where those dollars will go, I hope, Senator, that you'll help 
fully fund Oregon's priority projects and of particular interest to 
those of us in southern Oregon, the Fern Valley Interchange project 
between Phoenix and Medford.
    In closing, the The Chamber will continue to advocate increased 
spending on transportation infrastructure and streamlining of 
environmental review process. We will play an active and aggressive 
part in advancing the idea of a transportation agenda that strengthens 
our transportation systems. This is a new environment that requires new 
thinking and new approaches to transportation that should be 
characterized by changed behaviors and measurable results. We will 
continue to remind the public and Congress that infrastructure is not 
disposable--it is a strategic asset that must be renewed and protected.
    The impact of doing nothing will be increased congestion, decreased 
safety on our roads, and setbacks in our ability to improve air 
quality. Our Chamber and chambers throughout the Nation look forward to 
working with Congress and the President to bring about continued, 
predictable investment in our nation's transportation system in TEA-21 
reauthorization. Investment in our national transportation system will 
ensure we remain a leader in the global marketplace.
    Thank you, and I am happy to answer your questions.
                               __________
   Statement of Pete Kratz, Senior Vice President & General Manager 
          Product Supply, Bear Creek Corporation, Medford, OR
    Good morning. My name is Pete Kratz and I am senior vice president 
and general manager for product supply for Bear Creek Corporation. 
Thank you for allowing me to address a subject that is a critical 
factor in our success as a business: transportation.
    Bear Creek Corporation includes two of the largest catalog 
companies in the Nation, Harry and David, and Jackson & Perkins. Also 
our Medford campus is the headquarters for the Harry and David stores 
and Jackson & Perkins wholesale. We are the largest employer in the 
entire southern Oregon region. This year, we will employ in excess of 
7,300 seasonal and full time employees in the Rogue Valley.
    Probably the most well known of our companies is Harry and David. 
Founded in 1919 by two brothers, Harry and David Holmes, we have been 
one of the primary economic backbones of this valley for years. Our 
current revenues approach $600 million.
    The statistics associated with our companies today are impressive. 
We mail more than 110 million catalogs, and each year we ship in excess 
of 9 million packages, both in this country and internationally, to 
more than 100 nations. Our payroll this year in Medford is in excess of 
$100 million. For many people, the name Harry and David is synonymous 
with Medford, Oregon.
    As you can well imagine, transportation is essential to a company 
such as ours. Back when we started, it was rail service we counted on 
to move our product. Today, it is the highway system.
    Millions upon millions of gifts spend some time on Interstate 5. 
They are transported to regional air express centers in California and 
Portland. Daily cutoff times for these express deliveries make any 
delay in surface transportation critical to the service of our 
customers. There are trucks that take products to our regional 
distribution center in Ohio, while other trucks move our gifts to 
mailing centers and our 147 Harry and David stores in 34 States.
    There are trucks that bring fruit, raw materials and packaging to 
our Medford campus. Many of these deliveries are made just-in-time to 
support our production operations. This method of operations lessens 
the burden on local transportation systems and reduces truck movements 
between local storages. Many of our packages are highly perishable 
fruit that are received at our packinghouse, gift packed and then 
shipped within 1 day. An efficient transportation system is essential 
to the viability of this business.
    Last year there were over 30 inbound truck deliveries to our 
Medford campus per day in our peak production month. During our peak-
shipping month, there also were more than 30 outbound trucks per day.
    We project that over the next 10 years our business will continue 
to grow at near double-digit rates. That means several things for this 
region. It means young people from local education centers won't have 
to move to other cities to find excellent jobs. It means the local area 
will have a steady stream of good paying and dependable jobs. 
Conversely, it also means a need for good and dependable surface 
transportation. This is transportation for both our employees and for 
our products.
    Key regional transportation projects including the South Medford 
interchange for I-5 and improvements to Hwy 62 in Medford are critical 
to sustaining and growing our business.
    I would also suggest a place at the table for business on the 
Metropolitan Planning Organization (MPO) as a way of aligning economic 
growth with transportation planning.
    In 1919 two creative brothers were drawn here for the rich pear 
orchards. Because of the rail transportation system, they were able to 
start the multi-million dollar business that we manage today. Just as 
it was in the early days, transportation is still vital to our company 
and its future.

                                   - 

</pre></body></html>
